No. 20-__

In the
Supreme Court of the United States
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.
AND UNITED STATES OF AMERICA,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
APPENDIX
DONALD B. VERRILLI, JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, 7th Floor
Washington, DC 20004
(202) 220-1100
donald.verrilli@mto.com
BRIAN J. SPRINGER
MUNGER, TOLLES & OLSON LLP
350 S. Grand Ave., 50th Floor
Los Angeles, CA 90071
Counsel for Petitioner

1a
APPENDIX A
NOTE: This order is nonprecedential.
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2019-1215, 2019-1216, 2019-1218
ROVI GUIDES, INC.,
Appellant
v.
COMCAST CABLE COMMUNICATIONS, LLC,
Appellee
UNITED STATES,
Intervenor
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-00950, IPR2017-00951, IPR201700952.
______________________________
Nos. 2019-1293, 2019-1294, 2019-1295
ROVI GUIDES, INC.,
Appellant
v.
COMCAST CABLE COMMUNICATIONS, LLC,
Appellee
UNITED STATES,
Intervenor

2a
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-01048, IPR2017-01049, IPR201701050.
Filed April 22, 2020
PER CURIAM.
ORDER
In light of this court’s decision in Arthrex, Inc. v.
Smith & Nephew, Inc., 941 F.3d 132 (Fed. Cir. 2019),
reh’g denied 953, F.3d 760 (Fed. Cir. 2020) and the fact
that Rovi Guides, Inc. has raised an Appointments
Clause challenge in its opening brief in these cases,
IT IS ORDERED THAT:
(1) The stay ordered on January 2, 2020, is lifted.
(2) The Patent Trial and Appeal Board’s decisions
in Nos. IPR2017-00950, IPR2017-00951,
IPR2017-00952 and Nos. IPR2017-01048,
IPR2017-01049, IPR2017-01050 are vacated
and the cases are remanded to the Board for
proceedings consistent with this court’s
decision in Arthrex.
FOR THE COURT
April 22, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.,
Patent Owner.
Case IPR2017-00950
Patent 8,006,263 B2
Entered: September 19, 2018
Before KEVIN F. TURNER, MICHAEL R. ZECHER,
and JESSICA C. KAISER, Administrative Patent
Judges.
TURNER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition requesting an inter partes
review of claims 1–19 of U.S. Patent No. 8,006,263 B2
(Ex. 1001, “the ’263 Patent”). Paper 2 (“Pet.”). Patent
Owner, Rovi Guides, Inc. (“Rovi”), filed a Preliminary
Response. Paper 7. Taking into account the arguments
presented in Rovi’s Preliminary Response, we

4a
determined that the information presented in the
Petition established that there was a reasonable
likelihood that Comcast would prevail in challenging
claims 1–19 of the ’263 Patent as unpatentable under
35 U.S.C. § 103(a). Pursuant to 35 U.S.C. § 314, we
instituted this inter partes review on September 20,
2017, as to all of the challenged claims, but not all the
grounds presented by Comcast in its Petition. Paper
12 (“Dec. on Inst.”).
During the course of trial, Rovi filed a Patent
Owner Response (Paper 18, “PO Resp.”), and Comcast
filed a Reply to the Patent Owner Response (Paper 31,
“Pet. Reply”). A consolidated oral hearing with related
Cases IPR2017-00951, IPR2017-00952, IPR201701048, IPR2017-01049, IPR2017-01050, IPR201701065, IPR2017-01066, and IPR2017-01143 was held
on June 19, 2018, and a transcript of the hearing is
included in the record. Paper 41 (“Tr.”).
After all substantive briefing was complete, but
before the consolidated oral hearing, the United States
Supreme Court held that a decision to institute under
35 U.S.C. § 314 may not institute on less than all
claims challenged in the petition. SAS Inst., Inc. v.
Iancu, 138 S. Ct. 1348, 1359–60 (2018). Following
SAS, the U.S. Patent and Trademark Office (“Office”)
issued “Guidance on the impact of SAS on AIA trial
proceedings,” in which the Office took the policy
position that a decision granting institution will
institute on all of the challenged claims in the petition

5a
and all the grounds presented in the petition. 1 The
U.S. Court of Appeals for the Federal Circuit has since
endorsed this Office policy by explaining that “‘the
petitioner’s petition, not the Director’s discretion, is
supposed to guide the life of the litigation’ and ‘that
the petitioner’s contentions, not the Director’s
discretion, define the scope of the litigation all the way
from institution through to conclusion.’” Adidas AG v.
Nike, Inc., 894 F.3d 1256, 1258 (Fed. Cir. 2018)
(quoting SAS, 138 S. Ct. at 1356–1357). In accordance
with SAS and Office policy, we issued an Order
modifying our Decision on Institution entered on
September 20, 2017, to include review of all challenged
claims and all grounds presented by Comcast in its
Petition. Paper 38. The parties, however, agreed to
waive briefing on the grounds we declined to institute
in the Decision on Institution. Id. The parties also
agreed to waive consideration of these previously noninstituted grounds at the consolidated oral hearing. Id.
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1–19 of the
’263 Patent. For the reasons discussed below, we hold
that Comcast has demonstrated by a preponderance of
the evidence that these claims are unpatentable under
§ 103(a).

Available at https://www.uspto.gov/patentsapplicationprocess/patent-trial-and-appeal-board/trials/guidanceimpactsas-aia-trial.
1

6a
A. Related Matters
The ’263 Patent is involved in the following district
court cases: (1) Rovi Guides, Inc. v. Comcast Corp., No.
2:16-cv-00322 (E.D. Tex.), which has been transferred
to the U.S. District Court for the Southern District of
New York and is pending as Rovi Guides, Inc. v.
Comcast Corp., No. 1:16-cv-09826 (S.D.N.Y); and (2)
Comcast Corp. v. Rovi Corp., No. 1:16-cv-03852
(S.D.N.Y). Pet. 1–2; Paper 4, 2. The ’263 Patent also
has been asserted against Comcast in a proceeding
before the U.S. International Trade Commission
(“ITC”) styled In re Certain Digital Video Receivers and
Hardware and Software Components Thereof, No. 337TA-1001. Pet. 2; Paper 4, 2.
In addition to this Petition, Comcast filed two other
petitions challenging the patentability of claims 1–19
of the ’263 Patent (Cases IPR2017-00951 and
IPR2017-00952). Pet. 3; Paper 4, 2. Comcast also filed
other petitions challenging the patentability of certain
subsets of claims in several patents owned by Rovi.
Pet. 3.
B. The ’263 Patent
The ’263 Patent, titled “Interactive Television
Program Guide with Remote Access,” issued August
23, 2011, from U.S. Patent Application No. 11/246,392,
filed on October 7, 2005. Ex. 1001, [54], [45], [21], [22].
The ’263 Patent is a continuation of U.S. Patent
Application No. 10/927,814, filed on August 26, 2004,
which, in turn, is a continuation of U.S. Patent
Application No. 09/354,344, filed on July 16, 1999. Id.
at [63]. The ’263 patent also claims the benefit of U.S.
Provisional Application No. 60/097,527, filed on

7a
August 21, 1998, and U.S. Provisional Application No.
60/093,292, filed on July 17, 1998. Id. at [60].
The ’263 Patent generally relates to interactive
television program guide video systems and, in
particular, to such systems that provide remote access
to program guide functionality. Ex. 1001, 1:19–22. The
’263 Patent discloses that conventional interactive
television program guide systems typically are
implemented on set-top boxes located in the home of a
user and, as a result, do not permit the user to perform
program guide functions without the user being
physically located in the same room as these systems.
Id. at 1:37–45. Stated differently, conventional
interactive television program guide systems require
the user to be present in the home to access important
program guide features, such as program reminders,
parental controls, and program recording. Id. at 2:19–
22. The ’263 Patent purportedly addresses this and
other problems by providing an interactive television
program guide system that allows a user to access
certain features of the program guide remotely and
establish settings for those features. Id. at 2:23–28.
Figure 1 of the ’263 Patent, reproduced below,
illustrates a schematic block diagram of the system in
accordance with the present invention. Ex. 1001, 3:45–
46, 4:29–30.

8a

As shown in Figure 1 reproduced above, system 10
includes main facility 12 that provides interactive
television program guide data from program guide
data source 14 to interactive television program guide
equipment 17 via communication link 18. Id. at 4:29–
33. Interactive television program guide equipment 17
is connected to at least one remote program guide
access device 24 via remote access link 19. Id. at 4:47–
53.
Figure 2a of the ’263 Patent, reproduced below,
illustrates one arrangement involving the interactive
television program guide equipment 17 and remote
program guide access device 24 in accordance with the
principles of the present invention. Ex. 1001, 3:47–50,
4:55–57.

9a

As shown in Figure 2a reproduced above, interactive
television program guide equipment 17 includes
program guide distribution equipment 21 located at
television distribution facility 16, which distributes
program guide data to user television equipment 22
via communications path 20. Id. at 4:57–67. Remote
program guide access device 24 receives the program
guide data, as well as any additional data necessary to
access various functions of the interactive program
guide, from user television equipment 22 via remote
access link 19. Id. at 5:29–39.
In at least one embodiment, the ’263 Patent
discloses that a remote access interactive television
program guide implemented on remote program guide
access device 24 communicates with a local interactive
television program guide implemented on interactive
television program guide equipment 17. Ex. 1001,
12:23–29. In one example, the remote access and local

10a
interactive television program guides may be two
different guides that communicate with each other. Id.
at 12:34–37; see also id. at 22:49–23:6 (disclosing steps
involved with using the remote access interactive
television guide to provide program listing information
to a user).
The ’263 Patent discloses transferring program
guide information and settings between remote
program guide access device 24 and interactive
television program guide equipment 17 using any
suitable application layer protocol. Ex. 1001, 13:7–11.
For example, if remote access link 19 is an Internet
link, program guide functionality may be accessed
using Hypertext Transfer Protocol. Id. at 13:11–13.
Remote program guide access device 24 and
interactive television program guide equipment 17
also may transfer program guide information as files
using either File Transfer Protocol or Trivial File
Transfer Protocol running over a Transmission
Control Protocol/Internet Protocol stack. Id. at 13:13–
18. The ’263 Patent makes clear that “[a]ny suitable
file transfer protocol based on any suitable protocol
stack may be used.” Id. at 13:18–19.
C. Illustrative Claim
Of the challenged claims, claims 1, 5, 8, 11, 14, and
17 are independent. Independent claims 1, 8, and 14
are each directed to a system for selecting television
programs over a remote access link that includes an
Internet communications path for recording, whereas
independent claims 5, 11, and 17 are each directed to
a method for performing the same. Claims 2–4 directly
depend from independent claim 1; claims 6 and 7

11a
directly depend from independent claim 5; claims 9
and 10 directly depend from independent claim 8;
claims 12 and 13 directly depend from independent
claim 11; claims 15 and 16 directly depend from
independent claim 14; and claims 18 and 19 directly
depend from independent claim 17. Independent claim
1 is illustrative of the challenged claims and is
reproduced below:
1. A system for selecting television programs
over a remote access link comprising an Internet
communications path for recording, comprising:
a local interactive television program guide
equipment on which a local interactive television
program guide is implemented, wherein the local
interactive television program guide equipment
includes user television equipment located within a
user’s home and the local interactive television
program guide generates a display of one or more
program listings for display on a display device at
the user’s home; and
a remote program guide access device located
outside of the user’s home on which a remote access
interactive
television
program
guide
is
implemented, wherein the remote program guide
access device is a mobile device, and wherein the
remote access interactive television program guide:
generates a display of a plurality of program
listings for display on the remote program guide
access device, wherein the display of the plurality
of program listings is generated based on a user
profile stored at a location remote from the remote
program guide access device;

12a
receives a selection of a program listing of the
plurality of program listings in the display,
wherein the selection identifies a television
program corresponding to the selected program
listing for recording by the local interactive
television program guide; and
transmits a communication identifying the
television program corresponding to the selected
program listing from the remote access interactive
television program guide to the local interactive
television program guide over the Internet
communications path;
wherein the local interactive television program
guide receives the communication and records the
television program corresponding to the selected
program listing responsive to the communication
using the local interactive television program guide
equipment.
Ex. 1001, 28:27–63.
D. Instituted Grounds of Unpatentability
We instituted a trial based on the asserted grounds
of unpatentability (“grounds”) set forth in the table
below. Dec. on Inst. 36; Paper 38.

13a

References

Basis

Humpleman 2
and Killian 3

§ 103(a)

Humpleman,
§ 103(a)
Killian, and
Lawler4
Kondo, 5 Killian, § 103(a)
and
Kawamura 6
Kondo, Killian, § 103(a)
and
Kawamura,
and Lawler

Challenged
Claim(s)
1, 2, 4–6, 8, 9,
11, 12, 14, 15,
17, and 18
3, 7, 10, 13, 16,
and 19
1, 2, 4–6, 8, 9,
11, 12, 14, 15,
17, and 18
3, 7, 10, 13, 16,
and 19

U.S. Patent No. 6,182,094 B1; issued Jan. 30, 2001 (Ex. 1006,
“Humpleman”).

2

U.S. Patent No. 6,163,316, issued Dec. 19, 2000 (Ex. 1008,
“Killian”).

3

U.S. Patent No. 5,805,763, issued Sept. 8, 1998 (Ex. 1009,
“Lawler”).

4

Japanese Pat. App. Pub. No. H10-155131, published June 9,
1998 (Ex. 1011, “Kondo”). Comcast has provided a certified
translation of Kondo from Japanese into English (Ex. 1012).

5

Japanese Pat. App. Pub. No. H9-102827, published Apr. 15,
1997 (Ex. 1013, “Kawamura”). Comcast has provided a certified
translation of Kawamura from Japanese into English (Ex. 1014).
6

14a
II. ANALYSIS
A. Claim Construction
In an inter partes review, claim terms of an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b). Under the
broadest reasonable interpretation standard, and
absent any special definitions, claim terms are
generally given their ordinary and customary
meaning, as would be understood by one of ordinary
skill in the art, in the context of the entire disclosure.
In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed.
Cir. 2007).
In the Decision on Institution, we determined that
the only claim terms requiring construction are
“local/remote access interactive television program
guides,” and only to the extent necessary to resolve
whether the grounds asserted by Comcast properly
accounted for both a “local interactive television
program guide” and a “remote access interactive
television program guide.” Dec. on Inst. 9 (citing Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803
(Fed. Cir. 1999) (explaining that only those claim
terms that are in controversy need to be construed,
and only to the extent necessary to resolve the
controversy)). Upon reviewing the parties’ preliminary
arguments and evidence, we adopted Comcast’s
proposed construction that an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the

15a
software.” Id. at 13. We further clarified that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide. Id.
In its Patent Owner Response, Rovi generally
agrees with our initial determination that the only
claim terms requiring construction are “local/remote
access interactive television program guides.” PO
Resp. 10. Rovi, however, proposes that the proper
constructions for these claims terms are the following:
(1) “local interactive television program guide” is a
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment”; and (2)
“remote access interactive television program guide” is
a “guide allowing navigation through television
program listings using a remote access link.” Id. at
10–11. According to Rovi, its proposed constructions
for the claim terms “local/remote access interactive
television program guides” are consistent with the
intrinsic evidence, our preliminary finding that these
guides must be distinct guides, and the findings of the
ITC in related proceedings. Id. at 11 (citing Ex. 1050,
185, 190).
Rovi further contends that, any difference between
our constructions and the ITC’s constructions of the
claim terms “local/remote access interactive television
program guides” is not relevant to the grounds at issue
in this proceeding because, according to Rovi, each of
Comcast’s asserted grounds fail under Rovi’s broader
constructions “that do[] not unnecessarily restrict the

16a
guides to ‘control software’ that ‘controls functions of
the software.’” PO Resp. 11. Rovi asserts that, because
it is proposing broader constructions for these claim
terms, we need not determine whether the asserted
prior art satisfies Comcast’s proposed constructions.
Id. at 11–12. Rovi then proceeds to explain how our
preliminary constructions and the ITC’s constructions
are consistent in certain respects because (1) they both
require the guides to be interactive (i.e., navigable and
selectable); and (2) they both agree that the claims
require two separate guides, as properly construed. Id.
at 12–14. 7
In its Reply, Comcast contends that Rovi’s proposed
constructions of the claim terms “local/remote access
interactive television program guides” improperly
seeks to limit the broadest reasonable interpretation
of the claim term “interactive television program
guide” to a single software component that generates
listings, thereby excluding other software components
that assist in providing guide functionality. Pet. Reply
4 (citing PO Resp. 23–24, 32, 34–35; Ex. 2008 ¶ 116).
According to Comcast, this inclusion finds no basis in
the plain language of the claims and the specification
of the ’263 patent. Id.

At the oral hearing for the first time, Rovi argued that “remote
access interactive television program guide” requires “dedicated
code at the remote device.” See, e.g., Tr. 58:3–7, 60:19–61:14,
66:14–21. We agree with Comcast (id. at 96:3–10) that this is a
new argument that was not presented and developed in Rovi’s
briefs and, therefore, we do not consider it. See Paper 13, 3
(cautioning Rovi that “any arguments for patentability not raised
in the response will be deemed waived”).

7

17a
Comcast also contends that Rovi’s arguments
directed to the claim term “interactive television
program guide” contradicts the construction Rovi
offered in the related ITC proceeding. Pet. Reply 4. In
the related ITC proceeding, Comcast argues that Rovi
expanded the scope of the claim term “local interactive
television program guide” to capture all software
components related to any local guide functionality,
including recording. Id. (citing Ex. 1050, 180–91, 214–
27; Ex. 1054 ¶¶ 158–160, 169, 170, 371, 376). Comcast
argues that Rovi’s expert in the ITC proceeding, Dr.
Michael Shamos, who also is Rovi’s expert in this
proceeding, provided supporting testimony that the
claim term “local interactive television program guide”
could be an “extensive collection of hardware and
software.” Id. at 4–5 (emphasis omitted) (quoting Ex.
1054 ¶ 169). In this proceeding, however, Comcast
argues that Rovi and Dr. Shamos appear to take the
erroneous position that the claim term “local
interactive television program guide” is a single
software application. Id. at 5 (compare PO Resp. 34
and Ex. 2108 ¶ 116, with Ex. 1054 ¶¶ 169, 371).
According to Comcast, we should hold Rovi to the same
broad construction of the claim term “local interactive
television program guide” in this proceeding that it
wielded to exclude others from practicing the claimed
invention in the related ITC proceeding. Id. at 6.
As an initial matter, it is not clear to us whether
Rovi actually disputes our preliminary construction of
the claim term “interactive television program guide.”
On the one hand, Rovi asserts that the ITC’s
constructions of local interactive television program
guide (i.e., a “guide that allows navigation through

18a
television program listings and causes display of
program information on user television equipment”)
and remote access interactive television program
guide (i.e., a “guide allowing navigation through
television program listings using a remote access
link”) are the proper constructions. PO Resp. 10–11.
On the other hand, Rovi argues that both our
constructions and the ITC’s constructions “are
consistent with respect to the relevant aspects (e.g.,
navigation and selection)” of a local/remote access
interactive television guide. Id. at 11. Rovi further
contends that “[a]ny differences between the Board’s
and the ITC’s constructions are not relevant to
[Comcast’s] failures of proof regarding the asserted
prior art and [g]rounds at issue in this proceeding.” Id.
(emphasis added); see also Ex. 2008 ¶ 25 (Rovi’s
declarant, Dr. Shamos, testifies that, “regardless of
which constructions the Board applies, my opinions
remain the same. The asserted prior art references
here fail to disclose the claim limitations . . . under
either construction.”) These arguments make it
difficult to ascertain what Rovi actually views as to the
proper scope and meaning of claim terms “local/remote
access interactive television program guides.”
Nevertheless, we are charged in this proceeding with
determining the broadest reasonable interpretation of
these claim terms.
Beginning with the intrinsic record, neither party
argues, nor could we find, an explicit definition for the
claim term “interactive television program guide” in
the specification of the ’263 Patent. The specification,
however, is replete with descriptions of conventional,
local, or remote interactive television program guides.

19a
For instance, the specification discloses that
conventional interactive television program guides
display “various groups of television program [guide]
listings . . . in predefined or user-defined categories,”
and “allow the user to navigate through [the]
television program listings” and make a selection
“using a remote control.” Ex. 1001, 1:31–36. For a
conventional interactive television program guide, the
user must physically be located in the same room as
the set-top box on which the interactive television
program guide is implemented to select programs for
recording or to perform other guide functions. Id. at
1:37–45. In the context of discussing the
implementation of a remote access interactive
television program guide, the specification discloses
that such a guide works in conjunction with a remote
device to “provide users with the opportunity to
remotely access features of the interactive television
program guide on the interactive television program
guide equipment and to remotely set program guide
settings.” Id. at 2:41–46. The specification goes on to
disclose that “[a]ny suitable interactive television
program guide function or setting may be accessed,”
including, but not limited to, “remotely select[ing]
programming for recordings” and “remotely set[ting]
and navigat[ing] through favorites (e.g., favorite
channels, program categories, services, etc.).” Id. at
2:47–56.
Although the aforementioned disclosures provide
guidance as to the functionality of an “interactive
television program guide” (i.e., navigable, selectable,
and capable of controlling certain functions or
settings), neither party directs us to, nor can we find,

20a
a disclosure in the specification that specifically
identifies what element or elements constitute a
“guide.” Given the lack of disclosure in this regard, we
decline to limit the “guide” to a single software
application. Rather, these disclosures support
Comcast’s proposed construction that an “interactive
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.”
We further clarify that, based on the plain
language of independent claims 1, 5, 8, 11, 14, and 17,
they indicate that the claim terms “local interactive
television program guide” and “remote access
interactive television program guide” are separately
identifiable elements. See Becton, Dickinson & Co. v.
Tyco Healthcare Grp., LP, 616 F.3d 1249, 1254 (Fed.
Cir. 2010) (“Where a claim lists elements separately,
‘the clear implication of the claim language’ is that
those elements are ‘distinct component[s]’ of the
patented invention.” (alteration in original) (quoting
Gaus v. Conair Corp., 363 F.3d 1284, 1288 (Fed. Cir.
2004))). Our determination in this regard is supported
by the specification, which includes various
embodiments that treat these claim terms as
separately
identifiable
elements
capable
of
communicating with each other. See, e.g., Ex. 1001,
12:34–37 (“In still another suitable approach, the
[local interactive television program guide and remote
access interactive television program guide] may be
different guides that communicate in a manner or
manners discussed . . . herein.”), 20:18–23 (“The

21a
remote access [interactive television] program guide
may . . . send audio, graphical, and text messages to
the local interactive [television] program guide for
playing or display by user television equipment 22.”).
We decline to adopt Rovi’s proposed constructions
of the claim terms “local/remote access interactive
television program guides” for two reasons. First, we
are unable to determine how Rovi’s proposed
constructions add any clarity to the scope and meaning
of an “interactive television program guide.” That is,
we view each of Rovi’s proposed constructions as
circular and unhelpful because they define each of the
guides as a “guide [that allows/allowing] navigation
through television program listings.” PO Resp. 10–11
(emphasis added). Rovi, however, does not actually
identify what element or elements specifically
constitute the “guide.”
Second, Rovi states that its proposed constructions
indicate “where the specific guide resides (i.e., on ‘user
television equipment’ or over ‘a remote access link’),”
id. at 14 (emphasis omitted), but readily admits that
“these additions merely restate the language of the
broader claim limitation[s].” Id. (citing Ex. 1050, 185,
190). It is well settled that the U.S. Court of Appeals
for the Federal Circuit disfavors any claim
interpretation that renders a claim term or phrase
superfluous. See Apple, Inc. v. Ameranth, Inc., 842
F.3d 1229, 1237 (Fed. Cir. 2016) (“The Board was
correct to not include in its construction of ‘menu’
features of menus that are expressly recited in the
claims. . . . Construing a claim term to include features
of that term already recited in the claims would make
those expressly recited features redundant.”). If we

22a
were to adopt the language in Rovi’s proposed
constructions pertaining to where each guide resides,
it would render superfluous the language that is
already explicitly recited in independent claim 1, and
similarly recited in independent claims 5, 8, 11, 14,
and 17—namely, “over a remote access link” and “a
local interactive television program guide equipment
on which a local interactive television program guide
is implemented, wherein the local interactive
television program guide equipment includes user
television equipment.” 8
Turning now to the extrinsic evidence, in Dr.
Tjaden’s Declaration accompanying the Petition, he
testifies that “the local [interactive television program]
guide may be implemented at least in part on a server
or other device outside the user’s home.” Ex. 1002 ¶ 35.
To support this testimony, he directs us to Rovi’s
interpretation of the claim term “local interactive
television program guide” in the related ITC
proceeding. Id. (citing Ex. 1045, 56; Ex. 1046, 43). In
Dr. Tjaden’s Declaration accompanying the Reply, he
elaborates further on his initial position by testifying
that “a [person of ordinary skill in the art] looking at
the ’263 Patent would have understood that many
different arrangements of the software and hardware
components comprising an interactive television
During oral argument, in response to a question regarding the
ITC’s construction of the “local interactive television program
guide” being on user television equipment and its construction
that the “remote access television program guide” uses a remote
access link, counsel for Rovi stated that “I don’t think where [the
guides are] implemented is meaningful because that’s recited in
the claim separately.” Tr. 66:22–67:24.

8

23a
program guide are possible and acceptable in [the]
prior art used to show obviousness.” Ex. 1052 ¶ 15. To
support this testimony, he directs us to the different
arrangements of software and hardware in the ’263
patent. Id. ¶¶ 16–18 (citing Ex. 1001, 4:30–33, 4:47–
49, 4:57–61, 6:48–50, 7:53–60, Figs. 1, 2a–2d).
Dr. Shamos’s Declaration in the ITC proceeding
serves as further evidence as to what element or
elements constitute a “guide.” Although we recognize
that the broadest reasonable interpretation standard
governs in this proceeding, whereas the district court
claim construction standard governs in an ITC
proceeding, Dr. Shamos’s testimony in the ITC
proceeding is relevant here because it sheds some light
on what element or elements he believes constitutes a
“guide.” In the ITC proceeding, Dr. Shamos testifies
that the claim term “local interactive television
program guide” could be an “extensive collection of
hardware and software.” Ex. 1054 ¶ 169. He also
testifies “that the ‘local [interactive television
program] guide’ [should not be construed as] a single
software application that must reside on a device in
the user’s home,” and “[n]othing in the claims excludes
a ‘recording application’ from being part of the local
[interactive television program] guide.” Id. ¶ 371. Dr.
Shamos’s testimony in the ITC proceeding is
consistent with Dr. Tjaden’s testimony in this
proceeding because, like Dr. Tjaden, Dr. Shamos does
not limit a “guide” to a single software application, but
rather contemplates that the “guide” may constitute
different arrangements of software and hardware.
We note that the aforementioned testimony from
Dr. Tjaden and Dr. Shamos suggest that the “guide”

24a
may include both software and hardware. Rovi
likewise argues that its proposed construction is
broader than Comcast’s because “it does not
unnecessarily restrict the guides to ‘control software.’”
PO Resp. 11. We do not find support in the intrinsic
record that the “guide” may include hardware. Rather,
the ’263 Patent separately refers to the interactive
television program guide and the hardware on which
it is implemented. See, e.g., Ex. 1001, 1:37–38
(“Interactive television program guides are typically
implemented on set-top boxes . . . .”). The
aforementioned testimony, however, is consistent with
our finding that the “guide” may constitute more than
just a single software application.
In summary, upon weighing all the evidence
bearing on the construction of the claim term
“interactive television program guide,” we maintain
that the broadest reasonable interpretation of this
claim term is “control software operative at least in
part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” We also maintain that the claim terms
“local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide.
B.

Prior Art Status of Humpleman Provisional

Additionally, Rovi contends that Humpleman
Provisional is not prior art and cannot be used to teach
or suggest elements of the challenged claims. PO Resp.

25a
46–49. Rovi argues that 1) Humpleman Provisional is
neither a patent nor an application published under 35
U.S.C. § 122(b), and that a provisional application can
only qualify as prior art under 35 U.S.C. § 102(e) when
the critical disclosures are also present in the
corresponding patent; and 2) that the provisional
application cannot be relied upon because it has not
been properly incorporated by reference into
Humpleman. Id.
With respect to the first argument, although Rovi
is correct about the requirements that determine
whether something is valid prior art, standing alone,
we are not persuaded that Comcast has relied upon or
asserted the Humpleman provisional absent the
Humpleman issued patent in the Petition. Comcast
does not assert the former without asserting the latter,
at least in terms of the grounds of unpatentability
proffered in the Petition. Although Rovi is correct that
Comcast has stated that “Humpleman Provisional is
prior art both as part of Humpleman and on its own”
(Pet. 18), Rovi has not pointed to any other occurrence
where Comcast has asserted Humpleman Provisional
without also asserting Humpleman. As such, Rovi’s
argument is without basis because Comcast has not
asserted Humpleman Provisional on its own, apart
from its incorporation by reference into Humpleman,
discussed below.
Rovi also contends that the Humpleman
provisional is not properly incorporated by reference
into Humpleman. PO Resp. 47–49. Rovi argues that
Humpleman does not identify with particularity the
specific material in the provisional applications
asserted to be incorporated by reference or clearly

26a
indicate where that material is found in the
incorporated applications, as required to incorporate
material by reference. Id. (citing Advanced Display
Sys., Inc. v. Kent State Univ., 212 F.3d 1272, 1282
(Fed. Cir. 2000)). We do not agree.
The relevant section of Humpleman is reproduced
below:
This patent application claims priority from
provisional patent application Ser. No.
60/050,762, filed on Jun. 25, 1997, entitled
Home Network, Browser Based, Command and
Control and provisional patent application Ser.
No. 60/059,499, filed on Sep. 22, 1997, entitled
Improved Home Network, Browser Based,
Command and Control, which are incorporated
herein by reference.
Ex. 1006, 1:7–13 (emphasis added). From this cited
disclosure, we find the patentee in Humpleman
incorporated the entireties of both provisional
applications by reference. If the intent was to
incorporate only one provisional or just part of one
provisional, then we would agree that sufficient
particularity has not been supplied. However, a
reasonable interpretation of such an incorporation by
reference clause is that all of the referenced
provisional disclosures are incorporated. Similarly,
there is no need to stipulate where particular material
to be incorporated is found when that particular
material is all.
Rovi also argues that such an incorporation by
reference should include certain words, such as “in its
entirety” or “[t]he contents of” or “the disclosure of

27a
which,” in order to properly incorporate a reference’s
entire disclosure. PO Resp. 48 (citing Synopsys, Inc. v.
Mentor Graphics Corp., Case IPR2012-00041, slip op.
at 9 (PTAB Feb. 22, 2014) (Paper 16); WTS Paradigm,
LLC v. EdgeAQ LLC, Case IPR2016-00199, slip op. at
20–21 (PTAB May 22, 2016) (Paper 7); Sony Corp. v.
One-E-Way, Inc., Case IPR2016-01639, slip op. at 13
(PTAB Feb. 22, 2017) (Paper 8)).
We are not persuaded that the default rule should
be that an incorporator need to specify an entirety of a
reference to accomplish incorporation of all of a
reference; rather, we are persuaded that limiting
statements, if applicable, should be taken as limits on
the full incorporation. We find edifying Zenon
Environmental, Inc. v. U.S. Filter Corp., 506 F.3d
1370, 1379 (Fed. Cir. 2007), which found “[t]he plain
language expressly limits the incorporation to only
relevant disclosures of the patents, indicating that the
disclosures are not being incorporated in their
entirety.” In the instant case of Humpleman, we find
no express limits on the incorporation, and, as a result,
we determine that the incorporation of Humpleman
Provisional into Humpleman involved the entire
provisional application.
As such, we are not persuaded, as a matter of law,
that Humpleman did not incorporate both provisional
applications into its disclosure. Thus, we are
persuaded that the Humpleman provisional can be
relied upon for its disclosure, having been properly
incorporated by reference according to 37 C.F.R.
§ 1.57(c) into Humpleman.

28a
C.

Obviousness Over the Combined Teachings of
Humpleman and Killian

Comcast contends that claims 1, 2, 4–6, 8, 9, 11, 12,
14, 15, 17, and 18 of the ’263 Patent are unpatentable
under § 103(a) over the combined teachings of
Humpleman and Killian. Pet. 20–42. Comcast
explains how this proffered combination teaches or
suggests the subject matter of each challenged claim,
and provides reasoning as to why one of ordinary skill
in the art would have been prompted to modify or
combine the references’ respective teachings. Id.
Comcast also relies upon the Declaration of Dr. Tjaden
to support its positions. Ex. 1002 ¶¶ 93–185. In its
Patent Owner Response, Rovi presents a number of
arguments as to why the combined teachings of
Humpleman and Killian do not render the limitations
of independent claims 1, 5, 8, 11, 14, and 17 obvious.
PO Resp. 14–49. Rovi relies upon the Declaration of
Dr. Shamos to support his positions. Ex. 2008 ¶¶ 27–
47, 85–96, 99–132.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the
art, proceeded by brief overviews of Humpleman and
Killian, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.
1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and
the prior art are such that the subject matter, as a
whole, would have been obvious at the time the

29a
invention was made to a person having ordinary skill
in the art to which said subject matter pertains. KSR
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The
question of obviousness is resolved on the basis of
underlying factual determinations, including (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) when in
evidence, objective indicia of non-obviousness (i.e.,
secondary considerations). Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). We analyze this asserted
ground based on obviousness with the principles
identified above in mind.
2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a
person of ordinary skill in the art. Relying on the
testimony of its declarant, Dr. Tjaden, Comcast asserts
that a person of ordinary skill in the art as of July 17,
1998, which is the earliest priority date on the face of
the ’263 Patent, would be an individual who possesses
the following:
a bachelor’s degree in computer science,
electrical engineering, computer engineering, or
a similar discipline, and two years of experience
with interactive program guides, set-top boxes,
mobile computer devices, and techniques for
delivering content or program guides over
communication networks, such as a cable
system, a local-area network, and the Internet.
Pet. 13 (quoting Ex. 1002 ¶ 28). Alternatively, once
again relying on the testimony of Dr. Tjaden, Comcast

30a
asserts that a person of ordinary skill in the art “could
have had equivalent experience in industry or
research, such as designing, developing, evaluating,
testing, or implementing these technologies.” Id.
(quoting Ex. 1002 ¶ 28). Conversely, Rovi’s declarant,
Dr. Shamos, does not offer an assessment of the level
of skill in the art as of July 1998, nor does he explicitly
state his intent to adopt Dr. Tjaden’s assessment. See
generally Ex. 2008. Given Dr. Shamos’s silence on this
matter, we adopt Dr. Tjaden’s assessment because it is
consistent with the ’263 Patent and the asserted prior
art, and apply it to our obviousness evaluation below.
3. Humpleman Overview
Humpleman generally relates to the field of
networks and, in particular, to home networks that
have multi-media devices connected thereto. Ex. 1006,
1:16–18. One objective of Humpleman’s invention is to
provide a method for controlling a plurality of devices
connected to a home network, where at least one of
these devices is a multi-media device, and for
generating a program guide from the information
provided by the multi- media device on a second device
connected to the home network. Id. at 2:23–28. The
generated program guide may be a Hypertext Markup
Language (“HTML”) page that allows for selection of a
specific program for recording on local equipment. Id.
at 20:31–51. That HTML version is generated by a
digital satellite services interface device (“DSS”) that
also displays a conventional electronic program guide.
Id. at 22:21–59.
Humpleman claims priority to and incorporates by
reference (id. at. 1:7–13) a provisional patent

31a
application (60/059,499; Ex. 1007), and provides
further insight into the software structures disclosed.
An annotated version of Figure 13 of that provisional
patent application is reproduced below:

This annotated version of Figure 13 illustrates
portions that Comcast argues correspond to different
claimed portions, with the local guide software and its
data in purple, remote guide files in orange, control
software for local recording equipment in blue, and
referencing remote guide equipment in red. Pet. 22.
The provisional application also makes clear that a
message is sent to the DSS control application by the
remote device over the Internet based on a selection by
the user in the HTML program guide, instructing it to
control hardware to record the selected program. Ex.
1007, 2–3.
According to Humpleman, a user may customize
the programming information that is displayed by the

32a
program guide. Ex. 1006, 22:41–43. For instance, if a
user prefers not to display the schedule for a particular
channel because it contains inappropriate content, the
user may request that the channel be removed from
the program guide. Id. at 22:43–46. In addition,
according to Humpleman, a user can remotely control
devices connected to the home network. Id. at 20:42–
47. “For example, if a user is required to work late and
is therefore unable to watch the Monday night football
game, the user can program a [digital video cassette
recorder (‘DVCR’)] connected to their home network
via the Internet, in order to record the particular
event.” Id. at 20:47–51.
4. Killian Overview
Killian discloses an electronic programming guide
(“EPG”) that operates on a JAVA-based computing
platform associated with a television and a video
recorder. Ex. 1008, at [57], 3:6–12, Fig. 1. A collection
of application programming interfaces (“APIs”) allow
the platform to support JAVA applets or applications
that provide interactive television programming. Id. at
3:18–27. In one embodiment, the platform supports an
EPG JAVA applet or application “that allows viewers
to more intelligently select, schedule, and record
viewing opportunities according to viewer profiles”
and other information received via the Internet. Id. at
3:27–33. The EPG can use other platform components
to cause the video recorder to record programs. Id. at
15:5–18.

33a
5. Claims 1, 5, 8, 11, 14, and 17 9
In its Petition, Comcast contends that the person of
ordinary skill in the art would have found it obvious to
include interactive selection and control features in
Humpleman’s guide software on the DSS, with some
of those associated functionalities already disclosed in
the ’263 Patent. Pet. 23 (citing Ex. 1001, 1:27–38).
Comcast also argues that such functionalities are
disclosed in Killian, and those aspects would have
been implemented in Humpleman’s system for several
reasons. Id. at 23–25.
First, Comcast argues that Humpleman expressly
teaches that its home control system is interoperable
with conventional hardware, and that a DSS loaded
with Killian’s guide could and would be utilized in
Humpleman’s system, because Humpleman was
designed to be layered on top of existing hardware and
software installations. Id. at 24 (citing Ex. 1002 ¶ 103).
Second, Comcast argues that Killian expressly teaches
that the EPG modules implementing the recording
control APIs could be integral to the functioning of
external devices other than the receiver, which would
have provided greater utility to Humpleman’s network
of remote devices. Id. at 24–25 (citing Ex. 1008, 15:53–
16:7; Ex. 1002 ¶ 104). Lastly, Comcast argues that
combining Killian with Humpleman would be nothing
more than using known techniques to improve similar
Comcast contends that independent claims 1, 5, 8, 11, 14, and
17 stand or fall together. Pet. 8–11. Rovi does not dispute
Comcast’s assertion in this regard. Accord PO Resp. 21–49
(treating independent claims 1, 5, 8, 11, 14, and 17 as standing or
falling together).
9

34a
devices and a simple substitution of one known,
closely-related element for another that produces
predictable results. Id. at 25 (citing Ex. 1002 ¶¶ 105–
106).
For added clarity, we highlight certain arguments
presented by Comcast for each limitation recited in
independent claim 1. We note that there is no dispute
between the parties as to whether the limitations of
independent claims 5, 8, 11, 14, and 17 are essentially
the same as the limitations of independent claim 1.
Compare Pet. 8–11, 41, with PO Resp. 14–49.
Beginning with the preamble of independent claim
1, Comcast contends that Humpleman teaches “a
system for selecting television programs over a remote
access link comprising an Internet communications
path for recording” because Humpleman discloses
selecting programs for recording remotely via the
Internet. Pet. 26 (citing Ex. 1006, 20:42–51; Ex. 1002
¶¶ 110–111). To support this argument, Comcast
directs us to Humpleman’s disclosure that, “[f]or
example, if a user is required to work late and is
therefore unable to watch the Monday night football
game, the user can program a DVCR connected to their
home network via the Internet, in order to record the
particular event.” Id. (quoting Ex. 1006, 20:42–51).
Comcast contends that Humpleman teaches “local
interactive television program guide equipment on
which a local interactive television program guide is
implemented,” as recited in independent claim 1,
because Humpleman discloses that one controlled
home device is a DSS including a vendor-supplied
control application through which the DSS can

35a
retrieve and display a guide. Id. at 26–27 (citing Ex.
1006, 1:21–36, 19:46–55, 22:31–47; Ex. 1002 ¶¶ 112–
123).
Comcast also contends that that one of ordinary
skill in the art would have understood that “typical
program guides on set-top boxes at the time of
invention provided interactive features,” where
Comcast contends that the ’263 Patent admits as
much. Id. at 27 (citing Ex. 1001, 1:27–38; Ex. 1002
¶¶ 113–115). Comcast further contends that, to the
extent Humpleman does not disclose expressly that
the local guide allows a user to navigate through
television program listings, make selections, and
controls functions of the software, one of ordinary skill
in the art would have found it obvious to implement an
interactive guide on Humpleman’s DSS at least
because of the interactive guide software disclosed in
Killian. Id. (citing Ex. 1008; Ex. 1002 ¶ 115).
Comcast contends that Killian discloses a receiver
with a locally installed guide application, where that
guide displays program schedules, allows for
navigation through program listings, and controls the
recording of selected programs. Id. (citing Ex. 1008,
3:7–33, 4:7–13, 6:32–56, 7:8–16, 7:49–61, 8:5–56,
13:12–21, 15:53–16:7; Ex. 1002 ¶¶ 116–118). Comcast
asserts that it would have been obvious to one of
ordinary skill in the art to implement Killian’s local
programming guide into Humpleman’s system to
provide “users with expected and typical control
functionality,” where the combination of the references
would have been motivated by the express teachings of
both. Id. at 28 (citing Ex. 1006, 6:55–64, 19:46–55,
22:47–59; Ex. 1008, 15:53–16:7; Ex. 1002 ¶¶ 119–122).

36a
Comcast further asserts that the combination would
have been nothing more than the use of known
techniques to improve similar devices and a simple
substitution of known elements to obtain predictable
results—namely, to “allow[] viewers to more
intelligently select, schedule, and record their viewing
opportunities.” Id. (citing Ex. 1002 ¶ 120).
Comcast also contends that Humpleman teaches
“wherein the local interactive television program guide
equipment includes user television equipment located
within a user’s home,” as recited in independent claim
1, because Humpleman discloses that its DSS
equipment is “found in the home.” Id. (quoting Ex.
1006, 1:21–31) (citing Ex. 1006, 1:21–36; 2:31–39,
22:30–46). Comcast further argues that Humpleman
teaches wherein “the local interactive television
program guide generates a display of one or more
programs listings for display on a display device at the
user’s home,” as recited in independent claim 1,
because Humpleman discloses that the “EPG displays
a list of available programs and the specific time in
which the programs can be viewed through the
service.” Id. at 28–29 (quoting Ex. 1006, 22:30–46)
(citing Ex. 1002 ¶¶ 126–129).
Comcast contends that Humpleman teaches “a
remote program guide access device located outside of
the user’s home on which a remote access interactive
television program guide is implemented,” as recited
in independent claim 1, because Humpleman discloses
that a digital television or personal computer (“PC”)
accesses HTML control pages to allow for remote
access, such that a user at work uses his work PC to
access the HTML control pages to select a particular

37a
event for recording by devices on his home network. Id.
at 29 (citing Ex. 1006, 5:55–67, 20:42–51; Ex. 1007, 3,
¶ 3; Ex. 1002 ¶¶ 129–133). Comcast also asserts that,
to the extent Humpleman does not discloses expressly
using a remote guide to allow a remote user to
selecting programs for recording on his/her own PC, a
person of ordinary skill in the art would have
“understood the advantages associated with providing
an IPG user interface to allow users to select a
program for recording via a user-friendly interface,”
and implementing those through Killian would have
required the use of known techniques to improve a
similar device and obtaining predictable results. Id. at
29–30 (citing Ex. 1008, 3:20–33, 4:7–13, 7:8–16, 13:12–
21, Fig. 5; Ex. 1002 ¶¶ 134–136). Additionally,
Comcast contends that Humpleman teaches “wherein
the remote program guide access device is a mobile
device,” because Humpleman discloses that the
controlling device may be a laptop computer. Id. at 30
(citing Ex. 1006, 1:21–36, 7:25–35; Ex. 1002 ¶ 137).
Comcast also contends that Humpleman teaches
“generat[ing] a display of a plurality of program
listings for display on the remote program guide access
device,” as recited in independent claim 1, because
Humpleman generates a remote access HTML
program guide based on EPG data underlying the EPG
displayed by the DSS, where the HTML guide may be
displayed on any browser-equipped device. Id. at 31
(citing Ex. 1006, 7:25–35, 20:40–52, 22:30–59; Ex.
1007, 21, Fig. 13; Ex. 1002 ¶ 139). Comcast further
contends that, although Humpleman and Humpleman
Provisional use an example where the client device is
a digital television, they also disclose that the client

38a
device may be a computer outside the home, such as
the user’s work PC. Id. (citing Ex. 1007, 3, ¶3; Ex.
1006, 20:42–52; Ex. 1002 ¶ 139).
Comcast contends that Humpleman teaches
“wherein the display of the plurality of program
listings is generated based on a user profile stored at
a location remote from the remote program guide
access device,” as recited in independent claim 1,
because Humpleman discloses that “the user can
customize the displayed HTML program guide to view
only a particular set of the available information,” with
Humpleman Provisional illustrating that a user
interface can allow the user to view favorite channels.
Id. at 32 (citing Ex. 1006, 22:47–59, 22:30–59; Ex.
1007, 7, Fig. 5). Comcast also contends that, to the
extent that the claim term “user profiles” is narrowly
limited, Killian also discloses “building a filtered guide
based on a user profile data” and it would have been
obvious to employ the conventional listing filtering
techniques disclosed in Killian. Id. at 33 (citing Ex.
1008, 1:20–41, 7:49–61, 9:10–25, 11:20–21; Ex. 1002
¶¶ 145–149). Comcast also asserts that it would have
been obvious to utilize Killian’s user profile data stored
locally or remotely to implement the customized
HTML program guides of Humpleman because this
would have allowed the system to better track a user’s
preferences and generate more effective user
interfaces, and would have entailed the use of a known
technique to improve a similar feature to produce a
predictable result. Id. at 33–34 (citing Ex. 1006, 2:31–
39, 22:47–59; Ex. 1008, 9:10–25, 11:20–21; Ex. 1002
¶¶ 145–149).

39a
Comcast also contends that Humpleman teaches
“receiv[ing] a selection of a program listing of the
plurality of program listings in the display, wherein
the selection identifies a television program
corresponding to the selected program listings for
recording by the local interactive television program
guide,” as recited in independent claim 1, because
Humpleman discloses that once a selection is made via
the HTML guide, “button ‘click’” information is
provided which the interface receives and passes along
to the VCR to accomplish a recording of the selected
program. Id. at 34–35 (citing Ex. 1006, 14:5–14, 22:30–
59; Ex. 1007, 2 ¶ 2, 4 ¶ 2; 6 ¶ 6, 10, 14 ¶ 4, Fig. 2; Ex.
1002 ¶¶ 151–153).
Comcast contends that Humpleman teaches
“transmit[ting] a communication identifying the
television program corresponding to the selected
program listing from the remote access interactive
television program guide to the local interactive
television program guide over the Internet
communications path,” as recited in independent
claim 1, because Humpleman discloses that a message
is sent to the DSS control application by the remote
device over the Internet in response to the user
making a selection in a displayed HTML program
guide, instructing it to control DVCR hardware to
record the selected program. Id. at 36 (citing Ex. 1006,
20:42–51; Ex. 1007, 14 ¶¶ 1–4, 12 ¶ 1, Fig. 9; Ex. 1002
¶¶ 156–164).
Lastly, Comcast contends that Humpleman
teaches “wherein the local interactive television
program guide receives the communication and
records the television program corresponding to the

40a
selected program listing responsive to the
communication using the local interactive television
program guide equipment,” as recited in independent
claim 1, because Humpleman discloses that a user is
allowed to schedule a recording for an event on local
equipment from a remote location via the Internet. Id.
at 38 (citing Ex. 1006, 20:42–51). Comcast further
argues that the Humpleman Provisional explains that
it is desirable to allow users to set recordings solely
through the DSS interface rather than requiring the
user to schedule a channel time on the DSS and then
schedule a separate recording operation on the VCR.
Id. at 38–39 (citing Ex. 1007, 12 ¶ 1, 14 ¶¶ 1–4, Fig. 9;
Ex. 1002 ¶¶ 165–167).
In its Patent Owner Response, Rovi presents a
number of arguments that can be grouped as follows:
(1) whether Comcast has demonstrated that
Humpleman and Killian, either alone or in
combination, account for all the limitations of
independent claims 1, 5, 8, 11, 14, and 17; and (2)
whether Comcast has demonstrated that a person of
ordinary skill in the art would have had a sufficient
reason to combine the teachings of Humpleman and
Killian. See PO Resp. 21–46. We address these
groupings of arguments in turn.
a. Limitations
i.
Humpleman Teaches Two Interactive
Television Program Guides in Communication with
Each Other
Rovi contends that Humpleman “fails to disclose
two guides, let alone two interactive program
guides.” PO Resp. 23 (emphasis in original). Rovi

41a
points out that “the claims do not allow for the remote
access guide to bypass the Local IPG by
communicating directly with the local interactive
television program guide equipment,” which Rovi
alleges that Humpleman’s system does. See id. at 22–
25. Further, Rovi argues that, even assuming the two
guides are present in Humpleman, the two guides are
not in communication because Humpleman’s disclosed
HTML guide “communicates with a different software
application on the DSS (the HTTP Mini-Server
program) and not the alleged Local IPG.” Id. at 24
(emphasis in original). Rovi also argues that the
alleged remote guide in Humpleman does not transmit
the recording request and the “dss server” is not part
of the alleged local guide. Id. at 33–34 (citing Ex. 2008
¶¶ 116, 122).
In its Reply, Comcast contends that “Humpleman
has a local guide and a remote guide, that the guides
would be made interactive in view of Killian, and that
the guides would communicate to schedule
recordings.” Pet. Reply 6. Additionally, Comcast
asserts that the “dss server,” referred to in
Humpleman, is the full “DSS-NIU Mini-Server,” and
has been conflated by Rovi to merely encompass the
“HTTP Mini-Server program.” Id. at 6–7. Comcast also
argues that the DSS-NIU Mini-Server must have
additional control software to provide the specialized
functionality of the One Touch Record feature of
Humpleman Provisional, which would be inapplicable
to other servers that do have record functions, such as
DVD 108. Id. at 8–9 (citing Ex. 1052 ¶ 29; Ex. 1006,
6:31–37).

42a
Comcast further argues, when the “dss server” is
properly understood, Humpleman teaches that “the
HTML user interfaces would be supplemental to the
native user interfaces (such as the local EPG)” and
uses would remain for the native user interfaces
because they are more convenient and provide
advanced functionality. Id. at 20.
Based on the record developed during trial, we
disagree that DSS control application, or local guide of
Humpleman, is confined to the HTTP Mini-server
program. See Dec. on Inst. 22. For this determination,
we look to our construction of the claim term
“interactive television program guide” above and, in
particular, to Dr. Shamos’s testimony in the related
ITC proceedings. See supra Section II.A. By Dr.
Shamos’s own testimony, “the local interactive
television guide . . . can comprise an extensive
collection of hardware and software located both near
the user and at the cable headend, or at other
locations.” Ex. 1054 ¶ 169.
When critical to a findings of fact, it is in the
interest of justice to consider sworn inconsistent
testimony on an identical issue when there is minimal
burden for doing so. Ultratec, Inc. v. CaptionCall, LLC,
872 F.3d 1267, 1275 (Fed. Cir. 2017) (holding that the
Board abused its discretion during inter partes review
when it refused to admit and consider an expert’s
inconsistent trial testimony from a relevant district
court case). Therefore, when applying the proper
construction of an “interactive television program
guide,” we agree with Comcast that the local guide
may extend beyond just the software application on a
HTTP Mini-server program in Humpleman.

43a
Additionally, Rovi contends that Humpleman
teaches a single HTML program that does not
communicate with any other program guide. PO Resp.
14, 23. We have previously decided, and Rovi does not
appear to dispute, that the Humpleman provisional
discloses communication between two guides. See Dec.
on Inst. 22 (citing Ex. 1007, 2–3); discussion supra
regarding “transmit” element of claim 1. As such, we
are persuaded that the DSS control application and
HTML program guide displayed on the remote device
disclose a local guide and remote guide in
communication with each other.
Rovi also argues that Comcast’s expert, Dr. Tjaden,
cannot identify what he considers the local IPG within
Humpleman, and suggests that this apparent
confusion demonstrates that Comcast has not been
clear about what portions of Humpleman constitute
the local IPG. PO Resp. 25–29. Regardless of any
apparent confusion at Dr. Tjaden’s deposition, we
remain persuaded that Comcast’s analysis in the
Petition is clear as to what portions of Humpleman are
equivalent to the local and remote guides. See Pet. 20–
23 (“Humpleman Provisional discloses that a message
is sent to the DSS control application (i.e., the local
guide) by the remote device over the Internet
responsive to the user making a selection in a
displayed HTML program guide (i.e., the remote
guide), instructing it to control DVCR hardware to
record the selected program. (Ex-1007, 14, ¶4; Ex1002, ¶97)”).
Rovi also contends that Humpleman fails to
disclose a conventional EPG because merely providing
data to build the HTML program guide does not

44a
require a conventional EPG as recited in the claims.
PO Resp. 30. Further, Rovi asserts that Humpleman
does not disclose a conventional EPG because the
language “[m]ost digital satellite services provide
programming information through an Electronic
Programming Guide (EPG)” says nothing about
Humpleman’s specific limitations. Id. at 29–30.
Although we agree with Rovi that the cited
paragraph speaks to the general field of EPGs, this
argument is not detrimental in consideration of
Humpleman, as a whole. As Comcast points out,
Humpleman Provisional describes software to access
the off-air EPG hardware and system. Pet. Reply 13
(citing Ex. 1007, 22). We are persuaded that the off-air
EPG hardware and system would function through the
Humpleman system where televisions are offline or
using specialized services such as pay-per-view. See
Tr. 23:1–13; Pet. 12. Further, we agree with Comcast
that “there is no language in Humpleman to support
the conclusion that Humpleman’s system would
suppress the conventional EPG that it relies on to
build its HTML program guide.” Pet. Reply 13 (citing
Ex. 1052 ¶¶ 30, 43). Additionally, under the rubric of
obviousness, one of ordinary skill would have
considered the disclosed, conventional EPG, even if its
specific use in the system of Humpleman was not
disclosed. “The use of patents as references is not
limited to what the patentees describe as their own
inventions or to the problems with which they are
concerned. They are part of the literature of the art,
relevant for all they contain.” In re Heck, 699 F.2d
1331, 1332–33 (Fed. Cir. 1983) (quoting In re
Lemelson, 397 F.2d 1006, 1009 (CCPA 1968)).

45a
Alternatively, Comcast argued at Oral Hearing
that “[w]e’ve used Humpleman and Killian in
combination to show the local EPG.” Tr. 24:6–20. We
agree that the Petition supports this assertion. We are
mindful, however, that considering arguments raised
at oral argument may deprive a patent owner from
substantively and properly responding to those
arguments, which our reviewing Court has
emphasized.
This case is distinct from circumstances previously
considered by the Federal Circuit in which the court
found that new arguments or evidence introduced for
the first time at an oral hearing may deprive the
patent owner of its right to respond. See In re
Nuvasive, 841 F.3d 966, 972–73 (Fed. Cir. 2016)
(finding the Board’s refusal to permit the patentee to
file a motion for strike, a sur-reply, or present the new
arguments during the final oral hearing violated the
patent owner’s due process and Administrative
Procedure Act rights); Dell Inc. v. Acceleron, LLC, 818
F.3d 1293, 1301 (Fed. Cir. 2016) (holding the “Board
denied [patent owner of] its procedural rights by
relying in its decision on a factual assertion introduced
into the proceeding only at oral argument, after
[patent owner] could meaningfully respond”). While
these cases provide circumstances in which petitioner
asserted new evidence in the reply or oral hearing,
Comcast put the Rovi on notice of this argument in the
Petition itself:
It would have been obvious to incorporate the
features
of
Killian’s
local
IPG
into
Humpleman’s local guide. A [person of ordinary
skill in the art] would readily implement the

46a
conventional interactive features of Killian in
Humpleman’s local guide to provide users with
expected and typical television control
functionality through a local IPG. (Ex-1001,
1:27-38; Ex-1002, ¶ 119).
Pet. 28. Thus, Comcast argues—and we agree—that
Humpleman in view of Killian teaches a local EPG. We
determine that one of ordinary skill in the art would
have sought to implement the interactive guide
features, from Killian, on both the remote guide, as
well as the local guide, where Killian illustrates the
display of a local electronic program guide on a
television, i.e., a local guide. See Ex. 1008, 10:66–
11:21, Fig. 5. As such, even if we were to assume that
the specific system of Humpleman implemented would
not have had an electronic program guide like
conventional digital satellite services, it would have
been obvious to implement such a local electronic
program guide in the combined system based on the
disclosure of Killian.
To be clear, on either basis, i.e., relying on
Humpleman’s disclosure alone, i.e., Humpleman’s
teaching of a local EPG though its DSS, or in
combination with Killian, such that the local EPG is
rendered obvious in view of the combination of
Humpleman and Killian, we determine that the
resulting system would have a local EPG that would
be distinct from the remote guide, and would meet the
requirements of the claimed “local interactive
television program guide.”

47a
ii. Remaining Limitations
In its Patent Owner Response, Rovi does not
address separately whether the combined teaching of
Humpleman and Killian account for the remaining
limitations of independent claims 1, 5, 8, 11, 14, and
17. See generally PO Resp. 14–35. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
remaining limitations, and we agree with and adopt
Comcast’s analysis. See Pet. 11–13, 26–42, 65–75.
b. Comcast Presents a Sufficient Rationale to
Combine the Teachings of Humpleman and Killian
Rovi contends that Comcast fails to explain how or
why one of ordinary skill in the art would have been
prompted to modify Humpleman’s television schedule
system to include Killian’s viewer profiles. PO Resp.
36. Rovi further contends that a person of ordinary
skill would not have modified either of Humpleman’s
alleged guides by incorporating features of Killian. Id.
at 37. Rovi argues that “the very purpose of
Humpleman is to eliminate any need to rely on
conventional device-control interfaces and instead
utilize the common HTML pages across all devices.”
Id. at 38 (citing Ex. 2008 ¶¶ 121–123) (emphasis
omitted).
Rovi also relies on Dr. Shamos’s testimony, that
such a modification would be unnecessary, if not
inapposite, in view of Humpleman’s express purpose of
replacing conventional EPGs with HTML guides, as
showing that one of ordinary skill in the art would not
have combined Humpleman and Killian. Id. at 36–37
(citing Ex. 2008 ¶¶ 121–123). Rovi further asserts

48a
that a person of ordinary skill in the art would not
have looked to Killian because use of its device-specific
guide is contrary to Humpleman’s goal of utilizing a
common HTML interface. Id. at 42 (emphasis
omitted). According to Rovi, Killian discloses a locally
installed
and
implemented
IPG,
whereas
Humpleman’s HTML guides operate a client/server
interface. Id. at 43. Thus, Rovi concludes that Killian’s
architecture “is fundamentally different from
Humpleman’s system and would discourage [a person
having ordinary skill in the art] from implementing
Killian’s interactive features in Humpleman.” Id.
(emphasis omitted).
In its Reply, Comcast emphasizes that Killian is
cited for limited features and would have been nothing
more than using known techniques to improve similar
devices in a similar manner, achieving the predictable
result of a local guide that “allows viewers to more
intelligently select, schedule, and record their viewing
opportunities.” Pet. Reply 19 (citing Pet. 25; Ex.1008,
1:20–23; Ex. 1002, ¶¶ 105–106). Comcast also
contends that a person of ordinary skill in the art
would have readily integrated Killian’s JAVA-based
interactive program guide features into Humpleman’s
system. Pet. Reply 22 (citing Ex. 1052 ¶ 44). To
support this argument, Comcast asserts that
Humpleman explicitly suggests JAVA-based systems
could be implemented for presenting client interfaces.
Id. (citing Ex.1006, 4:4–11). Comcast also contends
that adding interactive features to either guide in
Humpleman would have no impact on the principles of
operation of Humpleman’s system. Id. at 21 (citing Ex.
1052 ¶ 47).

49a
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006), cited with approval in KSR, 550 U.S. at 418.
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to implement
Killian’s enhancements in Humpleman’s. When, as
here, a technique has been used to improve one device
(i.e., Killian’s interactive features), and one of ordinary
skill in the art would have recognized that it would
improve similar devices in the same way (i.e., applying
Killian’s interactive features to Humpleman’s system,
thereby allowing viewers to more intelligently select,
schedule, and record their viewing opportunities),
using the technique is obvious unless its actual
application is beyond the skill level of an ordinary
skilled artisan. See Pet. 24–25; Ex. 1202 ¶¶ 102–106.

50a
The record includes credible evidence explaining why
applying Killian’s features to Blake’s system would not
have been uniquely challenging or otherwise beyond
the skill level of an ordinary skilled artisan. Comcast
declarant, Dr. Tjaden, provides the necessary
motivation for doing so—namely, “allowing viewers to
more intelligently select, schedule, and record their
viewing opportunities.” Ex. 1002 ¶ 106.
Also based on the record developed during trial, we
are persuaded by Comcast that a person having
ordinary skill in the art would have known that a
JAVA-based system, such as the one taught by Killian,
could be used to implement a client interface because
Humpleman explicitly instructs a person having
ordinary skill in the art to do so. Comcast points out
the relevant section of Humpleman, which is
reproduced below:
In an exemplary embodiment of the present
invention, a browser based home network uses
Internet technology to control and command
home devices that are connected to a home
network. Each home device contains interface
data (e.g. . . . JAVA . . .or any other format useful
for the intended purpose) that provides an
interface for the commanding and controlling of
the home device over the home network.
See Pet. Reply 22 (quoting Ex. 1006, 4:4–11) (emphasis
added).
Contrary to Rovi’s argument that “the very purpose
of Humpleman is to eliminate any need to rely on
conventional device control interfaces and instead
utilize the common HTML pages across all devices”

51a
(PO Resp. 38), Humpleman contemplates an
embodiment in which the interface utilizes JAVA to
provide the client interface. See Ex. 1006, 4:4–11.
Further, Rovi argues that a person of ordinary skill
in the art would not have modified Humpleman’s
HTML pages to incorporate Killian’s interactive
features. PO Resp. 39. According to Rovi, “[t]he HTML
guide approach ‘neatly solves the [graphical user
interface] problem by making the DTV a rendering
browser and no interface command set is needed for
human control of the home network device,’” and that
Humpleman implements a session manager to access
HTML pages. Id. at 40–42 (citing Ex. 1007, 16). In its
Reply, Comcast argues that “there is no reason to
conclude that Humpleman’s HTML user interfaces
would replace every native user interface on household
devices.” Pet. Reply 20 (citing Ex. 1052 ¶¶ 11, 30, 43).
Comcast also argues that “the session manager would
still require each client to generate a rendered
interface to facilitate [an] interaction.” Id. at 22 (citing
Ex. 1052 ¶¶ 45–47).
Based on the record developed during trial, we are
persuaded by Comcast that it would have been obvious
to implement Humpleman’s session manager using
Killian’s interactive features. Comcast declarant, Dr.
Tjaden, provides the necessary motivation for
implementing Killian’s interactive features—namely,
“Humpleman expressly teaches the use of JAVA and
JAVASCRIPT programming languages to implement
functionality on its devices, as each device requires an
interface of some kind in order to facilitate interaction
with a user and/or other devices.” Ex. 1052 ¶ 44. As
such, we are persuaded that one of ordinary skill in the

52a
art would have found it obvious to improve the guides
of Humpleman with the interactive features of Killian
because Comcast provides at least three reasons as to
why it would have been obvious to one of ordinary skill
in the art to incorporate Killian’s explicitly interactive
program guides into Humpleman system that allows
for remote and local programming of connected
devices. See Pet. 24–25.
c. Summary
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1, 5, 8, 11, 14, and 17 would
have been obvious over the combined teachings of
Humpleman and Killian.
6. Claims 2, 4, 6, 9, 12, 15, and 18
In its Patent Owner Response, Rovi does not
address separately whether the combined teaching of
Humpleman and Killian account for the limitations of
dependent claims 2, 4, 6, 9, 12, 15, and 18. See
generally PO Resp. 21–49. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
limitations, as well as its explanations as to how one
ordinary skill in the art would have combined the
relevant teachings of Humpleman with those of
Killian, and we agree with and adopt Comcast’s
analysis. See Pet. 39–42, 65–75. Comcast, therefore,
has demonstrated a by a preponderance of the
evidence that the subject matter of dependent claims
2, 4, 6, 9, 12, 15, and 18 would have been obvious over
the combined teachings of Humpleman and Killian.

53a
D.

Obviousness Over the Combined Teachings of
Humpleman, Killian, and Lawler

Comcast contends that claims 3, 7, 10, 13, 16, and
19 of the ’263 Patent are unpatentable under § 103(a)
over the combined teachings of Humpleman, Killian,
and Lawler. Pet. 42–43. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1002 ¶¶ 187–191. In its Patent Owner
Response, Rovi contends that Comcast does not
present sufficient reasoning as to why one of ordinary
skill in the art would combine the teachings of Lawler
with those of Humpleman and Killian. PO Resp. 45–
46. Rovi relies upon the Declaration of Dr. Shamos to
support his positions. Ex. 2008 ¶¶ 126–132.
We begin our analysis with a brief overview of
Lawler, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.
1. Lawler Overview
Lawler generally relates to a system for recording
a program on an interactive viewing system and, in
particular, to a system that allows a user to identify a
program for recording using an interactive program
guide and then designate the identified program for
automated recording at some later time. Ex. 1009, 1:8–
13. According to one aspect of the invention disclosed
in Lawler, the recording device is associated with a

54a
head end. Id. at 2:24–25. At the direction of the head
end, the recording device records the selected program
and digitally stores it in a memory at the head end. Id.
at 2:25–27. The recorded program may then be
retrieved from the head end by the user for display at
a viewer station. Id. at 2:27–29. Lawler discloses that
this process would allow multiple users to access a
single recording of the program, as well as make the
program available to other users who did not set the
recording, but nonetheless wish to view the program
at some later time. Id. at 13:34–38.
2. Claims 3, 7, 10, 13, 16, and 19
Dependent claim 3 recites “wherein local
interactive television program guide records the
television program corresponding to the selected
program listing at a television distribution facility.”
Ex. 1001, 29:1–4. Dependent claims 7, 10, 13, 16, and
19 each recite a similar limitation. Id. at 29:49–52,
30:26–29, 30:64–67, 31:36–39, 32:34–38.
In its Petition, Comcast contends that Lawler
teaches recording programs at a central head end (i.e.,
a television distribution facility) in lieu of recording
programs locally. Pet. 42 (citing Ex. 1009, 2:24–29,
13:26–38; Ex. 1002 ¶ 188). Comcast then argues that,
as a substitute for recording programs locally, it would
have been obvious to modify Humpleman and Killian
combination to include recording programs at a
television distribution facility, as taught by Lawler,
because there are certain advantages to recording
programs at the television distribution facility, such as
making recorded programs available for other
subscribers and eliminating the need for a separate

55a
recorder. Id. at 43 (citing Ex. 1002 ¶¶ 189–190).
According to Comcast, this proffered combination
would be nothing more than using a known technique
(i.e., Lawler’s centralized recording at a television
distribution facility) to improve a similar system (i.e.,
the combined Humpleman and Killian television
schedule system), and would produce a predictable
result that provides the stated benefits of Lawler. Id.
In its Patent Owner Response, Rovi contends that
Lawler’s recording of programs at a television
distribution facility would undermine Humpleman’s
stated goals by eliminating the user’s ability to
identify all available content on the home network. PO
Resp. 45. Rovi argues that Humpleman discloses the
creation of HTML guides for each home device that
stores multimedia materials, and that Comcast’s
proposed combination, i.e., moving the recording
device to a remote location, would eliminate the home
network’s ability to identify watchable content. Id. at
45–46 (citing Ex. 1006, 2:19–22, 22:60–23:10; Ex. 2008
¶¶ 126–132).
In its Reply, Comcast counters that Rovi has
identified only one object of Humpleman, among many
others, and that the content material, which is
“associated with a home device connected to the home
network,” need not be located within the home or even
on the home network. Pet. Reply 24 (citing Ex. 1006,
15:25–32,
14:19–59).
Comcast
argues
that
Humpleman identifies program listings for content
originating from broadcast sources, and the physical
storage of content at a television distribution facility
would not preclude the content from being accessible

56a
and viewable within the home. Id. at 24–25 (citing Ex.
1052 ¶¶ 48–49).
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of
Humpleman, Killian, and Lawler account for the
limitation of dependent claim 3, and the similar
limitations of dependent claims 7, 10, 13, 16, and 19.
See generally PO. Resp. 45–46. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
limitations, and we agree with and adopt Comcast’s
analysis. See Pet. 42–43.
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006), cited with approval in KSR, 550 U.S. at 418.
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.

57a
Based on the record developed during trial, we
agree with Comcast that that one of ordinary skill in
the art would have had a sufficient reason to modify
the combined television schedule system of
Humpleman and Killian to include recording
programs at a television distribution facility, as taught
by Lawler. When, as here, a technique has been used
to improve one device (i.e., Lawler’s centralized
recording at a television distribution facility), and one
of ordinary skill in the art would have recognized that
it would improve similar devices in the same way (i.e.,
applying Lawler’s technique to the combined television
schedule system of Humpleman and Killian to make
recorded programs available for other subscribers and
to eliminate the need for a separate recorder), using
the technique is obvious unless its actual application
is beyond the skill level of an ordinary skilled artisan.
See Pet. 42–43; Ex. 1002 ¶¶ 187–191. The record
includes credible evidence explaining why applying
Lawler’s technique to the combined television schedule
system of Humpleman and Killian to make recorded
programs available to multiple subscribers at a
television distribution facility would not have been
uniquely challenging or otherwise beyond the skill
level of an ordinary skilled artisan. Indeed, Lawler
itself provides the necessary motivation for doing so—
namely, “[to] allow multiple users to access a single
recording of the program.” Ex. 1009, 13:33–35.
We do not agree with Rovi’s argument Lawler’s
recording of programs at a television distribution
facility would undermine Humpleman’s stated goals
by eliminating the user’s ability to identify all
available content on the home network. Although Rovi

58a
posits that moving the recording device to a remote
location would eliminate the home network’s ability to
identify watchable content, the combined system could
still identify all the watchable content, even if the
content is not stored locally. In other words, the
watchable material associated with a home device
need not reside on that home device, similarly to the
way that pay-per-view material need not reside on the
local device, although it can be associated with that
local device. As Dr. Tjaden testifies—and we agree—
Humpleman’s home program guide would not logically
exclude content external to the home network, as Rovi
proposes, because it includes content delivered by
broadcast sources, i.e., external to the home network.
See Ex. 1052 ¶ 48.
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of dependent claims 3, 7, 10, 13, 16, and 19 would have
been obvious over the combined teachings of
Humpleman, Killian, and Lawler.
E.

Obviousness Over the Combined Teachings of
Kondo, Killian, and Kawamura

Comcast contends that claims 1, 2, 4–6, 8, 9, 11, 12,
14, 15, 17, and 18 of the ’263 Patent are unpatentable
under § 103(a) over the combined teachings of Kondo,
Killian, and Kawamura. Pet. 43–63. Comcast explains
how this proffered combination teaches or suggests the
subject matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its

59a
positions. Ex. 1002 ¶¶ 194–272. As we explain in our
Introduction section above, Rovi waived both briefing
on this ground, as well as consideration of this ground
at the consolidated oral hearing. See supra Section I.
For the reasons discussed below, we are not persuaded
that Comcast sufficiently demonstrates that the
combined teachings of Kondo, Killian, and Kawamura
teach or suggest all of the elements of independent
claims 1, 5, 8, 11, 14, and 17.
We begin our analysis with brief overviews of
Kondo and Kawamura, and then we address whether
Comcast demonstrates that the teachings of Kondo,
Killian, and Kawamura teach or suggest all of the
elements of the independent claims.
1. Kondo Overview
Kondo describes a network service system that
allows a user to schedule television program
recordings on the user’s home video recorder over the
Internet using a communication terminal connected to
a server. Ex. 1012, at [57], ¶ 8. Figure 1 of Kondo,
reproduced below, illustrates an embodiment of the
network service system disclosed in Kondo.

60a
As shown in Figure 1 reproduced above, Kondo’s
system includes first communication terminal TA1
(also labeled “Terminal B”) and second communication
terminal TA2 (also labeled “Terminal A”), both of
which communicate with server BSV via network INT.
Id. ¶¶ 10, 12. Communication terminal TA1 is a
“general
communication
terminal,”
and
communication terminal TA2 connects to videotape
recorder VTR. Id. ¶¶ 10, 11. To schedule video
recording, a user may use terminal TA1 to access
server BSV via network INT to acquire a broadcast
program guide stored on server BSV and select a
program for recording. Id. ¶ 12. When a user selects a
program for recording from terminal TA1, server BSV
sends a recording command to terminal TA2 to
schedule a recording on videotape recorder VTR. Id.
¶¶ 13, 14. A user also can use terminal TA2 to acquire
a broadcast program guide from server BSV and then
select a program for recording on videotape recorder
VTR. Id. ¶¶ 12, 13.
2. Kawamura Overview
Kawamura describes a remote control system that
allows a user to control a videotape recorder (“VTR”)
in the user’s home by operating a remote mobile
terminal. Ex. 1014 ¶¶ 1, 23. Figure 1 of Kawamura,
reproduced below, illustrates one embodiment of the
remote control system described in Kawamura.

61a

As shown in Figure 1 reproduced above,
Kawamura’s system includes mobile terminal 1
connected to network 3 by way of base station 2. Id.
¶ 24. Database 5 contains a listing of television
broadcast programs, or information relating to the
content of each program, and is connected to network
3. Id. ¶ 27. When a user who is away from home
wishes to schedule a program recording on VTR 4, but
does not know the channel or time of the program, the
user can use mobile terminal 1 to access database 5 by
way of network 3. Id. ¶¶ 30–31. Mobile terminal 1
displays program listing information obtained from
database 5. Id. ¶ 32. The user refers to the displayed
program listing and schedules a recording of the
desired program by transmitting the broadcast
channel, starting time, and other confirmed
information to VTR 4. Id. ¶ 33.

62a
3. Claims 1, 5, 8, 11, 14, and 17
Comcast generally relies on Kondo for teaching the
system recited in claim 1. Pet. 43–45. Comcast also
cites Killian and Kawamura for teaching certain
details regarding the claimed “local interactive
television program guide” and “remote access
interactive television program guide,” respectively. Id.
at 45–46.
Of particular importance to this ground, claim 1
recites, in relevant part, that the remote access
interactive television program guide “transmits a
communication identifying the television program
corresponding to the selected program listing from the
remote access interactive television program guide to
the local interactive television program guide over the
Internet communications path.” Ex. 1001, 28:54–58
(emphases added). Similar limitations are also found
in the other contested, independent claims.
With respect to this limitation, Comcast argues
that, in Kondo, a recording request for a program is
transmitted from terminal TA1 to server BSV to
schedule a reservation, wherein server BSV then
sends a reservation command to local terminal TA2 to
schedule a recording on a connected videotape recorder
VTR. Id. at 59 (citing Ex. 1012 ¶¶ 12–14). As discussed
in our Decision on Institution, it is not clear to us
whether Kondo teaches two guides in communication
with each other, nor is it clear that Comcast has
demonstrated, by a preponderance of the evidence,
that Comcast’s citation of one terminal communicating
with another, via server BSV, meets the

63a
communications between two guides required by claim
1. See Dec. on Inst. 32–34.
Kondo makes clear that a user may use either
communication terminal, TA1 or TA2, to access the
broadcast program guide and request scheduling of a
specific program recording. Ex. 1012 ¶ 12. If the user
is at terminal TA2, the recording request is locally
routed to a connected VTR, i.e., claim 1 would not be
satisfied. Id. ¶ 13. If the user is at terminal TA1, the
request is sent to terminal TA2 for subsequent
recording. Id. However, Kondo only specifies the
acquisition of the broadcast program guide or the
information related to the broadcast programs to the
terminal that the user is at. There is no apparent
disclosure of any guide being acquired by the
unattended terminal. Thus, if the user is at terminal
TA1, with a guide thereon, there would be no need for
terminal TA2 to have the same or similar guide
connected to the VTR. As such, both terminals TA1
and TA2 would not need to have guides resident at
each, and, therefore, there would be no way for such
guides to transmit or receive a communication over an
Internet communication path to each other.
In addition, given the nature of the recording
request, there would be no need for the receiving
terminal, TA2, to necessarily have a program guide,
interactive or not. Terminal TA2 could process the
recording request without the need for a broadcast
programming guide. Additionally, even if users were
at both terminals TA1 and TA2, requesting recordings,
i.e., so that both terminals would have guides
implemented thereon, there would be no reason that a
recording request received from a remote terminal

64a
would be processed by the local guide and not merely
some other portion of the terminal.
As well, the additional disclosures of Killian and
Kawamura, with their additional details about
interactive guide features, would not require the
presence of a guide at each terminal, nor do they teach
or suggest communication between two separate
guides. Comcast has also failed to provide any
suggestion or motivation for each terminal in Kondo
possessing its own guide, with those guides themselves
exchanging communications.
In summary, Comcast has not demonstrated that
the combined teachings of Kondo, Killian, and
Kawamura would teach or suggest all of the elements
of independent claims 1, 5, 8, 11, 14, and 17.
Accordingly, Comcast has not demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1, 5, 8, 11, 14, and 17 would
have been obvious over the combined teachings of
Kondo, Killian, and Kawamura.
4. Claims 2, 4, 6, 9, 12, 15, and 18
Because we determine that Comcast has not
demonstrated that the teachings of Kondo, Killian,
and Kawamura account for all of the elements of
independent claims 1, 5, 8, 11, 14, and 17, Comcast has
not demonstrated by a preponderance of the evidence
that the subject matter of dependent claims of
dependent claims 2, 4, 6, 9, 12, 15, and 18 would have
been obvious over the combined teachings of Kondo,
Killian, and Kawamura.

65a
F.
Remaining Obviousness Ground Based on the
Teachings of Kondo, Killian, Kawamura, and Lawler
Comcast also contends that claims 3, 7, 10, 13, 16,
and 19 of the ‘263 Patent are unpatentable under
§ 103(a) over the combined teachings of Kondo,
Killian, Kawamura, and Lawler. Pet. 64–65. Because
we determine that Comcast has not demonstrated that
the teachings of Kondo, Killian, and Kawamura
account for all of the elements of independent claims
1, 5, 8, 11, 14, and 17, as discussed above, Comcast has
not demonstrated by a preponderance of the evidence
that the subject matter of dependent claims 3, 7, 10,
13, 16, and 19 would have been obvious over the
combined teachings of Kondo, Killian, Kawamura, and
Lawler.
III. CONCLUSIONS
Comcast has demonstrated by a preponderance of
the evidence that (1) claims 1, 2, 4–6, 8, 9, 11, 12, 14,
15, 17, and 18 are unpatentable under § 103(a) over
the combined teachings of Humpleman and Killian;
and (2) claims 3, 7, 10, 13, 16, and 19 are unpatentable
under § 103(a) over the combined teachings of
Humpleman, Killian, and Lawler. Comcast, however,
has not demonstrated by a preponderance of the
evidence that (1) claims 1, 2, 4–6, 8, 9, 11, 12, 14, 15,
17, and 18 are unpatentable under § 103(a) over the
combined teachings of Kondo, Killian, and Kawamura;
and (2) claims 3, 7, 10, 13, 16, and 19 are unpatentable
under § 103(a) over the combined teachings of Kondo,
Killian, Kawamura, and Lawler.

66a
IV.

ORDER

In consideration of the foregoing, it is
ORDERED that claims 1–19 of the ’263 Patent are
held to be unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to this proceeding seeking
judicial review of our decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

67a
APPENDIX C
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.,
Patent Owner.
Case IPR2017-00951
Patent 8,006,263 B2
Entered: September 19, 2018
Before KEVIN F. TURNER, MICHAEL R. ZECHER,
and JESSICA C. KAISER, Administrative Patent
Judges.
ZECHER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition requesting an inter partes
review of claims 1–19 of U.S. Patent No. 8,006,263 B2
(Ex. 1101, “the ’263 patent”). Paper 2 (“Pet.”). Patent
Owner, Rovi Guides, Inc. (“Rovi”), filed a Preliminary
Response. Paper 7. Taking into account the arguments
presented in Rovi’s Preliminary Response, we

68a
determined that the information presented in the
Petition established that there was a reasonable
likelihood that Comcast would prevail in challenging
claims 1–19 of the ’263 patent as unpatentable under
35 U.S.C. § 103(a). Pursuant to 35 U.S.C. § 314, we
instituted this inter partes review on September 20,
2017, as to all of the challenged claims, but not all the
grounds presented by Comcast in its Petition. Paper
12 (“Dec. on Inst.”).
During the course of trial, Rovi filed a Patent
Owner Response (Paper 18, “PO Resp.”), and Comcast
filed a Reply to the Patent Owner Response (Paper 31,
“Pet. Reply”). A consolidated oral hearing with related
Cases IPR2017-00950, IPR2017-00952, IPR201701048, IPR2017-01049, IPR2017-01050, IPR201701065, IPR2017-01066, and IPR2017-01143 was held
on June 19, 2018, and a transcript of the hearing is
included in the record. Paper 41 (“Tr.”).
After all substantive briefing was complete, but
before the consolidated oral hearing, the United States
Supreme Court held that a decision to institute under
35 U.S.C. § 314 may not institute on less than all
claims challenged in the petition. SAS Inst., Inc. v.
Iancu, 138 S. Ct. 1348, 1359–60 (2018). Following
SAS, the U.S. Patent and Trademark Office (“Office”)
issued “Guidance on the impact of SAS on AIA trial
proceedings,” in which the Office took the policy
position that a decision granting institution will
institute on all of the challenged claims in the petition

69a
and all the grounds presented in the petition. 1 The
U.S. Court of Appeals for the Federal Circuit has since
endorsed this Office policy by explaining that “‘the
petitioner’s petition, not the Director’s discretion, is
supposed to guide the life of the litigation’ and ‘that
the petitioner’s contentions, not the Director’s
discretion define the scope of the litigation all the way
from institution through to conclusion.’” Adidas AG v.
Nike, Inc., 894, F.3d 1256, 1258 (Fed. Cir. 2018)
(quoting SAS, 138 S. Ct. at 1356–1357). In accordance
with SAS and Office policy, we issued an Order
modifying our Decision on Institution entered on
September 20, 2017, to include review of all challenged
claims and all grounds presented by Comcast in its
Petition. Paper 38. The parties, however, agreed to
waive briefing on the grounds we declined to institute
in the Decision on Institution. Id. The parties also
agreed to waive consideration of these previously noninstituted grounds at the consolidated oral hearing. Id.
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1–19 of the
’263 patent. For the reasons discussed below, we hold
that Comcast has demonstrated by a preponderance of
the evidence that these claims are unpatentable under
§ 103(a).

Available at https://www.uspto.gov/patentsapplicationprocess/patent-trial-and-appeal-board/trials/guidanceimpactsas-aia-trial.
1

70a
A. Related Matters
The ’263 patent is involved in the following district
court cases: (1) Rovi Guides, Inc. v. Comcast Corp., No.
2:16-cv-00322 (E.D. Tex.), which has been transferred
to the U.S. District Court for the Southern District of
New York and is pending as Rovi Guides, Inc. v.
Comcast Corp., No. 1:16-cv-09826 (S.D.N.Y); and (2)
Comcast Corp. v. Rovi Corp., No. 1:16-cv-03852
(S.D.N.Y). Pet. 1–2; Paper 4, 2. The ’263 patent also
has been asserted against Comcast in a proceeding
before the U.S. International Trade Commission
(“ITC”) styled In re Certain Digital Video Receivers and
Hardware and Software Components Thereof, No. 337TA-1001. Pet. 2; Paper 4, 2.
In addition to this Petition, Comcast filed two other
petitions challenging the patentability of claims 1–19
of the ’263 patent (Cases IPR2017-00950 and IPR201700952). Pet. 3; Paper 4, 2. Comcast also filed other
petitions challenging the patentability of certain
subsets of claims in several patents owned by Rovi.
Pet. 3.
B. The ’263 Patent
The ’263 patent, titled “Interactive Television
Program Guide with Remote Access,” issued August
23, 2011, from U.S. Patent Application No. 11/246,392,
filed on October 7, 2005. Ex. 1101, [54], [45], [21], [22].
The ’263 patent is a continuation of U.S. Patent
Application No. 10/927,814, filed on August 26, 2004,
which, in turn, is a continuation of U.S. Patent
Application No. 09/354,344, filed on July 16, 1999. Id.
at [63]. The ’263 patent also claims the benefit of U.S.
Provisional Application No. 60/097,527, filed on

71a
August 21, 1998, and U.S. Provisional Application No.
60/093,292, filed on July 17, 1998. Id. at [60].
The ’263 patent generally relates to interactive
television program guide video systems and, in
particular, to such systems that provide remote access
to program guide functionality. Ex. 1101, 1:19–22. The
’263 patent discloses that conventional interactive
television program guide systems typically are
implemented on set-top boxes located in the home of a
user and, as a result, do not permit the user to perform
program guide functions without the user being
physically located in the same room as these systems.
Id. at 1:37–45. Stated differently, conventional
interactive television program guide systems require
the user to be present in the home to access important
program guide features, such as program reminders,
parental controls, and program recording. Id. at 2:19–
22. The ’263 patent purportedly addresses this and
other problems by providing an interactive television
program guide system that allows a user to access
certain features of the program guide remotely and
establish settings for those features. Id. at 2:23–28.
Figure 1 of the ’263 patent, reproduced below,
illustrates a schematic block diagram of the system in
accordance with the present invention. Ex. 1101, 3:45–
46, 4:29–30.

72a

As shown in Figure 1 reproduced above, system 10
includes main facility 12 that provides interactive
television program guide data from program guide
data source 14 to interactive television program guide
equipment 17 via communication link 18. Id. at 4:29–
33. Interactive television program guide equipment 17
is connected to at least one remote program guide
access device 24 via remote access link 19. Id. at 4:47–
53.
Figure 2a of the ’263 patent, reproduced below,
illustrates one arrangement involving the interactive
television program guide equipment 17 and remote
program guide access device 24 in accordance with the
principles of the present invention. Ex. 1101, 3:47–50,
4:55–57.

73a

As shown in Figure 2a reproduced above, interactive
television program guide equipment 17 includes
program guide distribution equipment 21 located at
television distribution facility 16, which distributes
program guide data to user television equipment 22
via communications path 20. Id. at 4:57–67. Remote
program guide access device 24 receives the program
guide data, as well as any additional data necessary to
access various functions of the interactive program
guide, from user television equipment 22 via remote
access link 19. Id. at 5:29–39.
In at least one embodiment, the ’263 patent
discloses that a remote access interactive television
program guide implemented on remote program guide
access device 24 communicates with a local interactive
television program guide implemented on interactive
television program guide equipment 17. Ex. 1101,
12:23–29. In one example, the remote access and local
interactive television program guides may be two

74a
different guides that communicate with each other. Id.
at 12:34–37; see also id. at 22:49–23:6 (disclosing steps
involved with using the remote access interactive
television program guide to provide program listing
information to a user). In another example, the remote
access and local interactive television program guides
may be the same guide but compiled to run on two
different platforms. Id. at 12:29–32.
The ’263 patent discloses transferring program
guide information and settings between remote
program guide access device 24 and interactive
television program guide equipment 17 using any
suitable application layer protocol. Ex. 1101, 13:7–11.
For example, if remote access link 19 is an Internet
link, program guide functionality may be accessed
using Hypertext Transfer Protocol. Id. at 13:11–13.
Remote program guide access device 24 and
interactive television program guide equipment 17
also may transfer program guide information as files
using either File Transfer Protocol or Trivial File
Transfer Protocol running over a Transmission
Control Protocol/Internet Protocol stack. Id. at 13:13–
18. The ’263 patent makes clear that “[a]ny suitable
file transfer protocol based on any suitable protocol
stack may be used.” Id. at 13:18–19.
C. Illustrative Claim
Of the challenged claims, claims 1, 5, 8, 11, 14, and
17 are independent. Independent claims 1, 8, and 14
are each directed to a system for selecting television
programs over a remote access link that includes an
Internet communications path for recording, whereas
independent claims 5, 11, and 17 are each directed to

75a
a method for performing the same. Claims 2–4 directly
depend from independent claim 1; claims 6 and 7
directly depend from independent claim 5; claims 9
and 10 directly depend from independent claim 8;
claims 12 and 13 directly depend from independent
claim 11; claims 15 and 16 directly depend from
independent claim 14; and claims 18 and 19 directly
depend from independent claim 17. Independent claim
1 is illustrative of the challenged claims and is
reproduced below:
1.
A system for selecting television
programs over a remote access link comprising
an Internet communications path for recording,
comprising:
a local interactive television program guide
equipment on which a local interactive
television program guide is implemented,
wherein the local interactive television program
guide equipment includes user television
equipment located within a user’s home and the
local interactive television program guide
generates a display of one or more program
listings for display on a display device at the
user’s home; and
a remote program guide access device
located outside of the user’s home on which a
remote access interactive television program
guide is implemented, wherein the remote
program guide access device is a mobile device,
and wherein the remote access interactive
television program guide:

76a
generates a display of a plurality of program
listings for display on the remote program guide
access device, wherein the display of the
plurality of program listings is generated based
on a user profile stored at a location remote from
the remote program guide access device;
receives a selection of a program listing of
the plurality of program listings in the display,
wherein the selection identifies a television
program corresponding to the selected program
listing for recording by the local interactive
television program guide; and
transmits a communication identifying the
television program corresponding to the
selected program listing from the remote access
interactive television program guide to the local
interactive television program guide over the
Internet communications path;
wherein the local interactive television
program guide receives the communication and
records the television program
corresponding to the selected program
listing responsive to the communication using
the local interactive television program guide
equipment.
Ex. 1101, 28:27–63.
D. Prior Art Relied Upon
Comcast relies upon the following prior art
references:

77a
Inventor 2

Patent or Relevant
Publication Dates
No.

Humpleman U.S. Patent
issued
No.
Jan. 30,
6,182,094 B1 2001, filed
June 24,
1998
Lawler
U.S. Patent
issued
No.
Sept. 8,
5,805,763
1998, filed
May 5,
1995
Allport
U.S. Patent
issued
No.
Aug. 15,
6,104,334
2000, filed
Dec. 31,
1997
Sato
U.S. Patent
issued
No.
June 18,
6,408,435 B1 2002, filed
April 29,
1997
Woo
U.S. Patent
issued
No.
Jan. 16,
5,485,219
1996, filed
Apr. 18,
1994

Exhibit
No.
1106

1109

1110

1115

1116

For clarity and ease of reference, we only list the first named
inventor.

2

78a
Mizuno

PCT Int’l
published 1117
Pub. No. WO May 22,
97/18636
1997, filed
Nov. 13,
1996
Rzeszewski U.S. Patent
issued
1118
No.
Dec. 16,
5,699,125
1997, filed
Mar. 31,
1995
E. Instituted Grounds of Unpatentability
We instituted a trial based on the asserted grounds
of unpatentability (“grounds”) set forth in the table
below. Dec. on Inst. 43; Paper 38.
References

Basis

Challenged
Claim(s)

Sato and
Humpleman

§ 103(a)

Sato,
Humpleman,
and Lawler
Sato,
Humpleman,
and Allport
Woo, Mizuno,
and Rzeszewski

§ 103(a)

1, 2, 5, 6, 8, 9,
11, 12, 14, 15,
17, and 18
3, 7, 10, 13, 16,
and 19

Woo, Mizuno,
Rzeszewski,
and Lawler

§ 103(a)

§ 103(a)

4

§ 103(a)

1, 2, 5, 6, 8, 9,
11, 12, 14, 15,
17, and 18
3, 7, 10, 13, 16,
and 19

79a
Woo, Mizuno, § 103(a)
Rzeszewski,
and Allport

4

II. ANALYSIS
A. Claim Construction
In an inter partes review proceeding, claim terms of
an unexpired patent are given their broadest
reasonable interpretation in light of the specification
of the patent in which they appear. 37 C.F.R.
§ 42.100(b).
Under
the
broadest
reasonable
interpretation standard, and absent any special
definitions, claim terms are generally given their
ordinary and customary meaning, as would be
understood by one of ordinary skill in the art, in the
context of the entire disclosure. In re Translogic Tech.,
Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
In the Decision on Institution, we determined that
the only claim terms requiring construction are
“local/remote access interactive television program
guides,” and only to the extent necessary to resolve
whether the grounds asserted by Comcast properly
accounted for both a “local interactive television
program guide” and a “remote access interactive
television program guide.” Dec. on Inst. 10 (citing
Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d
795, 803 (Fed. Cir. 1999) (explaining that only those
claim terms that are in controversy need to be
construed, and only to the extent necessary to resolve
the controversy)). Upon reviewing the parties’
preliminary arguments and evidence, we adopted
Comcast’s proposed construction that an “interactive

80a
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.” Id. at 13. We further
clarified that the claim terms “local interactive
television program guide” and “remote access
interactive television program guide” are separately
identifiable elements, and are not construed properly
as reading on the same interactive television program
guide. Id. at 13–14.
In its Patent Owner Response, Rovi generally
agrees with our initial determination that the only
claim terms requiring construction are “local/remote
access interactive television program guides.” PO
Resp. 8. Rovi, however, proposes that the proper
constructions for these claim terms are the following:
(1) “local interactive television program guide” is a
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment”; and (2)
“remote access interactive television program guide” is
a “guide allowing navigation through television
program listings using a remote access link.” Id. at 8–
9. According to Rovi, its proposed constructions for the
claim terms “local/remote access interactive television
program guides” are consistent with the intrinsic
evidence, our preliminary finding that these guides
must be distinct guides, and the findings of the ITC in
related proceedings. Id. at 9 (citing Ex. 1150, 185, 190).
Rovi further contends that any difference between our
constructions and the ITC’s constructions of the claim
terms “local/remote access interactive television

81a
program guides” is not relevant to the grounds at issue
in this proceeding because, according to Rovi, each of
Comcast’s asserted grounds fail under Rovi’s broader
constructions “that do[] not unnecessarily restrict the
guides to ‘control software’ that ‘controls functions of
the software.’” PO Resp. 9. Rovi asserts that, because
each of Comcast’s asserted grounds fail under broader
constructions for these claim terms, we need not
determine whether the asserted prior art satisfies
Comcast’s proposed constructions. Id. at 9–10. Rovi
then proceeds to explain how our preliminary
constructions and the ITC’s constructions are
consistent in certain respects because (1) they both
require the guides to be interactive (i.e., navigable and
selectable); and (2) they both agree that the claims
require two separate guides, as properly construed. Id.
at 10–12. 3
In its Reply, Comcast contends that Rovi’s proposed
constructions of the claim terms “local/remote access
interactive television program guides” improperly
seeks to limit the broadest reasonable interpretation
of the claim term “interactive television program
guide” to a single software component that generates
listings, thereby excluding other software components
that assist in providing guide functionality. Pet. Reply
3
For the first time at the oral hearing, Rovi argued that “remote
access interactive television program guide” requires “dedicated
code at the remote device.” See, e.g., Tr. 58:3–7, 60:19–61:14,
66:14–21. We agree with Comcast (id. at 96:3–10) that this is a
new argument that was not presented and developed in Rovi’s
briefs and, therefore, we do not consider it. See Paper 13, 3
(cautioning Rovi that “any arguments for patentability not raised
in the response will be deemed waived”).

82a
4 (citing PO Resp. 30–34; Ex. 2108 ¶¶ 136, 137, 146–
150). According to Comcast, this inclusion finds no
basis in the plain language of the claims and the
specification of the ’263 patent. Id. (citing Ex. 1152
¶¶ 10–14).
Comcast also contends that Rovi’s arguments
directed to the claim term “interactive television
program guide” contradicts the construction Rovi
offered in the related ITC proceeding. Pet. Reply 4. In
the related ITC proceeding, Comcast argues that Rovi
expanded the scope of the claim term “local interactive
television program guide” to capture all software
components related to any local guide functionality,
including recording. Id. (citing Ex. 1150, 180–91, 214–
27; Ex. 1154 ¶¶ 158–160, 169, 170, 371, 376). Comcast
argues that Rovi’s expert in the ITC proceeding, Dr.
Michael Shamos, who also is Rovi’s expert in this
proceeding, provided supporting testimony that the
claim term “local interactive television program guide”
could be an “extensive collection of hardware and
software.” Id. at 5 (emphasis omitted) (quoting Ex.
1154 ¶ 169). In this proceeding, however, Comcast
argues that Rovi and Dr. Shamos appear to take the
erroneous position that the claim term “local
interactive television program guide” is a single
software application. Id. at 5–6 (compare PO Resp. 32
and Ex. 2108 ¶ 149, with Ex. 1154 ¶¶ 169, 371).
According to Comcast, we should hold Rovi to the same
broad construction of the claim term “local interactive
television program guide” in this proceeding that it
wielded to exclude others from practicing the claimed
invention in the related ITC proceeding. Id. at 6.

83a
As an initial matter, it is not clear to us whether
Rovi actually disputes our preliminary construction of
the claim term “interactive television program guide.”
On the one hand, Rovi asserts that the ITC’s
constructions of local interactive television program
guide (i.e., a “guide that allows navigation through
television program listings and causes display of
program information on user television equipment”)
and remote access interactive television program
guide (i.e., a “guide allowing navigation through
television program listings using a remote access
link”) are the proper constructions. PO Resp. 8–9. On
the other hand, Rovi argues that both our
constructions and the ITC’s constructions “are
consistent with respect to the relevant aspects (e.g.,
navigation and selection)” of a local/remote access
interactive television program guide. Id. at 9. Rovi
further contends that “[a]ny differences between the
Board’s and the ITC’s constructions are not relevant to
[Comcast’s] failures of proof regarding the asserted
prior art and [g]rounds at issue in the proceeding.” Id.
(emphasis added); see also Ex. 2108 ¶ 25 (Rovi’s
declarant, Dr. Shamos, testifies that, “regardless of
which constructions the Board applies, my opinions
remain the same. The asserted prior art references
here fail to disclose the claim limitations . . . under
either construction.”). These arguments make it
difficult to ascertain what Rovi actually views as the
proper scope and meaning of the claim terms
“local/remote access interactive television program
guides.” Nevertheless, we are charged in this
proceeding with determining the broadest reasonable
interpretation of these claim terms.

84a
Beginning with the intrinsic record, neither party
argues, nor could we find, an explicit definition for the
claim term “interactive television program guide” in
the specification of the ’263 patent. The specification,
however, is replete with descriptions of conventional,
local, or remote interactive television program guides.
For instance, the specification discloses that
conventional interactive television program guides
display “various groups of television program [guide]
listings . . . in predefined or user-defined categories,”
and “allow the user to navigate through [the]
television program listings” and make a selection
“using a remote control.” Ex. 1101, 1:31–36. For a
conventional interactive television program guide, the
user must physically be located in the same room as
the set-top box on which the interactive television
program guide is implemented to select programs for
recording or to perform other guide functions. Id. at
1:37–45. In the context of discussing the
implementation of a remote access interactive
television program guide, the specification discloses
that such a guide works in conjunction with a remote
device to “provide users with the opportunity to
remotely access features of the interactive television
program guide on the interactive television program
guide equipment and to remotely set program guide
settings.” Id. at 2:41–46. The specification goes on to
disclose that “[a]ny suitable interactive television
program guide function or setting may be accessed,”
including, but not limited to, “remotely select[ing]
programming for recordings” and “remotely set[ting]
and navigat[ing] through favorites (e.g., favorite

85a
channels, program categories, services, etc.).” Id. at
2:47–56.
Although the aforementioned disclosures provide
guidance as to the functionality of an “interactive
television program guide” (i.e., navigable, selectable,
and capable of controlling certain functions or
settings), neither party directs us to, nor can we find,
a disclosure in the specification that specifically
identifies what element or elements constitute a
“guide.” Given the lack of disclosure in this regard, we
decline to limit the “guide” to a single software
application. Rather, these disclosures support
Comcast’s proposed construction that an “interactive
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.”
We further clarify that, based on the plain
language of independent claims 1, 5, 8, 11, 14, and 17,
they indicate that the claim terms “local interactive
television program guide” and “remote access
interactive television program guide” are separately
identifiable elements. See Becton, Dickinson & Co. v.
Tyco Healthcare Grp., LP, 616 F.3d 1249, 1254 (Fed.
Cir. 2010) (“Where a claim lists elements separately,
‘the clear implication of the claim language’ is that
those elements are ‘distinct component[s]’ of the
patented invention.” (alteration in original) (quoting
Gaus v. Conair Corp., 363 F.3d 1284, 1288 (Fed. Cir.
2004))). Our determination in this regard is supported
by the specification, which includes various
embodiments that treat these claim terms as

86a
separately
identifiable
elements
capable
of
communicating with each other. See, e.g., Ex. 1101,
12:34–37 (“In still another suitable approach, the
[local interactive television program guide and remote
access interactive television program guide] may be
different guides that communicate in a manner or
manners discussed . . . herein.”), 20:18–23 (“The
remote access [interactive television] program guide
may . . . send audio, graphical, and text messages to
the local interactive [television] program guide for
playing or display by user television equipment 22.”).
The specification also explains that the “local
interactive television program guide” and “remote
access interactive television program guide” may be
the same guide, in which case they are separately
identifiable elements in that each guide is compiled to
run on a different platform. See id. at 12:29–32 (“The
remote access and local guide may, for example, be the
same guide but compiled to run on two different
platforms and to communicate in a manner or
manners discussed herein.”).
We decline to adopt Rovi’s proposed constructions
of the claim terms “local/remote access interactive
television program guides” for two reasons. First, we
are unable to determine how Rovi’s proposed
constructions add any clarity to the scope and meaning
of an “interactive television program guide.” That is,
we view each of Rovi’s proposed constructions as
circular and unhelpful because they define each of the
guides as a “guide [that allows/allowing] navigation
through television program listings.” PO Resp. 8–9
(emphasis added). Rovi, however, does not actually

87a
identify what element
constitutes the “guide.”

or

elements

specifically

Second, Rovi states that its proposed constructions
indicate “where the specific guide resides (i.e., on ‘user
television equipment’ or over ‘a remote access link’),”
but readily admits that “these additions merely
restate the language of the broader claim
limitation[s].” PO Resp. 12 (emphasis omitted) (citing
Ex. 1150, 185, 190). It is well settled that the Federal
Circuit disfavors any claim interpretation that renders
a claim term or phrase superfluous. See Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1237 (Fed. Cir. 2016)
(“The Board was correct to not include in its
construction of ‘menu’ features of menus that are
expressly recited in the claims. . . . Construing a claim
term to include features of that term already recited in
the claims would make those expressly recited
features redundant.”). If we were to adopt the
language in Rovi’s proposed constructions pertaining
to where each guide resides, it would render
superfluous the language that is already explicitly
recited in independent claim 1, and similarly recited
in independent claims 5, 8, 11, 14, and 17—namely,
“over a remote access link” and “a local interactive
television program guide equipment on which a local
interactive television program guide is implemented,
wherein the local interactive television program guide
equipment includes user television equipment.” 4

During oral argument, in response to a question regarding the
ITC’s construction of the “local interactive television program
guide” being on user television equipment and its construction
that the “remote access television program guide” uses a remote

4

88a
Turning now to the extrinsic evidence, in Dr.
Tjaden’s Declaration accompanying the Petition, he
testifies that “the local [interactive television program]
guide may be implemented at least in part on a server
or other device outside the user’s home.” Ex. 1102 ¶ 35.
To support this testimony, he directs us to Rovi’s
interpretation of the claim term “local interactive
television program guide” in the related ITC
proceeding. Id. (citing Ex. 1145, 56; Ex. 1146, 43). In
Dr. Tjaden’s Declaration accompanying the Reply, he
elaborates further on his initial position by testifying
that “a [person of ordinary skill in the art] looking at
the ’263 Patent would have understood that many
different arrangements of the software and hardware
components comprising an interactive television
program guide are possible and acceptable in [the]
prior art used to show obviousness.” Ex. 1152 ¶ 11. To
support this testimony, he directs us to the different
arrangements of software and hardware in the ’263
patent. Id. (citing Ex. 1101, 4:30–33, 4:47–49, 4:57–61,
6:48–50, 7:53–60, Figs. 1, 2a–2d).
Comcast also directs us to Dr. Shamos’s
Declaration in the ITC proceeding as further evidence
as to what element or elements constitute a “guide.”
Although we recognize that the broadest reasonable
interpretation standard governs in this proceeding,
whereas the district court claim construction standard
governs in an ITC proceeding, Dr. Shamos’s testimony
in the ITC proceeding is relevant here because it sheds
access link, counsel for Rovi stated that “I don’t think where [the
guides are] implemented is meaningful because that’s recited in
the claim separately.” Tr. 66:22–67:24.

89a
some light on what element or elements he believes
constitutes a “guide.” In the ITC proceeding, Dr.
Shamos testifies that the claim term “local interactive
television program guide” could be an “extensive
collection of hardware and software.” Ex. 1154 ¶ 169.
He also testifies “that the ‘local [interactive television
program] guide’ [should not be construed as] a single
software application that must reside on a device in
the user’s home,” and “[n]othing in the claims exclude
a ‘recording application’ from being part of the local
[interactive television program] guide.” Id. ¶ 371. Dr.
Shamos’s testimony in the ITC proceeding is
consistent with Dr. Tjaden’s testimony in this
proceeding because, like Dr. Tjaden, Dr. Shamos does
not limit a “guide” to a single software application, but
rather contemplates that the “guide” may constitute
different arrangements of software and hardware.
We note that the aforementioned testimony from
Dr. Tjaden and Dr. Shamos suggests that the “guide”
may include both software and hardware. Rovi
likewise argues that its proposed construction is
broader than Comcast’s because “it does not
unnecessarily restrict the guides to ‘control software.’”
PO Resp. 9. We do not find support in the intrinsic
record that the “guide” may include hardware. Rather,
the ’263 patent separately refers to the interactive
television program guide and the hardware on which
it is implemented. See, e.g., Ex. 1101, 1:37–38
(“Interactive television program guides are typically
implemented on set-top boxes . . . .”). The
aforementioned testimony, however, is consistent with
our conclusion that the “guide” may constitute more
than just a single software application.

90a
In summary, upon weighing all the evidence
bearing on the construction of the claim term
“interactive television program guide,” we maintain
that the broadest reasonable interpretation of this
claim term is “control software operative at least in
part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” We also maintain that the claim terms
“local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide.
B. Obviousness Over the Combined Teachings of Sato
and Humpleman
Comcast contends that claims 1, 2, 5, 6, 8, 9, 11, 12,
14, 15, 17, and 18 of the ’263 patent are unpatentable
under § 103(a) over the combined teachings of Sato
and Humpleman. Pet. 20–36. Comcast explains how
this proffered combination teaches or suggests the
subject matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1102 ¶¶ 104–161. In its Patent Owner
Response, Rovi presents a number of arguments as to
why the combined teachings of Sato and Humpleman
do not render the limitations of independent claims 1,
5, 8, 11, 14, and 17 obvious. PO Resp. 19–40. Rovi
relies upon the Declaration of Dr. Shamos to support
his positions. Ex. 2108 ¶¶ 99–159.

91a
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the
art, proceeded by brief overviews of Sato and
Humpleman, and then we address the parties’
contentions with respect to the claims at issue in this
asserted ground.
1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and
the prior art are such that the subject matter, as a
whole, would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which said subject matter pertains. KSR
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The
question of obviousness is resolved on the basis of
underlying factual determinations, including (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) when in
evidence, objective indicia of non-obviousness (i.e.,
secondary considerations). Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). We analyze this asserted
ground based on obviousness with the principles
identified above in mind.
2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a
person of ordinary skill in the art. Relying on the
testimony of its declarant, Dr. Tjaden, Comcast asserts
that a person of ordinary skill in the art as of July 17,
1998, which is the earliest priority date on the face of

92a
the ’263 patent, would be an individual who possesses
the following:
a bachelor’s degree in computer science,
electrical engineering, computer engineering, or
a similar discipline, and two years of experience
with interactive program guides, set-top boxes,
mobile computer devices, and techniques for
delivering content or program guides over
communication networks, such as a cable
system, a local-area network, and the Internet.
Pet. 13–14 (quoting Ex. 1102 ¶ 28). Alternatively, once
again relying on the testimony of Dr. Tjaden, Comcast
asserts that a person of ordinary skill in the art “could
have had equivalent experience in industry or
research, such as designing, developing, evaluating,
testing, or implementing these technologies.” Id.
(quoting Ex. 1102 ¶ 28). Conversely, Rovi’s declarant,
Dr. Shamos, does not offer an assessment of the level
of skill in the art as of July 1998, nor does he explicitly
state his intent to adopt Dr. Tjaden’s assessment. See
generally Ex. 2108. Given Dr. Shamos’s silence on this
matter, we adopt Dr. Tjaden’s assessment because it is
consistent with the ’263 patent and the asserted prior
art, and apply it to our obviousness evaluation below.
3. Sato Overview
Sato generally relates to a remote controller
suitable for use in operating audio/visual devices and,
in particular, one that is suitable for use in a system
for transmitting broadcast program reservation tables
through a computer network. Ex. 1115, 1:7–12. Figure
1, reproduced below, illustrates a block diagram of the
network system used in Sato. Id. at 2:61–62, 3:49–51.

93a

The network system illustrated in Figure 1 reproduced
above includes surface wave television (“TV”)
broadcasting station 1, satellite TV broadcasting
station 2, and frequency modulation (“FM”) radio
broadcasting station 3 that broadcast TV programs
and/or FM radio programs to audio/visual equipment
5. Id. at 3:51–4:1. Audio/video equipment 5 includes,
among other things, video tape recorder/player
(“VTR”) 11 and TV receiver 14, each of which is capable
of being controlled remotely by infrared signals. Id. at
4:1–9. The network system further includes personal
computer 21 connected to Internet 6. Id. at 4:46–47.

94a
Personal computer 21 sends commands to interface
box 25, which, in turn, uses infrared signals to
communicate desired modes of operation to VTR 11
and TV receiver 14. Id. at 4:52–59.
Figure 17, reproduced below, illustrates one
embodiment in accordance with the present invention.
Ex. 1115, 3:44–45, 9:29–30.

The embodiment illustrated in Figure 17 reproduced
above includes TV receiver 101 that is capable of being
set to a desired mode of operation using infrared
signals from interface box 104 connected to personal
computer 105. Id. at 9:30–36. This embodiment
further includes external portable computer 107,

95a
which connects to personal computer 105 through
Internet 106 to control TV receiver 101. Id. at 9:51–54.
For instance, external portable computer 107
generates hypertext commands for setting TV receiver
101 to a desired mode of operation. Id. at 9:56–59. The
hypertext commands are sent from external portable
computer 107 to personal computer 105 through
Internet 106. Id. at 9:56–61. When interface box 104
receives the hypertext commands from personal
computer 105, it issues an infrared signal
corresponding to the command contained in the
hypertext and, subsequently, sets TV receiver 101 to
the desired mode of operation. Id. at 9:61–65.
4. Humpleman Overview
Humpleman generally relates to the field of
networks and, in particular, to home networks that
have multimedia devices connected thereto. Ex. 1106,
1:16–18. One objective of Humpleman’s invention is to
provide a method for controlling a plurality of devices
connected to a home network, where at least one of
these devices is a multimedia device, and for
generating a program guide from the information
provided by the multi- media device on a second device
connected to the home network. Id. at 2:23–28.
According to Humpleman, a user may customize the
programming information that is displayed by the
program guide. Id. at 22:41–43. For instance, if a user
prefers not to display the schedule for a particular
channel because it contains inappropriate content, the
user may request that the channel be removed from
the program guide. Id. at 22:43–46.

96a
5. Claims 1, 5, 8, 11, 14, and 17 5
In its Petition, Comcast contends that Sato’s
program guide system accounts for most of the
limitations of independent claims 1, 5, 8, 11, 14, and
17, except “user profiles” used to generate the “remote
access interactive television program guide.” Pet. 20–
24 (citing Ex. 1115, 4:51–59, 5:18–25, 9:51–65, Figs. 1,
17; Ex. 1102 ¶¶ 104–107); see also id. at 27–35
(arguing the same). Comcast turns to Humpleman’s
generation of local customized program guides for
display by a remote device to teach this particular
limitation. Id. at 24–25 (citing Ex. 1106, 22:30–46; Ex.
1102 ¶ 108); see also id. at 31–32 (arguing the same).
For added clarity, we identify the arguments
presented by Comcast for all the limitations of
independent claim 1. We note that there is no dispute
between the parties as to whether the limitations of
independent claims 5, 8, 11, and 17 are essentially the
same as the limitations of independent claim 1.
Compare Pet. 8–11, 35, with PO Resp. 19–21.
Beginning with the preamble of independent claim 1,
Comcast contends that Sato teaches “a system for
selecting television programs over a remote access link
comprising an Internet communications path for
recording” because Sato discloses that external
portable computer 107 allows a remote user to
communicate with personal computer 105 over
Comcast contends that independent claims 1, 5, 8, 11, 14, and
17 stand or fall together. Pet. 8–11. Rovi does not dispute
Comcast’s assertion in this regard. Accord PO Resp. 19–40
(treating independent claims 1, 5, 8, 11, 14, and 17 as standing or
falling together).

5

97a
Internet 106 to control devices within the user’s home.
Pet. 27 (citing Ex. 1115, 9:51–65). According to
Comcast, Sato’s methods of controlling TV receiver 101
and VTR 11 involve the use of program guide
webpages to schedule recordings. Id. (citing Ex. 1115,
5:18– 25, 5:45–54, Fig. 2; Ex. 1102 ¶¶ 118–119).
Comcast argues that, because Sato’s external portable
computer 107 also is described as being capable of
controlling these same home electronic devices, a
person of ordinary skill in the art would have
understood that external portable computer 107
presents a program guide that allows the remote user
to select a program for recording, as this is how Sato’s
program guide system receives selections of programs.
Id.
Comcast contends that Sato teaches “local
interactive television program guide equipment on
which a local interactive television program is
implemented,” as recited in independent claim 1,
because Sato discloses that a family may connect its
home personal computer to the Internet to access
HTML program guides provided by the TV stations.
Pet. 27–28 (citing Ex. 1115, 4:46–54, 9:29–37, Fig. 1;
Ex. 1102 ¶ 122). Comcast argues that Sato’s browser,
when presenting the program guide web page,
constitutes the claimed “interactive television
program guide” because it is control software that is
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software (e.g., schedule a
recording on local equipment). Id. at 28 (citing Ex.
1115, 5:8–25).

98a
Comcast contends that Sato teaches “wherein the
local interactive television program guide equipment
includes user television equipment located within a
user’s home,” as recited in independent claim 1,
because TV receiver 101 and VTR 11 are components
of an audio/visual system located in a user’s home. Pet.
28 (citing Ex. 1115, 4:1–9, 4:46–51, 4:52–59, Fig. 1; Ex.
1102 ¶ 123). Comcast argues that Sato teaches
wherein “the local interactive television program guide
generates a display of one or more programs listings
for display on a display device at the user’s home,” as
recited in independent claim 1, because users access
the program guide webpage using their local personal
computer (i.e., personal computer 105), and a browser
that runs on the local personal computer generates a
program guide display, such as the one illustrated in
Sato’s Figure 2. Id. at 28–29 (citing Ex. 1115, 4:60–5:2,
5:45–54, Figs. 2, 5; Ex. 1102 ¶ 124).
Comcast contends that Sato teaches “a remote
program guide access device located outside the user’s
home on which a remote access interactive television
program guide is implemented,” as recited in
independent claim 1, because external portable
computer 107 is described as being capable of
controlling the same home electronic devices as
personal computer 105. Pet. 29 (citing Ex. 1115, 9:51–
65, Fig. 17; Ex. 1102 ¶¶ 125–131). According to
Comcast, a person of ordinary skill in the art would
have understood that Sato’s external portable
computer 107 presents a program guide display that
allows the remote user to select a program for
recording because this is how Sato’s program guide
system receives program selections. Id. (citing Ex.

99a
1102 ¶¶ 126, 129). Comcast also argues that, to the
extent Sato’s personal computer 105 (Figure 17) and
personal computer 21 (Figure 1) are not described as
the same element, it would have been obvious to a
person of ordinary skill in the art to allow external
portable computer 107 to control personal computer 21
because external portable computer 107 is described
as capable of controlling any electronic device in the
user’s home. Id. at 29–30 (citing Ex. 1115, 9:51–65; Ex.
1102 ¶ 130). Comcast further argues that Sato teaches
“wherein the remote program guide access device is a
mobile device,” as recited in independent claim 1,
because external portable computer 107 is a portable,
computer-based device (i.e., mobile device). Id. at 30
(citing Ex. 1102 ¶ 127).
Comcast contends that Sato’s remote guide
“generates a display of a plurality of program listings
for display on the remote program guide access
device,” as recited in independent claim 1, because
Sato discloses methods for certain home electronic
devices (e.g., TV receiver 101 or VTR 11) that involve
using program guide webpages to schedule recordings.
Pet. 30 (citing Ex. 1115, 5:45–54, Fig. 2). Comcast
argues that a person of ordinary skill in the art would
have understood that Sato’s external portable
computer 107 presents a program guide webpage to a
remote user, which, in turn, allows the remote user to
select a program for recording, because this is how
Sato’s program guide system receives selections for
programs. Id. (citing Ex. 1115, 4:1–9, 5:3–7, 5:18–25,
5:45–54; Ex. 1102 ¶¶ 132, 133). Comcast further
argues that Sato makes clear that its methods use
“hypertexts” rendered for display by a browser on an

100a
accessing computer, and this display includes a
plurality of program listings from which a remote user
may select a program for recording. Id. (citing Ex.
1115, Fig. 2).
Comcast also contends that, to the extent Sato does
not teach “wherein the display of the plurality of
program listings is generated based on a user profile
stored at a location remote from the remote program
guide access device,” as recited in independent claim
1, it would have been obvious to one of ordinary skill
in the art to generate customized program guides, as
taught by Humpleman, for display at Sato’s external
portable computer 107. Pet. 31 (citing, Ex. 1102
¶¶ 134–142). To support this argument, Comcast
directs us to various teachings in Humpleman that
pertain to generating local customized guides that are
capable of being displayed on any browser-equipped
device, including a remote personal computer. Id.
(citing Ex.1106, 2:31–39, 7:25–35, 20:47–51, 20:58–
21:3, 22:30–59). Comcast argues that it would have
been obvious to a person of ordinary skill in the art to
improve Sato’s web-based program guides with
Humpleman’s generation of local customized guides
for display by a remote device to provide the user
operating Sato’s external portable computer 107 with
better access to the content he/she desires. Id. at 32
(citing Ex. 1102 ¶¶ 131–133, 137–142).
Comcast contends that Sato’s remote guide
“receives a selection of a program listing of the
plurality of program listings in the display, wherein
the selection identifies a television program
corresponding to the selected program listings for
recording by the local interactive television program

101a
guide,” as recited in independent claim 1 because Sato
discloses that a user may click on the title of a desired
program displayed in the program guide webpage,
thereby causing Sato’s program guide system to send
a record command to local hardware. Pet. 33 (citing
Ex. 1115, 5:8–17, 5:8–25, 9:8–17, 9:56–65; Ex. 1102
¶¶ 148, 149). Comcast argues that, although Sato’s
program guide is discussed with respect to local
personal computers 21 and 105, Sato’s external
portable computer 107 also is capable of controlling
any home electronic device, which one of ordinary skill
in the art would have understood to include personal
TV receiver 101 or VTR 11 illustrated in Figure 1. Id.
at 33–34 (citing Ex. 1115, 5:45–54, Fig. 2; Ex. 1102
¶ 148).
Comcast contends that Sato’s remote guide
“transmits a communication identifying the television
program corresponding to the selected program listing
from the remote access interactive television program
guide to the local interactive television program guide
over the Internet communications path,” as recited in
independent claim 1, because, when the user selects
an operation (e.g., a program to be recorded), Sato’s
external portal computer 107 sends a hypertext
command to personal computer 105. Pet. 34 (citing Ex.
1115, 6:10–17, 9:56–65; Ex. 1102 ¶¶ 150, 151).
Comcast argues that, in the case of a scheduled
recording, this command includes a representation of
a “G code” that is associated with the selected
program. Id. (citing Ex. 1115, 6:10–17).
Lastly, Comcast contends that Sato teaches
“wherein the local interactive television program guide
receives the communication and records the television

102a
program corresponding to the selected program listing
responsive to the communication using the local
interactive television program guide equipment,” as
recited in independent claim 1, because control
software on personal computer 105, which also
includes a browser, receives the hypertext command
from external portal computer 107 and issues
appropriate commands to local hardware. Pet. 34–35
(citing Ex. 1115, 5:18–25, 9:56–65; Ex. 1102 ¶¶ 152,
153). In the case of a recording command, Comcast
argues that interface box 25 outputs an infrared signal
instructing VTR 11 to record the program at the
indicated time. Id. at 35 (citing Ex. 1115, 5:18–25); see
also id. at 9:29–65 (disclosing the same communication
process with respect to Figure 17—namely, interface
box 104 outputs an infrared signal that sets TV
receiver 101 to a desired mode of operation).
Turning to the rationale to combine, Comcast
contends that it would have been obvious to one of
ordinary skill in the art to incorporate Humpleman’s
generation of local customized program guides for
display by a remote device into Sato’s program guide
system for at least the following three reasons: (1) it
would have been nothing more than using known
techniques (i.e., Humpleman’s remote display of local
customized program guide webpages) to improve a
similar device (i.e., Sato’s program guide system) in
the same way; (2) it would have been a simple
substitution of Humpleman’s generation of local
customized program guides for Sato’s webpages to
produce the predictable result of preventing the
display of disfavored channels or content; and (3) using
Humpleman’s generation of local customized program

103a
guides to improve Sato’s program guide system—
specifically, its webpages—would provide a complete
picture of the content available on the user’s local
television receiver. Id. at 25–26 (citing Ex. 1106, 2:23–
28, 22:30–46, 22:60–65; Ex. 1115, 4:60–5:2, 9:51–65;
Ex. 1102 ¶¶ 111–114); see also id. at 32–33 (arguing
the same).
In its Patent Owner Response, Rovi presents a
number of arguments that can be grouped as follows:
(1) whether Comcast has demonstrated that Sato and
Humpleman, either alone or in combination, account
for all the limitations of independent claims 1, 5, 8, 11,
14, and 17; and (2) whether Comcast has
demonstrated that a person of ordinary skill in the art
would have had sufficient reasons to combine the
teachings of Sato and Humpleman. PO Resp. 21–40.
We address these groupings of arguments in turn.
a. Limitations
i. Sato Teaches Two Interactive Television Program
Guides
Rovi contends that each independent claim
requires two interactive television program guides—
namely, “a local interactive television program guide”
and “a remote access interactive television program
guide.” See PO Resp. 19–21. Rovi argues that Sato does
not teach two interactive television program guides
because it is directed to a rudimentary system for
controlling home peripherals through a network using
infrared signals. Id. at 22. In particular, Rovi argues
that Comcast improperly relies on the embodiment
illustrated in Sato’s Figure 17 to teach two interactive
television program guides because there is no

104a
disclosure of an interactive television program guide
in association with this figure, let alone a disclosure of
both a local interactive television program guide and a
remote access interactive television program guide. Id.
at 23 (citing Ex. 1115, 9:51–55, Fig. 17; Ex. 2108
¶¶ 133–136).
Next, Rovi contends that, although Sato discloses
passing hypertext commands for devices such as TV
receiver 101, illuminator 102, or air conditioner 103
from external portable computer 107 to personal
computer 105, Sato is silent with respect to what
information is displayed on external portable
computer 107, how the display is generated, and
whether a user is able to schedule a recording. PO
Resp. 23–24 (citing Ex. 1115, 9:56–65). Indeed, Rovi
asserts that a browser program for displaying
television listings would not be suitable for devices like
Sato’s illuminator 102 or air conditioner 103. Id. at 24
(citing Ex. 2108 ¶ 134). Rovi further argues that, with
respect to the embodiment illustrated in Sato’s Figure
17, Sato does not disclose any source of program guide
information for external portable computer 107 that
would be necessary for that computer to display
television listings, nor does Sato disclose what is
displayed on any browser of personal computer 105.
Id. (citing Ex. 2108 ¶ 135; Ex. 2107, 116:16–117:8).
Rovi then contends that, to overcome the failures of
proof with respect to the embodiment illustrated in
Sato’s Figure 17, Comcast improperly relies on the
teachings of the embodiment illustrated in Sato’s
Figure 1 and mistakenly asserts that a guide must
exist in the embodiment associated with Figure 17
because “that is how Sato’s system receives selection

105a
of programs.” PO Resp. 25 (quoting Pet. 23). Rovi also
argues that Comcast improperly relies on the program
listing screen illustrated in Sato’s Figure 2 as teaching
an interactive television program guide because this
figure is not discussed in connection with external
portable computer 107 illustrated in Sato’s Figure 17,
nor is it discussed with respect to any purported
remote interactive television program guide. Id. (citing
Ex. 1102 ¶¶ 118, 124). Indeed, Rovi argues that the
program listing screen illustrated in Sato’s Figure 2
would not be suitable for controlling illuminator 102 or
air conditioner 103 because these devices would not
use program listings. Id. (citing Ex. 2108 ¶¶ 138–140).
Rovi further argues that a person of ordinary skill in
the art would not have been motivated to combine the
embodiments illustrated in Sato’s Figures 1, 2, and 17
because they are different embodiments for different
purposes, and the embodiment in Figure 17 is a
separate, complete system that would not be
understood to work in conjunction with any other
embodiments. Id. at 26 (citing Jackel Int’l Ltd. v.
Mayborn USA, Inc., Case IPR2015-00979, slip op. at 4
(PTAB May 20, 2016) (Paper 21); Ex. 1115, 3:44–45,
9:30–31; Ex. 2108 ¶ 139).
Lastly, Rovi contends that modifying the teachings
of Sato with those of Humpleman would not produce
the claimed two interactive television program guides.
PO Resp. 27. Relying on the Humpleman provisional
(Ex. 1107), Rovi argues that the DirecTV Satellite
System (“DSS”) server observes a request from the
DSS’s Hypertext Markup Language (“HTML”) page,
retrieves the necessary information, and then passes
it along to the digital video cassette record’s HTML

106a
page. Id. at 28–29 (citing Ex. 1107, 14; Ex. 2108
¶¶ 115, 116). Rovi asserts that Humpleman’s DSS
server is not guide software that is capable of handling
recording requests and, therefore,
inserting
Humpleman’s HTML program guides into the
embodiment illustrated in Sato’s Figure 17 would not
yield the claimed two interactive program guides. Id.
at 29.
In its Reply, Comcast counters that Rovi’s
arguments attempt to “erect an artificial wall”
between the embodiment illustrated in Sato’s Figure
17 and Sato’s teachings of program guide webpages.
Pet. Reply 8. According to Comcast, a person of
ordinary skill in the art would not have read the
embodiment illustrated in Sato’s Figure 17 in isolation
from the rest of the teachings in Sato. Id. Comcast
argues that, because Sato explicitly discloses that “TV
receiver 101 . . . or any other electronic device can be
controlled through the external portable computer
107,” a person of ordinary skill in the art would have
understood that “any other electronic device” includes
VTR 11 illustrated in Sato’s Figure 1, and that VTR 11
could be instructed “to record the program at the
indicated time” responsive to a remote user selecting a
program on external portable computer 107. Id. at 9
(quoting Ex. 1115, 9:51–55, 5:18–25) (citing Ex. 1152
¶¶ 9, 20, 27, 28).
Next, Comcast argues that Sato provides extensive
disclosures of program guide webpages for scheduling
recordings. Pet. Reply 9 (citing Ex. 1115, 5:18–25,
5:45–54, Fig. 2). Comcast then asserts that, based on
these disclosures, a person of ordinary skill in the art
would have understood that using Sato’s personal

107a
computer 105 or external portable computer 107 to
control VTR 11 for purposes of recording a TV program
would have been done using the same program guide
webpages in the same way that is taught with respect
to Sato’s personal computer 21. Id. (citing Ex. 1115,
4:60–5:25, Figs. 1, 2, 16; Ex. 1152 ¶¶ 21–23). Comcast
argues that Sato’s Figures 1 and 17 have a number of
common components and the different purpose for
which Sato’s Figure 17 refers to is allowing external
portable computer 107 to control home electronic
devices remotely. Id. (citing Ex. 1152 ¶ 27).
Comcast further contends that there is no support
for Rovi’s assertion that Sato’s Figure 17 illustrates an
embodiment that would or could not use program
guide information. Pet. Reply 10. Indeed, Comcast
argues that the similarities between Sato’s Figures 1
and 17 “does not require a leap of inventiveness” to
support its assertion that external portable computer
107 illustrated in Figure 17 is capable of controlling
VTR 11 or TV receiver 101 using the same program
guide webpages used for controlling VTR 11 and TV
receiver 14 illustrated in Figure 1. Id. (quoting Boston
Scientific Scimed, Inc. v. Cordis Corp., 554 F.3d 982,
991 (Fed Cir. 2009)). Comcast further argues that
Rovi’s arguments presume that one of ordinary skill in
the art lacked any amount of creativity as to what
information is capable of being displayed on Sato’s
external portable computer 107 and essentially denies
such a person the ability to consider Sato, as a whole.
Id.
Comcast takes issue with Rovi’s argument that
Sato’s program guide webpages would not be suitable
for controlling illuminator 102 or air conditioner 103

108a
because these devices would not use program listings.
Pet. Reply 12 (citing PO Resp. 24–25, 27). Relying on
the supporting testimony of Dr. Tjaden, Comcast
asserts that different commands and interfaces would
be used for different devices. Id. (citing Ex. 1152 ¶ 23).
For instance, Comcast argues that Sato discloses
controls to maintain “an optimum value of the cooling
effect by the air conditioner 103” that would not be
suitable for controlling TV receiver 101. Id. (quoting
Ex. 1115, 9:39–41). Stated differently, Comcast argues
that there is no requirement in Sato that a single
universal user interface must be used to control all
home electronic devices. Id.
Comcast also contends that Rovi’s reliance on the
discussion of combining two different embodiments in
the Board’s Decision on Request for Rehearing in
Jackel International Ltd. v. Mayborn USA, Inc., Case
IPR2015-00979 (PTAB May 20, 2016) (Paper 21)
(“Jackel Int’l”) is misplaced. Pet. Reply 10. Comcast
asserts that Jackel Int’l is distinguishable from this
case because the Petitioner in Jackel Int’l argued that
combining two different embodiments was obvious
merely because “it’s the same reference,” whereas here
Comcast has provided detailed reasoning as to why
one of ordinary skill in the art would have been
motivated to use Sato’s external portable computer
107 illustrated in Figure 17 to control VTR 11 or TV
receiver 101 using the same program guide webpages
used to control VTR 11 or TV receiver 14 illustrated in
Figure 1. Id. at 10–11 (quoting Jackel Int’l, slip op. at
4) (citing Pet. 24–26).
Lastly, Comcast contends that it only relies on the
teachings of Humpleman in connection with the “user

109a
profiles” used to generate the “remote access
interactive television program guide,” as claimed. Pet.
Reply 17. Comcast asserts that, even though
Humpleman teaches communication between two
interactive television program guides, Comcast relies
on Sato’s teachings on this point. Id. at 17–18 (citing
Pet. 34–35; Ex. 1152 ¶¶ 31–33).
When evaluating claims for obviousness, it is well
settled that “the prior art as a whole must be
considered.” In re Hedges, 783 F.2d 1038, 1041 (Fed.
Cir. 1986); see also In re Merck & Co., Inc., 800 F.2d
1091, 1097 (Fed. Cir. 1986) (explaining that a
reference “must be read, not in isolation, but for what
it fairly teaches in combination with the prior art as a
whole”). “It is impermissible within the framework of
section 103 to pick and choose [teachings] from any one
reference . . . to the exclusion of other parts necessary
to the full appreciation of what such reference fairly
suggests to one of ordinary skill in the art.” Hedges,
783 F.2d at 1041 (quoting In re Wesslau, 353 F.2d 238,
241 (CCPA 1965)). In the same vein, “[a] reference
must be considered for everything that it teaches by
way of technology and is not limited to the particular
invention it is describing and attempting to protect.”
EWP Corp. v. Reliance Universal Inc., 755 F.2d 898,
907 (Fed. Cir. 1985).
Based on the record developed during trial, we
agree with Comcast that Sato renders the claimed
“local interactive television program guide” obvious
because Sato teaches or fairly suggests that a remote
user may access a program guide webpage, such as the
one illustrated in Figure 2, using a browser that runs
on personal computer 105 illustrated in Figure 17. See

110a
Pet. 27–29. With reference to Figure 17, Sato discloses
that external portable computer 107 sends hypertext
commands to personal computer 105 through Internet
106. Ex. 1115, 9:56–61. After personal computer 105
receives these hypertext commands, they are then sent
to interface box 104, which, in turn, generates infrared
signals responsive to the commands that are used to
control a number of home electronic devices (e.g., TV
receiver 101, illuminator 102, air conditioner 103, or
any other electronic device, such as VTR 11 illustrated
in Figure 1). Id. at 9:45–55, 9:61–65.
Although the corresponding description of Sato’s
Figure 17 is silent with respect to how personal
computer 105 receives and displays hypertext
commands from external portable computer 107, other
disclosures in Sato provide a full appreciation as to
how personal computer 105 operates in this regard.
For instance, and as discussed in more detail below,
after reading Sato in its entirety, one of ordinary skill
in the art would have recognized that there is a
corollary between personal computer 21 illustrated in
Figure 1 and personal computer 105 illustrated in
Figure 17. Sato discloses that personal computer 21
operates browser 41 that, when rendering a webpage
that includes a program guide display such as the one
illustrated in Figure 2, allows a user to record desired
programs. Ex. 1115, 4:60–5:17, 5:45–54, Figs. 2, 5.
Using mouse 24, the user may click on the desired
program and, in response, interface box 25 sends an
infrared signal to VTR 11 to record the selected
program. Id. at 5:18–25. Given these disclosures
regarding personal computer 21 illustrated in Figure
1, we find that one of ordinary skill in the art would

111a
have understood that personal computer 105
illustrated in Figure 17 operates a browser to access a
program guide webpage, such as the one illustrated in
Figure 2, in the same way as personal computer 21
operates a browser to access the same program guide
webpage.
Comcast’s declarant, Dr. Tjaden, provides
testimony that supports our finding that one of
ordinary skill in the art would have understood that
Sato’s personal computer 105 operates a browser that,
when rendering a webpage that includes a program
guide display such as the one illustrated in Figure 2,
allows a user to record desired programs. In his
Declaration accompanying the Petition, Dr. Tjaden
clarifies that “[o]ne of ordinary skill in the art would
[have understood] that . . . browser software operates
to receive user input and execute instructions in the
HTML code of the [webpage] (such as Sato’s recording
links).” Ex. 1102 ¶ 106 (citing Ex. 1115, 9:51–65). In
his Reply Declaration, Dr. Tjaden testifies that “a
[person of ordinary skill in the art] would have
understood that the computers depicted in [Figure] 17
would be implemented using the same browsers
disclosed in [Figures] 1 and 2.” Ex. 1152 ¶ 24. We
credit the aforementioned testimony of Dr. Tjaden
because it is consistent with reading Sato, as a whole,
without viewing the corresponding description of
Sato’s Figure 17 at the exclusion of other teachings in
Sato that provide a full appreciation as to how
personal computer 105 uses a browser to receive and
display hypertext commands.
Our finding in this regard also comports with our
construction of “interactive television program guide.”

112a
In our claim construction section above, we determine
that the broadest reasonable interpretation of an
“interactive television program guide” is “control
software operative at least in part to generate a
display of television program listings and allow a user
to navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. When the browser operating on Sato’s personal
computer 105 renders a webpage that includes a
program guide display and allows a user to select
desired programs for recording, we find that it
effectively operates as part of an “interactive television
program guide” because it displays program listings
and allows the user to navigate through the listings,
make selections, and control recording functions.
Based on the record developed during trial, we also
agree with Comcast that Sato renders the claimed
“remote access interactive television program guide”
obvious because Sato teaches or fairly suggests that
external portable computer 107 uses a browser to
present a program guide webpage that allows the
remote user to select a program for recording. See Pet.
29–30. As we explained above with respect to Sato’s
Figure 17, when external portable computer 107 is
connected to personal computer 105 through Internet
106, it is capable of controlling TV receiver 101,
illuminator 102, air conditioner 103, and any other
electronic device, such as VTR 11 illustrated in Figure
1. Ex. 1115, 9:51–55; see also id. at 4:1–5, 5:18–25
(disclosing that audio/visual system 5 that each family

113a
owns includes, among other things, VTR 11 that
records programs). 6
Although Sato discloses that external portable
computer 107 sends hypertext commands for
controlling these home electronic devices to personal
computer 105 (Ex. 1115, 9:59–61), the corresponding
description of Sato’s Figure 17 is silent as to what is
displayed on external portable computer 107 and how
the hypertext commands are sent to personal
computer 105. Nonetheless, after reading Sato in its
entirety, there are other disclosures in Sato that
provide one of ordinary skill in the art with a full
appreciation as to how external portable computer 107
operates to perform this function. For instance, Sato
suggests that external portable computer 107 uses a
browser to send hypertext commands to personal
computer 105 because Sato discloses that a hypertext
command is a key underlying concept of a webpage
displayed by a browser. See, e.g., id. at 5:30–31
(disclosing that “the [world wide web] page shown in
FIG. 2 contains a description in [the] form of a
hypertext as shown in FIG. 3”), Figs. 2, 3 (illustrating
web pages with hypertext commands). In addition,
apart from being described as both external and
portable, there is nothing in Sato that suggests that
external portable computer 107 is anything other than
Rovi does not argue that Sato’s disclosure of “any other
electronic device[s]” (Ex. 1115, 9:53–54) does not include VTR 11
illustrated in Figure 1. Instead, Rovi argues that Sato’s Figure 17
embodiment does not teach any interactive television program
guide for controlling such a VTR, and that it would not have been
obvious to combine Sato’s Figure 17 embodiment with the
separate embodiments of Figures 1 and 2. See PO Resp. 21–27.

6

114a
a general purpose computer that uses a browser to
render a webpage in the same way that both personal
computer 21 illustrated in Figure 1 and personal
computer 105 illustrated in Figure 17 use a browser to
render a webpage.
Comcast’s declarant, Dr. Tjaden, provides
testimony that supports our finding that one of
ordinary skill in the art would have understood that
Sato’s personal computer 107 operates a browser that,
when rendering a webpage that includes a program
guide display such as the one illustrated in Figure 2,
allows a user to record desired programs. In his
Declaration accompanying the Petition, Dr. Tjaden
testifies that a person of ordinary skill in the art would
have understood that:
“external portable computer 107” could and
would access the HTML program guide
[illustrated in Figure 2] using a browser to
implement a similar interactive television
program guide as described for the “personal
computer 105,” because this is how Sato
describes effecting the recording features and
both devices are computers described as
operating to set the user television equipment
to a desired mode of operation.
Ex. 1102 ¶ 128 (citing Ex. 1115, 5:3–7, 9:51–61); see
also Ex. 1152 ¶ 23 (Dr. Tjaden testifies that “external
portable computer 107 could and would display
television program listings like those described with
respect to [Sato’s Figures] 1 and 2 using Sato’s WWW
[world wide web] client-server teachings.”).

115a
Dr. Tjaden also testifies that, to the extent Sato
does not disclose explicitly how external portable
computer 107 operates, “a [person of ordinary skill in
the art] would be motivated to look elsewhere in the
Sato disclosure to determine how to configure the
‘external portable computer 107.’” Ex. 1102 ¶ 129.
According to Dr. Tjaden, “[w]hen doing so, a [person of
ordinary skill in the art] would [have recognized] that
both the ‘external portable computer 107’ and the
‘personal computer[s 21 and 105]’ are similar in that
they are personal computers [that] control
audio/visual equipment over the Internet via use of
WWW pages.” Id. We credit the aforementioned
testimony of Dr. Tjaden because it is consistent with
reading Sato, as a whole, without viewing the
corresponding description of Sato’s Figure 17 at the
exclusion of other teachings in Sato that provide a full
appreciation as to how external portable computer 107
uses a browser to display and send hypertext
commands.
Similar to our analysis above, our finding in this
regard also comports with our construction of
“interactive television program guide.” In our claim
construction section above, we determine that the
broadest reasonable interpretation of an “interactive
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. When the browser operating on Sato’s external
portable computer 107 renders a webpage that
includes a program guide display and allows a user to

116a
select desired programs for recording, as in Sato’s
Figure 2, we find that it effectively operates as part of
an “interactive television program guide” because it
displays program listings and allows the user to
navigate through the listings, make selections, and
control recording functions. Moreover, Sato’s external
portable computer 107 is a different platform than
personal computer 105 such that the interactive
television program guides that run on each of these
devices are separately identifiable. See supra Section
II.A (citing Ex. 1101, 12:29–32)
Rovi’s arguments that the program guide display
illustrated in Figure 2 of Sato would not be suitable for
controlling illuminator 102 or air conditioner 103
because these devices would not use program listings
is misplaced. See PO Resp. 24–25. There is no
requirement in Sato that a single universal user
interface, such as the program guide webpage
illustrated in Figure 2, must be used to control all
home electronic devices (i.e., TV receiver 101,
illuminator 102, air conditioner 103, VTR 11, etc.).
Separate commands for controlling Sato’s illuminator
102 and air conditioner 103 are not present in Figure
2 because there is no illuminator or air conditioner
being controlled in that embodiment. Comcast’s
declarant, Dr. Tjaden, testifies—and we agree—that
“[a] person of ordinary skill in the art would . . . have
understood that different devices around the home
require different commands and interfaces.” Ex. 1152
¶ 23 (citing Ex. 1115, 9:39–44, 9:51–65). Based on the
teachings of Sato identified above and Dr. Tjaden’s
supporting testimony, we find that one of ordinary
skill in the art would have appreciated the controls

117a
suitable for illuminator 102 and air conditioner 103
differ in certain respects from the controls suitable for
TV receiver 101 and VTR 11. Stated differently, one of
ordinary skill in the art would have recognized that
Sato’s program guide webpage is capable of being
equipped with the commands that correspond to the
actual electronic devices that are being controlled.
We do not agree with Rovi’s argument that a person
of ordinary skill in the art would not have been
motivated to combine the embodiments illustrated in
Sato’s Figures 1, 2, and 17 because they are different
embodiments for different purposes, and the
embodiment in Figure 17 is a separate, complete
system that would not be understood to work in
conjunction with any other embodiments. See PO
Resp. 26. Although Sato discloses that Figure 17
illustrates “an example of a system used for a different
purpose” (Ex. 1115, 9:29–30), Sato’s Figures 1 and 17
also share a number of common components (i.e.,
interface box 24 and 104, personal computer 21 and
105, TV receiver 14 and 101, Internet 6 and 106, etc.).
Given the similarities between these figures, it is
incumbent upon us in an obviousness evaluation to
look to the corresponding description of Figure 1 to get
a full appreciation as to what that figure fairly
suggests to one of ordinary skill in the art with respect
to the components it shares with Figure 17. See In re
Burckel, 592 F.2d 1175, 1179 (Fed. Cir. 1979) (“Under
35 U.S.C. § 103, a reference must be considered not
only for what it expressly teaches, but also for what it
fairly suggests.”).
To the extent Sato’s Figure 17 is directed to a
different purpose than Sato’s Figure 1, Comcast’s

118a
declarant, Dr. Tjaden, explains that “a [person of
ordinary skill in the art would have understood that
the ‘different purpose’ of [Figure] 17 is to control [home
electronic] devices remotely, including devices for
recording television programs.” Ex. 1152 ¶ 27 (citing
Ex. 1115, 9:51–65). Notwithstanding this difference
(or any other differences including the additional
electronic devices being controlled), the embodiment
illustrated in Figure 17 describes the same
functionality of the embodiment illustrated in Figure
1 with respect to controlling a TV receiver and other
electronic devices using a computer and infrared
signals. Compare Ex. 1115, 4:41–59, with id. at 9:51–
65. One of ordinary skill in the art would have known
to combine the embodiment illustrated in Figure 17
with certain elements of Figures 1 and 2 to achieve the
same functions described in relation to Figure 17. See
Tyco Healthcare Grp. LP v. Ethicon Endo-Surgery,
Inc., 774 F.3d 968, 978 (Fed. Cir. 2014) (“[O]ne of
ordinary skill is also one of ‘ordinary creativity’ that
knows how to combine familiar prior art elements to
achieve the same functions.”); Boston Sci. Scimed, 554
F.3d at 991 (“Combining two embodiments disclosed
adjacent to each other in a prior art patent does not
require a leap of inventiveness.”). Accordingly, we
agree with Dr. Tjaden that a person of ordinary skill
in the art would have looked to Figures 1 and 2 for a
teaching as to how the system illustrated in Figure 17
controls electronic devices, such as a VTR for
scheduling program recordings. Ex. 1152 ¶¶ 27, 28.
We agree with Comcast that Rovi’s reliance on the
discussion of combining two different embodiments in
the Board’s Decision on Request for Rehearing in

119a
Jackel Int’l is misplaced. See Pet. Reply 10. As an
initial matter, the Board’s Decision on Request for
Rehearing in Jackel Int’l is not precedential and is not
binding on this panel. Nevertheless, we have reviewed
this Decision on Request for Rehearing. Our review of
this Decision, however, reveals that it is
distinguishable from the arguments and evidence
presented by Comcast in this case.
In Jackel Int’l, the Board explained that the
petitioners challenged claims 6 and 13 of U.S. Patent
No. 8,695,841 B2 (“the ’841 patent”) as unpatentable
§ 103(a) over the combined teachings of Mutti, Kano,
and Suffa. Jackel Int’l, slip op. at 4. The Board then
explained that the petitioners relied on Mutti’s Figure
6 to account for the limitations of independent claim 1
of the ’841 patent, and then relied on Mutti’s Figures
1–5 to account for the limitations of claim 6 of the ’841
patent, which depends from independent claim 1. Id.
The Board explained that the petitioners’ rationale for
doing so was that “the ‘motivation to combine the
teachings of Mutti in one embodiment with the
teachings of Mutti in another embodiment is entirely
obvious—it’s the same reference.’” Id. The Board,
however, explained that this rationale was not
presented and developed in the petition itself, but
rather was presented in the first instance in the
request for rehearing. Id. at 5. The Board further
found that there was no motivation to combine the
embodiments where the modification involved adding
a feature from Figure 1 to perform a function that was
already being performed in Figure 6. See id.
In contrast, Comcast does not advocate that the
motivation to combine the teachings of the

120a
embodiment illustrated in Sato’s Figure 17 with the
teachings of the embodiments illustrated in Sato’s
Figures 1 and 2 is obvious simply because these figures
are in the same reference. Unlike in Jackel Int’l,
Comcast sets forth a motivation to combine the
embodiments in Figures 1 and 17 in the Petition itself,
which has a rational basis. In particular, Comcast
explains that the combination results in the remote
guide having a useful user interface allowing users to
select programs, as is done on the local device. Pet. 24.
Moreover, as we explained above, the evidence of
record provides a number reasons as to why one of
ordinary skill in the art would have read Sato, as a
whole, to get a full appreciation of the embodiment
illustrated in Sato’s Figure 17, including, but not
limited to: (1) Sato’s Figure 1 and 17 share common
components; (2) the supporting testimony of Dr.
Tjaden makes clear that certain aspects of Sato’s
Figure 17, specifically how personal computer 105 and
external portable computer 107 operate browsers that
render webpages including hypertext commands for
controlling home electronic devices, are described in
more detail with respect to Sato’s Figures 1 and 2; and
(3) one of ordinary skill in the art would have known
to combine the embodiment illustrated in Figure 17
with certain elements of Figures 1 and 2 to achieve the
same functions described in relation to Figure 17.
Lastly, contrary to Rovi’s argument, Comcast does
not seek to modify the teachings of Sato with those of
Humpleman to account for the claimed two interactive
television program guides. See PO Resp. 27–29. As we
explain above, Comcast’s asserted ground based on the
combined teachings of Sato and Humpleman relies on

121a
both Sato’s personal computer 105 and external
portable computer 107 operating browsers, each of
which renders webpages that include the program
guide display such as the one illustrated in Figure 2,
to account for the “local/remote access interactive
television program guides,” as claimed. See Pet. 23–24,
27–30, 34–35. Comcast turns to Humpleman to teach
the “user profiles” used to generate the “remote access
interactive television program guide,” as claimed. See
id. at 24–26, 30–33.
ii. Sato Teaches Guide-to-Guide Communication
Rovi contends that each independent claim
requires communication between two interactive
television program guides. See PO Resp. 19–21, 30.
Rovi argues that Comcast does not take the position
that the browsers operating on Sato’s external
portable computer 107 and personal computer 105
communicate with each other, but rather Comcast
only argues that these two computers can
communicate with each other. Id. at 30 (citing Pet. 34–
35). Relying on the testimony of its declarant, Dr.
Shamos, Rovi argues that any browsers in Sato do not
communicate with each other as the claims require. Id.
(citing Ex. 2018 ¶ 136). At most, Rovi argues that
Comcast identifies communications between the
alleged browser operating on Sato’s external portable
computer 107 and hardware (i.e., personal computer
105 and interface box 104), which improperly conflates
hardware and software, and does not comport with our
preliminary construction of “guide” that requires
“control software”—not hardware. Id.

122a
Rovi further contends that Comcast does not
identify any evidence that Sato’s external portable
computer 107 sends hypertext commands to the
browser operating on personal computer 105. PO Resp.
31. According to Rovi, this hypertext command passes
through personal computer 105 to interface box 104,
but there is no disclosure that any browser operating
on personal computer 105 actually receives the
hypertext command. Id. (citing Ex. 2108 ¶¶ 148, 149).
Rovi argues that Comcast’s declarant, Dr. Tjaden, does
not provide any additional support for this position
because he fails to identify any disclosure in Sato that
the browsers operating on external portable computer
107 and personal computer 105 communicate with
each other. Id. Indeed, Rovi asserts that Dr. Tjaden
conceded at his deposition that the hypertext
command is “probably not” sent to any browser on
Sato’s personal computer 105, and that Sato does not
disclose what software on personal computer 105
handles the hypertext command. Id. (citing Ex. 2107,
116:17–22); see also id. at 32 (arguing the same).
Next, Rovi contends that Sato does not teach that
browsers operating on external portable computer 107
and personal computer 105 communicate with each
other because Sato discloses the hypertext commands
are sent to the home electronic devices from external
portable computer 107 to interface box 104 through
personal computer 105. PO Resp. 32. To support this
argument, Rovi argues that Sato explicitly discloses,
“[i]n receipt of the hypertext, the interface box 104
issues an infrared signal corresponding to the
command in the hypertext.” Id. (quoting Ex. 1115,
9:61–63).

123a
Rovi then contends that Sato does not disclose the
browser operating on personal computer 105 receives
hypertext commands, or that the browser operating on
external portable computer 107 transmits hypertext
commands to a browser on personal computer 105. PO
Resp. 32. According to Rovi, Sato’s alleged browsers
cannot communicate with each other because there is
no corresponding browser communications protocol.
Id. (citing Ex. 2108 ¶¶ 149, 150). Instead, Rovi argues
that Sato’s personal computer 105 would act like a
server that receives hypertext commands and passes
those commands to interface box 104, without
necessarily invoking any browser. Id. (citing Ex. 1115,
6:28–39).
Lastly, Rovi contends Comcast improperly relies on
inherency arguments to demonstrate that Sato
discloses guide-to-guide communication. PO Resp. 33.
Relying on its declarant, Dr. Shamos, Rovi argues that
not only does Sato’s browsers lack a communication
protocol for communicating with each other, but Sato’s
external portable computer 107 sends hypertext
commands to personal computer 105—not any browser
operating on that computer. Id. (citing Ex. 2108 ¶ 150).
Rovi asserts that Comcast fails to show that Sato’s
Figure 17 requires a browser operating on personal
computer 105 that receives hypertext commands, but
rather Sato only discloses that personal computer 105
passes those commands to interface box 104. Id. (citing
Ex. 1115, 9:44–65).
In its Reply, Comcast counters that Rovi
mischaracterizes its position as relying on just the
browser operating on personal computer 105 to teach
the claimed “local interactive television program

124a
guide” Pet. Reply 12–13. Instead, Comcast argues that
it relies on the control software on Sato’s personal
computer 105—not just the browser—to account for
this limitation. Id. at 13 (citing Pet. 34–35; Dec. on
Inst. 22). Relying on the testimony of its declarant, Dr.
Tjaden, Comcast asserts that a person of ordinary skill
in the art would have understood that Sato’s external
portable computer 107 sends a hypertext command to
communications software on personal computer 105.
Id. (citing Ex. 1152 ¶¶ 29, 30, 36, 37). Comcast argues
that Rovi’s argument that the browsers on these two
computers do not communicate directly with each
other overlooks that, under the broadest reasonable
interpretation standard, the communications software
on Sato’s personal computer 105 is part of the claimed
“local interactive television program guide.” Id. (citing
Ex. 1152 ¶¶ 34, 25, 54, 55).
Comcast disagrees with Rovi’s argument that the
communications from Sato’s external portable
computer 107 are handled solely by hardware of
personal computer 105 or interface box 104 because
this argument ignores the actual skill in the relevant
art. Pet. Reply 13. Relying on the testimony of Dr.
Tjaden, Comcast argues that a person of ordinary skill
in the art would have understood that control software
of Sato’s personal computer 105 would process the
received hypertext commands and issue appropriate
commands to local devices. Id. (citing Ex. 1102 ¶¶ 152,
153; Ex. 1152 ¶¶ 36–40; Ex. 1115, 9:56–65, Fig. 17).
Comcast clarifies that it never argued in the Petition
that Sato’s browsers communicate directly with each
other. Id. at 14. To demonstrate that it did not present
this line of argument, Comcast directs us to the

125a
supporting testimony of Dr. Tjaden in his Declaration
accompanying the Petition. Id. (quoting Ex. 1102
¶ 153). Comcast reiterates that control software of
Sato’s personal computer 105 is considered properly to
be part of the claimed “local interactive television
program guide.” Id. (citing Ex. 1152 ¶¶ 34, 35, 49–51).
Comcast
also
disagrees
with
Rovi’s
characterization of Sato’s personal computer 105 as
merely a conduit that receives hypertext commands
for external portable computer 107 and passes those
commands to interface box 104. Pet. Reply 14 (citing
PO Resp. 32–33; Ex. 2108 ¶ 50). Comcast argues that
Rovi fails to appreciate that the control software on
Sato’s personal computer 105 would need to receive
the hypertext commands for external portable
computer 107 and generate an appropriate command
to send to interface box 104. Id. at 14–15 (citing Ex.
1152 ¶ 39). Comcast further argues that the hypertext
commands themselves are not suitable for direct
conversion to infrared signals, and that some
processing is required by Sato’s personal computer 105
in receipt of those commands. Id. at 15. Consequently,
Comcast asserts that control software on Sato’s
personal computer 105 receives and processes the
hypertext commands, and controls interface box 104 to
generate a suitable infrared signal. Id.
In response to the argument presented by Rovi’s
declarant, Dr. Shamos, that Sato’s personal computer
105 would be configured to use server software to
receive and forward hypertext commands, but would
not use a browser, Comcast contends that just because
Sato’s personal computer 105 supports external access
does not mean that it cannot allow users to control

126a
home electronic devices using a browser. Pet. Reply 15
(citing PO Resp. 32; Ex. 2108 ¶¶ 136–138, 149).
Relying on the testimony of Dr. Tjaden, Comcast
argues that a person of ordinary skill in the art would
have understood that Sato’s personal computer 105
includes a browser that allows it to control home
electronic devices, as well as a server component that
allows it to receive hypertext commands from external
portable computer 107 and execute those commands.
Id. (citing Ex. 1152 ¶¶ 35, 52, 53). Comcast, once
again, reiterates that control software on Sato’s
personal computer 105, collectively with the browser
that renders a webpage of a program guide display, is
considered properly as part of the extensive
arrangement of software that makes up the claimed
“local interactive television program guide.” Id. at 16
(emphasis omitted) (citing Ex. 1154 ¶¶ 54, 55, 169).
As we explain previously, a proper obviousness
evaluation requires reading Sato, as a whole. See
Hedges, 783 F.2d at 1041. Indeed, it would be
improper for us to focus solely on Sato’s Figure 17 and
its corresponding description at the exclusion of other
disclosures in Sato that are necessary to fully
appreciate what Sato suggests to one of ordinary skill
in the art about certain components in this figure, such
as personal computer 105. See id.
Upon reading Sato, as a whole, we agree with
Comcast that Sato renders communication between
the claimed “local/remote access interactive television
program guides” obvious because control software
operating on Sato’s personal computer 105, which also
includes a browser operating thereon, receives
hypertext commands from external portable computer

127a
107 and issues appropriate commands to local
hardware. See Pet. 34–35. In our previous analysis, we
note that Sato’s Figure 17 and its corresponding
description indicate that external portable computer
107 sends hypertext commands to personal computer
105 through Internet 106. Ex. 1115, 9:56–61. After
personal computer 105 receives these hypertext
commands, they are then sent to interface box 104,
which, in turn, generates infrared signals responsive
to the commands that are used to control a number of
home electronic devices (e.g., TV receiver 101,
illuminator 102, air conditioner 113, or any other
electronic device, such as VTR 11). Id. at 9:45–55,
9:61–65.
Although the corresponding description of Sato’s
Figure 17 is silent with respect to how personal
computer 105 receives hypertext commands from
external portable computer 107 and issues appropriate
commands to local hardware, other disclosures in Sato
provide a full appreciation as to how personal
computer 105 operates in this regard. For instance,
after reading Sato in its entirety, one of ordinary skill
in the art would have recognized that there is a
corollary between personal computer 21 illustrated in
Figure 1 and personal computer 105 illustrated in
Figure 17. Sato discloses that, when personal
computer 21 is connected to Internet 6, it receives
hypertext commands for determining the behavior of
home electronic devices through input/output (“I/O”)
interface 40. Ex. 1115, 5:45–49, Fig. 5. Browser 41
operating on personal computer 21 “deals with the
hypertext[ commands] to link text to data,” which
entails moving image data, audio data, and so forth to

128a
form a multimedia picture. Id. at 5:50–53, Fig. 5.
When a user selects a hypertext command in the
multimedia picture using a mouse or keyboard, that
command is transmitted from command transmitter
44 to interface box 25. Id. at 6:5–9. Given these
disclosures regarding personal computer 21 illustrated
in Figure 1, we find that one of ordinary skill in the art
would have understood that personal computer 105
illustrated in Figure 17 receives hypertext commands
via an I/O interface (i.e., control software) and then
transmits a selected command via a command
transmitter to local hardware in the same way that
personal computer 21 receives hypertext commands
via I/O interface 40 and transmits a selected command
via command transmitter 44 to local hardware.
Comcast’s declarant, Dr. Tjaden, provides
testimony that supports our finding that one of
ordinary skill in the art would have understood that
an I/O interface (i.e., control software) operating on
Sato’s personal computer 105 receives hypertext
commands from external portable computer 107 and
issues appropriate commands to local hardware. In his
Declaration accompanying the Petition, Dr. Tjaden
testifies that Sato’s external portable computer 107
and personal computer 105 communicate with each
other because “control software on the [personal
computer 105] would operate to receive the commands
from the external portable computer [107] over the
Internet [106], process the received commands and
output them from the interface box [104] to local
hardware.” Ex. 1102 ¶ 153 (citing Ex. 1115, 5:19–22,
9:51–65); Ex. 1152 ¶ 35 (testifying the same). We
credit the aforementioned testimony of Dr. Tjaden

129a
because it is consistent with reading Sato, as a whole,
without viewing the corresponding description of
Sato’s Figure 17 at the exclusion of other teachings in
Sato that provide a full appreciation as to how
personal computer 105 uses an I/O interface to receive
hypertext commands from external portable 107.
Our finding in this regard also comports with our
construction of “interactive television program guide.”
In our claim construction section above, we determine
that the broadest reasonable interpretation of an
“interactive television program guide” is “control
software operative at least in part to generate a
display of television program listings and allow a user
to navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. We clarify that neither the intrinsic or extrinsic
record limits the “guide” to a single software
application. See supra Section II.A. Consequently, we
find that the I/O interface (i.e., control software)
operating on Sato’s personal computer 105 that
receives hypertext commands from external portable
computer 107, together with the browser operating on
Sato’s personal computer 105 that renders a webpage
of a program guide display, collectively teaches a “local
interactive television program guide” because (1) these
software applications work together to display
program listings and allow the user to navigate
through the listings, make selections, and control
recording functions; and (2) more than one software
application may constitute a “guide.”
We do not agree with Rovi’s arguments that
Comcast only relies on communication between
browsers operating on external portable computer 107

130a
and personal computer 105 to account for
communication between two interactive television
program guides because they do not characterize
Comcast’s position with respect to this limitation
accurately. See PO Resp. 30–32. As we explain above,
Comcast contends—and we agree—that control
software for receiving hypertext commands on Sato’s
personal computer 105, together with the browser that
renders a webpage of a program guide display, falls
within a permissible arrangement of software that
constitutes the claimed “local interactive television
program guide.” See Pet. 34–35; Pet. Reply 12–16.
That is, we find that one of ordinary skill in the art
would have understood that Sato’s personal computer
105 includes both an I/O interface (i.e., control
software) and a browser application. Together, these
software applications constitute the “local interactive
television program guide” because they (1) receive
hypertext communications from the “remote access
interactive television program guide” (i.e., the browser
operating on Sato’s personal computer 107 that, when
rendering a webpage that includes a program guide
display such as the one illustrated in Figure 2, allows
a user to record desired programs); and (2) work
together to display program listings and allow the user
to navigate through the listings, make selections, and
control recording functions. 7
We recognize that, in our Decision on Institution, we stated that
we were persuaded that Comcast had presented “sufficient
evidence that would support a finding that Sato’s browsers
operating on personal computer 105 and external portable
computer 107 communicate with each other in the manner
required by the independent claims.” Dec. on Inst. 22–23. We note

7

131a
We also do not agree with Rovi’s characterization
of Sato’s personal computer 105 as merely a conduit
that receives hypertext commands for external
portable computer 107 and passes those commands to
interface box 104, without any processing by personal
computer 105 itself. See PO Resp. 32–33. Sato
discloses that personal computer 21 does not just
receive hypertext commands through I/O interface 40
and pass them to interface box 25, without any
additional processing. Instead, upon receipt of the
hypertext commands through I/O interface 40,
browser 41 formulates the commands into a webpage
for display to the user and, once a selection is made,
command transmitter 44 transmits the selected
command to interface box 25. Ex. 1115, 5:45–53, 6:5–
9, Fig. 5. Given that one of ordinary skill in the art
would have understood that Sato’s personal computer
21 and personal computer 105 include similar
components that possess the same capabilities and
functionalities, we find that, when personal computer
105 receives a hypertext command from external
portable computer 107, that command is processed at
least through an I/O interface prior to being

that the Petition contends that, in Sato, “[c]ontrol software on
[personal computer 105] (which includes the browser – local
guide) receives the hypertext command from the external
portable computer [107] and issues appropriate commands to
local hardware.” Pet. 34–35 (citing Ex. 1115, 9:56–65; Ex. 1102
¶¶ 152–153). Comcast addressed this point extensively in its
Petitioner Reply (Pet. Reply 12–17), and Rovi did not request a
sur-reply. Comcast also made this point at the oral hearing
(Hearing Tr. 37:5–10), and Rovi had ample opportunity to address
it at the oral hearing (id. at 78:18–80:6).

132a
transmitted to interface box 104 via a command
transmitter.
In his Reply Declaration, Dr. Tjaden reinforces that
a certain level of processing occurs in Sato’s personal
computer 105 prior to interface box 104 outputting an
infrared signal to local hardware. Dr. Tjaden testifies
that “[personal computer 105] would process the
hypertext command prior to transmission to the
interface box [104] as the hypertext commands
themselves would not be suitable for direct conversion
to infrared signal. Thus, control software of [personal
computer 105] would receive and process the hypertext
commands so as to be able to control the . . . interface
box [104].” Ex. 1152 ¶ 39. The processing identified in
Dr. Tjaden’s testimony is consistent with our
understanding that, when Sato’s personal computer
105 receives a hypertext command from external
portable computer 107, that command is processed at
least through an I/O interface prior to being
transmitted to interface box 104 via a command
transmitter.
Rovi’s declarant, Dr. Shamos, also acknowledges
that some level of processing occurs at Sato’s personal
computer 105 prior to interface box 104 outputting an
infrared signal to local hardware. Dr. Shamos testifies
that “personal computer 105 acts like a server to
receive external hypertext commands, convert them to
device code and pass them to infrared interface box
104. Such operations would not be conducted by a
browser.” Ex. 2108 ¶ 149. Dr. Shamos’s testimony that
personal computer 105 “converts” the hypertext
commands, along with his testimony that the
conversion operation “would not be conducted by a

133a
browser,” also is consistent with our understanding
that, when Sato’s personal computer 105 receives a
hypertext command from external portable computer
107, that command is processed at least through an
I/O interface prior to being transmitted to interface
box 104 via a command transmitter.
Lastly, we do not agree with Rovi’s arguments that
Comcast relies solely on inherency arguments to
account for communication between two interactive
television program guides for two reasons. See PO
Resp. 32–33. First, Rovi’s arguments are predicated,
in part, on the notion that the browsers operating on
Sato’s personal computer 105 and external portable
computer 107 communicate directly with each other.
As we explain above, Sato’s external portable
computer 107 sends hypertext commands to an I/O
interface (i.e., control software) operating on personal
computer 105—not the browser operating on this
computer. Second, when addressing this particular
issue in the Decision on Institution, we recognized that
Dr. Tjaden testifies that “[personal computer 105]
would necessarily include control software that
operated to access and display the program guide
pages, such as a browser.” Dec. on Inst. 23 (citing Ex.
1102 ¶ 53). In our view, this cited portion of Dr.
Tjaden’s testimony is directed to whether the browser
operating on personal computer 105 would necessarily
access and display program guide webpage—not
whether personal computer 105 includes an I/O
interface (i.e. control software) for receiving hypertext
commands from external portable computer 107. As
we explain above, we find that one of ordinary skill in
the art would have understood that Sato’s personal

134a
computer 105 receives hypertext commands via I/O
interface (i.e., control software) from external portable
computer 107 in the same way that personal computer
21 receives hypertext commands via I/O interface 40.
iii. Remaining Limitations
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Sato and Humpleman account for the remaining
limitations of in independent claims 1, 5, 8, 11, 14, and
17. See generally PO Resp. 19–34. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
remaining limitations, and we agree with and adopt
Comcast’s analysis. See Pet. 8–11, 27–35.
b.
Comcast Presents a Sufficient Rationale to
Combine the Teachings of Sato and Humpleman
Rovi contends that Comcast relies on disparate
portions of Sato and Humpleman without explaining
how or why one of ordinary skill in the art would have
combined these disparate portions, much less how that
proffered combination would have worked. PO Resp.
34 (citing Ex. 2108 ¶¶ 151–159). Rovi then presents
three arguments as to why one of ordinary skill in the
art would not have had sufficient reasons to combine
the teachings of Sato with those of Humpleman.
First, Rovi contends that a person of ordinary skill
in the art would not have been motivated to combine
the teachings of Sato and Humpleman because these
references
are
fundamentally
different
and
incompatible. PO Resp. 34. On the one hand, Rovi
argues that Humpleman is directed to a home network

135a
that creates HTML pages for each peripheral device
using information stored in those devices, and uses a
separate “Mini-Server” application to create an
interface. Id. at 34–35. Rovi asserts that Humpleman
describes the peripherals as “home devices,” but
explicitly excludes personal computers. Id. (citing Ex.
1106, 1:21–25). On the other hand, Rovi argues that
Sato is directed to an “[I]nternet downloaded
programmable remote control” that uses a browser on
a computer and infrared box to control peripherals
based on the transmission of hypertext commands. Id.
(citing Ex. 2108 ¶¶ 48, 49, 154). In addition, Rovi
argues that Humpleman discusses problems with
remote controls that “use static control and command
logic,” whereas Sato’s system uses a static control and
command device. Id. (quoting Ex. 1106, 1:45–67)
(citing Ex. 1106, 1:58–67; Ex. 1115, 6:40–51, 6:62–
7:54, 8:41–49). Consequently, Rovi asserts that Sato’s
interface box 104 is a remote control that can “only
control and command those home devices for which it
includes the necessary control and command logic,”
which is something that Humpleman sought to avoid.
Id. at 35 (quoting Ex. 1106, 1:55–58) (citing Ex. 2108
¶¶ 28, 153).
Second, Rovi contends that, because Humpleman
and Sato have different principles of operation, a
person of ordinary skill in the art would not have
looked to combine their teachings. PO Resp. 36 (citing
Ex. 2108 ¶ 154). Rovi argues that Humpleman’s
principle of operation is a browser- based home
network where each home electronic device connected
to the network contains one or more HTML pages that
provide for command and control of the home

136a
electronic device, whereas Sato’s principle of operation
is the control of home electronic devices using an
infrared remote control of the type that was criticized
in Humpleman. Id. (citing Ex. 1106, 1:45–67, 23:46–
49). Rovi also argues that Humpleman is directed to
generating HTML pages for each home electronic
device by using information stored in memory
installed on those devices. Id. at 37. By contrast, Rovi
argues that the embodiment illustrated in Sato’s
Figure 17 does not access information about a home
electronic device directly from that device. Id. (citing
Ex. 2107, 123:18–124:10). As a result, Rovi asserts
that implementing Humpleman’s customized HTML
pages in Sato’s program guide system would change
Sato’s principle of operation. Id. (citing In re Ratti, 270
F.2d 810, 813 (CCPA 1959); Plas-Pak Indus. Inc. v.
Sulzer Mixpac AG, 600 F. App’x 755, 757–59 (Fed. Cir.
2015)).
Third, Rovi contends that each of Comcast’s three
reasons as to why one of ordinary skill in the art would
have combined the teachings of Sato with those of
Humpleman do not withstand scrutiny. PO Resp. 38.
Turning to Comcast’s argument that the combination
would have been nothing more than using a known
technique to improve a similar device in the same way,
Rovi argues that Comcast does not explain how using
Humpleman’s HTML program guides would offer
“better access to desired information,” when Sato
already discloses television listings and allows the use
of G codes to control home electronic devices. Id. at 38–
39. Indeed, Rovi asserts that adding Humpleman’s
method of customizing HTML pages could require
more data, hardware, and steps because it would

137a
involve generating an HTML page for each of Sato’s
home electronic devices using information stored in
memory on each device. Id. (citing Ex. 1106, 2:40–63).
In Reply, Comcast maintains that a person of
ordinary skill in the art would have had sufficient
reasons to combine the teachings of Sato and
Humpleman. Pet. Reply 18 (citing Pet. 25–26, 31–33).
Beginning with Rovi’s argument that Sato and
Humpleman are fundamentally different and
incompatible, Comcast disagrees with this argument
because both references are directed to systems
operable to control devices from an external computer
over the Internet using program guide webpages. Id.
Comcast also does not agree with Rovi’s argument that
it relies on disparate portions of Sato and Humpleman
without explaining how or why a person of ordinary
skill in the art would have combined their teachings,
nor does Comcast agree with Rovi’s argument that it
has not explained how the proffered combination
would work. Id. Comcast counters that Rovi ignores
the detailed rationales to combine set forth in the
Petition and the supporting testimony of Dr. Tjaden.
Id. at 18–19 (citing Pet. 24–26, Ex. 1102 ¶¶ 111–114;
Ex. 1152 ¶¶ 44–46). Comcast then reiterates that a
person of ordinary skill in the art would have
incorporated Humpleman’s local generation of
customized program guides for display by a remote
device in Sato’s program guide system to allow a user
to avoid viewing a display that includes a disfavored
channel or content, and to provide the user with
improved access to his/her desired content. Id. (citing
Ex. 1106, 22:43–46; Ex. 1102 ¶ 46; Ex. 1152 ¶¶ 15, 16).

138a
Comcast does not agree with Rovi’s argument that
Sato’s program guide system involves static control
and command logic that is disparaged in
Humpleman’s “Background of the Invention” section.
Pet. Reply 19. According to Comcast, Rovi’s argument
in this regard incorrectly characterizes Sato as based
on a single component—namely, the infrared interface
(i.e., interface box 25 or 104)—without considering the
other components disclosed in Sato. Id. Comcast
argues that, even if each of Sato’s interface boxes 25
and 104 could be considered a static control and
command system, Rovi’s incorrect characterization
oversimplifies and overlooks significant portions of
Sato’s disclosure, such as Sato’s Internet-enabled
program guide system for setting recordings on local
equipment. Id. at 19–20 (citing Ex. 1115, 4:41–46, 9:8–
17; Ex. 1102 ¶ 104; Ex. 1152 ¶¶ 17–19). Comcast also
argues that Rovi mischaracterizes Dr. Tjaden’s
supporting testimony as purportedly admitting that
Sato’s interface boxes 25 and 104 use static control and
command logic. Id. at 20 (citing PO Resp. 36). Contrary
to Rovi’s characterization of this testimony, Comcast
asserts that Dr. Tjaden never conceded that he
incorrectly read Sato, but rather only indicated that
adding new electronic devices to Sato’s program guide
system would require Sato’s interface boxes 25 and
104 to be modified such that their code storage
portions 52 would include additional infrared signal
codes. Id. (citing Ex. 2107, 128:1–130:10; Ex. 1115,
8:35–40). Indeed, Comcast argues that modifying
Sato’s program guide system in this way meshes well
with Humpleman’s stated goals of improving coverage

139a
for different types and models of home electronic
devices. Id. (citing Ex. 1152 ¶¶ 44, 45).
Lastly, Comcast does not agree with Rovi’s
argument that modifying Sato’s program guide system
with Humpleman’s local generation of customized
program guides for display by a remote device would
change Sato’s principle of operation. Pet. Reply 20–21.
Relying on Federal Circuit precedent, Comcast argues
that modifying Sato with the teachings of Humpleman
would not destroy the “high level ability” of Sato’s
program guide system. Id. at 21 (citing In re Mouttet,
686 F.3d, 1322, 1332 (Fed. Cir. 2012)). In addition,
Comcast argues that Sato’s descriptions of interface
boxes 25 and 104 controlling home electronic devices
is not a principle of operation as that term has been
used by the Federal Circuit. Id. Instead, following the
guidance laid out in Mouttet, Comcast asserts that
Sato’s principle of operation would be more
appropriately characterized as setting recordings on a
multimedia system using a program guide system
connected to the Internet. Id. at 21–22 (citing Ex. 1152
¶¶ 41, 42).
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006), cited with approval in KSR, 550 U.S. at 418.

140a
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to combine
Sato’s program guide system with Humpleman’s local
generation of customized program guides for display
by a remote device. Humpleman discloses that a user
may customize the programming information that is
displayed by the program guide based on user
preferences. Ex. 1106, 22:41–43. For instance, if a user
prefers not to display the schedule for a particular
channel because it contains inappropriate content, the
user may request that the channel be removed from
the program guide. Id. at 22:43–46. Humpleman
makes clear that any device that employs a browser
may access the customized HTML guide, including one
located remotely from the home network via the
Internet. Id. at 5:55–67, 6:1–18, 20:32–51; see also Ex.
1102 ¶ 108 (testifying to the same).
With these disclosures from Humpleman in mind,
we agree with Comcast that, when, as here, a
technique has been used to improve one device (i.e.,
Humpleman’s local generation of a customized
program guide for display by a remote device), and one
of ordinary skill in the art would have recognized that
it would improve similar devices in the same way (i.e.,

141a
applying Humpleman’s technique to Sato’s program
guide system to render a customized program guide as
a webpage on the browser operating on Sato’s external
portable computer 107), using the technique is obvious
unless its actual application is beyond the skill level of
an ordinary skilled artisan. See Pet. 25–26; Ex. 1102
¶ 112. The record includes credible evidence
explaining why applying Humpleman’s technique to
Sato’s program guide system to render a customized
program guide as a webpage on the browser operating
on Sato’s external portable computer 107 would not
have been uniquely challenging or otherwise beyond
the skill level of an ordinary skilled artisan. Indeed,
Humpleman itself provides the necessary motivation
for doing so—namely, to allow a user to avoid viewing
a display that includes a disfavored channel or
content, and to provide the user with improved access
to his/her desired content. Ex. 1106, 22:43–46.
We do not agree with Rovi’s argument that Sato
and Humpleman are fundamentally different and
incompatible. See PO Resp. 34–35. As an initial
matter, Sato generally relates to a remote control that
operates home electronic devices, including one that is
capable of receiving a program guide webpage through
a computer network. Ex. 1115, [54], 1:8–13, 2:6–16.
Similarly, Humpleman generally relates to controlling
a plurality of home electronic devices connected to a
home network. Ex. 1106, at [54], 1:16–18, 2:15–28.
Consequently, we find that Sato and Humpleman fall
in the same field endeavor.
Dr. Tjaden’s testimony supports our finding Sato
and Humpleman are not fundamentally different and
incompatible. In his Declaration accompanying the

142a
Petition, Dr. Tjaden testifies that “[i]t would have been
obvious to one of ordinary skill in the art to incorporate
Humpleman’s
system
for
locally generating
customized HTML guides for display by a remote
device in Sato’s remote control system to provide users
with improved access to their desired content.” Ex.
1102 ¶ 111. In his Declaration accompanying the
Reply, Dr. Tjaden clarifies that combining the
teachings of Sato and Humpleman in this manner
“would improve Sato’s [stated objective] of ‘provid[ing]
a remote control device easily operated for
reservations, etc. of programs and flexibly coping with
changes to schedule of programs.’” Ex. 1152 ¶ 46
(quoting Ex. 1115, 2:6–9).
Contrary to Rovi’s arguments, we do not agree that
Sato’s program guide system uses a static control and
command logic device that is disparaged in
Humpleman’s “Background of the Invention” section.
See PO Resp. 35–36. Rovi’s argument in this regard
focuses on Sato’s interface boxes 25 and 104. When
taking a closer look at Humpleman’s Background of
the Invention” section, it criticizes the use of a single
remote control that “allows a homeowner to control
and command several different home electronic
devices using a single interface.” Ex. 1106, 1:47–49.
Humpleman discloses that such a remote control
“[would] not be able to control and command . . . new
home [electronic] devices that require control and
command logic that was not known at the time the
remote control . . . was developed.” Id. at 1:62–67.
These disclosures in Humpleman, however, do not
mention, much less criticize, using an interface box
that stores code data, which it then uses to generate

143a
infrared signals for transmission to home electronic
devices, as taught by Sato.
Even if we were to assume that Sato’s interface
boxes 25 and 104 have some relevance to the “static”
single remote control with the single user interface
that is disparaged in Humpleman’s “Background of
the Invention” section, there is sufficient evidence of
record to support a finding that one of ordinary skill in
the art would have understood that code storage
portions 52 of Sato’s infrared interface 25 and 104 are
not static, but rather configured to introduce and store
new code data for transmission to new home electronic
devices. Sato discloses that interface box 25 includes
code storage portion 52, which “stores all code data of
all devices of different manufacturers.” Ex. 1115, 6:40–
51, Figs. 8, 9; see also id. at 8:32–33 (disclosing the
same). Sato recognizes that “infrared codes may be
changed” and, therefore, discloses that “code storage
portion [52] may be configured to do both reading and
writing so as to introduce code data entered from the
exterior as a leaning [sic] remote controller.” Id. at
8:36–39. These disclosures would have been equally
applicable to interface box 104.
During his deposition, Dr. Tjaden was asked
whether code storage portion 52 of Sato’s infrared
boxes 25 and 104 are capable of storing new code data
for new home electronic devices. The relevant
exchange is reproduced below:
“Q So for the Sato IR box to send a new command,
the Sato IR box would have to be modified so that the
code storage portion stored a new code corresponding
to that command. Correct?

144a
A That is correct.”
Ex. 2107, 130:6–10. In his Declaration accompanying
the Reply, Dr. Tjaden testifies that the aforementioned
cross-examination testimony confirms that he never
used the word “static” and, instead, “affirm[s] that
Sato does not use ‘static control and command logic.’”
Ex. 1152 ¶ 45. Dr. Tjaden further testifies that,
because “Sato teaches that the IR box is modified to
send new commands, . . . it is necessarily not ‘static.’”
Id. We credit this testimony from Dr. Tjaden because
it is consistent with Sato’s disclosure that new code
data may be written to code storage portions 52 of
interface boxes 25 and 104. Neither Rovi nor its
declarant, Dr. Shamos, provides credible evidence that
undermines Dr. Tjaden’s position that Sato’s interface
boxes 25 and 104 are not “static” because their
respective code storage portions 52 are configured to
accept and store new code data for new home electronic
devices.
We also do not agree with Rovi’s argument that
modifying Sato’s program guide system with
Humpleman’s local generation of customized program
guides for display on a remote device would change
Sato’s principle of operation. See PO Resp. 36–38.
Rovi’s argument is, once again, predicated on the
notion that Sato’s infrared boxes 25 and 105 are the
type of “static” remote control devices disparaged in
Humpleman’s “Background of the Invention” section.
For the same reasons set forth above, we do not agree
that Sato’s infrared boxes 25 and 105 are the type of
“static” devices disparaged in Humpleman’s
“Background of the Invention” section, but rather the
evidence of record suggest that these infrared boxes

145a
are configured to accept and store new code data for
new electronic devices.
There are two additional reasons that we do not
agree with Rovi’s argument that modifying Sato’s
program guide system with Humpleman’s local
generation of customized program guides for display
by a remote device would change Sato’s principle of
operation. First, as we explain at length above,
Comcast proposes applying Humpleman’s local
generation of a customized program guide for display
by a remote device to Sato’s program guide system to
render a customized program guide as a webpage on
the browser operating on Sato’s external portable
computer 107. In our view, combining the teachings of
Sato and Humpleman in this way would have little, if
any, bearing on the code data stored in code storage
portions 52 of Sato’s interface boxes 25 and 104 that
are used to generate infrared signals for transmission
to home electronic devices. Even if combining the
teachings of Sato and Humpleman in the manner
asserted by Comcast would affect Sato’s interface
boxes 25 and 104, there is sufficient evidence of record
suggesting that their respective code storage portions
52 are not “static,” but rather configured so as to accept
and store new code data for new home electronic
devices.
Second, Rovi’s reliance on Ratti to support its
change in principle of operation argument is
misplaced. See PO Resp. 37. Ratti stands for the
proposition that, if the combination of references
would change the principle of operation of the prior
art, then the teachings cannot suffice to render claims
obvious. 270 F.2d at 813. Ratti, however, is

146a
inapplicable where the modified system still operates
“on the same principles as before.” In re Umbarger, 407
F.2d 425, 430–31 (CCPA 1969). In this case, modifying
Sato’s program guide system with Humpleman’s local
generation of customized program guides for display
by a remote device only affects how the customized
program guide webpage is generated and displayed at
Sato’s external portable computer 107. This does not
affect Sato’s overall principle of operation of a remote
control that operates home electronic devices,
including one that is capable of receiving a program
guide webpage through a computer network. Ex. 1115,
[54], 1:8–13, 2:6–16.
c. Summary
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1, 5, 8, 11, 14, and 17 would
have been obvious over the combined teachings of Sato
and Humpleman.
6. Claims 2, 6, 9, 12, 15, and 18
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Sato and Humpleman account for the remaining
limitations of dependent claims 2, 6, 9, 12, 15, and 18.
See generally PO Resp. 19–40. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
limitations, as well as its explanations as to how one
of ordinary skill in the art would have combined the
relevant teachings of Sato with those of Humpleman,
and we agree with and adopt Comcast’s analysis. See
Pet. 8–11, 24–26, 35–36. Comcast, therefore, has

147a
demonstrated by a preponderance of the evidence that
the subject matter of dependent claims 2, 6, 9, 12, 15,
and 18 would have been obvious over the combined
teachings of Sato and Humpleman.
C.

Obviousness Over the Combined Teachings of
Sato, Humpleman, and Lawler

Comcast contends that claims 3, 7, 10, 13, 16, and
19 of the ’263 patent are unpatentable under § 103(a)
over the combined teachings of Sato, Humpleman, and
Lawler. Pet. 36–37. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1102 ¶¶ 165–170. In its Patent Owner
Response, Rovi contends that (1) Lawler does not
account for the claimed “local/remote access
interactive television guides” in communication with
each other and, therefore, Lawler does not remedy the
purported deficiencies in the combined teachings of
Sato and Humpleman; and (2) Comcast does not
present sufficient reasoning as to why one of ordinary
skill in the art would combine the teachings of Lawler
with those of Sato and Humpleman. PO Resp. 41–43.
Rovi relies upon the Declaration of Dr. Shamos to
support its positions. Ex. 2108 ¶¶ 160–162.
We begin our analysis with a brief overview of
Lawler, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.

148a
1. Lawler Overview
Lawler generally relates to a system for recording
a program on an interactive viewing system and, in
particular, to a system that allows a user to identify a
program for recording using an interactive program
guide and then designate the identified program for
automated recording at some later time. Ex. 1109, 1:8–
13. According to one aspect of the invention disclosed
in Lawler, the recording device is associated with a
head end. Id. at 2:24–25. At the direction of the head
end, the recording device records the selected program
and digitally stores it in a memory at the head end. Id.
at 2:25–27. The recorded program may then be
retrieved from the head end by the user for display at
a viewer station. Id. at 2:27–29. Lawler discloses that
this process would allow multiple users to access a
single recording of the program, as well as make the
program available to other users who did not set the
recording, but nonetheless wish to view the program
at some later time. Id. at 13:34–38.
2. Claims 3, 7, 10, 13, 16, and 19
Dependent claim 3 recites “wherein local
interactive television program guide records the
television program corresponding to the selected
program listing at a television distribution facility.”
Ex. 1101, 29:1–4. Dependent claims 7, 10, 13, 16, and
19 recite a similar limitation. Id. at 29:49–52, 30:26–
29, 30:64–67, 31:36–39, 32:34–38.
In its Petition, Comcast contends that Lawler
teaches recording programs at a central head end (i.e.,
a television distribution facility) in lieu of recording
programs locally. Pet. 36–37 (citing Ex. 1109, 2:24–29,

149a
13:26–38; Ex. 1102 ¶ 166). Comcast then argues that,
as a substitute for recording a program locally, it
would have been obvious to modify the Sato and
Humpleman combination to include recording
programs at a television distribution facility, as taught
by Lawler, because there are certain advantages to
recording programs at the television distribution
facility, such as making recorded programs available
for other subscribers and eliminating the need for a
separate recorder. Id. at 37 (citing Ex. 1102 ¶¶ 167,
168). According to Comcast, this proffered combination
would be nothing more than using a known technique
(i.e., Lawler’s centralized recording at a television
distribution facility) to improve a similar system (i.e.,
the combined Sato and Humpleman remote access
system), and would produce a predictable result that
provides the stated benefits of Lawler. Id.
In its Patent Owner Response, Rovi contends that
Lawler does not account for the claimed “local/remote
access interactive television guides” in communication
with each other and, therefore, Lawler does not
remedy the purported deficiencies in the combined
teachings of Sato and Humpleman. PO Resp. 41 (citing
Ex. 1109, 5:38–42, 6:37–41, 7:3–5). We do not agree
with this argument because, as we explain previously
in our analysis of the ground based on the combined
teachings of Sato and Humpleman, Sato teaches the
claimed “local/remote access interactive television
guides” in communication with each other. See supra
Section II.B.5.a.i–ii. Consequently, there are no
deficiencies with respect to these elements in the
combined teachings of Sato and Humpleman for
Lawler to remedy.

150a
Next, Rovi contends that Comcast’s explanations
for combining the teachings of Sato, Humpleman, and
Lawler are conclusory and fail to provide a sufficient
reason for making the proffered combination. PO
Resp. 42 (citing Ex. 2108 ¶¶ 160–162). According to
Rovi, Comcast fails to explain how or why one of
ordinary skill in the art would have incorporated
Lawler’s technique for recording programs at a
television distribution facility into the combined
program guide system of Sato and Humpleman. Id. In
particular, Rovi argues that Comcast does not explain
how a person of ordinary skill in the art would have
moved the recorder to Lawler’s television distribution
facility, while still maintaining the operability of the
combined program guide system of Sato and
Humpleman, including the ability for the user to
control operations of Sato’s VTR 11 using interface box
25, both of which are local to the user’s system. Id. at
43. Rovi further argues that Comcast does not explain
how the combined program guide system of Sato and
Humpleman would be modified to send commands to
Lawler’s television distribution facility. Id.
In its Reply, Comcast counters that Lawler’s
centralized recording still would allow the user to view
recorded content at his/her home using the combined
program guide system of Sato and Humpleman. Pet.
Reply 22. Comcast argues that integrating this
teaching in Lawler into the combined program guide
system of Sato and Humpleman would provide the
added advantage of allowing the physical storage of
content to occur at Lawler’s television distribution
facility, which was, and remains, a well-known method

151a
for increasing storage efficiency. Id. (citing Ex. 1152
¶ 47).
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of Sato,
Humpleman, and Lawler account for the limitation of
dependent claim 3, and the similar limitations of
dependent claims 7, 10, 13, 16, and 19. See generally
PO Resp. 41–43. We have reviewed Comcast’s
explanations and supporting evidence as to how this
proffered combination teaches these limitations, and
we agree with and adopt Comcast’s analysis. See Pet.
36–37.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to modify the
combined program guide system of Sato and
Humpleman to include recording programs at a
television distribution facility, as taught by Lawler.
When, as here, a technique has been used to improve
one device (i.e., Lawler’s centralized recording at a
television distribution facility), and one of ordinary
skill in the art would have recognized that it would
improve similar devices in the same way (i.e., applying
Lawler’s technique to the combined program guide
system of Sato and Humpleman to make recorded
programs available for other subscribers and to
eliminate the need for a separate recorder), using the
technique is obvious unless its actual application is
beyond the skill level of an ordinary skilled artisan.
See Pet. 36–37; Ex. 1102 ¶¶ 167, 168. The record
includes credible evidence explaining why applying
Lawler’s technique to the combined program guide

152a
system of Sato and Humpleman to make recorded
programs available to multiple subscribers at a
television distribution facility would not have been
uniquely challenging or otherwise beyond the skill
level of an ordinary skilled artisan. Indeed, Lawler
itself provides the necessary motivation for doing so—
namely, “[to] allow multiple users to access a single
recording of the program.” Ex. 1109, 13:33–35.
We do not agree with Rovi’s argument that
Comcast does not explain how a person of ordinary
skill in the art would have moved the recorder to
Lawler’s television distribution facility, while still
maintaining the operability of the combined program
guide system of Sato and Humpleman. PO Resp. 43.
As Comcast explains in the Petition, modifying the
Sato and Humpleman combination to include
recording programs at a television distribution facility,
as taught by Lawler, serves as a substitute for the
user’s ability to record programs locally on Sato’s VTR
11 using interface boxes 25 or 104. See Pet. 37. For
instance, instead of using interface boxes 25 or 104 to
instruct Sato’s VTR 11 to record programs, which still
remains a viable option, a user would communicate
with Lawler’s television distribution facility to record
programs via Sato’s external portable computer 107 or
personal computer 105. Dr. Tjaden testifies—and we
agree—that recording programs at Lawler’s television
distribution facility, in lieu of recording programs
locally on Sato’s VTR 11, would increase storage
efficiency by making these recordings available to
other users and it would eliminate the need for each
user maintain a separate recorder. See Ex. 1102 ¶ 168;
Ex. 1152 ¶ 47.

153a
We also do not agree with Rovi’s argument that
Comcast does not explain how the combined program
guide system of Sato and Humpleman would be
modified to send commands to Lawler’s television
distribution facility. See PO Resp. 43. Instead, the
evidence of record supports that Lawler’s television
distribution facility would be capable of receiving
commands from the combined program guide system
of Sato and Humpleman. In particular, Dr. Tjaden
testifies that “[o]ne of ordinary skill in the art would
readily recognize that [the] arrangement [disclosed in
Lawler] is typical of cable or satellite systems such as
those described in Sato and Humpleman.” Ex. 1102
¶ 166. Moreover, Rovi seeks a particular explanation
as to “what specific component would be used to make
the communication and the format of that
communication.” PO Resp. 43. Lawler, however, does
not restrict the network by which the viewer stations
and television distribution facility communicate to any
particular type of network. Ex. 1109, 5:29–36.
Similarly, the ’263 patent does not restrict how
program guide information may be communicated
between remote program guide access device 24 and
interactive television program guide equipment 17.
Ex. 1101, 13:7–19 (disclosing that program guide
information may be communicated using “any suitable
application layer protocol”). Because neither Lawler
nor the ’263 patent limits the means of
communication, we find that a person of ordinary skill
in the art would have understood that the combined
program guide system of Sato and Humpleman would
have been capable of communicating commands to
Lawler’s television distribution facility via a network,

154a
such as Sato’s Internet 106, for the purpose of
recording programs at the television distribution
facility.
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of dependent claims 3, 7, 10, 13, 16, and 19 would have
been obvious over the combined teachings of Sato,
Humpleman, and Lawler.
D. Obviousness Over the Combined Teachings of
Sato, Humpleman, and Allport
Comcast contends that claim 4 of the ’263 patent is
unpatentable under § 103(a) over the combined
teachings of Sato, Humpleman, and Allport. Pet. 38–
39. Comcast explains how this proffered combination
teaches or suggests the subject matter of this
challenged claim, and provides reasoning as to why
one of ordinary skill in the art would have been
prompted to modify or combine the references’
respective teachings. Id. Comcast also relies upon the
Declaration of Dr. Tjaden to support its positions. Ex.
1102 ¶¶ 173–176. In its Patent Owner Response, Rovi
contends that (1) Allport does not account for the
claimed “local/remote access interactive television
guides” in communication with each other and,
therefore, Allport does not remedy the purported
deficiencies in the combined teachings of Sato and
Humpleman; and (2) Comcast does not present
sufficient reasoning as to why one of ordinary skill in
the art would combine the teachings of Allport with
those of Sato and Humpleman. PO Resp. 41–44. Rovi
relies upon the Declaration of Dr. Shamos to support
his positions. Ex. 2108 ¶¶ 163–164.

155a
We begin our analysis with a brief overview of
Allport, and then we address the parties’ contentions
with respect to dependent claim 4.
1. Allport Overview
Allport generally relates to remote controls for
controlling consumer devices and, in particular, to
remote controls for controlling a wide variety of
consumer devices that are capable of using data
downloaded from the Internet and other data sources.
Ex. 1110, 1:18–23. According to Allport, a “welcome”
screen that may be displayed on the remote control (in
accordance with the invention disclosed in Allport)
provides a user with the option of accessing a
scheduling feature, which, in turn, allows the user to
monitor and control, among other things, the prior
history of the tasks performed by the devices under the
control of the remote control. Id. at 10:17–26. Allport
also discloses a “past program[]” screen that allows the
user to review the past actions taken by users of the
remote control. Id. at 21:32–41.
2. Claim 4
Dependent claim 4 recites “wherein the local
interactive
television
program
guide
stores
information indicating the user who selected the
program listing with the remote access interactive
television program guide.” Ex. 1101, 29:5–8.
In its Petition, Comcast contends that, to the extent
Sato and Humpleman may not disclose explicitly
storing information indicating which user selected the
program for recording, this would have been an
obvious modification in view of the teachings of

156a
Allport. Pet. 38. Comcast argues that Allport teaches
storing information about a user who requests a
command from a remote control, such as which user
scheduled a particular recording. Id. at 38–39 (citing
Ex. 1110, [57], 10:17–26, 20:55–21:2, 21:31–41; Ex.
1102 ¶¶ 174, 175). Comcast then argues it would have
been obvious to use Allport’s technique of tracking a
user’s actions in the combined program guide system
of Sato and Humpleman because it would provide
certain benefits disclosed by Allport, including
allowing parents to view the actions taken by their
children. Id. at 39 (citing Ex. 1102 ¶ 176). According to
Comcast, this proffered combination would be nothing
more than using a known technique (i.e., Allport’s
tracking of a user’s actions) to improve a similar
system (i.e., the combined Sato and Humpleman
remote access system), and would obtain the
predictable result of allowing users individualized
experiences and facilitating tracking of those who
scheduled recording events. Id.
In its Patent Owner Response, Rovi contends that
Allport does not account for the claimed “local/remote
access interactive television guides” in communication
with each other and, therefore, Allport does not
remedy the purported deficiencies in the combined
teachings of Sato and Humpleman noted above. PO
Resp. 41–42 (citing Ex. 1110, 20:21–40, 20:55–21:22).
We do not agree with this argument because, as we
explain previously in the ground based on the
combined teachings of Sato and Humpleman, Sato
teaches the claimed “local/remote access interactive
television guides” in communication with each other.
See supra Section II.B.5.a.i–ii. Consequently, there are

157a
no deficiencies with respect to these elements in the
combined teachings of Sato and Humpleman for
Allport to remedy.
Next, Rovi contends that Comcast’s assertions for
combining the teachings of Sato, Humpleman, and
Allport are conclusory and fail to provide a sufficient
rationale for making the proffered combination. PO
Resp. 43 (citing Ex. 2108 ¶¶ 163, 164). According to
Rovi, Comcast fails to explain how or why one of
ordinary skill in the art would have incorporated
Allport’s technique for tracking a user’s actions at a
central remote device into the combined program
guide system of Sato and Humpleman. Id. at 43–44. In
particular, Rovi argues that Comcast does not explain
how a person of ordinary skill in the art would have
integrated Allport’s central remote device, which
stores tracking information, in the combined program
guide system of Sato and Humpleman, which already
allows multiple devices to issue commands to home
electronic devices. Id.
In its Reply, Comcast maintains that Allport’s
technique for tracking a user’s actions would improve
the combined program guide system of Sato and
Humpleman to obtain the predictable result of
allowing users to have individualized experiences and
to facilitate tracking of those who scheduled program
recordings. Pet. Reply 23 (citing Pet. 38–39; Ex. 1102
¶ 176). Comcast argues that adding this teaching in
Allport would improve the combined program guide
system of Sato and Humpleman because it would
provide the added advantage of tracking a user’s
actions, which was, and remains, a well-known
method for improving individualized experiences and

158a
facilitates tracking of which user scheduled a program
recording. Id. (citing Ex. 1152 ¶ 48).
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of Sato,
Humpleman, and Allport account for the limitation of
dependent claim 4. See generally PO Resp. 41–44. We
have reviewed Comcast’s explanations and supporting
evidence as to how this proffered combination teaches
this limitation, and we agree with and adopt Comcast’s
analysis. See Pet. 38–39.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to modify the
combined program guide system of Sato and
Humpleman to use Allport’s technique of tracking a
user’s actions. In particular, we agree with Comcast
that it would have been obvious to one of ordinary skill
in the art to integrate the feature of using Allport’s
technique of tracking a user’s actions in the combined
program guide system of Sato and Humpleman
because it would provide certain benefits disclosed by
Allport, including tracking those who scheduled
recording
events.
Indeed,
Allport
explicitly
contemplates a parental control feature that allows a
parent to view actions taken by their children, such as
requests to schedule recording events. See Ex. 1110,
20:55–21:10. In his Declaration accompanying the
Petition, Dr. Tjaden reinforces that combining the
teachings of Sato, Humpleman, and Allport in the
manner asserted by Comcast would have been obvious
to one of ordinary skill in the art because it integrates
the feature of tracking “information indicating the

159a
user who selected the program listing,” as taught by
Allport, into the combined program guide system of
Sato and Humpleman “to gain features such as
parental controls.” Ex. 1102 ¶ 176 (emphasis omitted).
We do not agree with Rovi’s argument that
Comcast does not explain how a person of ordinary
skill in the art would have integrated the feature of
using Allport’s central remote device into the
combined program guide system of Sato and
Humpleman. See PO Resp. 43–44. This argument is
predicated on the notion that Allport’s central remote
device is bodily incorporated into the combined
program guide system of Sato and Humpleman. The
specific structure of Allport’s central remote device,
however, is not relevant to Comcast’s ground based on
the combined teachings of Sato, Humpleman, and
Allport because Comcast does not advocate combining
the specific structure of Allport’s central remote device
with the combined program guide system of Sato and
Humpleman. Instead, Comcast argues that Allport’s
technique of tracking a user’s actions is a well-known
method, and using this technique with the combined
program guide system of Sato and Humpleman
provides the added benefit of tracking those who
scheduled recording events, such as parents who wish
to view actions taken by their children. See In re
Nievelt, 482 F.2d 965, 968 (CCPA 1973) (“Combining
the teachings of references does not involve an ability
to combine their specific structures.”). For the reasons
we identify above, the evidence of record supports
Comcast’s explanation in this regard. See Pet. 39; Pet.
Reply 23–24; Ex. 1102 ¶ 176; Ex. 1152 ¶ 48.

160a
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of dependent claim 4 would have been obvious over the
combined teachings of Sato, Humpleman, and Allport.
E. Obviousness Over the Combined Teachings of Woo,
Mizuno, and Rzeszewski
Comcast contends that claims 1, 2, 5, 6, 8, 9, 11, 12,
14, 15, 17, and 18 of the ’263 patent are unpatentable
under § 103(a) over the combined teachings of Woo,
Mizuno, and Rzeszewski. Pet. 39–62. Comcast
explains how this proffered combination teaches or
suggests the subject matter of each challenged claim,
and provides reasoning as to why one of ordinary skill
in the art would have been prompted to modify or
combine the references’ respective teachings. Id.
Comcast also relies upon the Declaration of Dr. Tjaden
to support its positions. Ex. 1102 ¶¶ 180–244. As we
explain in our Introduction section above, Rovi waived
both briefing on this ground, as well as consideration
of this ground at the consolidated oral hearing. See
supra Section I.
We begin our analysis with brief overviews of Woo,
Mizuno, and Rzeszewski, and then we address
whether Comcast provides a sufficient rationale for
combining the teachings of Woo and Mizuno.
1. Woo Overview
Woo generally relates to controlling a recording
device that receives commercial broadcasts and, in
particular, to eliminating commercials from recorded
TV broadcasts. Ex. 1116, 1:7–11. According to Woo, a
user selects a desired TV program for recording from a

161a
menu, and selects whether to record the program
commercial-free. Id. at 1:43–45. One feature offered by
Woo allows a user who has not selected a particular
channel for recording to call in by telephone to a
control station, which, based on the direction of the
user, enters appropriate data into the user’s processor
in order to record a desired program. Id. at 2:17–21.
Figure 1 of Woo, reproduced below, illustrates an
embodiment of the broadcast recording control system
in accordance with the present invention. Ex. 1116,
2:39–41, 2:55–57.

As shown in Figure 1 reproduced above, system 100
includes control station 120 with a plurality of TV
monitors 130, a plurality of controllers 140,
transmitter 150, and scheduler 160. Id. at 2:59–62.
Scheduler 160 develops a TV program schedule table
of future TV broadcasts. Id. at 3:8–10. The TV
program schedule table identifies TV broadcasts by
name, channel, and day of the week. Id. at 3:10–12.
System 100 also includes a plurality of processors 180,
each of which is associated with one of a plurality of
video cassette recorders (“VCRs”) 190. Id. at 3:28–30.

162a
Figure 4 of Woo, reproduced below, illustrates the
display of processor 180 depicted in Figure 1 of Woo.
Ex. 1116, 2:46, 6:51–53.

As shown in Figure 4 reproduced above, display 400
includes, among other things, date/time field 450 to
display the present date and time. Id. at 6:62–63.
Display 400 also includes a number of fields for
accessing the TV program schedule table, such as
channel field 455, date field 460, “showtime” field 465,
and “showname” field 470. Id. at 6:63–7:10.
2. Mizuno Overview
Mizuno generally relates to controlling remote
devices at remote locations via the Internet, preferably
using hypertext transfer protocol. Ex. 1117, 1:4–8. In
one embodiment, Mizuno discloses a controller that
serves HTML pages to remote user computers for
controlling a number of devices located in a home, such
as TVs and VCRs. Id. at 1:24–2:12. Figure 1 of Mizuno,
reproduced below, illustrates a block diagram of the
system architecture used to implement this
embodiment.

163a

As shown in Figure 1 above, user computer UC1 uses
ethernet network connection NC1 to connect to
controller CO1 composed of firmware FI1, which, in
turn,
connects
to
a
number
of
target
appliances/equipment (e.g., TVs, VCRs, etc.). Id. at
3:7–10. User computer UC1 includes WWW browser
WB1 that includes graphical interface elements GE1,
such as buttons BU1, textbox TE1, and menus ME1
that may be used to control the target
appliances/equipment TA1. Id. at 3:15–18. Controller
CO1 creates a web page of TV listings, which, when
served to user computer UC1 via WWW browser WB1,
allows the user to control target appliances/equipment
TA1 (e.g., by programming a VCR to record a future
TV program). Id. at 9:20–10:4.

164a
3. Rzeszewski Overview
Rzeszewski generally relates to electronic program
guides for TV receivers and, in particular, to an
improved electronic TV program guide that offers
flexibility, versatility, and cost savings over
conventional electronic TV program guides. Ex. 1118,
1:6–10. One feature offered by Rzeszewski’s improved
electronic TV guide is a “‘Favorite Station’” feature
that stores certain channels pre-selected by a user. Id.
at 5:38–45.
4. Claims 1, 5, 8, 11, 14, and 17
In its Petition, Comcast contends that Woo’s
broadcast recording control system accounts for most
of the limitations recited in independent claims 1, 5, 8,
11, 14, and 17, except a “remote program guide access
device” that provides a “remote access interactive
television guide,” and “user profiles” used to generate
the “remote access interactive television program
guide.” Pet. 39–45 (citing Ex. 1116, 1:43–50, 2:9–30,
3:7–18, 6:50–7:1, 7:50–65, 8:25–32, 9:56–63, Figs. 1, 4;
Ex. 1102 ¶¶ 180–183); see also id. at 47–57 (arguing
the same). Comcast turns to Mizuno’s remote access
guide web pages displayed on user computer UC1 to
teach a “remote program guide access device” that
provides a “remote access interactive television guide.”
Id. at 41–42 (citing Ex. 1117, 1:24–2:12, 5:19–22, 9:20–
10:8, 10:18–11:3, Fig. 1; Ex. 1102 ¶¶ 185–188); see also
id. at 49–51 (arguing the same). Comcast turns to
Rzeszewski’s “favorite station” feature to teach “user
profiles” used to generate the “remote access
interactive television program guide.” Id. at 44–45

165a
(citing Ex. 1118, 1:6–10, 5:32–45; Ex. 1102 ¶¶ 189–
192).
Of particular importance to this ground is
Comcast’s argument that it would have been obvious
to one of ordinary skill in the art to automate Woo’s
manual call-in scheduling process by using Mizuno’s
remote access guide web pages. Pet. 42–43. According
to Comcast, there are at least three reasons as to why
one of ordinary skill in the art would have combined
the teachings of Woo and Mizuno in this manner.
Those reasons are listed as follows: (1) supplementing
Woo’s manual call-in scheduling process with Mizuno’s
remote access guide web pages is nothing more than
automating a manual process, which has long been
recognized as insufficient to distinguish over prior art
systems; (2) using Mizuno’s remote access guide web
pages to improve Woo’s manual call-in scheduling
process would be nothing more than using known
techniques to improve similar devices to obtain a
predictable result; and (3) it would have been a simple
substitution of Mizuno’s remote access guide web
pages for Mizuno’s human operator for the manual
call-in process to obtain a predictable result. Id. at 43–
44 (citing Ex. 1102 ¶¶ 186–188); see also id. at 50–51
(arguing the same).
We do not agree that Comcast or Dr. Tjaden
provides sufficient reasoning as to how or why one of
ordinary skill in the art would have replaced Woo’s
manual call-in scheduling process with Mizuno’s
remote access guide web pages to arrive at the claimed
invention. As an initial matter, we do not view
supplementing Woo’s manual call-in scheduling
process with Mizuno’s remote access guide web pages

166a
as simply automating a manual process. Comcast’s
proffered combination requires the wholesale insertion
of a new component—in this case, Mizuno’s user
computer UC1 that displays remote access guide web
pages—in Woo’s broadcast recording control system.
In our view, this goes beyond simply automating a
manual process, but rather requires a significant
modification to the structure and operations of Woo’s
broadcast recording control system. For instance,
Comcast does not explain how Woo’s controller 120,
which uses transmitter 150 to broadcast control and
programming information (Ex. 1116, 3:20–28), is
capable of connecting to the Internet such that it could
serve HTML pages to Mizuno’s user computer UC1.
Nor do we agree that combining the teachings of
Woo and Mizuno in the manner proposed by Comcast
is nothing more than using known techniques to
improve a similar device in the same way, or is a
simple substitution of one known element for another
to obtain a predictable result. Comcast’s assertions in
this regard are predicated on the benefits associated
with automation. See Pet. 43 (stating “[t]his would
obtain the predictable benefits associated with
automation described above”), 44 (stating the same);
Ex. 1102 ¶¶ 187, 188 (stating the same). As we explain
above, supplementing Woo’s manual call-in scheduling
process with Mizuno’s remote access guide web pages
goes beyond simply automating a manual process—it
requires significant modifications to the structure and
operations of Woo’s broadcast recording control
system. Moreover, by simply providing generic reasons
for combining the teachings of Woo and Mizuno, such
as using “known techniques to improve similar

167a
devices” (Pet. 43) and “simple substitution” (id. at 44),
Comcast does not adequately address the issue of
rationale to combine in this ground because it fails to
explain how one of ordinary skill in the art would have
modified Woo’s broadcast recording control system to
include Mizuno’s remote access guide web pages. See
Belden Inc. v. Berk-Tek LLC, 805 F.3d 1064, 1073 (Fed.
Cir. 2015) (“[O]bviousness concerns whether a skilled
artisan . . . would have been motivated to make the
combinations or modifications of prior art to arrive at
the claimed invention.”). 8
In summary, because we determine that Comcast
does not provide sufficient reasoning for combining the
teachings of Woo and Mizuno, Comcast has not
demonstrated by a preponderance of the evidence that
the subject matter of independent claims 1, 5, 8, 11,
14, and 17 would have been obvious over the combined
teachings of Woo, Mizuno, and Rzeszewski.
5. Claims 2, 6, 9, 12, 15, and 18
Because we determine that Comcast does not
provide sufficient reasoning for combining the
teachings of Woo and Mizuno, Comcast has not
demonstrated by a preponderance of the evidence that
the subject matter of dependent claims 2, 6, 9, 12, 15,
and 18 would have been obvious over the combined
teachings of Woo, Mizuno, and Rzeszewski.
Because we determine that Comcast does not provide sufficient
reasoning for combining the teachings of Woo and Mizuno, we
need not reach whether Comcast also provides sufficient
reasoning for combining the teachings of Rzeszewski with those
of Woo and Mizuno.

8

168a
F. Remaining Obvious Grounds Based, in Part, on
Combining the Teachings of Woo, Mizuno, and
Rzeszewski
Comcast also contends that (1) claims 3, 7, 10, 13,
16, and 19 of the ’263 patent are unpatentable under
§ 103(a) over the combined teachings of Woo, Mizuno,
Rzeszewski, and Lawler; and (2) claim 4 of the ’263
patent is unpatentable under § 103(a) over the
combined teachings of Woo, Mizuno, Rzeszewski, and
Allport. Pet. 62–65. Each of these remaining grounds
relies upon Comcast’s argument that it would have
been obvious to one of ordinary skill in the art to
automate Woo’s manual call-in scheduling process by
using Mizuno’s remote access guide web pages. Pet.
42–44 (citing Ex. 1102 ¶¶ 186–188); see also id. at 50–
51 (arguing the same). Because we determine that
Comcast does not provide sufficient reasoning for
combining the teachings of Woo and Mizuno, Comcast
has not demonstrated by a preponderance of the
evidence that (1) the subject matter of dependent
claims 3, 7, 10, 13, 16, and 19 would have been obvious
over the combined teachings of Woo, Mizuno,
Rzeszewski, and Lawler; and (2) the subject matter of
dependent claim 4 would have been obvious over the
combined teachings of Woo, Mizuno, Rzeszewski, and
Allport.
III. CONCLUSIONS
Comcast has demonstrated by a preponderance of
the evidence that (1) claims 1, 2, 5, 6, 8, 9, 11, 12, 14,
15, 17, and 18 are unpatentable under § 103(a) over
the combined teachings of Sato and Humpleman; (2)
claims 3, 7, 10, 13, 16, and 19 are unpatentable under

169a
§ 103(a) over the combined teachings of Sato,
Humpleman, and Lawler; and (3) claim 4 is
unpatentable under § 103(a) over the combined
teachings of Sato, Humpleman, and Allport. Comcast,
however, has not demonstrated by a preponderance of
the evidence that (1) claims 1, 2, 5, 6, 8, 9, 11, 12, 14,
15, 17, and 18 are unpatentable under § 103(a) over
the combined teachings of Woo, Mizuno, and
Rzeszewski; (2) claims 3, 7, 10, 13, 16, and 19 are
unpatentable under § 103(a) over the combined
teachings of Woo, Mizuno, Rzeszewski, and Lawler;
and (3) claim 4 is unpatentable under § 103(a) over the
combined teachings of Woo, Mizuno, Rzeszewski, and
Allport.
IV. ORDER
In consideration of the foregoing, it is
ORDERED that claims 1–19 of the ’263 patent are
held to be unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to this proceeding seeking
judicial review of our decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

170a
APPENDIX D
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.,
Patent Owner.
Case IPR2017-00952
Patent 8,006,263 B2
Entered: September 19, 2018
Before KEVIN F. TURNER, MICHAEL R. ZECHER,
and JESSICA C. KAISER, Administrative Patent
Judges.
ZECHER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition requesting an inter partes
review of claims 1–19 of U.S. Patent No. 8,006,263 B2
(Ex. 1201, “the ’263 patent”). Paper 2 (“Pet.”). Patent
Owner, Rovi Guides, Inc. (“Rovi”), filed a Preliminary
Response. Paper 6. Taking into account the arguments
presented in Rovi’s Preliminary Response, we

171a
determined that the information presented in the
Petition established that there was a reasonable
likelihood that Comcast would prevail in challenging
claims 1–19 of the ’263 patent as unpatentable under
35 U.S.C. § 103(a). Pursuant to 35 U.S.C. § 314, we
instituted this inter partes review on September 20,
2017, as to all of the challenged claims and all the
grounds presented the Petition. Paper 11 (“Dec. on
Inst.”).
During the course of trial, Rovi filed a Patent
Owner Response (Paper 17, “PO Resp.”), and Comcast
filed a Reply to the Patent Owner Response (Paper 30,
“Pet. Reply”). A consolidated oral hearing with related
Cases IPR2017-00950, IPR2017-00951, IPR201701048, IPR2017-01049, IPR2017-01050, IPR201701065, IPR2017-01066, and IPR2017-01143 was held
on June 19, 2018, and a transcript of the hearing is
included in the record. Paper 40 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1–19 of the
’263 patent. For the reasons discussed below, we hold
that Comcast has demonstrated by a preponderance of
the evidence that these claims are unpatentable under
§ 103(a).
A. Related Matters
The ’263 patent is involved in the following district
court cases: (1) Rovi Guides, Inc. v. Comcast Corp., No.
2:16-cv-00322 (E.D. Tex.), which has been transferred
to the U.S. District Court for the Southern District of
New York and is pending as Rovi Guides, Inc. v.
Comcast Corp., No. 1:16-cv-09826 (S.D.N.Y); and (2)

172a
Comcast Corp. v. Rovi Corp., No. 1:16-cv-03852
(S.D.N.Y). Pet. 1–2; Paper 4, 2. The ’263 patent also
has been asserted against Comcast in a proceeding
before the U.S. International Trade Commission
(“ITC”) styled In re Certain Digital Video Receivers and
Hardware and Software Components Thereof, No. 337TA-1001. Pet. 2; Paper 4, 2.
In addition to this Petition, Comcast filed two other
petitions challenging the patentability of claims 1–19
of the ’263 patent (Cases IPR2017-00950 and IPR201700951). Pet. 3; Paper 4, 2. Comcast also filed other
petitions challenging the patentability of certain
subsets of claims in several patents owned by Rovi.
Pet. 3.
B. The ’263 Patent
The ’263 patent, titled “Interactive Television
Program Guide with Remote Access,” issued August
23, 2011, from U.S. Patent Application No. 11/246,392,
filed on October 7, 2005. Ex. 1201, [54], [45], [21], [22].
The ’263 patent is a continuation of U.S. Patent
Application No. 10/927,814, filed on August 26, 2004,
which, in turn, is a continuation of U.S. Patent
Application No. 09/354,344, filed on July 16, 1999. Id.
at [63]. The ’263 patent also claims the benefit of U.S.
Provisional Application No. 60/097,527, filed on
August 21, 1998, and U.S. Provisional Application No.
60/093,292, filed on July 17, 1998. Id. at [60].
The ’263 patent generally relates to interactive
television program guide video systems and, in
particular, to such systems that provide remote access
to program guide functionality. Ex. 1201, 1:19–22. The
’263 patent discloses that conventional interactive

173a
television program guide systems typically are
implemented on set-top boxes located in the home of a
user and, as a result, do not permit the user to perform
program guide functions without the user being
physically located in the same room as these systems.
Id. at 1:37–45. Stated differently, conventional
interactive television program guide systems require
the user to be present in the home to access important
program guide features, such as program reminders,
parental controls, and program recording. Id. at 2:19–
22. The ’263 patent purportedly addresses this and
other problems by providing an interactive television
program guide system that allows a user to access
certain features of the program guide remotely and
establish settings for those features. Id. at 2:23–28.
Figure 1 of the ’263 patent, reproduced below,
illustrates a schematic block diagram of the system in
accordance with the present invention. Ex. 1201, 3:45–
46, 4:29–30.

174a
As shown in Figure 1 reproduced above, system 10
includes main facility 12 that provides interactive
television program guide data from program guide
data source 14 to interactive television program guide
equipment 17 via communication link 18. Id. at 4:29–
33. Interactive television program guide equipment 17
is connected to at least one remote program guide
access device 24 via remote access link 19. Id. at 4:47–
53.
Figure 2a of the ’263 patent, reproduced below,
illustrates one arrangement involving the interactive
television program guide equipment 17 and remote
program guide access device 24 in accordance with the
principles of the present invention. Ex. 1201, 3:47–50,
4:55–57.

As shown in Figure 2a reproduced above, interactive
television program guide equipment 17 includes
program guide distribution equipment 21 located at
television distribution facility 16, which distributes

175a
program guide data to user television equipment 22
via communications path 20. Id. at 4:57–67. Remote
program guide access device 24 receives the program
guide data, as well as any additional data necessary to
access various functions of the interactive program
guide, from user television equipment 22 via remote
access link 19. Id. at 5:29–39.
In at least one embodiment, the ’263 patent
discloses that a remote access interactive television
program guide implemented on remote program guide
access device 24 communicates with a local interactive
television program guide implemented on interactive
television program guide equipment 17. Ex. 1201,
12:23–29. In one example, the remote access and local
interactive television program guides may be two
different guides that communicate with each other. Id.
at 12:34–37; see also id. at 22:49–23:6 (disclosing steps
involved with using the remote access interactive
television program guide to provide program listing
information to a user). In another example, the remote
access and local interactive television program guides
may be the same guide, but compiled to run on two
different platforms. Id. at 12:29–32.
The ’263 patent discloses transferring program
guide information and settings between remote
program guide access device 24 and interactive
television program guide equipment 17 using any
suitable application layer protocol. Ex. 1201, 13:7–11.
For example, if remote access link 19 is an Internet
link, program guide functionality may be accessed
using Hypertext Transfer Protocol. Id. at 13:11–13.
Remote program guide access device 24 and
interactive television program guide equipment 17

176a
also may transfer program guide information as files
using either File Transfer Protocol or Trivial File
Transfer Protocol running over a Transmission
Control Protocol/Internet Protocol stack. Id. at 13:13–
18. The ’263 patent makes clear that “[a]ny suitable
file transfer protocol based on any suitable protocol
stack may be used.” Id. at 13:18–19.
C. Illustrative Claim
Of the challenged claims, claims 1, 5, 8, 11, 14, and
17 are independent. Independent claims 1, 8, and 14
are each directed to a system for selecting television
programs over a remote access link that includes an
Internet communications path for recording, whereas
independent claims 5, 11, and 17 are each directed to
a method for performing the same. Claims 2–4 directly
depend from independent claim 1; claims 6 and 7
directly depend from independent claim 5; claims 9
and 10 directly depend from independent claim 8;
claims 12 and 13 directly depend from independent
claim 11; claims 15 and 16 directly depend from
independent claim 14; and claims 18 and 19 directly
depend from independent claim 17. Independent claim
1 is illustrative of the challenged claims and is
reproduced below:
1.
A system for selecting television
programs over a remote access link comprising
an Internet communications path for recording,
comprising:
a local interactive television program guide
equipment on which a local interactive
television program guide is implemented,
wherein the local interactive television program

177a
guide equipment includes user television
equipment located within a user’s home and the
local interactive television program guide
generates a display of one or more program
listings for display on a display device at the
user’s home; and
a remote program guide access device located
outside of the user’s home on which a remote
access interactive television program guide is
implemented, wherein the remote program
guide access device is a mobile device, and
wherein the remote access interactive television
program guide:
generates a display of a plurality of program
listings for display on the remote program guide
access device, wherein the display of the
plurality of program listings is generated based
on a user profile stored at a location remote from
the remote program guide access device;
receives a selection of a program listing of the
plurality of program listings in the display,
wherein the selection identifies a television
program corresponding to the selected program
listing for recording by the local interactive
television program guide; and
transmits a communication identifying the
television program corresponding to the
selected program listing from the remote access
interactive television program guide to the local
interactive television program guide over the
Internet communications path;

178a
wherein the local interactive television
program guide receives the communication and
records the television program corresponding to
the selected program listing responsive to the
communication using the local interactive
television program guide equipment.
Ex. 1201, 28:27–63.
D. Prior Art Relied Upon
Comcast relies upon the following prior art
references:
Inventor 1

Patent or Relevant
Publication Dates
No.

Exhibit
No.

Killian

U.S. Patent
No.
6,163,316

1208

Lawler

U.S. Patent
No.
5,805,763

issued
Dec. 19,
2000, filed
Oct. 3,
1997
issued
Sept. 8,
1998, filed
May 5,
1995

1209

For clarity and ease of reference, we only list the first named
inventor.

1

179a
Blake 2

E.

PCT Int’l
published
Pub. No. WO Mar. 12,
98/10589
1998, filed
Sept. 2,
1997

1222

Instituted Grounds of Unpatentability

We instituted a trial based on the asserted grounds
of unpatentability (“grounds”) set forth in the table
below. Dec. on Inst. 36.
References

Basis

Challenged
Claims

Blake and
Killian

§ 103(a)

1, 2, 4–6, 8, 9,
11, 12, 14, 15,
17, and 18
3, 7, 10, 13, 16,
and 19

Blake, Killian, § 103(a)
and Lawler
II. ANALYSIS

A. Claim Construction
In an inter partes review, claim terms of an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b). Under the
broadest reasonable interpretation standard, and
absent any special definitions, claim terms are
generally given their ordinary and customary
meaning, as would be understood by one of ordinary
Blake incorporates by reference U.S. Patent No. 4,706,121 B1
(Ex. 1223, “Young”).

2

180a
skill in the art, in the context of the entire disclosure.
In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed.
Cir. 2007).
In the Decision on Institution, we determined that
the only claim terms requiring construction are
“local/remote access interactive television program
guides,” and only to the extent necessary to resolve
whether the grounds asserted by Comcast properly
accounted for both a “local interactive television
program guide” and a “remote access interactive
television program guide.” Dec. on Inst. 9 (citing Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803
(Fed. Cir. 1999) (explaining that only those claim
terms that are in controversy need to be construed,
and only to the extent necessary to resolve the
controversy)). Upon reviewing the parties’ preliminary
arguments and evidence, we adopted Comcast’s
proposed construction that an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” Id. at 13. We further clarified that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide. Id.
In its Patent Owner Response, Rovi generally
agrees with our initial determination that the only
claim terms requiring construction are “local/remote
access interactive television program guides.” PO
Resp. 8. Rovi, however, proposes that the proper

181a
constructions for these claims terms are the following:
(1) “local interactive television program guide” is a
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment”; and (2)
“remote access interactive television program guide” is
a “guide allowing navigation through television
program listings using a remote access link.” Id. at 9.
According to Rovi, its proposed constructions for the
claim terms “local/remote access interactive television
program guides” are consistent with the intrinsic
evidence, our preliminary finding that these guides
must be distinct guides, and the findings of the ITC in
related proceedings. Id. (citing Ex. 1250, 185, 190).
Rovi further contends that any difference between
our constructions and the ITC’s constructions of the
claim terms “local/remote access interactive television
program guides” is not relevant to the grounds at issue
in this proceeding because, according to Rovi, each of
Comcast’s asserted grounds fail under Rovi’s broader
constructions “that do[] not unnecessarily restrict the
guides to ‘control software’ that ‘controls functions of
the software.’” PO Resp. 10. Rovi asserts that, because
each of Comcast’s asserted grounds fail under broader
constructions for these claim terms, we need not
determine whether the asserted prior art satisfies
Comcast’s proposed constructions. Id. Rovi then
proceeds to explain how our preliminary constructions
and the ITC’s constructions are consistent in certain
respects because (1) they both require the guides to be
interactive (i.e., navigable and selectable); and (2) they

182a
both agree that the claims require two separate
guides, as properly construed. Id. at 10–12. 3
In its Reply, Comcast counters with the following:
(1) its arguments apply the broadest reasonable
interpretation standard; (2) it relies on Rovi’s
arguments from the related ITC proceeding regarding
the proper scope and meaning of the claim terms
“local/remote access interactive television program
guides” as evidence of the broadest reasonable
interpretation of these claims terms in this proceeding;
and (3) it disagrees with Rovi’s proposed constructions
both in this proceeding and in the ITC proceeding. Pet.
Reply 1 n.1.
As an initial matter, it is not clear to us whether
Rovi actually disputes our preliminary construction of
the claim term “interactive television program guide.”
On the one hand, Rovi asserts that the ITC’s
constructions of local interactive television program
guide (i.e., a “guide that allows navigation through
television program listings and causes display of
program information on user television equipment”)
and remote access interactive television program
guide (i.e., a “guide allowing navigation through
television program listings using a remote access
link”) are the proper constructions. PO Resp. 9. On the
For the first time at the oral hearing, Rovi argued that “remote
access interactive television program guide” requires “dedicated
code at the remote device.” See, e.g., Tr. 58:3–7, 60:19–61:14,
66:14–21. We agree with Comcast (id. at 96:3–10) that this is a
new argument that was not presented and developed in Rovi’s
briefs and, therefore, we do not consider it. See Paper 12, 3
(cautioning Rovi that “any arguments for patentability not raised
in the response will be deemed waived”).
3

183a
other hand, Rovi argues that both our constructions
and the ITC’s constructions “are consistent with
respect to the relevant aspects (e.g., navigation and
selection)” of a local/remote access interactive
television program guide. Id. at 9–10. Rovi further
contends that “[a]ny differences between the Board’s
and the ITC’s constructions are not relevant to
[Comcast’s] failures of proof regarding the asserted
prior art and [g]rounds at issue in the proceeding.” Id.
(emphasis added); see also Ex. 2208 ¶ 25 (Rovi’s
declarant, Dr. Shamos, testifies that, “regardless of
which constructions the Board applies, my opinions
remain the same. The asserted prior art references
here fail to disclose the claim limitations . . . under
either construction.”). These arguments make it
difficult to ascertain what Rovi actually views as the
proper scope and meaning of the claim terms
“local/remote access interactive television program
guides.” Nevertheless, we are charged in this
proceeding with determining the broadest reasonable
interpretation of these claim terms.
Beginning with the intrinsic record, neither party
argues, nor could we find, an explicit definition for the
claim term “interactive television program guide” in
the specification of the ’263 patent. The specification,
however, is replete with descriptions of conventional,
local, or remote interactive television program guides.
For instance, the specification discloses that
conventional interactive television program guides
display “various groups of television program [guide]
listings . . . in predefined or user-defined categories,”
and “allow the user to navigate through [the]
television program listings” and make a selection

184a
“using a remote control.” Ex. 1201, 1:31–36. For a
conventional interactive television program guide, the
user must physically be located in the same room as
the set-top box on which the interactive television
program guide is implemented to select programs for
recording or to perform other guide functions. Id. at
1:37–45. In the context of discussing the
implementation of a remote access interactive
television program guide, the specification discloses
that such a guide works in conjunction with a remote
device to “provide users with the opportunity to
remotely access features of the interactive television
program guide on the interactive television program
guide equipment and to remotely set program guide
settings.” Id. at 2:41–46. The specification goes on to
disclose that “[a]ny suitable interactive television
program guide function or setting may be accessed,”
including, but not limited to, “remotely select[ing]
programming for recordings” and “remotely set[ting]
and navigat[ing] through favorites (e.g., favorite
channels, program categories, services, etc.).” Id. at
2:47–56.
Although the aforementioned disclosures provide
guidance as to the functionality of an “interactive
television program guide” (i.e., navigable, selectable,
and capable of controlling certain functions or
settings), neither party directs us to, nor can we find,
a disclosure in the specification that specifically
identifies what element or elements constitute a
“guide.” Given the lack of disclosure in this regard, we
decline to limit the “guide” to a single software
application. Rather, these disclosures support
Comcast’s proposed construction that an “interactive

185a
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.”
We further clarify that, based on the plain
language of independent claims 1, 5, 8, 11, 14, and 17,
they indicate that the claim terms “local interactive
television program guide” and “remote access
interactive television program guide” are separately
identifiable elements. See Becton, Dickinson & Co. v.
Tyco Healthcare Grp., LP, 616 F.3d 1249, 1254 (Fed.
Cir. 2010) (“Where a claim lists elements separately,
‘the clear implication of the claim language’ is that
those elements are ‘distinct component[s]’ of the
patented invention.” (alteration in original) (quoting
Gaus v. Conair Corp., 363 F.3d 1284, 1288 (Fed. Cir.
2004))). Our determination in this regard is supported
by the specification, which includes various
embodiments that treat these claim terms as
separately
identifiable
elements
capable
of
communicating with each other. See, e.g., Ex. 1201,
12:34–37 (“In still another suitable approach, the
[local interactive television program guide and remote
access interactive television program guide] may be
different guides that communicate in a manner or
manners discussed . . . herein.”), 20:18–23 (“The
remote access [interactive television] program guide
may . . . send audio, graphical, and text messages to
the local interactive [television] program guide for
playing or display by user television equipment 22.”).
The specification also explains that the “local
interactive television program guide” and “remote

186a
access interactive television program guide” may be
the same guide, in which case they are separately
identifiable elements in that each guide is compiled to
run on a different platform. See id. at 12:29–32 (“The
remote access and local guide may, for example, be the
same guide but compiled to run on two different
platforms and to communicate in a manner or
manners discussed herein.”).
We decline to adopt Rovi’s proposed constructions
of the claim terms “local/remote access interactive
television program guides” for two reasons. First, we
are unable to determine how Rovi’s proposed
constructions add any clarity to the scope and meaning
of an “interactive television program guide.” That is,
we view each of Rovi’s proposed constructions as
circular and unhelpful because they define each of the
guides as a “guide [that allows/allowing] navigation
through television program listings.” PO Resp. 8–9
(emphasis added). Rovi, however, does not actually
identify what element or elements specifically
constitute the “guide.”
Second, Rovi states that its proposed constructions
indicate “where the specific guide resides (i.e., on ‘user
television equipment’ or over ‘a remote access link’),”
but readily admits that “these additions merely
restate the language of the broader claim
limitation[s].” PO Resp. 12–13 (emphasis omitted)
(citing Ex. 1250, 185, 190). It is well settled that the
U.S. Court of Appeals for the Federal Circuit disfavors
any claim interpretation that renders a claim term or
phrase superfluous. See Apple, Inc. v. Ameranth, Inc.,
842 F.3d 1229, 1237 (Fed. Cir. 2016) (“The Board was
correct to not include in its construction of ‘menu’

187a
features of menus that are expressly recited in the
claims. . . . Construing a claim term to include features
of that term already recited in the claims would make
those expressly recited features redundant.”). If we
were to adopt the language in Rovi’s proposed
constructions pertaining to where each guide resides,
it would render superfluous the language that is
already explicitly recited in independent claim 1, and
similarly recited in independent claims 5, 8, 11, 14,
and 17—namely, “over a remote access link” and “a
local interactive television program guide equipment
on which a local interactive television program guide
is implemented, wherein the local interactive
television program guide equipment includes user
television equipment.” 4
Turning now to the extrinsic evidence, in Dr.
Tjaden’s Declaration accompanying the Petition, he
testifies that “the local [interactive television program]
guide may be implemented at least in part on a server
or other device outside the user’s home.” Ex. 1202 ¶ 35.
To support this testimony, he directs us to Rovi’s
interpretation of the claim term “local interactive
television program guide” in the related ITC
proceeding. Id. (citing Ex. 1245, 56; Ex. 1246, 43). In
Dr. Tjaden’s Declaration accompanying the Reply, he
elaborates further on his initial position by testifying
During oral argument, in response to a question regarding the
ITC’s construction of the “local interactive television program
guide” being on user television equipment and its construction
that the “remote access television program guide” uses a remote
access link, counsel for Rovi stated that “I don’t think where [the
guides are] implemented is meaningful because that’s recited in
the claim separately.” Tr. 66:22–67:24.

4

188a
that “a [person of ordinary skill in the art] looking at
the ’263 Patent would have understood that many
different arrangements of the software and hardware
components comprising an interactive television
program guide are possible and acceptable in [the]
prior art used to show obviousness.” Ex. 1252 ¶ 15. To
support this testimony, he directs us to the different
arrangements of software and hardware in the ’263
patent. Id. (citing Ex. 1201, 4:30–33, 4:47–49, 4:57–61,
6:48–50, 7:53–60, Figs. 1, 2a–2d).
Dr. Shamos’s Declaration in the ITC proceeding
serves as further evidence as to what element or
elements constitute a “guide.” Although we recognize
that the broadest reasonable interpretation standard
governs in this proceeding, whereas the district court
claim construction standard governs in an ITC
proceeding, Dr. Shamos’s testimony in the ITC
proceeding is relevant here because it sheds some light
on what element or elements he believes constitutes a
“guide.” In the ITC proceeding, Dr. Shamos testifies
that the claim term “local interactive television
program guide” could be an “extensive collection of
hardware and software.” Ex. 1254 ¶ 169. He also
testifies “that the ‘local [interactive television
program] guide’ [should not be construed as] a single
software application that must reside on a device in
the user’s home,” and “[n]othing in the claims exclude
a ‘recording application’ from being part of the local
[interactive television program] guide.” Id. ¶ 371. Dr.
Shamos’s testimony in the ITC proceeding is
consistent with Dr. Tjaden’s testimony in this
proceeding because, like Dr. Tjaden, Dr. Shamos does
not limit a “guide” to a single software application, but

189a
rather contemplates that the “guide” may constitute
different arrangements of software and hardware.
We note that the aforementioned testimony from
Dr. Tjaden and Dr. Shamos suggests that the “guide”
may include both software and hardware. Rovi
likewise argues that its proposed construction is
broader than Comcast’s because “it does not
unnecessarily restrict the guides to ‘control software.’”
PO Resp. 10. We do not find support in the intrinsic
record that the “guide” may include hardware. Rather,
the ’263 patent separately refers to the interactive
television program guide and the hardware on which
it is implemented. See, e.g., Ex. 1201, 1:37–38
(“Interactive television program guides are typically
implemented on set-top boxes . . . .”). The
aforementioned testimony, however, is consistent with
our finding that the “guide” may constitute more than
just a single software application.
In summary, upon weighing all the evidence
bearing on the construction of the claim term
“interactive television program guide,” we maintain
that the broadest reasonable interpretation of this
claim term is “control software operative at least in
part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” We also maintain that the claim terms
“local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide.

190a
B. Obviousness Over the Combined Teachings of
Blake and Killian
Comcast contends that claims 1, 2, 4–6, 8, 9, 11, 12,
14, 15, 17, and 18 of the ’263 patent are unpatentable
under § 103(a) over the combined teachings of Blake
and Killian. Pet. 23–51. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1202 ¶¶ 94–193. In its Patent Owner
Response, Rovi presents a number of arguments as to
why the combined teachings of Blake and Killian do
not render the limitations of independent claims 1, 5,
8, 11, 14, and 17 obvious. PO Resp. 19–39. Rovi relies
upon the Declaration of Dr. Shamos to support its
positions. Ex. 2208 ¶¶ 165–195.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the
art, proceeded by brief overviews of Blake and Killian,
and then we address the parties’ contentions with
respect to the claims at issue in this asserted ground.
1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and
the prior art are such that the subject matter, as a
whole, would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which said subject matter pertains. KSR

191a
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The
question of obviousness is resolved on the basis of
underlying factual determinations, including (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) when in
evidence, objective indicia of non-obviousness (i.e.,
secondary considerations). Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). We analyze this asserted
ground based on obviousness with the principles
identified above in mind.
2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a
person of ordinary skill in the art. Relying on the
testimony of its declarant, Dr. Tjaden, Comcast asserts
that a person of ordinary skill in the art as of July 17,
1998, which is the earliest priority date on the face of
the ’263 patent, would be an individual who possesses
the following:
a bachelor’s degree in computer science,
electrical engineering, computer engineering, or
a similar discipline, and two years of experience
with interactive program guides, set-top boxes,
mobile computer devices, and techniques for
delivering content or program guides over
communication networks, such as a cable
system, a local-area network, and the Internet.
Pet. 17 (quoting Ex. 1202 ¶ 28). Alternatively, once
again relying on the testimony of Dr. Tjaden, Comcast
asserts that a person of ordinary skill in the art “could
have had equivalent experience in industry or

192a
research, such as designing, developing, evaluating,
testing, or implementing [these] technologies.” Id.
(quoting Ex. 1202 ¶ 28). Conversely, Rovi’s declarant,
Dr. Shamos, does not offer an assessment of the level
of skill in the art as of July 1998, nor does he explicitly
state his intent to adopt Dr. Tjaden’s assessment. See
generally Ex. 2208. Given Dr. Shamos’s silence on this
matter, we adopt Dr. Tjaden’s assessment because it is
consistent with the ’263 patent and the asserted prior
art, and apply it to our obviousness evaluation below.
3. Blake Overview
Blake generally relates to a television schedule
system with enhanced recording capability. Ex. 1222,
1:17–19. Blake specifically describes the enhanced
recording capability with reference to Figures 12 and
13. Id. at 16:11–18:29.
Figure 12 of Blake is reproduced below:

Figure 12 of Blake illustrates an example of a
television schedule guide that provides television
schedule information in a grid-like display on a
television screen. Ex. 1222, 16:12–14. Through a user

193a
interface, a user may scroll through the television
schedule information and may tune to a program by
highlighting and selecting a program displayed in the
guide. Id. at 16:17–19. Also, the user may select one or
more programs for automatic, unattended recording.
Id. at 16:17–19, 16:22–25. Peripheral devices––which
may be televisions, video cassette recorders (“VCRs”),
or set-top boxes––store time and channel information
entries for programs to be recorded. Id. at 4:28–30,
16:26–28.
Blake incorporates by reference the entirety of
Young. Ex. 1222, 2:3–5. Blake presents Young as
background information and describes it in similar
terms to that of Figure 12––namely, Blake states that
Young discloses a system that provides television
schedule information on a user’s television screen, and
allows for user selection of programs and the
automatic, unattended recording of programs that are
listed in the television schedule information. Id. at
1:23–24, 1:27–30.
Figure 13 of Blake is reproduced below:

Figure 13 of Blake illustrates an arrangement for
scheduling recordings from a remote location. Ex.

194a
1222, 4:5–6. According to Blake, the user’s ability to
schedule recordings from a remote location enhances
the recording capability of the schedule guide. Id. at
17:1–2. In Figure 13, a user who is away from home
employs input device 332 to access and communicably
connect to central processing system 334. Id. at 17:3–
5. Input device 332 may be any device capable of
transmitting data from a remote location, including a
personal or laptop computer or cellular telephone. Id.
at 17:5–8. Recording device 336 may be a VCR or any
device with video and/or audio recording capabilities.
Id. at 17:19–21.
Input device 332 transmits user input in one of
several forms, including: a code; channel, date, time,
and length information; the title; or theme data. Ex.
1222, Claims 4–7, 17:8–10, 17:15–16, 17:25–26, 18:1–
2. Where the input information is theme data, the user
first chooses to select a program to record by themes.
Id. at 18:5–7. For example, if the user wishes to record
the Chicago Bulls v. Los Angeles Lakers game, the
user selects sports when presented with a list of theme
selections, and further selects basketball. Id. at 18:5–
8. The user is presented with a list of basketball games
that are either being played or are scheduled to be
played, and then selects the Bulls v. Lakers game. Id.
at 18:8–10. Alternatively, the user may enter “Bulls,”
and processing system 334 will present a list of Bulls
games, and the user may select one or more of the
games to record. Id. at 18:10–12. The input data are
received by processing system 334, which stores the
information and activates recording device 336 to
record the program at the appropriate time. Id. at
Claim 1, 17:10–19, 17:29–30, 18:12–16.

195a
4. Killian Overview
Killian generally relates to an electronic
programming guide that operates on a computing
platform using information from the Internet for
display on a television. Ex. 1208, 2:1–3, 3:18–23.
Killian uses viewer profiles to generate a preferred
programming schedule that allows viewers to more
intelligently select programs that may be desirable for
viewing or recording. Id. at 10:61–66. Each viewer
associated with a television receiver may generate a
viewer profile for storage in a database, and the
database may include an arrangement of information
at one or more locations that are integral to or separate
from the television receiver. Id. at 9:10–25. The
preferred schedule that is generated according to the
user profile indicates the desirability of a particular
program relative to other programs. Id. at 2:11–12.
5. Claims 1, 5, 8, 11, 14, and 17 5
In its Petition, Comcast contends that Blake’s
television schedule system with enhanced recording
capability accounts for all the limitations of
independent claims 1, 5, 8, 11, 14, and 17. Pet. 23–27
(citing Ex. 1222, 4:24–30, 17:1–21, 18:1–16, Figs. 12–
13); see also id. at 32–48 (citing Ex. 1202 ¶¶ 116, 117,
127); id. at 54–63 (showing correspondence among the
limitations in the independent claims). For instance,
Comcast relies on Blake’s television schedule guide
Comcast contends that independent claims 1, 5, 8, 11, 14, and
17 stand or fall together. Pet. 12–14. Rovi does not dispute
Comcast’s assertion in this regard. Accord PO Resp. 19–39
(treating independent claims 1, 5, 8, 11, 14, and 17 as standing or
falling together).
5

196a
illustrated in Figure 12 as an example of a display
generated by a “local interactive television program
guide.” Id. at 26, 34–35. Comcast also relies on Blake’s
input device 332 as a “mobile device” (id. at 27, 39–40),
and the ability of the user in Blake to select a program
to record according to themes, which allows for
navigating program listings and making program
selections, as establishing a “remote access interactive
television program guide” (id. at 27–28, 37–38 (citing
Ex. 1202 ¶¶ 99–103, 134–137)).
To the extent Blake does not disclose certain
limitations, Comcast presents alternative arguments.
Pet. 28–30, 38–40 (“remote access interactive
television program guide”); id. at 30–31, 42–43 (“user
profile”); id. at 33 (“Internet communications path”);
id. at 46–47 (“local interactive television program
guide”). Of particular importance to this case, Comcast
relies on Killian’s viewer profiles (i.e., user profile
data) to teach the claimed “user profile.” Id. at 15, 30–
31, 42–43. Here, Comcast argues that it would have
been obvious to one of ordinary skill in the art to
implement Killian’s viewer profiles in the remote user
interface on Blake’s input device 332 to better track a
user’s preferences and generate more effective user
interfaces that better identify desired/undesired
content. Id. at 31, 42–43.
For added clarity, we highlight certain arguments
presented by Comcast for each limitation recited in
independent claim 1. We note that there is no dispute
between the parties as to whether the limitations of
independent claims 5, 8, 11, 14, and 17 are essentially
the same as the limitations of independent claim 1.
Compare Pet. 12–15, 51, with PO Resp. 19–22.

197a
Beginning with the preamble of independent claim 1,
Comcast contends that Blake teaches “a system for
selecting television programs over a remote access link
comprising an Internet communications path for
recording” because Blake discloses selecting programs
for recording using a remote user interface on input
device 332. Pet. 32 (citing Ex. 1222, 18:1–10; Ex. 1202
¶¶ 115, 116). According to Comcast, these selections
are sent to central processing system 334, which, in
turn, stores program selections made remotely and
activates recording device 336 to record the selected
program. Id. (citing Ex. 1222, 17:13–15, 18:12–16; Ex.
1202 ¶ 115).
Comcast further argues that, to the extent Blake
does not disclose “a remote access link comprising an
Internet communications pathway,” this limitation
would have been obvious in light of Blake’s system.
Pet. 33 (citing Ex. 1202 ¶ 117). Comcast argues that
Blake discloses that input device 332 “transmit[s] data
from a remote location,” and the Internet was a
common way of transmitting date from a remote
location, as evidenced by Killian. Id. (quoting Ex. 1222,
17:5–8) (citing Ex. 1208, 3:18–20, 3:38–43; Ex. 1202
¶¶ 117, 118). Comcast asserts that a person of
ordinary skill in the art would have found it obvious to
try using the Internet to transmit Blake’s program
guide information because Internet transmission was
well-known as an identified, predictable solution to
data transmission that provides predictable benefits.
Id. (citing Ex. 1202 ¶¶ 117, 118).
Comcast contends that Blake teaches “local
interactive television program guide equipment on
which a local interactive television program is

198a
implemented,” as recited in independent claim 1,
because Blake discloses television equipment within a
user’s home that includes software that uses television
schedule information to generate a local guide. Pet.
33–34 (citing Ex. 1222, 4:10–16, 4:26–30, 5:1–3, Fig.
12; Ex. 1202 ¶¶ 121–123). Comcast argues that Blake
discloses a local guide that displays television program
listing information to a user on a television or monitor,
and allows the user to interact with the local guide via
a remote control or other interface to schedule
program recordings. Id. at 34 (citing Ex. 1222, 6:18–
20, 15:3–5, 16:12–16, 16:26–33, Fig. 12; Ex. 1202
¶ 122). Comcast argues that Young, which Blake
incorporates by reference in its entirety, further
discloses a local guide with interactive features that
users may personalize based on user preferences, such
as themes. Id. (citing Ex. 1222, 2:8–9; Ex. 1223, 10:13–
18, 10:45–47, 11:26–28, 12:46–54, 13:1–5, 13:61–63;
Ex. 1202 ¶ 125).
Comcast contends that Blake teaches “wherein the
local interactive television program guide equipment
includes user television equipment located within a
user’s home,” as recited in independent claim 1,
because Blake implements a portion of the local guide
on television equipment in a user’s home, which may
include devices such as set-top boxes, personal
computers, personal computer televisions, and VCRs.
Pet. 35–36 (citing Ex. 1222, 4:24–26, 4:28–32, 5:2–6).
Comcast argues that Blake’s central processing
system 334 also constitutes part of the claimed “local
interactive television program guide equipment”
because it provides program guide functionality on
equipment in the user’s home, such as the scheduling

199a
of recordings. Id. at 36 (citing Ex. 1222, 17:1–5, 18:5–
16; Ex. 1202 ¶ 127). Notably, Comcast argues that,
when applying the broadest reasonable interpretation
standard, the claimed “local interactive television
program guide” is not limited to an implementation
solely on equipment within the user’s home and,
therefore, Comcast asserts that Blake’s central
processing system 334 properly constitutes part of the
claimed “local interactive television program guide
equipment.” Id. (citing Ex. 1202 ¶¶ 35, 127). Comcast
further argues that Blake teaches wherein “the local
interactive television program guide generates a
display of one or more programs listings for display on
a display device at the user’s home,” as recited in
independent claim 1, because Blake’s local guide
generates
and
displays
“television
schedule
information . . . in a grid-like display on the television
screen.” Id. (quoting Ex. 1222, 16:12–14) (citing Ex.
1222, 6:11–13, 6:18–19, Fig. 12).
Comcast contends that Blake teaches “a remote
program guide access device located outside the user’s
home on which a remote access interactive television
program guide is implemented,” as recited in
independent claim 1, because Blake’s input device 332
allows “a user who is away from home to record a
program
remotely
by
...
access[ing]
and
communicably connect[ing] to central processing
system 334.” Pet. 37 (quoting Ex. 1222, 17:3–5) (citing
Ex. 1202 ¶¶ 132, 133). Comcast argues that the remote
user interface on Blake’s input device 332 generates a
display of television program listings according to
themes. Id. (citing Ex. 1222, 18:8–10; Ex. 1202 ¶¶ 134,
135). Comcast further argues that the remote user

200a
interface on Blake’s input device 332 constitutes
software that allows the user to view and navigate
television program listings, make program selections,
and control recording device 336 to record a selected
program. Id. at 37–38 (citing Ex. 1222, 18:1–16; Ex.
1202 ¶¶ 134, 135). Comcast asserts that, because the
remote user interface on Blake’s input device 332
presents television program listings and receives
selections of programs for recording, a person of
ordinary skill in the art would have understood that it
constitutes the claimed “remote access interactive
television program guide.” Id. at 38 (citing Ex. 1202
¶¶ 136, 137). Comcast further argues that Blake
teaches “wherein the remote program guide access
device is a mobile device,” as recited in independent
claim 1, because Blake’s input device 332 may be a
“laptop computer” or “cellular telephone,” both of
which are mobile devices. Id. at 39–40 (quoting Ex.
1222, 17:5–8) (citing Ex. 1202 ¶ 132).
Comcast contends that Blake teaches “generat[ing]
a display of a plurality of program listings for display
on the remote program guide access device,” as recited
in independent claim 1, because, when applying the
broadest reasonable interpretation standard, a person
of ordinary skill in the art would have understood that
the remote user interface on Blake’s input device 332
constitutes the claimed “remote access interactive
television program guide.” Pet. 40 (citing Ex. 1202
¶¶ 146, 147). Comcast also argues that, to the extent
Blake does not disclose explicitly that the remote user
interface on input device 332 displays a “remote access
interactive television program guide,” a person of
ordinary skill in the art would have found it obvious to

201a
display an interactive guide that includes television
program listings on Blake’s input device 332 using
conventional television interactive program guide
features, such as those taught by Blake, Young, or
Killian. Id. (citing Ex. 1202 ¶¶ 139, 141, 143, 146, 147).
Comcast also contends that Blake teaches “wherein
the display of the plurality of program listings is
generated based on a user profile stored at a location
remote from the remote program guide access device,”
as recited in independent claim 1, because Blake
discloses that a user may customize television
program information “[b]y utilizing the user interface
. . . [to] sort, mix, and create a special customized lineup of channels within the television schedule guide.”
Pet. 40 (quoting Ex. 1222, 16:20–22) (citing Ex. 1202
¶¶ 149, 150). According to Comcast, Blake discloses
that a user may filter television program listings by
themes, which entails the remote guide generating a
list of television programs matching a selected theme
by taking into account the user’s individual
preferences/selections. Id. at 41 (citing Ex. 1222, 18:5–
10; Ex. 1202 ¶¶ 150, 151). Comcast further argues that
Blake discloses that the user’s preferences/selections
are stored at central processing system 334, which is
located remotely from input device 332. Id. (citing Ex.
1222, 18:12–14; Ex. 1202 ¶¶ 151, 152).
Alternatively, Comcast contends that, to the extent
Blake does not teach the claimed “user profile,” Killian
teaches this limitation because it discloses software
that generates guide displays based on viewer profiles
84 stored on profile database 80 located either locally
or remotely. Pet. 42 (citing Ex. 1208, 1:20–41, 7:49–58,
9:10–25, 10:61–66, 11:20–21; Ex. 1202 ¶¶ 154–156).

202a
Comcast asserts that it would have been obvious to one
of ordinary skill in the art to implement Killian’s
viewer profiles in Blake’s remote user interface on
input device 332 to better track a user’s preferences
and generate more effective user interfaces that better
identify desired/undesired content. Id. at 42–43 (citing
Ex. 1202 ¶ 157).
Comcast contends that Blake teaches “receiv[ing] a
selection of a program listing of the plurality of
program listings in the display, wherein the selection
identifies a television program corresponding to the
selected program listings for recording by the local
interactive television program guide,” as recited in
independent claim 1, because Blake discloses that the
remote user interface on input device 332 displays a
remote guide that allows a user to view and navigate
television program listings according to themes, make
program selections, and control recording device 336
to record a selected program. Pet. 43–44 (citing Ex.
1222, 14:26–32, 16:12–25, 17:8–10, 18:8–10, Fig. 12;
Ex. 1202 ¶¶ 138–143, 159–161). Comcast further
argues that, once the user makes a selection (e.g., by
selecting a basketball game) via the remote user
interface on Blake’s input device 332, “processing
system 334 will activate recording device 336 at the
user’s home to record the game(s).” Id. at 44 (quoting
Ex. 1222, 18:12–16).
Comcast
contends
that
Blake
teaches
“transmit[ting] a communication identifying the
television program corresponding to the selected
program listing from the remote access interactive
television program guide to the local interactive
television program guide over the Internet

203a
communications path,” as recited in independent
claim 1, because Blake discloses that, after central
processing system 334 receives a program recording
request from input device 332 over a network, central
processing system 334 activates recording device 336
(e.g., VCR 32 illustrated in Figure 1) to record the
selected program. Pet. 45 (citing Ex. 1222, 17:13–15,
18:12–16; Ex. 1202 ¶¶ 164–166). Comcast further
argues that, consistent with its proposed construction
of the claim term “local interactive television program
guide,” Blake’s central processing system 334 is part
of the local guide because it implements guide
functionality, including recording commands, in
support of the local guide. Id. at 46 (citing Ex. 1202
¶¶ 168, 169). Consequently, Comcast asserts that
Blake’s remote guide sending a recording request to
central processing system 334 discloses this
“transmitting” limitation because Blake’s central
processing system 334 constitutes part of the claimed
“local interactive television program guide.” Id. (citing
Ex. 1202 ¶¶ 168–170).
Lastly, Comcast contends that Blake teaches
“wherein the local interactive television program guide
receives the communication,” as recited in
independent claim 1, because Blake discloses that the
recording request sent from the remote guide is
received at the home television/guide equipment for
recording on recording device 336. Pet. 47–48 (citing
Ex. 1222, 16:29–33, 17:1–5, 18:12–16). Comcast also
contends that Blake teaches “record[ing] the television
program corresponding to the selected program listing
responsive to the communication using the local
interactive television program guide equipment,” as

204a
recited in independent claim 1, because Blake
discloses that, “[i]f a time slot for the time currently
indicated by the clock indicates that a program is to be
recorded then the channel broadcasting the program
is selected and the VCR is controlled to record to the
program.” Id. (quoting Ex. 1222, 16:31–33) (citing Ex.
1222, 17:18–19, 18:12–16; Ex. 1202 ¶¶ 174–176).
Turning to the rationale to combine, Comcast
contends that it would have been obvious to one of
ordinary skill in the art to implement Killian’s viewer
profiles in the remote user interface on Blake’s input
device 332 to better track a user’s preferences and
generate more effective user interfaces that better
identify desired/undesired content. Pet. 31 (citing Ex.
1202 ¶ 111), 42–43 (citing Ex. 1202 ¶ 157). Comcast
argues that combining the teachings of Blake and
Killian in this manner would have been nothing more
than using known techniques (i.e., Killian’s technique
of storing user profile data) to improve a similar device
(i.e., Blake’s theme-filtered program interface display)
in the same way to produce the predictable result of
providing users with better access to desired program
listings. Id. at 31, 43.
In its Patent Owner Response, Rovi presents a
number of arguments that can be grouped as follows:
(1) whether Comcast has demonstrated that Blake and
Killian, either alone or in combination, account for all
the limitations of independent claims 1, 5, 8, 11, 14,
and 17; and (2) whether Comcast has demonstrated
that a person of ordinary skill in the art would have
had a sufficient reason to combine the teachings of
Blake and Killian. See PO Resp. 19–39. We address
these groupings of arguments in turn.

205a
a. Limitations
i.
Blake Teaches Two Interactive Television
Program Guides in Communication with Each Other
Rovi contends that each independent claim
requires two interactive television program guides—
namely, “a local interactive television program guide”
and “a remote access interactive television program
guide”—in communication with each other. See PO
Resp. 19–21. Rovi argues that, although Blake’s
television schedule system allows a user to schedule
programs for recording remotely, Blake does not use a
separate “remote access interactive television program
guide” in communication with a “local interactive
television program guide” to schedule these remote
recordings, as required by the claims. Id. at 23 (citing
Ex. 2208 ¶¶ 165, 168). Instead, Rovi argues that
Blake’s central processing system 334 is responsible
for implementing the transmitting and receiving
functionalities of both (1) the remote user interface on
Blake’s input device 332; and (2) the local guide on
central processing system 334. Id.
Rovi contends that Comcast’s position that Blake’s
central processing system 334 is part of the claimed
“local interactive television program guide” does not
render the claim obvious because central processing
system 334 uses a single guide to present content and
functionality to input device 332 so that the user can
select television recordings remotely. PO Resp. 24
(citing Ex. 1222, 17:10–18, 17:25–30, 18:10–16, 18:18–
29; Ex. 2208 ¶¶ 170–172; Ex. 1232, 9; Ex. 1233, 12; Ex.
1240, 4). That is, Rovi argues that Blake’s central
processing system 334 is the source of the information

206a
and functionality presented to the user on Blake’s
input device 332. Id. at 24–25 (citing Ex. 1222, 17:10–
18, 17:25–30, 18:10–16, 18:18–29; Ex. 2208 ¶¶ 173,
174; Ex. 1232, 9–10). According to Rovi, Comcast’s
declarant, Dr. Tjaden, supports this line of reasoning
because, during his deposition, he stated that Blake’s
input device 332 gets “its program guide functionality
from” central processing system 334. Id. at 25 (quoting
Ex. 2207, 139:15–17) (emphasis omitted) (citing Ex.
2207, 139:2–140:8). Consequently, Rovi argues that
Blake does not teach two separately identifiable
guides because it is central processing system 334—
and not input device 332 or a separate remote
interactive television program guide—that provides
any purported remote guide functionality. Id. (citing
Ex. 2208 ¶¶ 173, 174). Notably, Rovi asserts that
Blake’s central processing system 334 is used the same
way in Blake’s “theme” embodiment. Id. at 25–26.
Rovi contends that the prosecution history of the
’263 patent supports its argument that Blake only
teaches a single guide. PO Resp. 26. Rovi argues that,
not only did the applicants explain that Blake does not
teach a remote guide, but they also submitted the
Declaration of Dr. George T. Ligler during prosecution
of a related application that further explains why
Blake only teaches a single guide. Id. at 26–27 (citing
Ex. 1232, 10; Ex. 1233, 12; Ex. 1238 ¶ 40). Rovi argues
that the Examiner’s reasons for allowance cited to the
applicants’ explanation that Blake does not teach a
system with two guides. Id. at 27 (citing Ex. 1234, 18).
Next, Rovi takes issue with the cross-examination
testimony of Dr. Tjaden, particularly his testimony
that Blake’s central processing system 334 is somehow

207a
not part of the claimed “remote access interactive
television program guide.” PO Resp. 28 (citing Ex.
2207, 140:2–8). Rovi argues that Dr. Tjaden did not
provide any support for this testimony and, according
to Rovi, it is contrary to his other cross-examination
testimony, arguments presented and developed in the
Petition, and his Declaration accompanying the
Petition. Id. (citing Ex. 2207, 139:15–17; Pet. 46; Ex.
1202 ¶¶ 111, 153, 168). For example, Rovi argues that
Dr. Tjaden testifies that Blake’s central processing
system 334 implements guide functionality for the
local guide and, therefore, is part of the local guide, but
when confronted as to whether central processing
system 334 implements guide functionality for the
remote guide, he testifies that it is somehow not part
of the remote guide. Id. at 28–29 (citing Ex. 1202
¶¶ 153, 168, 169; Pet. 46; Ex. 2207, 139:15–17). Rovi
argues that it is illogical and internally inconsistent
for Comcast and Dr. Tjaden to argue that, when
Blake’s central processing system 334 implements
functionality for the local guide, it is part of the local
guide, but when central processing system 334
implements functionality for the remote guide, it is
somehow not part of the remote guide. Id. at 29. Rovi
then asserts that, because Blake’s central processing
system 334 implements both the local and remote
guide, and because any testimony from Dr. Tjaden
suggesting the contrary is internally inconsistent,
Blake does not render obvious the requirement that
the claimed “remote access interactive television
program guide” be implemented on “a remote program
guide access device.” Id. at 29–30 (citing Ex. 2208
¶¶ 178–181).

208a
In its Reply, Comcast contends that Rovi’s
declarant, Dr. Shamos, readily admits that Blake
teaches a separate remote guide that communicates
with the local guide. Pet. Reply 3–4. Comcast argues
that Dr. Shamos testified at the ITC that a selection
made using the remote user interface on Blake’s input
device 332 is communicated to Blake’s local guide. Id.
at 3 (citing Pet. 47; Ex. 1246, 1138:5–15). Comcast
argues that, even though Dr. Shamos admits this
testimony is correct in his Declaration accompanying
the Patent Owner Response, he argues that the Board
mischaracterized his testimony in the Decision on
Institution and clarifies that he never testified that
Blake’s input device implements a remote guide. Id.
(citing Ex. 2208 ¶ 82). Comcast, however, asserts that
the logical conclusion of Dr. Shamos’s testimony is
that, if it were obvious to one of ordinary skill in the
art for the remote user interface on Blake’s input
device 332 to include a separate guide, then it also
would have been obvious to have guide-to-guide
communication. Id. at 4.
Notwithstanding Dr. Shamos’s admission at the
ITC, Comcast presents three reasons as to why it
disagrees with Rovi’s argument that the remote user
interface on Blake’s input device 332 is not a separate
guide. Pet. Reply 5. First, Comcast contends that the
remote user interface on Blake’s input device 332
performs all the functions of the claimed “remote
access interactive television program guide” and,
therefore,
satisfies
the
broadest
reasonable
interpretation of an “interactive television program
guide.” Id. at 5–9. Second, Comcast contends that Rovi
ignores certain aspects of the claimed “local/remote

209a
access television program guides” that undermine its
arguments. Id. at 5, 10–13. In particular, Comcast
argues that Blake teaches two guides that interact in
the same way as the claimed “local/remote access
television program guides.” Id. at 5, 12–13 (citing Ex.
1201, 13:35–41; Ex. 1252 ¶ 36). Third, Comcast
contends that, in arguing that Blake teaches a single
guide, Rovi mischaracterizes the supporting testimony
of
Comcast’s
declarant,
Dr.
Tjaden,
and
misunderstands the relevant technology. Id. at 5, 14–
15.
Based on the record developed during trial, we
agree with Comcast that Blake teaches two separately
identifiable guides in communication with each other.
See Pet. 33–47. Beginning with the claimed “local
interactive television program guide,” Comcast
argues—and we agree—that Blake’s central
processing system 334, together with recording device
336, teach the claimed “local interactive television
program guide equipment on which a local interactive
television program is implemented.” See id. at 25–26,
33–36. Figure 12 of Blake illustrates an example of a
television schedule guide that provides television
schedule information in a grid-like display on a
television screen. Ex. 1222, 16:12–14. Blake describes
the remote recording capabilities of this television
schedule guide with reference to Figure 13. Id. at 17:1–
2. Figure 13 of Blake illustrates that a user who is
away from home employs input device 332 to access
and communicably connect to central processing
system 334. Id. at 17:3–5.
With respect to Blake’s “theme” embodiment, Blake
states that processing system 334 “present[s] a list of

210a
[basketball] games to the user, and the user may select
one or more games to record.” Ex. 1222, 18:10–12.
After the user has made his/her selection, processing
system 334 confirms the user’s selection, stores that
information upon receiving confirmation from the
user, and, at the appropriate time, activates recording
device 336 located at the user’s home to record the
selected game. Id. at 18:12–16. Based on these
disclosures in Blake, we find that Blake’s central
processing system 334, together with recording device
336, implements the claimed “local interactive
television program guide.”
Our finding in this regard is consistent with the
plain language of the independent claims of the ’263
patent. These claims delineate the functions of the
“local interactive television program guide,” “remote
access interactive television program guide,” and
“local
interactive
television
program
guide
equipment.” In particular, it is the responsibility of the
“local interactive television program guide” to “receive[
] the communication and record[ ] the television
program . . . using the local interactive television
program guide equipment.” Ex. 1201, 28:59–63; see
also id. at 29:38–44, 30:11–21, 30:49–59, 31:11–19,
31:28–31, 32:7–14, 32:23–27 (reciting similar
limitations). Similar to the claimed “local interactive
television program guide,” Blake’s central processing
system 334 also receives a communication identifying
a television program to be recorded and then uses
recording device 336 to record the program. Ex. 1222,
18:12–16.
Our finding that Blake’s central processing system
334 implements, in part, the claimed “local interactive

211a
television program guide” also is consistent with our
construction of “interactive television program guide.”
In our claim construction section above, we determine
that the broadest reasonable interpretation of an
“interactive television program guide” is “control
software operative at least in part to generate a
display of television program listings and allow a user
to navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. We clarify that neither the intrinsic or extrinsic
record limits the “guide” to a single software
application. See supra Section II.A. Consequently,
when the software on Blake’s central processing
system 334 works in conjunction with input device 332
to render a television schedule guide that allows a user
to select desired programs for recording according to
themes, we find that it effectively operates as part of
an “interactive television program guide” because it
displays program listings and allows the user to
navigate through the listings, make selections, and
control recording functions.
Comcast’s declarant, Dr. Tjaden, provides
testimony supporting our finding that Blake’s central
processing system 334 implements, in part, the
claimed “local interactive television program guide.”
In his Declaration accompanying the Petition, Dr.
Tjaden testifies that “the local guide is implemented at
least in part on a server or other device outside the
user’s home.” Ex. 1202 ¶¶ 35, 127. Dr. Tjaden further
testifies that the “local guide equipment and local
guide could include hardware and software of a central
data server, such as software that is implemented on
central processing system 334 to activate recording a

212a
program on . . . recording device [336].” Id. ¶ 127. We
credit the aforementioned testimony of Dr. Tjaden
because it takes into account the reasonable inferences
one of ordinary skill in the art would draw to explain
how Blake’s central processing system 334 works in
conjunction with input device 332 to render a
television schedule guide that allows a user to select
desired programs for recording according to themes at
recording device 336. See KSR, 550 U.S. at 418
(explaining that an obviousness evaluation “need not
seek out precise teachings directed to the specific
subject matter of the challenged claim, for a court can
take account of the inferences and creative steps that
a person of ordinary skill in the art would employ”).
Turning to the claimed “remote access interactive
television program guide,” Comcast argues—and we
agree—that the remote user interface on Blake’s input
device 332 teaches the claimed “remote access
interactive television program guide.” See Pet. 27–28,
37–38. With respect to Blake’s “theme” embodiment,
the user enters input in the form of theme data into
input device 332, which may be, among other things, a
personal or laptop computer. Ex. 1222, 17:5–8, 18:1–
12, Claims 1, 7. In this embodiment, the user first
selects to record a program by themes, then selects
sports, then basketball, at which time the user is
presented with a list of basketball games, and the user
selects the game to be recorded. Id. at 18:5–10. Based
on these disclosures in Blake, we find that the remote
user interface on Blake’s input device 32 implements
the claimed “remote access interactive television
program guide.”

213a
Our finding in this regard is consistent with the
plain language of the independent claims of the ’263
patent. As we explain previously, these claims
delineate the functions of the “local interactive
television program guide,” “remote access interactive
television program guide,” and “local interactive
television program guide equipment.” In particular, it
is the responsibility of the “remote access interactive
television program guide” to “generate[] a display of a
plurality of program listings for display on the remote
program guide access device”; “receive[] a selection of
a program listing of the plurality of program listings
in the display”; and “transmit[] a communication
identifying the television program corresponding to
the selected program listing . . . to the local interactive
television program guide.” Ex. 1201, 28:44–58, 29:12–
37, 29:62–30:15, 30:32–53; see also id. at 31:11–21,
32:7–22 (reciting similar limitations). Similar to the
claimed “remote access interactive television program
guide,” the remote user interface on Blake’s input
device 332 also generates a display by rendering a
television schedule guide that permits selections
according to themes, receives selections within the
display, and then transmits those selections to central
processing system 334, which, as we explain
previously, partially implements the claimed “local
interactive television program guide.” Ex. 1222, 18:1–
12.
Our finding that the remote user interface on
Blake’s input device 332 implements the claimed
“remote access interactive television program guide”
also is consistent with our construction of “interactive
television program guide.” In our claim construction

214a
section above, we determine that the broadest
reasonable interpretation of an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” See supra Section II.A. When the remote
user interface on Blake’s input device 332 generates a
display by rendering a television schedule guide that
allows a user to select desired programs for recording
according to themes, we find that it effectively
operates as an “interactive television program guide”
because it displays program listings and allows the
user to navigate through the listings, make selections,
and control recording functions.
Comcast’s declarant, Dr. Tjaden, provides
testimony supporting our finding that the remote user
interface of Blake’s input device 332 implements the
claimed “remote access interactive television program
guide.” Dr. Tjaden testifies that “[a person of ordinary
skill in the art] . . . would have concluded that Blake’s
input device 332 implements control software for
interactively selecting programs for recording by
themes and transmitting program selections.” Ex.
1252 ¶ 32 (citing Ex. 1222, 17:1–8, 18:1–23). Dr.
Tjaden further testifies that “[t]his control software,
which is implemented on Blake’s remote personal
computer (i.e., [Blake’s] input device 332), is separate
from the local program guide software on Blake’s
control processing system 334 and [recording
equipment 336].” Id. ¶ 33 (citing Ex. 1222, Fig. 13). We
credit the aforementioned testimony of Dr. Tjaden
because it takes into account the reasonable inferences

215a
one of ordinary skill in the art would draw to explain
how the remote user interface of Blake’s input device
332 generates a display by rendering a television
schedule guide that permits selections according to
themes, receives selections within the display, and
then transmits those selections to central processing
system 334. See KSR, 550 U.S. at 418.
Rovi’s declarant from the ITC proceeding, Dr.
Shamos, who also happens to be Rovi’s declarant in
this proceeding, admitted that the user’s selection
made at Blake’s input device 332 is communicated to
the local guide. This testimony provides:
Q Doctor - - okay. My question is when a
program is chosen for recording at input device
332, that’s going to be communicated to central
processing system 334; right?
A That’s correct.
Q And then that selection at - -that would be at
central processing system 334 is going to be
communicated to the VCR 32; right?
A Yes.
Q So that selection is going to be communicated
to the local interactive program guide in figure
1; right?
A Yes, it is.
Ex. 1246, 1138:5–15.
In his Declaration accompanying the Patent Owner
Response, Dr. Shamos acknowledges this testimony at
the ITC and admits “[t]hat testimony was correct, and
I stand by it.” Ex. 2208 ¶ 80. Nevertheless, Dr. Shamos

216a
avers that he did not testify that Blake’s “input device
332 implemented a remote [guide].” Id. ¶ 82.
Although Dr. Shamos asserts that this testimony is
mischaracterized because it does not indicate that
input device 332 implements a remote guide, Dr.
Shamos still stands by his testimony, which
acknowledges that a recording selection made at input
device 332 is communicated to the local guide. Ex.
2208 ¶ 80. Dr. Shamos’s testimony may not expressly
identify that the remote user interface of Blake’s input
device 332 makes and communicates the recording
selection by way of a remote guide, but at the same
time Dr. Shamos does not dispute Dr. Tjaden’s point
that Blake’s input device 332, as a remote personal or
laptop computer, implements control software for
interactively selecting programs for recording by
themes. See Ex. 1202 ¶¶ 103, 136; Ex. 1252 ¶¶ 32, 33.
This control software that is implemented on the
remote personal or laptop computer (i.e., the remote
user interface of Blake’s input device 332) constitutes
the remote guide and is separate from the local guide
to which the communication is being directed. Ex.
1252 ¶¶ 32, 33. Accordingly, the user’s selection
referred to in Dr. Shamos’s testimony reproduced
above is communicated between the remote guide
implemented on the remote user interface of Blake’s
input device 332 (i.e., the control software that is
implemented on the remote personal or laptop
computer) and a local guide implemented, in part, on
Blake’s central processing system 334.
If we were to accept Rovi’s argument that Blake
only teaches a single guide, then it is not clear to us
how the user’s selection, referred to in Dr. Shamos’s

217a
testimony reproduced above, is communicated
between the remote user interface of Blake’s input
device 332 and a local guide implemented, in part, on
Blake’s central processing system 334. In essence, Dr.
Shamos would be testifying that Blake teaches a single
guide that communicates with itself. This is illogical.
Neither Rovi nor Dr. Shamos adequately explain how
or why a single guide would need to communicate a
user’s selection to itself, unless, as Comcast asserts,
Blake teaches two separately identifiable guides in
communication with each other.
We do not agree with Rovi’s argument that Blake
teaches a single guide because input device 332
receives some of its program guide functionality from
central processing system 334. See PO Resp. 24–26.
The specification of the ’263 patent does not preclude
the remote guide from receiving some of its program
guide functionality from the local guide. Indeed, the
specification discloses that remote and local guides
may be the same guide compiled to run on two
different platforms. Ex. 1201, 12:29–32. The
specification also discloses that the “remote access
interactive television program guide” derives some
functionality from the “local television program guide.”
For instance, with reference to the steps involved in
providing remote access to interactive television
program guide features in accordance with the
principle of the ’263 patent, the specification discloses
that “the remote access program guide provides the
user with the opportunity to remotely access functions
of the interactive program guide over the remote
access link.” Id. at 20:50–53. These program guide
functions include, among other things, “accessing

218a
program guide information.” Id. at 13:35–41(emphasis
added); see also Ex. 2208 ¶ 17 (Dr. Shamos testifies
that the interactive television program guides of the
’263 patent “allow users to access additional
information about television program listings.”)
Consequently, the claimed “remote access interactive
television program guide” derives some program guide
functionality from the claimed “local interactive
television program guide,” such as accessing program
guide information that is presented to the user
remotely. Similarly, the remote guide implemented on
the remote user interface on Blake’s input device 332
derives some program guide functionality from the
local guide implemented, in part, on central processing
system 334 by accessing program guide information
that is presented to the user remotely. Ex. 1222, 18:1–
23.
We also do not agree with Rovi’s argument that the
prosecution history of the ’263 patent supports its
argument that Blake only teaches a single guide. See
PO Resp. 26–27. The applicants prosecuting the ’263
patent did not have the benefit of (1) our construction
of the claim terms “local/remote access interactive
television program guides,” particularly our
clarification that neither the intrinsic or extrinsic
record limits the “guide” to a single software
application (see supra Section II.A); (2) the testimony
from Dr. Shamos at the ITC that Blake’s input device
332 communicates the user’s selection to the local
guide (Ex. 1246, 1138:5–15); and (3) the supporting
testimony of Comcast’s declarant, Dr. Tjaden, who
consistently takes the position that Blake teaches two
separately identifiable guides in communication with

219a
each other (see Ex. 1202 ¶¶ 35, 127; Ex. 1252 ¶¶ 31,
33). In addition, the Examiner’s position during
prosecution was that Blake disclosed a remote guide,
and the Examiner disagreed with the applicants’
argument that Blake only disclosed a single guide. Ex.
1239, 4–5. 6 Although the Examiner’s Notice of
Allowance generally cites back to previous arguments
made by the applicants addressing multiple issues
(Ex. 1234, 18 7; Ex. 2204, 10–11), it is not clear to us
whether the Examiner changed his mind as to the
specific issue of whether Blake disclosed a remote
guide. Instead, the Examiner allowed the application
over several amendments that included, among other
things, that the remote guide generates a display of
program listings “based on a user profile stored at a
location remote from the remote program guide access
device.” Ex. 1234, 8–18.
Lastly, we do not agree with Rovi’s arguments that
the supporting testimony of Comcast’s declarant, Dr.
Tjaden, is illogical and internally inconsistent. See PO
Resp. 27–30. Rovi takes issue with Dr. Tjaden’s
testimony that Blake’s central processing system 334
provides some program guide functionality to the
remote user interface on input device 332, but that
central processing system 334 itself is not part of the
remote guide. Ex. 1202 ¶¶ 111, 153, 168; Ex. 2207,
139:15–17, 140:2–8. We do not view Dr. Tjaden’s
All references to the page numbers of Exhibit 1239 are to the
page numbers inserted by Comcast at the bottom center of each
page.
7
All references to the page numbers of Exhibit 1234 are to the
page numbers inserted by Comcast at the bottom center of each
page.
6

220a
testimony in this regard as illogical and internally
inconsistent. In his Declaration accompanying the
Reply, Dr. Tjaden testifies that “Blake’s remote input
device 332 would necessarily get its program guide
information from the central processing system 334, .
. . [b]ut it is Blake’s remote input device 332 that
executes the control functionality . . . , and therefore
implements the remote guide under the broadest
reasonable interpretation.” Ex. 1252 ¶ 35. As we
explain above, we credit Dr. Tjaden’s testimony that
“Blake’s input device 332 implements control software
for interactively selecting programs for recording by
themes and transmitting program selections” (id.
¶ 32), which “is separate from the local program guide
software on Blake’s central processing system 334 and
[recording equipment 336]” (id. ¶ 33). In other words,
we agree with Comcast and Dr. Tjaden that, although
Blake’s input device 332 interacts with central
processing system 334, the remote user interface of
input device 332 implements its own separately
identifiable remote guide. Pet. Reply 14. We also agree
with Comcast and Dr. Tjaden that the remote user
interface of Blake’s input device 332 falls within the
broadest reasonable interpretation of the claimed
“remote access interactive television program guide,”
even if it receives program guide information and some
functionality from central processing system 334. Id.
at 15 (citing Ex. 1252 ¶¶ 40–42).
As we explain above, although the remote user
interface on Blake’s input device 332 receives some of
its program guide functionality from central
processing system 334, we agree with Dr. Tjaden that
it is still the remote user interface on Blake’s input

221a
device 332 that implements the remote guide—not
central processing system 334. Indeed, the remote
guide implemented by the remote user interface on
Blake’s input device 332 interacts with the local guide
implemented, in part, on central processing system
334 in the same manner as the claimed “local/remote
access interactive television program guide” interact
with one another because both sets of guides permit
the remote guide to access certain functions of the local
guide, such as accessing program guide information
that is presented to the user remotely. Compare Ex.
1222, 17:1–5, 18:1–16, with Ex. 1201, 13:35–41, 20:50–
53.
ii.

Blake’s Remote User Interface on Input Device
332 Includes Interactive Features

Rovi contends that, even assuming that the remote
user interface on Blake’s input device 332 is a separate
guide, and that guide is implemented on input device
332 (and not on central processing system 334),
Comcast does not demonstrate that any purported
interface on Blake’s input device 332 constitutes an
“interactive television program guide,” as claimed. PO
Resp. 30. Rovi argues that Blake does not disclose the
appearance or content of the remote user interface on
input device 332, such as whether the content includes
the following: (1) television program listings with
channel and start time information; (2) television
program listings generated based on a user profile;
and (3) the ability of the user to navigate through the
television program listings, or otherwise control
software functions. Id. (citing Ex. 2208 ¶¶ 71–75, 79).

222a
Rovi contends that Blake is devoid of any disclosure
with respect to Figure 13 as to how the program guide
is displayed on the remote user interface of input
device 332. PO Resp. 31 (citing Ex. 2208 ¶¶ 70–72,
169; Pet. 26–28; Ex. 2207, 145:14–146:3). According to
Rovi, Comcast never asserts that the television
schedule guide illustrated in Blake’s Figure 12, or any
guide that resembles it, is displayed in the remote user
interface of input device 332 illustrated in Figure 13.
Id. at 31–32. With respect to Blake’s “theme”
embodiment, Rovi argues that this embodiment is
silent as to how, and in what form, the television
program listing is provided to the user. Id. at 32 (citing
Ex. 2208 ¶¶ 75, 78, 79, 169, 175, 186). Indeed, Rovi
argues that Blake contemplates, when a user dials in
by telephone, he/she may be presented with “themes”
and make a selection orally. Id. (citing Ex. 1222, [57];
Ex. 2208 ¶¶ 70, 75; Ex. 2207, 144:19–145:4).
Rovi further contends that there is no disclosure
with respect to Blake’s “theme” embodiment that
suggests presenting the user with a display of
television program guide information, including
things like channel information or television program
start times, as would be required by the claimed
“interactive television program guide.” PO Resp. 32–
33 (citing Ex. 1222, 12:12–23, 18:1–16; Ex. 2208 ¶¶ 78,
79). Rovi further argues that there is also no disclosure
that Blake’s “theme” embodiment is capable of
generating a display based on a user profile, as
opposed to generating a display in response to user
input. Id. at 33 (citing Ex. 2208 ¶ 186).
Lastly, Rovi asserts that Blake does not teach using
a “remote access interactive television program guide.”

223a
PO Resp. 33. Rovi argues that, by choosing not to
implement a “remote interactive television program
guide” on the remote user interface of input device 332,
Blake offers the user greater versatility, including
allowing the user to submit requests via telephone or
email. Id. (citing Ex. 1222, [57], 18:28–30; Ex. 2208
¶¶ 75, 82, 169, 183). Rovi further argues that most of
the embodiments disclosed in Blake are silent as to
whether input device 332 has any display at all or, in
many instances, these embodiments clearly indicate
that input device 332 has no such display. Id. As
additional support for this argument, Rovi contends
that an “interactive television program guide” would
be unnecessary for other embodiments disclosed in
Blake, such as those where the user enters a
predetermined program code or the title of a television
program via input device 332. Id. at 34 (citing Ex. 2208
¶ 184).
In its Reply, Comcast contends that the testimony
of Dr. Ligler during prosecution of a related
application supports its argument that the remote
user interface on Blake’s input device 332 displays
television program listings. Pet. Reply 4. According to
Comcast, Dr. Ligler recognized that the remote user
interface on Blake’s input device 332 displays a guide
when he testified that Blake “disclose[s] display of
program listings on input device 332 (when selecting a
program according to themes).” Id. (quoting Ex. 1238
¶ 35).
Notwithstanding Dr. Ligler’s admission during
prosecution of a related application, Comcast provides
a number of reasons as to why it disagrees with Rovi’s
argument that Blake is silent as to the appearance and

224a
content of the remote guide implemented on the
remote user interface of Blake’s input device 332. Pet.
Reply 15. Comcast argues that, beyond displaying a
program listing, which is taught by Blake, the claims
do not require the appearance or content of the claimed
“remote access interactive television program guide.”
Id. at 15–16. According to Comcast, after a basketball
theme is selected, the remote guide may include a list
of basketball games that may be displayed in time
order. Id. at 16 (citing Ex. 1222, 12:12–15, 13:3–5,
18:1–16). Comcast acknowledges that, although Blake
does not disclose what the remote guide “looks like,” a
person of ordinary skill in the art still would have
understood from Blake’s disclosure what content
needs to appear and how that content may appear
(e.g., how to sort the content). Id. (citing Ex. 1252
¶¶ 25, 26). Comcast then reiterates that Blake clearly
teaches using the remote user interface of input device
332 to navigate through program listings using theme
selections. Id. at 16–17 (citing Pet. 37–40; Ex. 1202
¶¶ 134–137; Ex. 1252 ¶¶ 25, 32, 39).
Based on the record developed during trial, we
agree with Comcast that the remote user interface on
Blake’s input device 332 generates a display by
rendering an interactive television schedule guide (i.e.,
a guide that is navigable, selectable, and capable of
controlling certain functions or settings), similar to the
one illustrated in Figure 12. See Pet. 37–44. As we
explain previously, Figure 12 of Blake illustrates an
example of a television schedule guide that provides
television schedule information in a grid-like display
on a television screen. Ex. 1222, 16:12–14. Blake
describes the remote recording capabilities of this

225a
television schedule guide with reference to Figure 13.
Id. at 17:1–2. With respect to Blake’s “theme”
embodiment, the user enters input in the form of
theme data into input device 332, which may be,
among other things, a personal or laptop computer. Id.
at 17:5–8, 18:1–12, Claims 1, 7. In this embodiment,
the user first selects to record a program by themes,
then selects sports, then basketball, at which time the
user is presented with a list of basketball games, and
the user selects the game to be recorded. Id. at 18:5–
10. Based on these disclosures in Blake, we find that
the remote user interface of input device 332 generates
a display by rendering a television schedule guide that
allows a user to select desired programs for recording
according to themes.
Comcast’s declarant, Dr. Tjaden, provides
testimony supporting our finding in this regard. In his
Declaration accompanying the Petition, Dr. Tjaden
testifies that Blake’s input device 332 includes control
software that “allows a user to navigate through the
program themes/listings, make theme/program
selections, and control functions of the software (e.g.,
scheduling a recording on . . . local recording device
[336]).” Ex. 1202 ¶ 136 (citing Ex. 1222, 17:16–21,
18:1–16). In his Declaration accompanying the Reply,
Dr. Tjaden clarifies that “[a person of ordinary skill in
the art] would have recognized this user interface as a
menu-based guide that allows a user to navigate
through a menu structure to access the sorted program
listings.” Ex. 1252 ¶ 25 (citing Ex. 1222, 13:1–5, 18:5–
10). We credit Dr. Tjaden’s aforementioned testimony
because it is consistent with the disclosures in Blake
identified above.

226a
Dr.
Ligler’s
testimony
submitted
during
prosecution of a related application also supports our
finding that the remote user interface of Blake’s input
device 332 generates a display by rendering a
television schedule guide that allows a user to select
desired programs for recording according to themes.
See Pet. Reply 4. With reference to the embodiments
on page 18 of Blake, which includes the “theme”
embodiment, Dr. Ligler testifies that Blake “disclose[s]
display of program listings on input device 332 (when
selecting a program according to themes).” Ex. 1238
¶ 35. This testimony from Dr. Ligler undermines
Rovi’s argument that Blake’s “theme” embodiment
does not present the user with a display of television
program guide information, as required by our
construction of an “interactive television program
guide.” See Pet. 32–33.
We recognize that, when testifying that Blake’s
input device 332 displays program listings according
to themes, Dr. Ligler immediately follows this
testimony by averring that the embodiments on page
18 of Blake “do not disclose the claimed ‘two guide’
approach.” Ex. 1238 ¶ 35. We, however, accord Dr.
Ligler’s testimony in this regard little, if any, weight
because he did not have the benefit of (1) our
construction of the claim terms “local/remote access
interactive television program guides,” particularly
our clarification that neither the intrinsic or extrinsic
record limits the “guide” to a single software
application (see supra Section II.A); (2) the testimony
from Dr. Shamos at the ITC that Blake’s input device
332 communicates the user’s selection to the local
guide (Ex. 1246, 1138:5–15); and (3) the supporting

227a
testimony of Comcast’s declarant, Dr. Tjaden, who
consistently takes the position that Blake teaches two
separately identifiable guides in communication with
each other (see Ex. 1202 ¶ 127; Ex. 1252 ¶¶ 31, 33). In
addition, there is not a clear indication on this record
as to whether the Examiner found this specific
testimony by Dr. Ligler to be persuasive.
We do not agree with Rovi’s arguments that Blake
does not disclose the appearance or content of the
remote user interface on input device 332 and,
therefore, cannot teach the claimed “remote access
interactive television program guide.” See PO Resp.
30–34. This argument is not commensurate in scope
with independent claims 1, 5, 8, 11, 14, and 17 because
these claims do not require the claimed “remote access
interactive television program guide” to have a specific
appearance or to include certain content. See In re Self,
671 F.2d 1344, 1348 (CCPA 1982) (explaining that
limitations not appearing in the claims cannot be
relied upon for patentability). Instead, as Comcast
correctly notes in its Reply (see Pet. Reply 15–16),
these claims only require “generat[ing] a display of a
plurality of program listings for display on the remote
program guide access device” (Ex. 1201, 28:44–58,
29:12–16, 29:62–64, 30:33–35, 31:21–23, 32:16–18),
without specifying the appearance of such display or
the inclusion of certain content. Consequently, Rovi’s
attempt to patentably distinguish independent claims
1, 5, 8, 11, 14, and 17 from Blake’s television schedule
system based on features not required by these claims
is misplaced.
To the extent Rovi argues that the remote user
interface of Blake’s input device 332 does not display a

228a
television schedule guide generated based on a user
profile, these arguments either ignore or fail to
appreciate Comcast’s reliance on the teachings of
Killian. See PO Resp. 30, 33. As we explain previously,
Comcast presents arguments that either Blake or
Killian teaches a “user profile,” as recited in
independent claims 1, 5, 8, 11, 14, and 17. See Pet. 29–
30, 40–42. Killian, however, more clearly teaches a
“user profile” because it explicitly discloses user profile
data. In particular, Killian discloses software that
generates program guide displays based on viewer
profiles 84 stored on profile database 80 located either
locally or remotely. Ex. 1208, 9:10–25, 10:61–66.
Comcast also provides sufficient reasoning as to why
one of ordinary skill in the art would have been
prompted to modify Blake’s television schedule system
to include Killian’s viewer profiles, which we discuss
below in more detail. See infra Section II.B.5.b.
iii. Remaining Limitations
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Blake and Killian account for the remaining
limitations of independent claims 1, 5, 8, 11, 14, and
17. See generally PO Resp. 19–34. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
remaining limitations, and we agree with and adopt
Comcast’s analysis. See Pet. 12–14, 23–30, 32–48, 51.
b.

Comcast Presents a Sufficient Rationale to
Combine the Teachings of Blake and Killian

Rovi contends that Comcast fails to explain how or
why one of ordinary skill in the art would have been

229a
prompted to modify Blake’s television schedule system
to include Killian’s viewer profiles. PO Resp. 35.
According to Rovi, Comcast relies on conclusory
statements that are insufficient to support a
conclusion of obviousness. Id. at 35–36 (citing Ex. 2208
¶¶ 188, 189).
Rovi contends that a person of ordinary skill in the
art would not have combined the teachings of Blake
and Killian because these references have
fundamentally different teachings and purposes. PO
Resp. 36. Rovi argues that Blake is directed to
scheduling a recording from a remote location using a
variety of remote input devices, whereas Killian is
directed to offering a viewer an optimized local
television program guide with local viewer profiles. Id.
Rovi further argues that Blake’s “theme” embodiment
allows a user to narrow programs by categories of
interest. Id. According to Rovi, Comcast offers no
motivation as to why Killian’s viewer profiles, which
offer an alternative to identify and narrow desired
content, would be needed in Blake’s television
schedule system. Id. (citing Ex. 2208 ¶ 190).
Moreover, Rovi contends that Comcast fails to
address how a person of ordinary skill in the art would
have provided Killian’s viewer profiles to Blake’s input
device 332. PO Resp. 36 (citing Ex. 2208 ¶ 190). Rovi
argues that reconfiguring Blake’s television schedule
system to incorporate Killian’s viewer profiles would
unnecessarily complicate Blake’s system because
Blake offers simple remote user interfaces, whereas
Killian stores viewer profiles accessed by a “suggest
module” on a JAVA-based platform coupled to profile
database 80 and “provide[s] more sophisticated

230a
collective displays than were possible using prior
systems.” Id. at 37 (quoting Ex. 1208, 2:1–11, 5:34–38)
(citing Ex. 2208 ¶¶ 89, 188–192).
Next, Rovi contends, that even it were to assume
that Comcast clearly explains how a person of ordinary
skill in the art would have implemented Killian’s
viewer profiles in Blake’s television schedule system,
Comcast fails to explain the necessary motivation for
doing so. PO Resp. 37 (citing Ex. 2208 ¶¶ 192–194).
Rovi argues that Comcast fails to identify the problem
in Blake a person of ordinary skill in the art would
have been motivated to solve by implementing
Killian’s viewer profiles. Id. (citing Ex. 2208 ¶ 194).
According to Rovi, Killian’s viewer profiles would serve
no purpose in most of Blake’s embodiments, such as
those where the user enters a predetermined program
code or calls via telephone to schedule the recording.
Id. (citing Ex. 2208 ¶ 192). Rovi argues that Comcast’s
rationale to combine the teachings of Blake and Killian
depends entirely upon a person of ordinary skill in the
art being motivated to modify only a subset of Blake’s
user input devices (i.e., those devices capable of
rendering a display) for only one of four separately
disclosed embodiments (i.e., Blake’s “theme”
embodiment). Id. at 37–38. Consequently, Rovi asserts
that Comcast’s rationale to combine the teachings of
Blake and Killian is based on conjecture and,
therefore, does not amount to a sufficient motivation
to combine. Id. at 38.
In its Reply, Comcast maintains that a person of
ordinary skill in the art would have recognized that
Killian’s viewer profiles would work in Blake’s
television schedule system. Pet. Reply 22 (citing Pet.

231a
30–31, 42–43; Ex. 1202 ¶¶ 155–158). Comcast argues
that, although Blake’s remote and local guides differ
in function, they are similar to the extent that both
display and allow user selection of program listings.
Id. (citing Ex. 1252 ¶¶ 48–52). Comcast, therefore,
argues that it would have been obvious to one of
ordinary skill in the art to apply Blake’s teachings
with respect to the local guide to its remote guide. Id.
Next, Comcast argues that Blake teaches that its
guides present a customized line-up of channels. Id.
(citing Ex. 1222, 16:20–22; Ex. 1202 ¶¶ 149, 150).
Similarly, Comcast argues that Killian’s viewer
profiles are used to generate tailored displays of
program listings. Id. at 22–23 (citing Pet. 30–31, 42–
43; Ex. 1202 ¶¶ 155–158). Given these similarities,
Comcast asserts that a person of ordinary skill in the
art would have found it obvious to use Killian’s viewer
profiles to improve Blake’s local and remote guides. Id.
(citing Ex. 1252 ¶¶ 61–64).
Comcast further contends that Killian’s viewer
profiles are complementary to and compatible with
Blake’s theme selections. Pet. Reply 23. According to
Comcast, Killian’s viewer profiles beneficially “track a
user’s preference” to “generate more effective user
interfaces.” Id. (citing Pet. 31). Comcast then asserts
that a person of ordinary skill in the art would have
viewed Blake’s theme selections and Killian’s profilespecific listings as complementary techniques, both of
which are capable of being employed in Blake’s remote
guide. Id. at 23–24 (citing Ex. 1252 ¶ 64). Comcast
further argues that, because Blake’s remote guide
already offered multiple ways to select programs, some
of which may have been preferred over others, it would

232a
have been obvious to one of ordinary skill in the art to
improve Blake’s local and remote guides with Killian’s
viewer profiles. Id. at 24 (citing Ex. 1252 ¶¶ 62–64).
Comcast also disagrees with Rovi’s argument that
integrating Killian’s viewer profiles into Blake’s
television schedule system would unnecessarily
complicate Blake’s system. Pet. Reply 23. Comcast
argues that, in the scenario where Blake’s input device
332 is a laptop computer, it would be well-equipped to
implement sophisticated user interfaces, such as those
taught by Killian. Id. (citing Ex. 1252 ¶ 65).
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006), cited with approval in KSR, 550 U.S. at 418.
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the

233a
art would have had a sufficient reason to implement
Killian’s viewer profiles in Blake’s television schedule
system. When, as here, a technique has been used to
improve one device (i.e., Killian’s technique of
generating program guide displays based on viewer
profiles), and one of ordinary skill in the art would
have recognized that it would improve similar devices
in the same way (i.e., applying Killian’s technique to
Blake’s television schedule system, thereby allowing
the remote user interface on Blake’s input device 332
to generate a display by rendering television program
listings based on user preferences), using the
technique is obvious unless its actual application is
beyond the skill level of an ordinary skilled artisan.
See Pet. 30–31, 42–43; Ex. 1202 ¶¶ 111, 155–157. The
record includes credible evidence explaining why
applying Killian’s technique to Blake’s television
schedule system would not have been uniquely
challenging or otherwise beyond the skill level of an
ordinary skilled artisan. Comcast’s declarant, Dr.
Tjaden, provides the necessary motivation for doing
so—namely, “to better track a user’s preferences and
generate more effective user interface[s]” in order to
“better [identify] . . . desired/undesired content.” Ex.
1202 ¶¶ 111, 157.
We do not agree with Rovi’s arguments that Blake
and Killian have fundamentally different teachings
and purposes. See PO Resp. 36–37. As an initial
matter, Blake generally relates to a television
schedule system with enhanced recording capability.
Ex. 1222, 1:17–19. In particular, Blake discloses that
a user may select a program for automatic, unattended
recording by highlighting and selecting the desired

234a
program in a television schedule guide, such as the one
illustrated in Figure 12. Id. at 16:12–14, 16:17–19,
16:22–25. Similarly, Killian generally relates to an
electronic programming guide that operates on a
computing platform using information from the
Internet for display on a television. Ex. 1208, 2:1–3,
3:18–23; see also Ex. 1202 ¶ 110 (Dr. Tjaden testifies
that “[t]he general area of technology of Killian is also
the same as Blake; namely, that of interactive
electronic program guides . . . , and remote or local
access to and use of [interactive electronic program
guides] to control end-user video equipment.” (citing
Ex. 1208, [54], 1:7–9)). Consequently, we find that
Blake and Killian fall in the same field of endeavor.
Dr. Tjaden’s testimony supports our finding that
Blake and Killian are not fundamentally different and
incompatible. In his Declaration accompanying the
Petition, Dr. Tjaden testifies that the remote user
interface on Blake’s input device 332 “allows the user
to filter program listings according to themes, tracks
the user’s selections, and stores that information at
[central] processing system 334.” Ex. 1202 ¶ 111
(citing Ex. 1222, 18:1–10, 18:12–14). Dr. Tjaden then
testifies that Killian teaches customizing program
guides “based on user profile information stored locally
or remotely.” Id. (citing Ex. 1208, 9:10–25, 11:20–21).
Because the systems of Blake and Killian both store
information specific to each user, Dr. Tjaden testifies
that “[a person of ordinary skill in the art] would have
recognized that Killian’s [viewer profiles] could be
used to store information about user preferences in
Blake[’s television schedule system]. This would be
done for the purpose of customizing the remote access

235a
guide (i.e., the ‘remote theme guide’), providing the
advantages discussed in Killian.” Id. (emphasis
omitted). In his Declaration accompanying the Reply,
Dr. Tjaden clarifies that “a [person of ordinary skill in
the art] would not have had to replace or discard
Blake’s theme selections to implement [Killian’s]
profile-based selections. The addition of Killian’s
profile-based selections would be a usability gain
without any tradeoffs for the user.” Ex. 1252 ¶ 63
(citing Ex. 1202 ¶ 157).
We also do not agree with Rovi’s argument that
integrating Killian’s viewer profiles into Blake’s
television schedule system would unnecessarily
complicate Blake’s system. See PO Resp. 37. This
argument is predicated on the notion Comcast’s
proposed combination of Blake and Killian somehow
includes the bodily incorporation of Killian’s “suggest
module” on a JAVA-based platform. See id. Killian’s
“suggest module” on a JAVA- based platform, however,
is not relevant to Comcast’s ground based on the
combined teachings of Blake and Killian—only
Killian’s technique of generating program guide
displays based on viewer profiles. See In re Nievelt, 482
F.2d 965, 968 (CCPA 1973) (“Combining the teachings
of references does not involve an ability to combine
their specific structures.”). Stated differently, Comcast
does not advocate combining Killian’s “suggest
module” on a JAVA-based platform with Blake’s
television schedule system. Instead, Comcast argues
that applying Killian’s technique of generating
program guide displays based on viewer profiles to
Blake’s television schedule system would allow the
remote user interface on Blake’s input device 332 to

236a
generate a display by rendering television program
listings based on user preferences. For the reasons we
identify above, the evidence of record supports
Comcast’s explanation in this regard. See Pet. 30–31,
42–43; Ex. 1202 ¶¶ 111, 155–157.
In any event, even if we were to assume that
Comcast’s proposed combination of Blake and Killian
somehow includes the bodily incorporation of Killian’s
“suggest module” on a JAVA-based platform, which, as
we explain above, it does not, Comcast presents
supporting testimony from Dr. Tjaden that indicates
Blake’s input device 332 would be capable of
implementing a JAVA-based user interface. In his
Declaration accompanying the Reply, Dr. Tjaden
testifies that, because Blake discloses a scenario where
input device 332 is a laptop computer, “[the laptop
computer] would have had no problem implementing
Killian’s JAVA-based user interfaces if desired.” Ex.
1252 ¶ 65 (citing Ex. 1222, 17:5–8). We credit this
testimony from Dr. Tjaden because there is no
evidence of record to suggest that, in the scenario
where Blake’s input device 332 is a laptop computer
(Ex. 1222, 17:5–8), the laptop computer is anything
other than a general purpose computer capable of
implementing a variety of software platforms,
including one based on JAVA.
In addition, we do not agree with Rovi’s arguments
that Comcast must identify a problem in Blake that a
person of ordinary skill in the art would have been
motivated to solve in order to implement Killian’s
viewer profiles in Blake’s television schedule system.
See PO Resp. 37. If we were to accept this line of
argument, it would run contrary to the principles of

237a
law articulated in KSR. In KSR, the Supreme Court
emphasized “an expansive and flexible approach” to an
obviousness evaluation. 550 U.S. at 415; see also Jazz
Pharm., Inc. v. Amneal Pharm., LLC, 895 F.3d 1347,
1363 (Fed. Cir. 2018) (“KSR did not impose a rigid
requirement to identify . . . a problem to be solved in
the art . . . .”). The Court stated that, “[o]ften, it will be
necessary for a court to look to interrelated teachings
of multiple patents,” amongst other things, “to
determine whether there was apparent reason to
combine the known elements in the fashion claimed by
the patent at issue.” 550 U.S. at 418. Moreover, the
Court explained that, “[u]nder the correct analysis,
any need or problem known in the field of endeavor at
the time of invention and addressed by the patent can
provide a reason for combining the elements in the
manner claimed.” Id. at 420.
Comcast’s analysis is in line with these principles
of law. Relying on the supporting testimony of Dr.
Tjaden as evidence of the background knowledge of
one ordinary skill in the art, Comcast looked to the
interrelated teachings of Blake and Killian—
specifically, their overlapping teachings with respect
to television program guides and storing information
specific to each user—to ascertain whether there was
a sufficient reason to combine certain aspects of those
elements to arrive at the claimed invention. See Pet.
30–31, 42–43; Ex. 1202 ¶¶ 111, 155–157. Comcast
further explained that using Killian’s user profile data
in Blake’s television schedule system would have
allowed the system to better track a user’s preferences,
generate more effective user interfaces, and better
identify desired and undesired content. Pet. 31, 43.

238a
Rovi does not direct us to, nor are we aware of, any
persuasive authority that requires a party to
demonstrate obviousness by specifically identifying a
problem in a first prior art reference that a person of
ordinary skill in the art would have been motivated to
solve in order to implement the interrelated teachings
of a second prior art reference.
Lastly, we do not agree with Rovi’s argument that
Comcast’s rationale to combine the teachings of Blake
and Killian is based on conjecture and, therefore, does
not amount to sufficient motivation to combine. See PO
Resp. 37–38. As we explained above, both Comcast and
Dr. Tjaden provide sufficient reasoning as to why it
would have been obvious to one of ordinary skill in the
art to combine the teachings of Blake and Killian. See
Pet. 30–31, 42–43; Ex. 1202 ¶¶ 111, 155–157. This
reasoning is not based on conjecture because it is
directed specifically to the subject matter at issue in
independent claims 1, 5, 8, 11, 14, and 17, and there is
a sufficient basis in the record to support such
reasoning. As a result, instead of presenting reasoning
that is based on conjecture, as asserted by Rovi,
Comcast has articulated sufficient reasoning with
rational underpinnings to support a conclusion of
obviousness—namely, use of a known technique (i.e.,
Killian’s technique of generating program guide
displays based on viewer profiles) to improve similar
devices (i.e., Blake’s television schedule system) in the
same way (i.e., by allowing the remote user interface
on Blake’s input device 332 to generate a display by
rendering television program listings based on user
preferences).

239a
c. Summary
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1, 5, 8, 11, 14, and 17 would
have been obvious over the combined teachings of
Blake and Killian.
6. Claims 2, 4, 6, 9, 12, 15, and 18
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Blake and Killian account for the limitations of
dependent claims 2, 4, 6, 9, 12, 15, and 18. See
generally PO Resp. 19–39. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
limitations, as well as its explanations as to how one
ordinary skill in the art would have combined the
relevant teachings of Blake with those of Killian, and
we agree with and adopt Comcast’s analysis. See Pet.
12–14, 23–31, 48–51. Comcast, therefore, has
demonstrated by a preponderance of the evidence that
the subject matter of dependent claims 2, 4, 6, 9, 12,
15, and 18 would have been obvious over the combined
teachings of Blake and Killian.
C.

Obviousness Over the Combined Teachings of
Blake, Killian, and Lawler

Comcast contends that claims 3, 7, 10, 13, 16, and
19 of the ’263 patent are unpatentable under § 103(a)
over the combined teachings of Blake, Killian, and
Lawler. Pet. 52–53. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides

240a
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1202 ¶¶ 195–198. In its Patent Owner
Response, Rovi contends that Comcast does not
present sufficient reasoning as to why one of ordinary
skill in the art would combine the teachings of Lawler
with those of Blake and Killian. PO Resp. 39–40. Rovi
relies upon the Declaration of Dr. Shamos to support
his positions. Ex. 2208 ¶¶ 196, 197.
We begin our analysis with a brief overview of
Lawler, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.
1. Lawler Overview
Lawler generally relates to a system for recording
a program on an interactive viewing system and, in
particular, to a system that allows a user to identify a
program for recording using an interactive program
guide and then designate the identified program for
automated recording at some later time. Ex. 1209, 1:8–
13. According to one aspect of the invention disclosed
in Lawler, the recording device is associated with a
head end. Id. at 2:24–25. At the direction of the head
end, the recording device records the selected program
and digitally stores it in a memory at the head end. Id.
at 2:25–27. The recorded program may then be
retrieved from the head end by the user for display at
a viewer station. Id. at 2:27–29. Lawler discloses that
this process would allow multiple users to access a
single recording of the program, as well as make the

241a
program available to other users who did not set the
recording, but nonetheless wish to view the program
at some later time. Id. at 13:34–38.
2. Claims 3, 7, 10, 13, 16, and 19
Dependent claim 3 recites “wherein local
interactive television program guide records the
television program corresponding to the selected
program listing at a television distribution facility.”
Ex. 1201, 29:1–4. Dependent claims 7, 10, 13, 16, and
19 each recite a similar limitation. Id. at 29:49–52,
30:26–29, 30:64–67, 31:36–39, 32:34–38.
In its Petition, Comcast contends that Lawler
teaches recording programs at a central head end (i.e.,
a television distribution facility) in lieu of recording
programs locally. Pet. 52 (citing Ex. 1209, 2:24–29,
13:26–38; Ex. 1202 ¶ 196). Comcast then argues that,
as a substitute for recording programs locally, it would
have been obvious to modify the Blake and Killian
combination to include recording programs at a
television distribution facility, as taught by Lawler,
because there are certain advantages to recording
programs at the television distribution facility, such as
making recorded programs available for other
subscribers and eliminating the need for a separate
recorder. Id. (citing Ex. 1209, 2:24–29, 10:56–59,
13:26–38; Ex. 1202 ¶¶ 197, 198). According to
Comcast, this proffered combination would be nothing
more than using a known technique (i.e., Lawler’s
centralized recording at a television distribution
facility) to improve a similar system (i.e., the combined
Blake and Killian television schedule system), and
would produce a predictable result that provides the

242a
stated benefits of Lawler. Id. (citing Ex. 1209, 13:33–
38; Ex. 1202 ¶ 198).
In its Patent Owner Response, Rovi contends that
Comcast’s explanations for combining the teachings of
Blake, Killian, and Lawler are conclusory and,
therefore, fail to provide a sufficient reason for making
the proffered combination. PO Resp. 39. According to
Rovi, Comcast fails to explain how or why one of
ordinary skill in the art would have incorporated
Lawler’s technique for recording programs at a
television distribution facility into the combined
television schedule system of Blake and Killian. Id. In
particular, Rovi argues that Comcast does not explain
how a person of ordinary skill in the art would have
moved the recorder to Lawler’s television distribution
facility, while still retaining the operability of the
combined television schedule system of Blake and
Killian, including the ability for the user to control
operation of Blake’s recording device 336 local to the
user’s system. Id. at 40.
In its Reply, Comcast counters that Lawler’s
centralized recording still would allow the user to view
recorded content at his/her home using Blake’s
television schedule system. Pet. Reply 24. Comcast
argues that integrating this teaching in Lawler into
the combined television schedule system of Blake and
Killian would provide the added advantage of allowing
the physical storage of content to occur at Lawler’s
television distribution facility, which was, and
remains, a well-known method for increasing storage
efficiency. Id. (citing Ex. 1252 ¶ 66).

243a
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of Blake,
Killian, and Lawler account for the limitation of
dependent claim 3, and the similar limitations of
dependent claims 7, 10, 13, 16, and 19. See generally
PO. Resp. 39–40. We have reviewed Comcast’s
explanations and supporting evidence as to how this
proffered combination teaches these limitations, and
we agree with and adopt Comcast’s analysis. See Pet.
52–53.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to modify the
combined television schedule system of Blake and
Killian to include recording programs at a television
distribution facility, as taught by Lawler. When, as
here, a technique has been used to improve one device
(i.e., Lawler’s centralized recording at a television
distribution facility), and one of ordinary skill in the
art would have recognized that it would improve
similar devices in the same way (i.e., applying Lawler’s
technique to the combined television schedule system
of Blake and Killian to make recorded programs
available for other subscribers and to eliminate the
need for a separate recorder), using the technique is
obvious unless its actual application is beyond the skill
level of an ordinary skilled artisan. See Pet. 52–53; Ex.
1202 ¶¶ 197, 198. The record includes credible
evidence explaining why applying Lawler’s technique
to the combined television schedule system of Blake
and Killian to make recorded programs available to
multiple subscribers at a television distribution

244a
facility would not have been uniquely challenging or
otherwise beyond the skill level of an ordinary skilled
artisan. Indeed, Lawler itself provides the necessary
motivation for doing so—namely, “[to] allow multiple
users to access a single recording of the program.” Ex.
1209, 13:33–35.
We do not agree with Rovi’s argument that
Comcast does not explain how a person of ordinary
skill in the art would have moved the recorder to
Lawler’s television distribution facility, while still
retaining the operability of the combined television
schedule system of Blake and Killian See PO Resp. 40.
As Comcast explains in the Petition, modifying the
Blake and Killian combination to include recording
programs at a television distribution facility, as taught
by Lawler, serves as a substitute for the user’s ability
to record programs locally on Blake’s recording device
336. See Pet. 52. For instance, instead of using Blake’s
recording device 336 to record programs, which still
remains a viable option, a user would communicate
with Lawler’s television distribution facility to record
programs via Blake’s central processing system 334.
Dr. Tjaden testifies—and we agree—that recording
programs at Lawler’s television distribution facility, in
lieu of recording programs locally on Blake’s recording
device 336, would increase storage efficiency by
making these recordings available to other users and
it would eliminate the need for each user to maintain
a separate recorder. See Ex. 1202 ¶ 198; Ex. 1152 ¶ 66.
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of dependent claims 3, 7, 10, 13, 16, and 19 would have

245a
been obvious over the combined teachings of Blake,
Killian, and Lawler.
III. CONCLUSIONS
Comcast has demonstrated by a preponderance of
the evidence that (1) claims 1, 2, 4–6, 8, 9, 11, 12, 14,
15, 17, and 18 are unpatentable under § 103(a) over
the combined teachings of Blake and Killian; and (2)
claims 3, 7, 10, 13, 16, and 19 are unpatentable under
§ 103(a) over the combined teachings of Blake, Killian,
and Lawler.
IV. ORDER
In consideration of the foregoing, it is
ORDERED that claims 1–19 of the ’263 patent are
held to be unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to this proceeding seeking
judicial review of our decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

246a
APPENDIX E
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.,
Patent Owner.
Case IPR2017-01048
Patent 8,578,413 B2
Entered: October 16, 2018
Before KEVIN F. TURNER, MICHAEL R. ZECHER,
and JESSICA C. KAISER, Administrative Patent
Judges.
TURNER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition requesting an inter partes
review of claims 1–18 of U.S. Patent No. 8,578,413 B2
(Ex. 1001, “the ’413 Patent”). Paper 2 (“Pet.”). Patent
Owner, Rovi Guides, Inc. (“Rovi”), filed a Preliminary
Response. Paper 7. Taking into account the arguments
presented in Rovi’s Preliminary Response, we

247a
determined that the information presented in the
Petition established that there was a reasonable
likelihood that Comcast would prevail in challenging
claims 1–18 of the ’413 Patent as unpatentable under
35 U.S.C. § 103(a). Pursuant to 35 U.S.C. § 314, we
instituted this inter partes review on October 18, 2017,
as to all of the challenged claims, but not all the
grounds presented by Comcast in its Petition. Paper 9
(“Dec. on Inst.”).
During the course of trial, Rovi filed a Patent
Owner Response (Paper 15, “PO Resp.”), and Comcast
filed a Reply to the Patent Owner Response (Paper 26,
“Pet. Reply”). A consolidated oral hearing with related
Cases IPR2017-00950, IPR2017-00951, IPR201700952, IPR2017-01049, IPR2017-01050, IPR201701065, IPR2017-01066, and IPR2017-01143 was held
on June 19, 2018, and a transcript of the hearing is
included in the record. Paper 35 (“Tr.”).
After all substantive briefing was complete, but
before the consolidated oral hearing, the United States
Supreme Court held that a decision to institute under
35 U.S.C. § 314 may not institute on less than all
claims challenged in the petition. SAS Inst., Inc. v.
Iancu, 138 S. Ct. 1348, 1359–60 (2018). Following
SAS, the U.S. Patent and Trademark Office (“Office”)
issued “Guidance on the impact of SAS on AIA trial
proceedings,” in which the Office took the policy
position that a decision granting institution will
institute on all of the challenged claims in the petition

248a
and all the grounds presented in the petition. 1 The
U.S. Court of Appeals for the Federal Circuit has since
endorsed this Office policy by explaining that “‘the
petitioner’s petition, not the Director’s discretion, is
supposed to guide the life of the litigation’ and ‘that
the petitioner’s contentions, not the Director’s
discretion, define the scope of the litigation all the way
from institution through to conclusion.’” Adidas AG v.
Nike, Inc., 894 F.3d 1256, 1258 (Fed. Cir. 2018)
(quoting SAS, 138 S. Ct. at 1356–1357). In accordance
with SAS and Office policy, we issued an Order
modifying our Decision on Institution entered on
October 18, 2017, to include review of all challenged
claims and all grounds presented by Comcast in its
Petition. Paper 32. The parties, however, agreed to
waive briefing on the grounds we declined to institute
in the Decision on Institution. Id. The parties also
agreed to waive consideration of these previously noninstituted grounds at the consolidated oral hearing. Id.
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1–18 of the
’413 Patent. For the reasons discussed below, we hold
that Comcast has demonstrated by a preponderance of
the evidence that these claims are unpatentable under
§ 103(a).
A. Related Matters
The ’413 Patent is involved in the following district
court cases: (1) Rovi Guides, Inc. v. Comcast Corp., No.
Available at https://www.uspto.gov/patents-applicationprocess/patent-trial-and-appeal-board/trials/guidance-impactsas-aia-trial.
1

249a
2:16-cv-00322 (E.D. Tex.), which has been transferred
to the U.S. District Court for the Southern District of
New York and is pending as Rovi Guides, Inc. v.
Comcast Corp., No. 1:16-cv-09826 (S.D.N.Y.); and (2)
Comcast Corp. v. Rovi Corp., No. 1:16-cv-03852
(S.D.N.Y.). Pet. 1–2; Paper 3, 2. The ’413 Patent also
has been asserted against Comcast in a proceeding
before the U.S. International Trade Commission
(“ITC”) styled In re Certain Digital Video Receivers and
Hardware and Software Components Thereof, No. 337TA-1001. Pet. 2; Paper 3, 2.
In addition to this Petition, Comcast filed two other
petitions challenging the patentability of claims 1–18
of the ’413 Patent (Cases IPR2017-01049 and
IPR2017-01050). Pet. 3; Paper 3, 2. Comcast also filed
other petitions challenging the patentability of certain
subsets of claims in several patents owned by Rovi.
Pet. 3.
B. The ’413 Patent
The ’413 Patent, titled “Interactive Television
Program Guide with Remote Access,” issued
November 5, 2013, from U.S. Patent Application No.
13/275,565, filed on October 18, 2011. Ex. 1001, [54],
[45], [21], [22]. The ’413 Patent is a continuation of
U.S. Patent Application No. 10/927,814, filed on
August 26, 2004, which, in turn, is a continuation of
U.S. Patent Application No. 09/354,344, filed on July
16, 1999. Id. at [63]. The ’413 Patent also claims the
benefit of U.S. Provisional Application No. 60/097,527,
filed on August 21, 1998, and U.S. Provisional
Application No. 60/093,292, filed on July 17, 1998. Id.
at [60].

250a
The ’413 Patent generally relates to interactive
television program guide video systems and, in
particular, to such systems that provide remote access
to program guide functionality. Ex. 1001, 1:16–19. The
’413 Patent discloses that conventional interactive
television program guide systems typically are
implemented on set-top boxes located in the home of a
user and, as a result, do not permit the user to perform
program guide functions without the user being
physically located in the same room as these systems.
Id. at 1:34–42. Stated differently, conventional
interactive television program guide systems require
the user to be present in the home to access important
program guide features, such as program reminders,
parental controls, and program recording. Id. at 2:16–
19. The ’413 Patent purportedly addresses this and
other problems by providing an interactive television
program guide system that allows a user to access
certain features of the program guide remotely and
establish settings for those features. Id. at 2:20–25.
Figure 1 of the ’413 Patent, reproduced below,
illustrates a schematic block diagram of the system in
accordance with the present invention. Ex. 1001, 7:15–
39.

251a

As shown in Figure 1 reproduced above, system 10
includes main facility 12 that provides interactive
television program guide data from program guide
data source 14 to interactive television program guide
equipment 17 via communication link 18. Id. at 7:15–
22. Interactive television program guide equipment 17
is connected to at least one remote program guide
access device 24 via remote access link 19. Id. at 7:33–
35.
Figure 2a of the ’413 Patent, reproduced below,
illustrates one arrangement involving the interactive
television program guide equipment 17 and remote
program guide access device 24 in accordance with the
principles of the present invention. Ex. 1001, 8:16–34.

252a

As shown in Figure 2a reproduced above, interactive
television program guide equipment 17 includes
program guide distribution equipment 21 located at
television distribution facility 16, which distributes
program guide data to user television equipment 22
via communications path 20. Id. at 4:57–67. Remote
program guide access device 24 receives the program
guide data, as well as any additional data necessary to
access various functions of the interactive program
guide, from user television equipment 22 via remote
access link 19. Id. at 8:21–26.
In at least one embodiment, the ’413 Patent
discloses that a remote access interactive television
program guide implemented on remote program guide
access device 24 communicates with a local interactive
television program guide implemented on interactive
television program guide equipment 17. Id. at 15:9–18.

253a
In one example, the remote access and local interactive
television program guides may be two different guides
that communication with each other. Id. at 15:20–23;
see also id. at 25:35–59 (disclosing steps involved with
using the remote access interactive television guide to
provide program listing information to a user).
The ’413 Patent discloses transferring program
guide information and settings between remote
program guide access device 24 and interactive
television program guide equipment 17 using any
suitable application layer protocol. Ex. 1001, 15:60–64.
For example, if remote access link 19 is an Internet
link, program guide functionality may be accessed
using Hypertext Transfer Protocol. Id. at 15:64–66.
Remote program guide access device 24 and
interactive television program guide equipment 17
also may transfer program guide information as files
using either File Transfer Protocol or Trivial File
Transfer Protocol running over a Transmission
Control Protocol/Internet Protocol stack. Id. at 15:66–
16:4. The ’413 Patent makes clear that “[a]ny suitable
file transfer protocol based on any suitable protocol
stack may be used.” Id. at 16:4–5.
C. Illustrative Claim
Claims 1 and 10 are independent. Independent
claim 1 is directed to a system for selecting television
programs over a remote access link that includes an
Internet communications path for recording, whereas
independent 10 is directed to a method for performing
the same. Claims 2–9 depend from independent claim
1, and claims 11–18 depend from independent claim

254a
10. Independent claim 1 is illustrative of the
challenged claims and is reproduced below:
1. A system for selecting a television
program over a remote access link comprising
an Internet communications path for
recording, the system comprising:
a local interactive television program guide
equipment on which a local interactive
television program guide is implemented,
wherein the local interactive
television
program guide generates a display of one or
more television program listings for display on
a display device at a user’s home, wherein the
local interactive television program guide
equipment is located within the user’s home
and includes user television equipment,
wherein a mobile device communicates with
the local interactive television program guide
equipment, wherein the mobile device, on
which a remote access interactive television
program guide is implemented, is located
outside of the user’s home, and wherein the
mobile device:
generates a display of the remote access
interactive television program guide, the
remote access interactive television program
guide comprising a plurality of television
program listings for display on the mobile
device, wherein the display of the remote
access interactive television program guide is
generated based on a user profile stored at a
location remote from the mobile device;

255a
receives a user selection of the television
program for recording by the local interactive
television program guide, wherein the user
selects the television program by selecting a
television program listing from the plurality of
television program listings displayed, by the
remote access interactive television program
guide, on the mobile device; and
transmits, to the local interactive television
program
guide
over
the
Internet
communications path, a communication
identifying the television program for
recording corresponding to the television
program listing selected by the user with the
remote access interactive television program
guide, wherein the local interactive television
program guide receives the communication
and, responsive to the communication, records
the television program corresponding to the
selected television program listing using the
local interactive television program guide
equipment.
Ex. 1001, 40:6–48.
D.

Instituted Grounds of Unpatentability

We instituted a trial based on the asserted grounds
of unpatentability (“grounds”) set forth in the table
below. Dec. on Inst. 37; Paper 32.

256a
References

Basis

Challenged
Claim(s)

Humpleman 2
and Killian 3
Humpleman,
Killian, and
Lawler4
Kondo, 5 Killian,
and
Kawamura 6
Kondo, Killian,
and
Kawamura,
and Lawler

§ 103(a)

1, 3–10, and
12–18
2 and 11

§ 103(a)
§ 103(a)

1, 3–10, and
12–18

§ 103(a)

2 and 11

II. ANALYSIS
A.

Claim Construction

In an inter partes review, claim terms of an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b). Under the
U.S. Patent No. 6,182,094 B1; issued Jan. 30, 2001 (Ex. 1006,
“Humpleman”).
3
U.S. Patent No. 6,163,316, issued Dec. 19, 2000 (Ex. 1008,
“Killian”).
4
U.S. Patent No. 5,805,763, issued Sept. 8, 1998 (Ex. 1009,
“Lawler”).
5
Japanese Pat. App. Pub. No. H10-155131, published June 9,
1998 (Ex. 1011, “Kondo”). Comcast has provided a certified
translation of Kondo from Japanese into English (Ex. 1012).
6
Japanese Pat. App. Pub. No. H9-102827, published Apr. 15,
1997 (Ex. 1013, “Kawamura”). Comcast has provided a certified
translation of Kawamura from Japanese into English (Ex. 1014).
2

257a
broadest reasonable interpretation standard, and
absent any special definitions, claim terms are
generally given their ordinary and customary
meaning, as would be understood by one of ordinary
skill in the art, in the context of the entire disclosure.
In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed.
Cir. 2007).
In the Decision on Institution, we determined that
the only claim terms requiring construction are
“local/remote access interactive television program
guides,” and only to the extent necessary to resolve
whether the grounds asserted by Comcast properly
accounted for both a “local interactive television
program guide” and a “remote access interactive
television program guide.” Dec. on Inst. 9 (citing Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803
(Fed. Cir. 1999) (explaining that only those claim
terms that are in controversy need to be construed,
and only to the extent necessary to resolve the
controversy)). Upon reviewing the parties’ preliminary
arguments and evidence, we adopted Comcast’s
proposed construction that an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” Id. at 13. We further clarified that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and they are not
construed properly as reading on the same interactive
television program guide. Id.

258a
In its Patent Owner Response, Rovi generally
agrees with our initial determination that the only
claim terms requiring construction are “local/remote
access interactive television program guides.” PO
Resp. 11. Rovi, however, proposes that the proper
constructions for these claim terms are the following:
(1) “local interactive television program guide” is a
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment”; and (2)
“remote access interactive television program guide” is
a “guide allowing navigation through television
program listings using a remote access link.” Id.
According to Rovi, its proposed constructions for the
claim terms “local/remote access interactive television
program guides” are consistent with the intrinsic
evidence, our preliminary finding that these guides
must be distinct guides, and the findings of the ITC in
related proceedings. Id. at 12–13 (citing Ex. 2001, 193,
198, 409).
Rovi further contends that, any difference between
our constructions and the ITC’s constructions of the
claim terms “local/remote access interactive television
program guides” is not relevant to the grounds at issue
in this proceeding because, according to Rovi, each of
Comcast’s asserted grounds fails under Rovi’s broader
constructions “that do[] not unnecessarily restrict the
guides to ‘control software’ that ‘controls functions of
the software.’” PO Resp. 13. Rovi asserts that, because
it is proposing broader constructions for these claim
terms, we need not determine whether the asserted
prior art satisfies Comcast’s proposed constructions.
Id. Rovi then proceeds to explain how our preliminary

259a
constructions and the ITC’s constructions are
consistent in certain respects because (1) they both
require the guides to be interactive (i.e., navigable and
selectable); and (2) they both agree that the claims
require two separate guides, as properly construed. Id.
at 13–16. 7
In its Reply, Comcast contends that Rovi’s proposed
constructions of the claim terms “local/remote access
interactive television program guides” improperly
seeks to limit the broadest reasonable interpretation
of the claim term “interactive television program
guide” to a single software component that generates
listings, thereby excluding other software components
that assist in providing guide functionality. Pet. Reply
4 (citing PO Resp. 24–25, 34, 36–37; Ex. 2011 ¶ 114).
According to Comcast, this exclusion finds no basis in
the plain language of the claims and the specification
of the ’413 Patent. Id.
Comcast also contends that Rovi’s arguments
directed to the claim term “interactive television
program guide” contradicts the construction Rovi
offered in the related ITC proceeding. Pet. Reply 4.
Comcast argues that Rovi expanded the scope of the
claim term “local interactive television program guide”
in the related ITC proceeding, to capture all software
At the oral hearing for the first time, Rovi argued that “remote
access interactive television program guide” requires “dedicated
code at the remote device.” See, e.g., Tr. 58:3–7, 60:19–61:14,
66:14–21. We agree with Comcast (id. at 96:3–10) that this is a
new argument that was not presented and developed in Rovi’s
briefs and, therefore, we do not consider it. See Paper 10, 3
(cautioning Rovi that “any arguments for patentability not raised
in the response will be deemed waived”).

7

260a
components related to any local guide functionality,
including recording. Id. at 4–5 (citing Ex. 2001, 188–
99, 222–35; Ex. 1054 ¶¶ 158–160, 169, 170, 371, 376).
Comcast argues that Rovi’s expert in the ITC
proceeding, Dr. Michael Shamos, who also is Rovi’s
expert in this proceeding, provided supporting
testimony that the claim term “local interactive
television program guide” could be an “extensive
collection of hardware and software.” Id. at 5
(emphasis omitted) (quoting Ex. 1054 ¶ 169). In this
proceeding, however, Comcast argues that Rovi and
Dr. Shamos appear to take the erroneous position that
the claim term “local interactive television program
guide” is a single software application. Id. at 6
(compare PO Resp. 34 and Ex. 2008 ¶ 116, with Ex.
1054 ¶ 371). According to Comcast, we should hold
Rovi to the same broad construction of the claim term
“local interactive television program guide” in this
proceeding that it wielded to exclude others from
practicing the claimed invention in the related ITC
proceeding. Id.
As an initial matter, it is not clear to us whether
Rovi actually disputes our preliminary construction of
the claim term “interactive television program guide.”
On the one hand, Rovi asserts that the ITC’s
constructions of local interactive television program
guide (i.e., a “guide that allows navigation through
television program listings and causes display of
program information on user television equipment”)
and remote access interactive television program
guide (i.e., a “guide allowing navigation through
television program listings using a remote access
link”) are the proper constructions. PO Resp. 11–12.

261a
On the other hand, Rovi argues that both our
constructions and the ITC’s constructions “are
consistent with respect to the relevant aspects (e.g.,
navigation and selection)” of a local/remote access
interactive television guide. Id. at 12. Rovi further
contends that “[a]ny differences between the Board’s
and the ITC’s constructions are not relevant to
[Comcast’s] failures of proof regarding the asserted
prior art and [g]rounds at issue in this proceeding.” Id.
at 13 (emphasis added); see also Ex. 2011 ¶ 25 (Rovi’s
declarant, Dr. Shamos, testifies that, “regardless of
which constructions the Board applies, my opinions
remain the same. The asserted prior art references
here fail to disclose the claim limitations . . . under
either construction.”) These arguments make it
difficult to ascertain what Rovi actually views as to the
proper scope and meaning of claim terms “local/remote
access interactive television program guides.”
Nevertheless, we are charged in this proceeding with
determining the broadest reasonable interpretation of
these claim terms.
Beginning with the intrinsic record, neither party
argues, nor could we find, an explicit definition for the
claim term “interactive television program guide” in
the specification of the ’413 Patent. The specification,
however, is replete with descriptions of conventional,
local, or remote interactive television program guides.
For instance, the specification discloses that
conventional interactive television program guides
display “various groups of television program [guide]
listings . . . in predefined or user-defined categories,”
and “allow the user to navigate through [the]
television program listings” and make a selection

262a
“using a remote control.” Ex. 1001, 1:28–33. For a
conventional interactive television program guide, the
user must physically be located in the same room as
the set-top box on which the interactive television
program guide is implemented to select programs for
recording or to perform other guide functions. Id. at
1:34–42. In the context of discussing the
implementation of a remote access interactive
television program guide, the specification discloses
that such a guide works in conjunction with a remote
device to “provide users with the opportunity to
remotely access features of the interactive television
program guide on the interactive television program
guide equipment and to remotely set program guide
settings.” Id. at 2:64–3:4. The specification goes on to
disclose that “[a]ny suitable interactive television
program guide function or setting may be accessed,”
including, but not limited to, “remotely select[ing]
programming for recordings” and “remotely set[ting]
and navigat[ing] through favorites (e.g., favorite
channels, program categories, services, etc.).” Id. at
3:5–15.
Although the aforementioned disclosures provide
guidance as to the functionality of an “interactive
television program guide” (i.e., navigable, selectable,
and capable of controlling certain functions or
settings), neither party directs us to, nor can we find,
a disclosure in the specification that specifically
identifies what element or elements constitute a
“guide.” Given the lack of disclosure in this regard, we
decline to limit the “guide” to a single software
application. Rather, these disclosures support
Comcast’s proposed construction that an “interactive

263a
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.”
We further clarify that, based on the plain
language of independent claims 1 and 10, they indicate
that the claim terms “local interactive television
program guide” and “remote access interactive
television program guide” are separately identifiable
elements. See Becton, Dickinson & Co. v. Tyco
Healthcare Grp., LP, 616 F.3d 1249, 1254 (Fed. Cir.
2010) (“Where a claim lists elements separately, ‘the
clear implication of the claim language’ is that those
elements are ‘distinct component[s]’ of the patented
invention.” (alteration in original) (quoting Gaus v.
Conair Corp., 363 F.3d 1284, 1288 (Fed. Cir. 2004))).
Our determination in this regard is supported by the
specification, which includes various embodiments
that treat these claim terms as separately identifiable
elements capable of communicating with each other.
See, e.g., Ex. 1001, 15:20–23 (“In still another suitable
approach, the [local interactive television program
guide and remote access interactive television
program guide] may be different guides that
communicate in a manner or manners discussed . . .
herein.”), 23:4–7 (“The remote access [interactive
television] program guide may . . . send audio,
graphical, and text messages to the local interactive
[television] program guide for playing or display by
user television equipment 22.”). The specification also
explains that the “local interactive television program
guide” and “remote access interactive television

264a
program guide” may be the same guide, in which case
they are separately identifiable elements in that each
guide is compiled to run on a different platform. See id.
at 15:15–18 (“The remote access and local guide may,
for example, be the same guide but compiled to run on
two different platforms and to communicate in a
manner or manners discussed herein.”).
We decline to adopt Rovi’s proposed constructions
of the claim terms “local/remote access interactive
television program guides” for two reasons. First, we
are unable to determine how Rovi’s proposed
constructions add any clarity to the scope and meaning
of an “interactive television program guide.” That is,
we view each of Rovi’s proposed constructions as
circular and unhelpful because they define each of the
guides as a “guide [that allows/allowing] navigation
through television program listings.” PO Resp. 11
(emphasis added). Rovi, however, does not actually
identify what element or elements specifically
constitute the “guide.”
Second, Rovi states that its proposed constructions
indicate “where the specific guide resides (i.e., on ‘user
television equipment’ or over ‘a remote access link’),”
id. at 16 (emphasis omitted), but readily admits that
“these additions merely restate the language of the
broader claim limitation[s].” Id. (citing Ex. 1050, 185,
190). It is well settled that the U.S. Court of Appeals
for the Federal Circuit disfavors any claim
interpretation that renders a claim term or phrase
superfluous. See Apple, Inc. v. Ameranth, Inc., 842
F.3d 1229, 1237 (Fed. Cir. 2016) (“The Board was
correct to not include in its construction of ‘menu’
features of menus that are expressly recited in the

265a
claims. . . . Construing a claim term to include features
of that term already recited in the claims would make
those expressly recited features redundant.”). If we
were to adopt the language in Rovi’s proposed
constructions pertaining to where each guide resides,
it would render superfluous the language that is
already explicitly recited in independent claim 1, and
similarly recited in independent claim 10—namely,
“over a remote access link” and “a local interactive
television program guide equipment on which a local
interactive television program guide is implemented,
… wherein the local interactive television program
guide equipment is located within the user’s home and
includes user television equipment.” 8
Turning now to the extrinsic evidence, in Dr.
Tjaden’s Declaration accompanying the Petition, he
testifies that “the local [interactive television program]
guide may be implemented at least in part on a server
or other device outside the user’s home.” Ex. 1002 ¶ 36.
To support this testimony, he directs us to Rovi’s
interpretation of the claim term “local interactive
television program guide” in the related ITC
proceeding. Id. (citing Ex. 1045, 56; Ex. 1046, 43). In
Dr. Tjaden’s Declaration accompanying the Reply, he
elaborates further on his initial position by testifying
that “a [person of ordinary skill in the art] looking at
During oral argument, in response to a question regarding the
ITC’s construction of the “local interactive television program
guide” being on user television equipment and its construction
that the “remote access television program guide” uses a remote
access link, counsel for Rovi stated that “I don’t think where [the
guides are] implemented is meaningful because that’s recited in
the claim separately.” Tr. 66:22–67:24.

8

266a
the ’413 Patent would have understood that many
different arrangements of the software and hardware
components comprising an interactive television
program guide are possible and acceptable in [the]
prior art used to show obviousness.” Ex. 1052 ¶ 15. To
support this testimony, he directs us to the different
arrangements of software and hardware in the ’413
Patent. Id. ¶¶ 16–18 (citing Ex. 1001, 7:15–19, 33–35,
40–47, 9:36–44, 10:15–16, 29–34, 41–48, Figs. 1, 2a–
2d).
Although we recognize that the broadest
reasonable interpretation standard governs in this
proceeding, whereas the district court claim
construction standard governs in an ITC proceeding,
Dr. Shamos’s testimony in the ITC proceeding is
relevant here because it sheds some light on what
element or elements he believes constitutes a “guide.”
In the ITC proceeding, Dr. Shamos testified that the
claim term “local interactive television program guide”
could be an “extensive collection of hardware and
software.” Ex. 1054 ¶ 169. He also testified “that the
‘local [interactive television program] guide’ [should
not be construed as] a single software application that
must reside on a device in the user’s home,” and
“[n]othing in the claims excludes a ‘recording
application’ from being part of the local [interactive
television program] guide.” Id. ¶ 371. Dr. Shamos’s
testimony in the ITC proceeding is consistent with Dr.
Tjaden’s testimony in this proceeding because, like Dr.
Tjaden, Dr. Shamos does not limit a “guide” to a single
software application, but rather contemplates that the
“guide” may constitute different arrangements of
software and hardware.

267a
We note that the aforementioned testimony from
Dr. Tjaden and Dr. Shamos suggest that the “guide”
may include both software and hardware. Rovi
likewise argues that its proposed construction is
broader than Comcast’s because “it does not
unnecessarily restrict the guides to ‘control software.’”
PO Resp. 13. We do not find support in the intrinsic
record that the “guide” may include hardware. Rather,
the ’413 Patent separately refers to the interactive
television program guide and the hardware on which
it is implemented. See, e.g., Ex. 1001, 1:34–35
(“Interactive television program guides are typically
implemented
on
set-top
boxes. . . .”).
The
aforementioned testimony, however, is consistent with
our finding that the “guide” may constitute more than
just a single software application.
In summary, upon weighing all the evidence
bearing on the construction of the claim term
“interactive television program guide,” we maintain
that the broadest reasonable interpretation of this
claim term is “control software operative at least in
part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” We also maintain that the claim terms
“local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide.

268a
B. Prior Art Status of Humpleman Provisional
Additionally, Rovi contends that Humpleman
Provisional (U.S. Patent Application No. 60/059,499;
Ex. 1007) is not prior art and cannot be used to teach
or suggest elements of the challenged claims. PO Resp.
48–51. Rovi argues that (1) Humpleman Provisional is
neither a patent nor an application published under 35
U.S.C. § 122(b), and that a provisional application can
only qualify as prior art under 35 U.S.C. § 102(e) when
the critical disclosures are also present in the
corresponding patent; and (2) that the provisional
application cannot be relied upon because it has not
been properly incorporated by reference into
Humpleman. Id.
With respect to the first argument, although Rovi
is correct about the requirements that determine
whether something is valid prior art, standing alone,
we are not persuaded that Comcast has relied upon or
asserted the Humpleman Provisional absent the
Humpleman issued patent in the Petition. Comcast
does not assert the former without asserting the latter,
at least in terms of the grounds of unpatentability
proffered in the Petition. Although Rovi is correct that
Comcast has stated that “Humpleman Provisional is
prior art both as part of Humpleman and on its own”
(Pet. 18), Rovi has not pointed to any other occurrence
where Comcast has asserted Humpleman Provisional
without also asserting Humpleman. As such, Rovi’s
argument is without basis because Comcast has not
asserted Humpleman Provisional on its own, apart
from its incorporation by reference into Humpleman,
discussed below.

269a
Rovi also contends that Humpleman Provisional is
not properly incorporated by reference into
Humpleman. PO Resp. 50–51. Rovi argues that
Humpleman does not identify with particularity the
specific material in the provisional applications
asserted to be incorporated by reference or clearly
indicate where that material is found in the
incorporated applications, as required to incorporate
material by reference. Id. (citing Advanced Display
Sys., Inc. v. Kent State Univ., 212 F.3d 1272, 1282
(Fed. Cir. 2000)). We do not agree.
The relevant section of Humpleman is reproduced
below:
This patent application claims priority from
provisional patent application Ser. No.
60/050,762, filed on Jun. 25, 1997, entitled
Home Network, Browser Based, Command and
Control and provisional patent application Ser.
No. 60/059,499, filed on Sep. 22, 1997, entitled
Improved Home Network, Browser Based,
Command and Control, which are incorporated
herein by reference.
Ex. 1006, 1:7–13 (emphasis added). From this cited
disclosure, we find the patentee in Humpleman
incorporated the entireties of both provisional
applications by reference. If the intent was to
incorporate only one provisional or just part of one
provisional, then we would agree that sufficient
particularity has not been supplied. However, a
reasonable interpretation of such an incorporation by
reference clause is that all of the referenced
provisional disclosures are incorporated. Similarly,

270a
there is no need to stipulate where particular material
to be incorporated is found when that particular
material is all.
Rovi also argues that such an incorporation by
reference should include certain words, such as “in its
entirety” or “[t]he contents of” or “the disclosure of
which,” in order to properly incorporate a reference’s
entire disclosure. PO Resp. 50–51 (citing Synopsys,
Inc. v. Mentor Graphics Corp., Case IPR2012-00041,
slip op. at 9 (PTAB Feb. 22, 2014) (Paper 16); WTS
Paradigm, LLC v. EdgeAQ LLC, Case IPR2016-00199,
slip op. at 20– 21 (PTAB May 22, 2016) (Paper 7); Sony
Corp. v. One-E-Way, Inc., Case IPR2016-01639, slip
op. at 13 (PTAB Feb. 22, 2017) (Paper 8)).
We are not persuaded that the default rule should
be that an incorporator need to specify an entirety of a
reference to accomplish incorporation of all of a
reference; rather, we are persuaded that limiting
statements, if applicable, should be taken as limits on
the full incorporation. We find edifying Zenon
Environmental, Inc. v. U.S. Filter Corp., 506 F.3d
1370, 1379 (Fed. Cir. 2007), which found “[t]he plain
language expressly limits the incorporation to only
relevant disclosures of the patents, indicating that the
disclosures are not being incorporated in their
entirety.” In the instant case of Humpleman, we find
no express limits on the incorporation, and, as a result,
we determine that the incorporation of Humpleman
Provisional into Humpleman involved the entire
provisional application.
As such, we are not persuaded, as a matter of law,
that Humpleman did not incorporate both provisional

271a
applications into its disclosure. Thus, we are
persuaded that Humpleman Provisional can be relied
upon for its disclosure, having been properly
incorporated by reference according to 37 C.F.R.
§ 1.57(c) into Humpleman.
C.

Obviousness Over the Combined Teachings of
Humpleman and Killian

Comcast contends that claims 1, 3–10, and 12–18
of the ’413 Patent are unpatentable under § 103(a)
over the combined teachings of Humpleman and
Killian. Pet. 20–47. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1002 ¶¶ 95–192. In its Patent Owner
Response, Rovi presents a number of arguments as to
why the combined teachings of Humpleman and
Killian do not render the limitations of independent
claims 1 and 10 obvious. PO Resp. 16–51. Rovi relies
upon the Declaration of Dr. Shamos to support his
positions. Ex. 2011 ¶¶ 27–47, 85–96, 99–130.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the
art, proceeded by brief overviews of Humpleman and
Killian, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.

272a
1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and
the prior art are such that the subject matter, as a
whole, would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which said subject matter pertains. KSR
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The
question of obviousness is resolved on the basis of
underlying factual determinations, including (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) when in
evidence, objective indicia of non-obviousness (i.e.,
secondary considerations). Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). We analyze this asserted
ground based on obviousness with the principles
identified above in mind.
2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a
person of ordinary skill in the art. Relying on the
testimony of its declarant, Dr. Tjaden, Comcast asserts
that a person of ordinary skill in the art as of July 17,
1998, which is the earliest priority date on the face of
the ’413 Patent, would be an individual who possesses
the following:
a bachelor’s degree in computer science,
electrical engineering, computer engineering, or
a similar discipline, and two years of experience
with interactive program guides, set-top boxes,
mobile computer devices, and techniques for

273a
delivering content or program guides over
communication networks, such as a cable
system, a local-area network, and the Internet.
Pet. 12–13 (quoting Ex. 1002 ¶ 28). Alternatively, once
again relying on the testimony of Dr. Tjaden, Comcast
asserts that a person of ordinary skill in the art “could
have had equivalent experience in industry or
research, such as designing, developing, evaluating,
testing, or implementing the aforementioned
technologies.” Id. at 13 (quoting Ex. 1002 ¶ 28).
Conversely, Rovi’s declarant, Dr. Shamos, does not
offer an assessment of the level of skill in the art as of
July 1998, nor does he explicitly state his intent to
adopt Dr. Tjaden’s assessment. See generally Ex. 2011.
Given Dr. Shamos’s lack of testimony on this matter,
we adopt Dr. Tjaden’s assessment because it is
consistent with the ’413 Patent and the asserted prior
art, and apply it to our obviousness evaluation below.
3. Humpleman Overview
Humpleman generally relates to the field of
networks and, in particular, to home networks that
have multi-media devices connected thereto. Ex. 1006,
1:16–18. One objective of Humpleman’s invention is to
provide a method for controlling a plurality of devices
connected to a home network, where at least one of
these devices is a multi-media device, and for
generating a program guide from the information
provided by the multi-media device on a second device
connected to the home network. Id. at 2:23–28. The
generated program guide may be a Hypertext Markup
Language (“HTML”) page that allows for selection of a
specific program for recording on local equipment. Id.

274a
at 20:31–51. That HTML version is generated by a
digital satellite services interface device (“DSS”) that
also displays a conventional electronic program guide.
Id. at 22:21–59.
Humpleman claims priority to and incorporates by
reference (id. at. 1:7–13) a provisional patent
application (60/059,499; Ex. 1007), and provides
further insight into the software structures disclosed.
An annotated version of Figure 13 of that provisional
patent application is reproduced below:

This annotated version of Figure 13 illustrates
portions that Comcast argues correspond to different
claimed portions, with the local guide software and its
data in purple, remote guide files in orange, control
software for local recording equipment in blue, and
referencing remote guide equipment in red. Pet. 21–
22. The provisional application also makes clear that
a message is sent to the DSS control application by the
remote device over the Internet based on a selection by

275a
the user in the HTML program guide, instructing it to
control hardware to record the selected program. Ex.
1007, 2–3.
According to Humpleman, a user may customize
the programming information that is displayed by the
program guide. Ex. 1006, 22:41–43. For instance, if a
user prefers not to display the schedule for a particular
channel because it contains inappropriate content, the
user may request that the channel be removed from
the program guide. Id. at 22:43–46. In addition,
according to Humpleman, a user can remotely control
devices connected to the home network. Id. at 20:42–
47. “For example, if a user is required to work late and
is therefore unable to watch the Monday night football
game, the user can program a [digital video cassette
recorder (‘DVCR’)] connected to their home network
via the Internet, in order to record the particular
event.” Id. at 20:47–51.
4. Killian Overview
Killian discloses an electronic programming guide
(“EPG”) that operates on a JAVA-based computing
platform associated with a television and a video
recorder. Ex. 1008, [57], 3:6–12, Fig. 1. A collection of
application programming interfaces (“APIs”) allow the
platform to support JAVA applets or applications that
provide interactive television programming. Id. at
3:18–27. In one embodiment, the platform supports an
EPG JAVA applet or application “that allows viewers
to more intelligently select, schedule, and record
viewing opportunities according to viewer profiles”
and other information received via the Internet. Id. at
3:27–33. The EPG can use other platform components

276a
to cause the video recorder to record programs. Id. at
15:5–18.
5. Claims 1 and 10 9
In its Petition, Comcast contends that the person of
ordinary skill in the art would have found it obvious to
include interactive selection and control features in
Humpleman’s guide software on the DSS, with some
of those associated functionalities already disclosed in
the ’413 Patent. Pet. 22–23 (citing Ex. 1001, 1:24–33).
Comcast also argues that such functionalities are
disclosed in Killian, and those aspects would have
been implemented in Humpleman’s system for several
reasons. Id. at 23–25.
First, Comcast argues that Humpleman expressly
teaches that its home control system is interoperable
with conventional hardware, and that a DSS loaded
with Killian’s guide could and would be utilized in
Humpleman’s system, because Humpleman was
designed to be layered on top of existing hardware and
software installations. Id. at 24 (citing Ex. 1002 ¶ 103).
Second, Comcast argues that Killian expressly teaches
that the EPG modules implementing the recording
control APIs could be integral to the functioning of
external devices other than the receiver, which would
have provided greater utility to Humpleman’s network
of remote devices. Id. (citing Ex. 1008, 15:53–16:7; Ex.
1002 ¶ 104). Lastly, Comcast argues that combining
Killian with Humpleman would be nothing more than
Comcast contends that independent claims 1 and 10 stand or
fall together. Pet. 9–10. Rovi does not dispute Comcast’s assertion
in this regard. Accord PO Resp. 23–52 (treating independent
claims 1 and 10 as standing or falling together).

9

277a
using known techniques to improve similar devices
and a simple substitution of one known, closely-related
element for another that produces predictable results.
Id. at 25 (citing Ex. 1002 ¶¶ 105, 106).
For added clarity, we highlight certain arguments
presented by Comcast for each limitation recited in
independent claim 1. We note that there is no dispute
between the parties as to whether the limitations of
independent claim 10 are essentially the same as the
limitations of independent claim 1. Compare Pet. 9–
10, 26, with PO Resp. 23–32.
Beginning with the preamble of independent claim
1, Comcast contends that Humpleman teaches “a
system for selecting a television program over a
remote access link comprising an Internet
communications path for recording” because
Humpleman discloses selecting programs for
recording remotely via the Internet. Pet. 26 (citing Ex.
1006, 20:42–51; Ex. 1002 ¶¶ 110, 111). To support this
argument, Comcast directs us to Humpleman’s
disclosure that, “[f]or example, if a user is required to
work late and is therefore unable to watch the Monday
night football game, the user can program a DVCR
connected to their home network via the Internet, in
order to record the particular event.” Id. (quoting Ex.
1006, 20:42–51).
Comcast contends that Humpleman teaches “local
interactive television program guide equipment on
which a local interactive television program guide is
implemented,” as recited in independent claim 1,
because Humpleman discloses that one controlled
home device is a DSS including a vendor-supplied

278a
control application through which the DSS can
retrieve and display a guide. Id. at 26–27 (citing Ex.
1006, 1:21–36, 19:46–55, 22:31–47; Ex. 1002 ¶¶ 113,
114).
Comcast also contends that that one of ordinary
skill in the art would have understood that “typical
program guides on set-top boxes at the time of
invention provided interactive features,” where
Comcast contends that the ’413 Patent admits as
much. Id. at 27 (citing Ex. 1001, 1:24–35; Ex. 1002
¶¶ 113–115). Comcast further contends that, to the
extent Humpleman does not disclose expressly that
the local guide allows a user to navigate through
television program listings, make selections, and
controls functions of the software, one of ordinary skill
in the art would have found it obvious to implement an
interactive guide on Humpleman’s DSS at least
because of the interactive guide software disclosed in
Killian. Id. (citing Ex. 1008; Ex. 1002 ¶ 115).
Comcast contends that Killian discloses a receiver
with a locally installed guide application, where that
guide displays program schedules, allows for
navigation through program listings, and controls the
recording of selected programs. Id. at 27–28 (citing Ex.
1008, 3:7–33, 4:7–13, 6:32–56, 7:8–16, 7:49–61, 8:5–56,
13:12–21, 15:53–16:7; Ex. 1002 ¶¶ 116–118). Comcast
asserts that it would have been obvious to one of
ordinary skill in the art to implement Killian’s local
programming guide into Humpleman’s system to
provide “users with expected and typical control
functionality,” where the combination of the references
would have been motivated by the express teachings of
both Humpleman and Killian. Id. at 28 (citing Ex.

279a
1006, 6:55–64, 19:46–55, 22:47–59; Ex. 1008, 15:53–
16:7; Ex. 1002 ¶¶ 119–122). Comcast further asserts
that the combination would have been nothing more
than the use of known techniques to improve similar
devices and a simple substitution of known elements
to obtain predictable results—namely, to “allow[]
viewers to more intelligently select, schedule, and
record their viewing opportunities.” Id. (quoting Ex.
1008, 1:20–23; citing Ex. 1002 ¶ 120).
Comcast also contends that Humpleman teaches
“wherein the local interactive television program guide
generates a display of one or more program listing for
display on a display device at a user’s home,” “and
includes user television equipment,” as recited in
independent claim 1, because Humpleman discloses
that its DSS equipment is “found in the home.” Id. at
29 (quoting Ex. 1006, 1:21–31) (citing Ex. 1006, 1:21–
36, 2:31–39, 22:30–46). Comcast further argues that
Humpleman teaches wherein “the local interactive
television program guide generates a display of one or
more programs listings for display on a display device
at the user’s home,” as recited in independent claim 1,
because Humpleman discloses that the “EPG displays
a list of available programs and the specific time in
which the programs can be viewed through the
service.” Id. (quoting Ex. 1006, 22:30–46) (citing Ex.
1002 ¶¶ 124–128).
Comcast contends that Humpleman teaches
“wherein a mobile device communicates with the local
interactive television program guide equipment,” as
recited in independent claim 1, because Humpleman
discloses that a digital television or personal computer
(“PC”) accesses HTML control pages to allow for

280a
remote access, such that a user at work uses his/her
work PC to access the HTML control pages to select a
particular event for recording by devices on his/her
home network. Id. at 29–30 (citing Ex. 1006, 1:21–36,
7:25–35, 20:42–51; Ex. 1007, 3 ¶ 3, 14 ¶¶ 1–4; Ex. 1002
¶¶ 131–138). Comcast also asserts that, to the extent
Humpleman does not discloses expressly using a
remote guide to allow a remote user to selecting
programs for recording on his/her own Personal
Computer, a person of ordinary skill in the art would
have “understood the advantages associated with
providing an IPG user interface to allow users to select
a program for recording via a user-friendly interface,”
and implementing those through Killian would have
required the use of known techniques to improve a
similar device and obtaining predictable results. Id. at
31 (citing Ex. 1008, 3:20–33, 4:7–13, 7:8–16, 13:12–21,
Fig. 5; Ex. 1002 ¶¶ 134–136). Additionally, Comcast
contends that Humpleman teaches “wherein the
remote program guide access device is a mobile
device,” because Humpleman discloses that the
controlling device may be a laptop computer. Id. at 30
(citing Ex. 1006, 1:21–36, 7:25–35; Ex. 1002 ¶ 137).
Comcast also contends that Humpleman teaches
“generat[ing] a display of the remote access interactive
television program guide, the remote access
interactive television program guide comprising a
plurality of television program listings for display on
the mobile device,” as recited in independent claim 1,
because Humpleman generates a remote access HTML
program guide based on EPG data underlying the EPG
displayed by the DSS, where the HTML guide may be
displayed on any browser-equipped device. Id. at 32

281a
(citing Ex. 1006, 7:25–35, 20:40–52, 22:30–59; Ex.
1007, 21, Fig. 13; Ex. 1002 ¶ 13943). Comcast further
contends that, although Humpleman and Humpleman
Provisional each disclose an example where the client
device is a digital television, they also disclose that the
client device may be a computer outside the home,
such as the user’s work PC. Id. at 33 (citing Ex. 1007,
3, ¶3; Ex. 1006, 20:42–52; Ex. 1002 ¶ 143).
Comcast contends that Humpleman teaches
“wherein the display of the remote access interactive
television program guide is generated based on a user
profile stored at a location remote from the mobile
device,” as recited in independent claim 1, because
Humpleman discloses that “the user can customize the
displayed HTML program guide to view only a
particular set of the available information,” with
Humpleman Provisional illustrating that a user
interface can allow the user to view favorite channels.
Id. at 33 (citing Ex. 1006, 22:47–59, 22:30–59; Ex.
1007, 7, Fig. 5). Comcast also contends that, to the
extent that the claim term “user profiles” is narrowly
limited, Killian also discloses “building a filtered guide
based on a user profile data” and it would have been
obvious to employ the conventional listing filtering
techniques disclosed in Killian. Id. at 34–35 (citing Ex.
1008, 1:20–41, 7:49–61, 9:10–25, 11:20–21; Ex. 1002
¶¶ 149–152). Comcast also asserts that it would have
been obvious to utilize Killian’s user profile data stored
locally or remotely to implement the customized
HTML program guides of Humpleman because this
would have allowed the system to better track a user’s
preferences and generate more effective user
interfaces, and would have entailed the use of a known

282a
technique to improve a similar feature to produce a
predictable result. Id. at 35–36 (citing Ex. 1006, 2:31–
39, 22:47–59; Ex. 1008, 9:10–25, 11:20–21; Ex. 1002
¶¶ 145, 149–153).
Comcast also contends that Humpleman teaches
“receiv[ing] a user selection of the television program
for recording by the local interactive television
program guide, wherein the user selects the television
program by selecting a television program listing from
the plurality of television program listings displayed,
by the remote access interactive television program
guide, on the mobile device,” as recited in independent
claim 1, because Humpleman discloses that once a
selection is made via the HTML guide, “button ‘click’”
information is provided which the interface receives
and passes along to the VCR to accomplish a recording
of the selected program. Id. at 36–37 (citing Ex. 1006,
14:5–14, 22:30–59; Ex. 1007, 2 ¶ 2, 4 ¶ 2; 6 ¶ 6, 10, 14
¶ 4, Fig. 2; Ex. 1002 ¶¶ 155–158).
Comcast contends that Humpleman teaches
“transmit[ting], to the local interactive television
program guide over the Internet communications
path, a communication identifying the television
program for recording corresponding to the television
program listing selected by the user with the remote
access interactive television program guide,” as recited
in independent claim 1, because Humpleman discloses
that a message is sent to the DSS control application
by the remote device over the Internet in response to
the user making a selection in a displayed HTML
program guide, instructing it to control DVCR
hardware to record the selected program. Id. at 37–38

283a
(citing Ex. 1006, 20:42–51; Ex. 1007, 14 ¶¶ 1–4, 12 ¶ 1,
Fig. 9; Ex. 1002 ¶¶ 161–165).
Lastly, Comcast contends that Humpleman
teaches “wherein the local interactive television
program guide receives the communication and,
responsive to the communication, records the
television program corresponding to the selected
program listing using the local interactive television
program guide equipment,” as recited in independent
claim 1, because Humpleman discloses that a user is
allowed to schedule a recording for an event on local
equipment from a remote location via the Internet. Id.
at 40 (citing Ex. 1006, 20:42–51; Ex. 1002 ¶ 171).
Comcast further argues that the Humpleman
Provisional explains that it is desirable to allow users
to set recordings solely through the DSS interface,
rather than requiring the user to schedule a channel
time on the DSS and then schedule a separate
recording operation on the VCR. Id. (citing Ex. 1007,
12 ¶ 1, 14 ¶¶ 1–4; Ex. 1002 ¶ 171).
In its Patent Owner Response, Rovi presents a
number of arguments that can be grouped as follows:
(1) whether Comcast has demonstrated that
Humpleman and Killian, either alone or in
combination, account for all the limitations of
independent claims 1 and 10; and (2) whether Comcast
has demonstrated that a person of ordinary skill in the
art would have had a sufficient reason to combine the
teachings of Humpleman and Killian. See PO Resp.
23–48. We address these groupings of arguments in
turn.

284a
a. Limitations
i.
Humpleman Teaches Two Interactive
Television Program Guides in Communication with
Each Other
Rovi contends that Humpleman “fails to disclose
two guides, let alone two interactive program
guides.” PO Resp. 24 (emphasis in original). Rovi
points out that “the claims do not allow for the remote
access guide to bypass the Local IPG by
communicating directly with the local interactive
television program guide equipment,” which Rovi
alleges that Humpleman’s system does. See id. at 24–
26. Further, Rovi argues that, even assuming the two
guides are present in Humpleman, the two guides are
not in communication because Humpleman’s disclosed
HTML guide “communicates with a different software
application on the DSS (the HTTP Mini-Server
program) and not the alleged Local IPG.” Id. at 25
(emphasis in original). Rovi also argues that the
alleged remote guide in Humpleman does not transmit
the recording request and the “dss server” is not part
of the alleged local guide. Id. at 35–36 (citing Ex. 2011
¶¶ 114, 120).
In its Reply, Comcast contends that “Humpleman
has a local guide and a remote guide, that the guides
would be made interactive in view of Killian, and that
the guides would communicate to schedule
recordings.” Pet. Reply 7. Additionally, Comcast
asserts that the “dss server,” referred to in
Humpleman, is the full “DSS-NIU Mini-Server,” and
has been conflated by Rovi to merely encompass the
“HTTP Mini-Server program.” Id. at 7–8. Comcast also

285a
argues that the DSS-NIU Mini-Server must have
additional control software to provide the specialized
functionality of the One Touch Record feature of
Humpleman Provisional, which would be inapplicable
to other servers that do have record functions, such as
DVD 108. Id. at 8–9 (citing Ex. 1052 ¶ 29; Ex. 1006,
6:31–37).
Comcast further argues, when the “dss server” is
properly understood, Humpleman teaches that “the
HTML user interfaces would be supplemental to the
native user interfaces (such as the local EPG),” and
uses would remain for the native user interfaces
because they are more convenient and provide
advanced functionality. Id. at 20.
Based on the record developed during trial, we
disagree that DSS control application, or local guide of
Humpleman, is confined to the HTTP Mini-Server
program. See Dec. on Inst. 22. For this determination,
we look to our construction of the claim term
“interactive television program guide” above and, in
particular, to Dr. Shamos’s testimony in the related
ITC proceedings. See supra Section II.A. By Dr.
Shamos’s own testimony, “the local interactive
television guide . . . can comprise an extensive
collection of hardware and software located both near
the user and at the cable headend, or at other
locations.” Ex. 1054 ¶ 169.
When critical to a findings of fact, it is in the
interest of justice to consider sworn inconsistent
testimony on an identical issue when minimal burden
for do so. Ultratec, Inc. v. CaptionCall, LLC, 872 F.3d
1267, 1275 (Fed. Cir. 2017) (holding that the Board

286a
abused its discretion during an inter partes review
when it refused to admit and consider an expert’s
inconsistent trial testimony from a relevant district
court case). Therefore, when applying the proper
construction of an “interactive television program
guide,” we agree with Comcast that the local guide
may extend beyond just the software application on a
HTTP Mini-Server program in Humpleman.
Additionally, Rovi contends that Humpleman
teaches a single HTML program that does not
communicate with any other program guide. PO Resp.
17–18, 24–25. We have previously decided, and Rovi
does not appear to dispute, that Humpleman
Provisional discloses communication between two
guides. See Dec. on Inst. 22 (citing Ex. 1007, 2–3);
discussion supra regarding “transmit” element of
independent claim 1. As such, we are persuaded that
the DSS control application and HTML program guide
displayed on the remote device disclose a local guide
and remote guide, respectively, in communication with
each other.
Rovi also argues that Comcast’s expert, Dr. Tjaden,
cannot identify what he considers the local IPG within
Humpleman, and suggests that this apparent
confusion demonstrates that Comcast has not been
clear about what portions of Humpleman constitute
the local IPG. PO Resp. 26–31. Regardless of any
apparent confusion at Dr. Tjaden’s deposition, we
remain persuaded that Comcast’s analysis in the
Petition is clear as to what portions of Humpleman are
equivalent to the local and remote guides. See Pet. 20–
23 (“Humpleman Provisional discloses that a message
is sent to the DSS control application (i.e., the local

287a
guide) by the remote device over the Internet
responsive to the user making a selection in a
displayed HTML program guide (i.e., the remote
guide), instructing it to control DVCR hardware to
record the selected program. (Ex-1007, p. 14, ¶4; Ex1002, ¶97)”).
Rovi also contends that Humpleman fails to
disclose a conventional EPG because merely providing
data to build the HTML program guide does not
require a conventional EPG as recited in the claims.
PO Resp. 32. Further, Rovi asserts that Humpleman
does not disclose a conventional EPG because the
language “[m]ost digital satellite services provide
programming information through an Electronic
Programming Guide (EPG)” says nothing about
Humpleman’s specific limitations. Id. at 31–32.
Although we agree with Rovi that the cited
paragraph speaks to the general field of EPGs, this
argument is not detrimental in consideration of
Humpleman, as a whole. As Comcast points out,
Humpleman Provisional describes software to access
the off-air EPG hardware and system. Pet. Reply 12–
13 (citing Ex. 1007, 22). We are persuaded that the offair EPG hardware and system would function through
the Humpleman system where televisions are offline
or using specialized services such as pay-per-view. See
Tr. 23:1–13; Pet. Reply 20. Further, we agree with
Comcast that “nothing in Humpleman supports the
conclusion that Humpleman’s system would suppress
the conventional EPG that it relies on to build its
HTML program guide.” Pet. Reply 13 (citing Ex. 1052
¶¶ 30, 43). Additionally, under the rubric of
obviousness, one of ordinary skill would have

288a
considered the disclosed, conventional EPG, even if its
specific use in the system of Humpleman was not
disclosed. “The use of patents as references is not
limited to what the patentees describe as their own
inventions or to the problems with which they are
concerned. They are part of the literature of the art,
relevant for all they contain.” In re Heck, 699 F.2d
1331, 1332–33 (Fed. Cir. 1983) (quoting In re
Lemelson, 397 F.2d 1006, 1009 (CCPA 1968)).
Alternatively, Comcast argued at the Oral Hearing
that “[w]e’ve used Humpleman and Killian in
combination to show the local EPG.” Tr. 24:6–20. We
agree that the Petition supports this assertion. We are
mindful, however, that considering arguments raised
at oral argument may deprive a patent owner from
substantively and properly responding to those
arguments, which our reviewing Court has
emphasized.
This case is distinct from circumstances previously
considered by the Federal Circuit in which the Court
found that new arguments or evidence introduced for
the first time at an oral hearing may deprive the
patent owner of its right to respond. See In re
Nuvasive, 841 F.3d 966, 972–73 (Fed. Cir. 2016)
(finding the Board’s refusal to permit the patentee to
file a motion for strike, a sur-reply, or present the new
arguments during the final oral hearing violated the
patent owner’s due process and Administrative
Procedure Act rights); Dell Inc. v. Acceleron, LLC, 818
F.3d 1293, 1301 (Fed. Cir. 2016) (holding the “Board
denied [patent owner of] its procedural rights by
relying in its decision on a factual assertion introduced
into the proceeding only at oral argument, after

289a
[patent owner] could meaningfully respond”). While
these cases provide circumstances in which a
petitioner asserted new evidence in the reply or oral
hearing, Comcast put the Rovi on notice of this
argument in the Petition itself:
It would have been obvious to incorporate the
features
of
Killian’s
local
IPG
into
Humpleman’s local guide. A [person of ordinary
skill in the art] would readily implement the
conventional interactive features of Killian in
Humpleman’s local guide to provide users with
expected and typical television control
functionality through a local IPG. (Ex-1002,
¶¶ 119).
Pet. 28.
Thus, Comcast argues—and we agree—that
Humpleman in view of Killian also teaches a local
EPG. We determine that one of ordinary skill in the
art would have sought to implement the interactive
guide features taught by Killian, on both the remote
guide, as well as the local guide, where Killian
illustrates the display of a local electronic program
guide on a television, i.e., a local guide. See Ex. 1008,
10:66–11:21, Fig. 5. As such, even if we were to assume
that the specific system of Humpleman, as
implemented, would not have had an electronic
program guide like conventional digital satellite
services, it would have been obvious to implement such
a local electronic program guide in the combined
system based on the disclosure of Killian.
To be clear, on either basis, i.e., relying on
Humpleman’s disclosure alone, i.e., Humpleman’s

290a
teaching of a local EPG though its DSS, or in
combination with Killian, such that the local EPG is
rendered obvious in view of the combination of
Humpleman and Killian, we determine that the
resulting system would have a local EPG that would
be distinct from the remote guide, and would meet the
requirements of the claimed “local interactive
television program guide.”
ii. Remaining Limitations
In its Patent Owner Response, Rovi does not
address separately whether the combined teaching of
Humpleman and Killian account for the remaining
limitations of independent claims 1 and 10. See
generally PO Resp. 16–37. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
remaining limitations, and we agree with and adopt
Comcast’s analysis. See Pet. 10–12, 20–47.
b.
Comcast Presents a Sufficient Rationale to
Combine the Teachings of Humpleman and Killian
Rovi contends that Comcast fails to explain how or
why one of ordinary skill in the art would have been
prompted to modify Humpleman’s television schedule
system to include Killian’s viewer profiles. PO Resp.
38–39. Rovi further contends that a person of ordinary
skill would not have modified either of Humpleman’s
alleged guides by incorporating features of Killian. Id.
at 39. Rovi argues that “the very purpose of
Humpleman is to eliminate any need to rely on
conventional device-control interfaces and instead
utilize the common HTML pages across all devices.”

291a
Id. at 40 (citing Ex. 2011 ¶¶ 119–121) (emphasis
omitted).
Rovi also relies on Dr. Shamos’s testimony, that
such a modification would be unnecessary, if not
inapposite, in view of Humpleman’s express purpose of
replacing conventional EPGs with HTML guides, as
showing that one of ordinary skill in the art would not
have combined Humpleman and Killian. Id. at 39
(citing Ex. 2011 ¶¶ 119–121). Rovi further asserts that
a person of ordinary skill in the art would not have
looked to Killian because use of its device-specific
guide is contrary to Humpleman’s goal of utilizing a
common HTML interface. Id. at 44. According to Rovi,
Killian discloses a locally installed and implemented
IPG, whereas Humpleman’s HTML guides operate a
client/server interface. Id. at 45–46. Thus, Rovi
concludes that Killian’s architecture “is fundamentally
different from Humpleman’s system and would
discourage [a person having ordinary skill in the art]
from implementing Killian’s interactive features in
Humpleman.” Id. at 45.
In its Reply, Comcast emphasizes that Killian is
cited for limited features and would have been nothing
more than using known techniques to improve similar
devices in a similar manner, achieving the predictable
result of a local guide that “allows viewers to more
intelligently select, schedule, and record their viewing
opportunities.” Pet. Reply 19 (citing Pet. 25; Ex. 1008,
1:20–23; Ex. 1002, ¶¶ 105–106). Comcast also
contends that a person of ordinary skill in the art
would have readily integrated Killian’s JAVA-based
interactive program guide features into Humpleman’s
system. Id. at 21–22 (citing Ex. 1052 ¶ 44). To support

292a
this argument, Comcast asserts that Humpleman
explicitly suggests JAVA-based systems could be
implemented for presenting client interfaces. Id.
(citing Ex. 1006, 4:4–11). Comcast also contends that
adding interactive features to either guide in
Humpleman would have no impact on the principles of
operation of Humpleman’s system. Id. at 20 (citing Ex.
1052 ¶ 47).
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006), cited with approval in KSR, 550 U.S. at 418.
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to implement
Killian’s enhancements in Humpleman’s system.
When, as here, a technique has been used to improve
one device (i.e., Killian’s interactive features), and one

293a
of ordinary skill in the art would have recognized that
it would improve similar devices in the same way (i.e.,
applying
Killian’s
interactive
features
to
Humpleman’s system, thereby allowing viewers to
more intelligently select, schedule, and record their
viewing opportunities), using the technique is obvious
unless its actual application is beyond the skill level of
an ordinary skilled artisan. See Pet. 23–25; Ex. 1002
¶¶ 102–106. The record includes credible evidence
explaining why applying Killian’s features to Blake’s
system would not have been uniquely challenging or
otherwise beyond the skill level of an ordinary skilled
artisan. Comcast declarant, Dr. Tjaden, provides the
necessary motivation for doing so—namely, “allowing
viewers to more intelligently select, schedule, and
record their viewing opportunities.” Ex. 1002 ¶ 106.
Also based on the record developed during trial, we
are persuaded by Comcast that a person having
ordinary skill in the art would have known that a
JAVA-based system, such as the one taught by Killian,
could be used to implement a client interface because
Humpleman explicitly instructs a person having
ordinary skill in the art to do so. Comcast points out
the relevant section of Humpleman, which is
reproduced below:
In an exemplary embodiment of the present
invention, a browser based home network uses
Internet technology to control and command
home devices that are connected to a home
network. Each home device contains interface
data (e.g. . . . JAVA . . .or any other format useful
for the intended purpose) that provides an

294a
interface for the commanding and controlling of
the home device over the home network.
See Pet. Reply 21 (citing Ex. 1006, 4:4–11) (emphasis
added). Contrary to Rovi’s argument that “the very
purpose of Humpleman is to eliminate any need to rely
on conventional device control interfaces and instead
utilize the common HTML pages across all devices”
(PO Resp. 40), Humpleman explicitly contemplates an
embodiment in which the interface utilizes JAVA to
provide the client interface. See Ex. 1006, 4:4–11.
Further, Rovi argues that a person of ordinary skill
in the art would not have modified Humpleman’s
HTML pages to incorporate Killian’s interactive
features. PO Resp. 41. According to Rovi, “[t]he HTML
guide approach ‘neatly solves the [graphical user
interface] problem by making the DTV a rendering
browser and no interface command set is needed for
human control of the home network device,’” and that
Humpleman implements a session manager to access
HTML pages. Id. at 42–44 (citing Ex. 1007, 16). In its
Reply, Comcast argues that “there is no reason to
conclude that Humpleman’s HTML user interfaces
would replace every native user interface on household
devices.” Pet. Reply 20 (citing Ex. 1052 ¶¶ 11, 30, 43).
Comcast also argues that “the session manager would
still require each client to generate a rendered
interface to facilitate [an] interaction.” Id. at 22 (citing
Ex. 1052 ¶¶ 45–47).
Based on the record developed during trial, we are
persuaded by Comcast that it would have been obvious
to implement Humpleman’s session manager using
Killian’s interactive features. Comcast declarant, Dr.

295a
Tjaden, provides the necessary motivation for
implementing Killian’s interactive features—namely,
“Humpleman expressly teaches the use of JAVA and
JAVASCRIPT programming languages to implement
functionality on its devices, as each device requires an
interface of some kind in order to facilitate interaction
with a user and/or other devices.” Ex. 1052 ¶ 44. As
such, we are persuaded that one of ordinary skill in the
art would have found it obvious to improve the guides
of Humpleman with the interactive features of Killian
because it would have been obvious to one of ordinary
skill in the art to incorporate Killian’s explicitly
interactive program guides into Humpleman system
that allows for remote and local programming of
connected devices. See Pet. 24–25.
c. Summary
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1 and 10 would have been
obvious over the combined teachings of Humpleman
and Killian.
6. Claims 3–9 and 12–18
In its Patent Owner Response, Rovi does not
address separately whether the combined teaching of
Humpleman and Killian account for the limitations of
dependent claims 3–9 and 12–18. See generally PO
Resp. 23–47. We have reviewed Comcast’s
explanations and supporting evidence as to how this
proffered combination teaches these limitations, as
well as its explanations as to how one ordinary skill in
the art would have combined the relevant teachings of
Humpleman with those of Killian, and we agree with

296a
and adopt Comcast’s analysis. See Pet. 41–47.
Comcast, therefore, has demonstrated a by a
preponderance of the evidence that the subject matter
of dependent claims 3–9 and 12–18 would have been
obvious over the combined teachings of Humpleman
and Killian.
D. Obviousness Over the Combined Teachings of
Humpleman, Killian, and Lawler
Comcast contends that claims 2 and 11 of the ’413
Patent are unpatentable under § 103(a) over the
combined teachings of Humpleman, Killian, and
Lawler. Pet. 47–48. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1002 ¶¶ 200–204. In its Patent Owner
Response, Rovi contends that Comcast does not
present sufficient reasoning as to why one of ordinary
skill in the art would combine the teachings of Lawler
with those of Humpleman and Killian. PO Resp. 47–
48. Rovi relies upon the Declaration of Dr. Shamos to
support his positions. Ex. 2011 ¶¶ 124–130.
We begin our analysis with a brief overview of
Lawler, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.

297a
1. Lawler Overview
Lawler generally relates to a system for recording
a program on an interactive viewing system and, in
particular, to a system that allows a user to identify a
program for recording using an interactive program
guide and then designate the identified program for
automated recording at some later time. Ex. 1009, 1:8–
13. According to one aspect of the invention disclosed
in Lawler, the recording device is associated with a
head end. Id. at 2:24–25. At the direction of the head
end, the recording device records the selected program
and digitally stores it in a memory at the head end. Id.
at 2:25–27. The recorded program may then be
retrieved from the head end by the user for display at
a viewer station. Id. at 2:27–29. Lawler discloses that
this process would allow multiple users to access a
single recording of the program, as well as make the
program available to other users who did not set the
recording, but nonetheless wish to view the program
at some later time. Id. at 13:34–38.
2. Claims 2 and 11
Dependent claim 2 recites “wherein local
interactive television program guide records the
television program corresponding to the selected
television program listing at a television distribution
facility.” Ex. 1001, 40:48–51. Dependent claim 11 also
recites a similar limitation. Id. at 42:12–15.
In its Petition, Comcast contends that Lawler
teaches recording programs at a central head end (i.e.,
a television distribution facility) in lieu of recording
programs locally. Pet. 48 (citing Ex. 1009, 2:25–29,
13:26–38; Ex. 1002 ¶¶ 202–203). Comcast then argues

298a
that, as a substitute for recording programs locally, it
would have been obvious to modify Humpleman and
Killian combination to include recording programs at
a television distribution facility, as taught by Lawler,
because there are certain advantages to recording
programs at the television distribution facility, such as
making recorded programs available for other
subscribers and eliminating the need for a separate
recorder. Id. at 48 (citing Ex. 1002 ¶¶ 203–204).
According to Comcast, this proffered combination
would be nothing more than using a known technique
(i.e., Lawler’s centralized recording at a television
distribution facility) to improve a similar system (i.e.,
the combined Humpleman and Killian television
schedule system), and would produce a predictable
result that provides the stated benefits of Lawler. Id.
In its Patent Owner Response, Rovi contends that
Lawler’s recording of programs at a television
distribution facility would undermine Humpleman’s
stated goals by eliminating the user’s ability to
identify all available content on the home network. PO
Resp. 47. Rovi argues that Humpleman discloses the
creation of HTML guides for each home device that
stores multimedia materials, and that Comcast’s
proposed combination (i.e., moving the recording
device to a remote location) would eliminate the home
network’s ability to identify watchable content. Id. at
47–48 (citing Ex. 1006, 2:19–22, 22:60–23:10; Ex. 2011
¶¶ 124–130).
In its Reply, Comcast counters that Rovi has
identified only one object of Humpleman, among many
others, and that the content material, which is
“associated with a home device connected to the home

299a
network,” need not be located within the home or even
on the home network. Pet. Reply 23–24 (citing Ex.
1006, 15:25–32, 14:19–59). Comcast argues that
Humpleman identifies program listings for content
originating from broadcast sources, and the physical
storage of content at a television distribution facility
would not preclude the content from being accessible
and viewable within the home. Id. at 24 (citing Ex.
1052 ¶¶ 48–49).
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of
Humpleman, Killian, and Lawler account for the
limitations of dependent claims 2 and 11. See generally
PO. Resp. 47–48. We have reviewed Comcast’s
explanations and supporting evidence as to how this
proffered combination teaches these limitations, and
we agree with and adopt Comcast’s analysis. See Pet.
47–48.
Based on the record developed during trial, we
agree with Comcast that that one of ordinary skill in
the art would have had a sufficient reason to modify
the combined television schedule system of
Humpleman and Killian to include recording
programs at a television distribution facility, as taught
by Lawler. When, as here, a technique has been used
to improve one device (i.e., Lawler’s centralized
recording at a television distribution facility), and one
of ordinary skill in the art would have recognized that
it would improve similar devices in the same way (i.e.,
applying Lawler’s technique to the combined television
schedule system of Humpleman and Killian to make
recorded programs available for other subscribers and

300a
to eliminate the need for a separate recorder), using
the technique is obvious unless its actual application
is beyond the skill level of an ordinary skilled artisan.
See Pet. 47–48; Ex. 1002 ¶¶ 200–204. The record
includes credible evidence explaining why applying
Lawler’s technique to the combined television schedule
system of Humpleman and Killian to make recorded
programs available to multiple subscribers at a
television distribution facility would not have been
uniquely challenging or otherwise beyond the skill
level of an ordinary skilled artisan. Indeed, Lawler
itself provides the necessary motivation for doing so—
namely, “[to] allow multiple users to access a single
recording of the program.” Ex. 1009, 13:33–35.
We do not agree with Rovi’s argument that
Lawler’s recording of programs at a television
distribution facility would undermine Humpleman’s
stated goals by eliminating the user’s ability to
identify all available content on the home network.
Although Rovi posits that moving the recording device
to a remote location would eliminate the home
network’s ability to identify watchable content, the
combined system could still identify all the watchable
content, even if the content is not stored locally. In
other words, the watchable material associated with a
home device need not reside on that home device,
similarly to the way that pay-per-view material need
not reside on the local device, although it can be
associated with that local device. As Dr. Tjaden
testifies—and we agree—Humpleman’s home program
guide would not logically exclude content external to
the home network, as Rovi proposes, because it

301a
includes content delivered by broadcast sources (i.e.,
external to the home network). See Ex. 1052 ¶ 48.
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of dependent claims 2 and 11 would have been obvious
over the combined teachings of Humpleman, Killian,
and Lawler.
E. Obviousness Over the Combined Teachings of
Kondo, Killian, and Kawamura
Comcast contends that claims 1, 3–10, and 12–18
of the ’413 Patent are unpatentable under § 103(a)
over the combined teachings of Kondo, Killian, and
Kawamura. Pet. 49–72. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1002 ¶¶ 210–294. As we explain in our
Introduction section above, the parties waived briefing
on this ground, as well as consideration of this ground
at the consolidated oral hearing. See supra Section I.
For the reasons discussed below, we are not persuaded
that Comcast sufficiently demonstrates that the
combined teachings of Kondo, Killian, and Kawamura
teach or suggest all of the limitations of independent
claims 1 and 10.
We begin our analysis with brief overviews of
Kondo and Kawamura, and then we address whether
Comcast demonstrates that the teachings of Kondo,

302a
Killian, and Kawamura teach or suggest all of the
limitations of the independent claims.
1. Kondo Overview
Kondo describes a network service system that
allows a user to schedule television program
recordings on the user’s home video recorder over the
Internet using a communication terminal connected to
a server. Ex. 1012, [57], ¶ 8. Figure 1 of Kondo,
reproduced below, illustrates an embodiment of the
network service system disclosed in Kondo.

As shown in Figure 1 reproduced above, Kondo’s
system includes first communication terminal TA1
(also labeled “Terminal B”) and second communication
terminal TA2 (also labeled “Terminal A”), both of
which communicate with server BSV via network INT.
Id. ¶¶ 10, 12. Communication terminal TA1 is a
“general
communication
terminal,”
and
communication terminal TA2 connects to videotape
recorder VTR. Id. ¶¶ 10, 11. To schedule video
recording, a user may use terminal TA1 to access
server BSV via network INT to acquire a broadcast
program guide stored on server BSV and select a
program for recording. Id. ¶ 12. When a user selects a

303a
program for recording from terminal TA1, server BSV
sends a recording command to terminal TA2 to
schedule a recording on videotape recorder VTR. Id.
¶¶ 13, 14. A user also can use terminal TA2 to acquire
a broadcast program guide from server BSV and then
select a program for recording on videotape recorder
VTR. Id. ¶¶ 12, 13.
2. Kawamura Overview
Kawamura describes a remote control system that
allows a user to control a videotape recorder (“VTR”)
in the user’s home by operating a remote mobile
terminal. Ex. 1014 ¶¶ 1, 23. Figure 1 of Kawamura,
reproduced below, illustrates one embodiment of the
remote control system described in Kawamura.

As shown in Figure 1 reproduced above,
Kawamura’s system includes mobile terminal 1
connected to network 3 by way of base station 2. Id.
¶ 24. Database 5 contains a listing of television
broadcast programs, or information relating to the
content of each program, and is connected to network
3. Id. ¶ 27. When a user who is away from home wishes

304a
to schedule a program recording on VTR 4, but does
not know the channel or time of the program, the user
can use mobile terminal 1 to access database 5 by way
of network 3. Id. ¶¶ 30–31. Mobile terminal 1 displays
program listing information obtained from database 5.
Id. ¶ 32. The user refers to the displayed program
listing and schedules a recording of the desired
program by transmitting the broadcast channel,
starting time, and other confirmed information to VTR
4. Id. ¶ 33.
3. Claims 1 and 10
Comcast generally relies on Kondo for teaching the
system of independent claim 1. Pet. 43–45. Comcast
also cites Killian and Kawamura for teaching certain
details regarding the claimed “local interactive
television program guide” and “remote access
interactive television program guide,” respectively. Id.
at 49–51.
Of particular importance to this ground,
independent claim 1 recites, in relevant part, that the
mobile device “transmits, to the local interactive
television program guide over the Internet
communications path, a communication identifying
the television program for recording corresponding to
the television program listing selected by the user with
the remote access interactive television program
guide.” Ex. 1001, 40:37–42 (emphases added). Similar
limitations are also found in independent claim 10.
With respect to this limitation, Comcast argues
that, in Kondo, a recording request for a program is
transmitted from terminal TA1 to server BSV to
schedule a reservation, wherein server BSV then

305a
sends a reservation command to local terminal TA2 to
schedule a recording on a connected videotape recorder
VTR. Pet. 65 (citing Ex. 1012 ¶¶ 12–14). As discussed
in our Decision on Institution, it is not clear to us
whether Kondo teaches two guides in communication
with each other, nor is it clear that Comcast has
demonstrated, by a preponderance of the evidence,
that Comcast’s citation of one terminal communicating
with another, via server BSV, meets the
communications between two guides required by
independent claim 1. See Dec. on Inst. 33–34.
Kondo makes clear that a user may use either
communication terminal, TA1 or TA2, to access the
broadcast program guide and request scheduling of a
specific program recording. Ex. 1012 ¶ 12. If the user
is at terminal TA2, the recording request is locally
routed to a connected VTR, i.e., independent claim 1
would not be satisfied. Id. ¶ 13. If the user is at
terminal TA1, the request is sent to terminal TA2 for
subsequent recording. Id. However, Kondo only
specifies the acquisition of the broadcast program
guide or the information related to the broadcast
programs to the terminal that the user is at. There is
no apparent disclosure of any guide being acquired by
the unattended terminal. Thus, if the user is at
terminal TA1, with a guide thereon, there would be no
need for terminal TA2 to have the same or similar
guide connected to the VTR. As such, both terminals
TA1 and TA2 would not need to have guides resident
at each, and, therefore, there would be no way for such
guides to transmit or receive a communication over an
Internet communication path to each other.

306a
In addition, given the nature of the recording
request, there would be no need for the receiving
terminal, TA2, to necessarily have a program guide,
interactive or not. Terminal TA2 could process the
recording request without the need for a broadcast
programming guide. Additionally, even if users were
at both terminals TA1 and TA2, requesting recordings,
i.e., so that both terminals would have guides
implemented thereon, there would be no reason that a
recording request received from a remote terminal
would be processed by the local guide and not merely
some other portion of the terminal.
As well, the additional disclosures of Killian and
Kawamura, with their additional details about
interactive guide features, would not require the
presence of a guide at each terminal, nor do they teach
or suggest communication between two separate
guides. Comcast has also failed to provide any
suggestion or motivation for each terminal in Kondo
possessing its own guide, with those guides themselves
exchanging communications.
In summary, Comcast has not presented sufficient
argument or evidence to support its position that the
combined teachings of Kondo, Killian, and Kawamura
teach or suggest all of the limitations of independent
claims 1 and 10. Accordingly, Comcast has not
demonstrated by a preponderance of the evidence that
the subject matter of independent claims 1 and 10
would have been obvious over the combined teachings
of Kondo, Killian, and Kawamura.

307a
4. Claims 3–9 and 12–18
Because we determine that Comcast has not
demonstrated that the teachings of Kondo, Killian,
and Kawamura account for all of the limitations of
independent claims 1 and 10, Comcast has also not
demonstrated a reasonable likelihood that it would
prevail on its assertion that the subject matter of
dependent claims 3–9 and 12–18 would have been
obvious over the combined teachings of Kondo, Killian,
and Kawamura.
F. Remaining Obviousness Ground Based on the
Teachings of Kondo, Killian, Kawamura, and Lawler
Comcast also contends that claims 2 and 11 of the
’413 Patent are unpatentable under § 103(a) over the
combined teachings of Kondo, Killian, Kawamura, and
Lawler. Pet. 72–73. Because we determine that
Comcast has not demonstrated that the teachings of
Kondo, Killian, and Kawamura account for all of the
limitations of independent claims 1 and 10, as
discussed above, Comcast has not demonstrated by a
preponderance of the evidence that the subject matter
of dependent claims 2 and 11 would have been obvious
over the combined teachings of Kondo, Killian,
Kawamura, and Lawler.
III. CONCLUSIONS
Comcast has demonstrated by a preponderance of
the evidence that (1) claims 1, 3–10, and 12–18 are
unpatentable under § 103(a) over the combined
teachings of Humpleman and Killian; and (2) claims 2
and 11 are unpatentable under § 103(a) over the
combined teachings of Humpleman, Killian, and

308a
Lawler. Comcast, however, has not demonstrated by a
preponderance of the evidence that (1) claims 1, 3–10,
and 12–18 are unpatentable under § 103(a) over the
combined teachings of Kondo, Killian, and Kawamura;
and (2) claims 2 and 11 are unpatentable under
§ 103(a) over the combined teachings of Kondo,
Killian, Kawamura, and Lawler.
IV. ORDER
In consideration of the foregoing, it is
ORDERED that claims 1–18 of the ’413 Patent are
held to be unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to this proceeding seeking
judicial review of our decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

309a
APPENDIX F
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.,
Patent Owner.
Case IPR2017-01049
Patent 8,578,413 B2
Entered: October 16, 2018
Before KEVIN F. TURNER, MICHAEL R. ZECHER,
and JESSICA C. KAISER, Administrative Patent
Judges.
TURNER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition requesting an inter partes
review of claims 1–18 of U.S. Patent No. 8,578,413 B2
(Ex. 1101, “the ’413 Patent”). Paper 2 (“Pet.”). Patent
Owner, Rovi Guides, Inc. (“Rovi”), filed a Preliminary
Response. Paper 7. Taking into account the arguments
presented in Rovi’s Preliminary Response, we

310a
determined that the information presented in the
Petition established that there was a reasonable
likelihood that Comcast would prevail in challenging
claims 1–18 of the ’413 Patent as unpatentable under
35 U.S.C. § 103(a). Pursuant to 35 U.S.C. § 314, we
instituted this inter partes review on October 18, 2017,
as to all of the challenged claims, but not all the
grounds presented by Comcast in its Petition. Paper 9
(“Dec. on Inst.”).
During the course of trial, Rovi filed a Patent
Owner Response (Paper 15, “PO Resp.”), and Comcast
filed a Reply to the Patent Owner Response (Paper 26,
“Pet. Reply”). A consolidated oral hearing with related
Cases IPR2017-00950, IPR2017-00951, IPR201700952, IPR2017-01048, IPR2017-01050, IPR201701065, IPR2017-01066, and IPR2017-01143 was held
on June 19, 2018, and a transcript of the hearing is
included in the record. Paper 35 (“Tr.”).
After all substantive briefing was complete, but
before the consolidated oral hearing, the United States
Supreme Court held that a decision to institute under
35 U.S.C. § 314 may not institute on less than all
claims challenged in the petition. SAS Inst., Inc. v.
Iancu, 138 S. Ct. 1348, 1359–60 (2018). Following
SAS, the U.S. Patent and Trademark Office (“Office”)
issued “Guidance on the impact of SAS on AIA trial
proceedings,” in which the Office took the policy
position that a decision granting institution will
institute on all of the challenged claims in the petition

311a
and all the grounds presented in the petition. 1 The
U.S. Court of Appeals for the Federal Circuit has since
endorsed this Office policy by explaining that “‘the
petitioner’s petition, not the Director’s discretion, is
supposed to guide the life of the litigation’ and ‘that
the petitioner’s contentions, not the Director’s
discretion define the scope of the litigation all the way
from institution through to conclusion.’” Adidas AG v.
Nike, Inc., 894 F.3d 1256, 1258 (Fed. Cir. 2018)
(quoting SAS, 138 S. Ct. at 1356–1357). In accordance
with SAS and Office policy, we issued an Order
modifying our Decision on Institution entered on
October 18, 2017, to include review of all challenged
claims and all grounds presented by Comcast in its
Petition. Paper 32. The parties, however, agreed to
waive briefing on the grounds we declined to institute
in the Decision on Institution. Id. The parties also
agreed to waive consideration of these previously noninstituted grounds at the consolidated oral hearing. Id.
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1–18 of the
’413 Patent. For the reasons discussed below, we hold
that Comcast has demonstrated by a preponderance of
the evidence that these claims are unpatentable under
§ 103(a).
A. Related Matters
The ’413 Patent is involved in the following district
court cases: (1) Rovi Guides, Inc. v. Comcast Corp., No.
Available at https://www.uspto.gov/patents-applicationprocess/patent-trial-and-appeal-board/trials/guidance-impactsas-aia-trial.
1

312a
2:16-cv-00322 (E.D. Tex.), which has been transferred
to the U.S. District Court for the Southern District of
New York and is pending as Rovi Guides, Inc. v.
Comcast Corp., No. 1:16-cv-09826 (S.D.N.Y.); and (2)
Comcast Corp. v. Rovi Corp., No. 1:16-cv-03852
(S.D.N.Y.). Pet. 1–2; Paper 3, 2. The ’413 Patent also
has been asserted against Comcast in a proceeding
before the U.S. International Trade Commission
(“ITC”) styled In re Certain Digital Video Receivers and
Hardware and Software Components Thereof, No. 337TA-1001. Pet. 2; Paper 3, 2.
In addition to this Petition, Comcast filed two other
petitions challenging the patentability of claims 1–18
of the ’413 Patent (Cases IPR2017-01048 and
IPR2017-01050). Pet. 3; Paper 3, 2. Comcast also filed
other petitions challenging the patentability of certain
subsets of claims in several patents owned by Rovi.
Pet. 3.
B. The ’413 Patent
The ’413 Patent, titled “Interactive Television
Program Guide with Remote Access,” issued
November 5, 2013, from U.S. Patent Application No.
13/275,565, filed on October 18, 2011. Ex. 1101, [54],
[45], [21], [22]. The ’413 Patent is a continuation of
U.S. Patent Application No. 10/927,814, filed on
August 26, 2004, which, in turn, is a continuation of
U.S. Patent Application No. 09/354,344, filed on July
16, 1999. Id. at [63]. The ’413 Patent also claims the
benefit of U.S. Provisional Application No. 60/097,527,
filed on August 21, 1998, and U.S. Provisional
Application No. 60/093,292, filed on July 17, 1998. Id.
at [60].

313a
The ’413 Patent generally relates to interactive
television program guide video systems and, in
particular, to such systems that provide remote access
to program guide functionality. Ex. 1101, 1:16–19. The
’413 Patent discloses that conventional interactive
television program guide systems typically are
implemented on set-top boxes located in the home of a
user and, as a result, do not permit the user to perform
program guide functions without the user being
physically located in the same room as these systems.
Id. at 1:34–42. Stated differently, conventional
interactive television program guide systems require
the user to be present in the home to access important
program guide features, such as program reminders,
parental controls, and program recording. Id. at 2:16–
19. The ’413 Patent purportedly addresses this and
other problems by providing an interactive television
program guide system that allows a user to access
certain features of the program guide remotely and
establish settings for those features. Id. at 2:20–25.
Figure 1 of the ’413 Patent, reproduced below,
illustrates a schematic block diagram of the system in
accordance with the present invention. Ex. 1101, 7:15–
39.

314a

As shown in Figure 1 reproduced above, system 10
includes main facility 12 that provides interactive
television program guide data from program guide
data source 14 to interactive television program guide
equipment 17 via communication link 18. Id. at 7:15–
22. Interactive television program guide equipment 17
is connected to at least one remote program guide
access device 24 via remote access link 19. Id. at 7:33–
35.
Figure 2a of the ’413 Patent, reproduced below,
illustrates one arrangement involving the interactive
television program guide equipment 17 and remote
program guide access device 24 in accordance with the
principles of the present invention. Ex. 1101, 8:16–34.

315a

As shown in Figure 2a reproduced above, interactive
television program guide equipment 17 includes
program guide distribution equipment 21 located at
television distribution facility 16, which distributes
program guide data to user television equipment 22
via communications path 20. Id. at 4:57–67. Remote
program guide access device 24 receives the program
guide data, as well as any additional data necessary to
access various functions of the interactive program
guide, from user television equipment 22 via remote
access link 19. Id. at 8:21–26.
In at least one embodiment, the ’413 Patent
discloses that a remote access interactive television
program guide implemented on remote program guide
access device 24 communicates with a local interactive
television program guide implemented on interactive
television program guide equipment 17. Id. at 15:9–18.
In one example, the remote access and local interactive
television program guides may be two different guides
that communication with each other. Id. at 15:20–23;

316a
see also id. at 25:35–59 (disclosing steps involved with
using the remote access interactive television guide to
provide program listing information to a user).
The ’413 Patent discloses transferring program
guide information and settings between remote
program guide access device 24 and interactive
television program guide equipment 17 using any
suitable application layer protocol. Ex. 1101, 15:60–64.
For example, if remote access link 19 is an Internet
link, program guide functionality may be accessed
using Hypertext Transfer Protocol. Id. at 15:64–66.
Remote program guide access device 24 and
interactive television program guide equipment 17
also may transfer program guide information as files
using either File Transfer Protocolor Trivial File
Transfer Protocol running over a Transmission
Control Protocol/Internet Protocol stack. Id. at 15:66–
16:4. The ’413 Patent makes clear that “[a]ny suitable
file transfer protocol based on any suitable protocol
stack may be used.” Id. at 16:4–5.
C. Illustrative Claim
Claims 1 and 10 are independent. Independent
claim 1 is directed to a system for selecting television
programs over a remote access link that includes an
Internet communications path for recording, whereas
independent 10 is directed to a method for performing
the same. Claims 2–9 depend from independent claim
1, and claims 11–18 depend from independent claim
10. Independent claim 1 is illustrative of the
challenged claims and is reproduced below:
1.
A system for selecting a television
program over a remote access link comprising

317a
an Internet communications path for recording,
the system comprising:
a local interactive television program guide
equipment on which a local interactive
television program guide is implemented,
wherein the local interactive
television
program guide generates a display of one or
more television program listings for display on
a display device at a user's home, wherein the
local interactive television program guide
equipment is located within the user’s home and
includes user television equipment, wherein a
mobile device communicates with the local
interactive
television
program
guide
equipment, wherein the mobile device, on which
a remote access interactive television program
guide is implemented, is located outside of the
user's home, and wherein the mobile device:
generates a display of the remote access
interactive television program guide, the
remote access interactive television program
guide comprising a plurality of television
program listings for display on the mobile
device, wherein the display of the remote access
interactive television program guide is
generated based on a user profile stored at a
location remote from the mobile device;
receives a user selection of the television
program for recording by the local interactive
television program guide, wherein the user
selects the television program by selecting a
television program listing from the plurality of

318a
television program listings displayed, by the
remote access interactive television program
guide, on the mobile device; and
transmits, to the local interactive television
program
guide
over
the
Internet
communications path, a communication
identifying the television program for recording
corresponding to the television program listing
selected by the user with the remote access
interactive television program guide,
wherein the local interactive television
program guide receives the communication and,
responsive to the communication, records the
television program corresponding to the
selected television program listing using the
local interactive television program guide
equipment.
Ex. 1101, 40:6–48.
D. Instituted Grounds of Unpatentability
We instituted a trial based on the asserted grounds
of unpatentability (“grounds”) set forth in the table
below. Dec. on Inst. 40; Paper 32.

319a
References

Basis

Challenged
Claims

Sato 2 and
Humpleman 3
Sato,
Humpleman,
and Lawler4
Woo, 5 Mizuno, 6
and
Rzeszewski 7
Woo, Mizuno,
Rzeszewski,
and Lawler

§ 103(a)

1, 3–10, and
12–18
2 and 11

§ 103(a)
§ 103(a)

1, 3–10, and
12–18

§ 103(a)

2 and 11

II. ANALYSIS
A. Claim Construction
In an inter partes review proceeding, claim terms of
an unexpired patent are given their broadest
reasonable interpretation in light of the specification
of the patent in which they appear. 37 C.F.R.
U.S. Patent No. 6,408,435 B1; issued June 18, 2002 (Ex. 1115,
“Sato”).
3
U.S. Patent No. 6,182,094 B1; issued Jan. 30, 2001 (Ex. 1106,
“Humpleman”).U.S. Patent No. 6,182,094 B1; issued Jan. 30,
2001 (Ex. 1106, “Humpleman”).
4
U.S. Patent No. 5,805,763, issued Sept. 8, 1998 (Ex. 1109,
“Lawler”).
5
U.S. Patent No. 5,485,219, issued Jan. 16, 1996 (Ex. 1116,
“Woo”).
6
PCT Int’l Pub. No. WO 97/18636, published May 22, 1997 (Ex.
1117, “Mizuno”).
7
U.S. Patent No. 5,699,125, issued Dec. 16, 1997 (Ex. 1118,
“Rzeszewski”).
2

320a
§ 42.100(b).
Under
the
broadest
reasonable
interpretation standard, and absent any special
definitions, claim terms are generally given their
ordinary and customary meaning, as would be
understood by one of ordinary skill in the art, in the
context of the entire disclosure. In re Translogic Tech.,
Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
In the Decision on Institution, we determined that
the only claim terms requiring construction are
“local/remote access interactive television program
guides,” and only to the extent necessary to resolve
whether the grounds asserted by Comcast properly
accounted for both a “local interactive television
program guide” and a “remote access interactive
television program guide.” Dec. on Inst. 9 (citing Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803
(Fed. Cir. 1999) (explaining that only those claim
terms that are in controversy need to be construed,
and only to the extent necessary to resolve the
controversy)). Upon reviewing the parties’ preliminary
arguments and evidence, we adopted Comcast’s
proposed construction that an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” Id. at 13. We further clarified that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide. Id.

321a
In its Patent Owner Response, Rovi generally
agrees with our initial determination that the only
claim terms requiring construction are “local/remote
access interactive television program guides.” PO
Resp. 8–9. Rovi, however, proposes that the proper
constructions for these claim terms are the following:
(1) “local interactive television program guide” is a
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment”; and (2)
“remote access interactive television program guide” is
a “guide allowing navigation through television
program listings using a remote access link.” Id. at 9.
According to Rovi, its proposed constructions for the
claim terms “local/remote access interactive television
program guides” are consistent with the intrinsic
evidence, our preliminary finding that these guides
must be distinct guides, and the findings of the ITC in
related proceedings. Id. at 9–10 (citing Ex. 2101, 193,
198, 409).
Rovi further contends that any difference between
our constructions and the ITC’s constructions of the
claim terms “local/remote access interactive television
program guides” is not relevant to the grounds at issue
in this proceeding because, according to Rovi, all of
Comcast’s asserted grounds fail under Rovi’s broader
constructions “that do[] not unnecessarily restrict the
guides to ‘control software’ that ‘controls functions of
the software.’” PO Resp. 10–11. Rovi asserts that,
because Comcast’s asserted grounds fail under
broader constructions for these claim terms, we need
not determine whether the asserted prior art satisfies
Comcast’s proposed constructions. Id. at 11. Rovi then

322a
proceeds to explain how our preliminary constructions
and the ITC’s constructions are consistent in certain
respects because (1) they both require the guides to be
interactive (i.e., navigable and selectable); and (2) they
both agree that the claims require two separate
guides, as properly construed. Id. at 11–13. 8
In its Reply, Comcast contends that Rovi’s proposed
constructions of the claim terms “local/remote access
interactive television program guides” improperly
seek to limit the broadest reasonable interpretation of
the claim term “interactive television program guide”
to a single software component that generates listings,
thereby excluding other software components that
assist in providing guide functionality. Pet. Reply 4
(citing PO Resp. 30–34; Ex. 2011 ¶¶ 134–135, 144–
148). According to Comcast, this exclusion finds no
basis in the plain language of the claims and the
specification of the ’413 Patent. Id. at 4–5 (citing Ex.
1152 ¶¶ 10–14).
Comcast also contends that Rovi’s arguments
directed to the claim term “interactive television
program guide” contradict the construction Rovi
offered in the related ITC proceeding. Pet. Reply 5.
Comcast argues that Rovi expanded the scope of the
claim term “local interactive television program guide”
For the first time at the oral hearing, Rovi argued that “remote
access interactive television program guide” requires “dedicated
code at the remote device.” See, e.g., Tr. 58:3–7, 60:19–61:14,
66:14–21. We agree with Comcast (id. at 96:3–10) that this is a
new argument that was not presented and developed in Rovi’s
briefs and, therefore, we do not consider it. See Paper 10, 3
(cautioning Rovi that “any arguments for patentability not raised
in the response will be deemed waived”).
8

323a
in the related ITC proceeding, to capture all software
components related to any local guide functionality,
including recording. Id. (citing Ex. 2101, 188–199,
222–236; Ex. 1154 ¶¶ 158–160, 169, 170, 371, 376).
Comcast argues that Rovi’s expert in the ITC
proceeding, Dr. Michael Shamos, who also is Rovi’s
expert in this proceeding, provided supporting
testimony that the claim term “local interactive
television program guide” could be an “extensive
collection of hardware and software.” Id. (emphasis
omitted) (quoting Ex. 1154 ¶ 169). In this proceeding,
however, Comcast argues that Rovi and Dr. Shamos
appear to take the erroneous position that the claim
term “local interactive television program guide” is a
single software application. Id. at 5–6 (compare PO
Resp. 32 and Ex. 2111 ¶ 147, with Ex. 1154 ¶¶ 169,
376, 371). According to Comcast, we should hold Rovi
to the same broad construction of the claim term “local
interactive television program guide” in this
proceeding that it wielded to exclude others from
practicing in the related ITC proceeding. Id. at 6.
As an initial matter, it is not clear to us whether
Rovi actually disputes our preliminary construction of
the claim term “interactive television program guide.”
On the one hand, Rovi asserts that the ITC’s
constructions of local interactive television program
guide (i.e., a “guide that allows navigation through
television program listings and causes display of
program information on user television equipment”)
and remote access interactive television program
guide (i.e., a “guide allowing navigation through
television program listings using a remote access
link”) are the proper constructions. PO Resp. 9. On the

324a
other hand, Rovi argues that both our constructions
and the ITC’s constructions “are consistent with
respect to the relevant aspects (e.g., navigation and
selection)” of a local/remote access interactive
television program guide. Id. at 9–10. Rovi further
contends that “[a]ny differences between the Board’s
and the ITC’s constructions are not relevant to
[Comcast’s] failures of proof regarding the asserted
prior art and [g]rounds at issue in the proceeding.” Id.
at 10–11 (emphasis added); see also Ex. 2111 ¶ 25
(Rovi’s declarant, Dr. Shamos, testifies that,
“regardless of which constructions the Board applies,
my opinions remain the same. The asserted prior art
references here fail to disclose the claim limitations . .
. under either construction.”). These arguments make
it difficult to ascertain what Rovi actually views as the
proper scope and meaning of the claim terms
“local/remote access interactive television program
guides.” Nevertheless, we are charged in this
proceeding with determining the broadest reasonable
interpretation of these claim terms.
Beginning with the intrinsic record, neither party
argues, nor could we find, an explicit definition for the
claim term “interactive television program guide” in
the specification of the ’413 Patent. The specification,
however, is replete with descriptions of conventional,
local, or remote interactive television program guides.
For instance, the specification discloses that
conventional interactive television program guides
display “various groups of television program [guide]
listings . . . in predefined or user-defined categories,”
and “allow the user to navigate through [the]
television program listings” and make a selection

325a
“using a remote control.” Ex. 1101, 1:28–33. For a
conventional interactive television program guide, the
user must physically be located in the same room as
the set-top box on which the interactive television
program guide is implemented to select programs for
recording or to perform other guide functions. Id. at
1:34–42. In the context of discussing the
implementation of a remote access interactive
television program guide, the specification discloses
that such a guide works in conjunction with a remote
device to “provide users with the opportunity to
remotely access features of the interactive television
program guide on the interactive television program
guide equipment and to remotely set program guide
settings.” Id. at 2:64–3:4. The specification goes on to
disclose that “[a]ny suitable interactive television
program guide function or setting may be accessed,”
including, but not limited to, “remotely select[ing]
programming for recordings” and “remotely set[ting]
and navigat[ing] through favorites (e.g., favorite
channels, program categories, services, etc.).” Id. at
3:5–15.
Although the aforementioned disclosures provide
guidance as to the functionality of an “interactive
television program guide” (i.e., navigable, selectable,
and capable of controlling certain functions or
settings), neither party directs us to, nor can we find,
a disclosure in the specification that specifically
identifies what element or elements constitute a
“guide.” Given the lack of disclosure in this regard, we
decline to limit the “guide” to a single software
application. Rather, these disclosures support
Comcast’s proposed construction that an “interactive

326a
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.”
We further clarify that the plain language of
independent claims 1 and 10 indicates that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements. See Becton,
Dickinson & Co. v. Tyco Healthcare Grp., LP, 616 F.3d
1249, 1254 (Fed. Cir. 2010) (“Where a claim lists
elements separately, ‘the clear implication of the claim
language’ is that those elements are ‘distinct
component[s]’ of the patented invention.” (alteration in
original) (quoting Gaus v. Conair Corp., 363 F.3d 1284,
1288 (Fed. Cir. 2004))). Our determination in this
regard is supported by the specification, which
includes various embodiments that treat these claim
terms as separately identifiable elements capable of
communicating with each other. See, e.g., Ex. 1101,
15:20–23 (“In still another suitable approach, the
[local interactive television program guide and remote
access interactive television program guide] may be
different guides that communicate in a manner or
manners discussed . . . herein.”), 23:4–7 (“The remote
access [interactive television] program guide may . . .
send audio, graphical, and text messages to the local
interactive [television] program guide for playing or
display by user television equipment 22.”). The
specification also explains that the “local interactive
television program guide” and “remote access
interactive television program guide” may be the same

327a
guide, in which case they are separately identifiable
elements in that each guide is compiled to run on a
different platform. See id. at 15:15–18 (“The remote
access and local guide may, for example, be the same
guide but compiled to run on two different platforms
and to communicate in a manner or manners
discussed herein.”).
We decline to adopt Rovi’s proposed constructions
of the claim terms “local/remote access interactive
television program guides” for two reasons. First, we
are unable to determine how Rovi’s proposed
constructions add any clarity to the scope and meaning
of an “interactive television program guide.” That is,
we view each of Rovi’s proposed constructions as
circular and unhelpful because they define each of the
guides as a “guide [that allows/allowing] navigation
through television program listings.” PO Resp. 9
(emphasis added). Rovi, however, does not actually
identify what element or elements specifically
constitute the “guide.”
Second, Rovi states that its proposed constructions
indicate “where the specific guide resides (i.e., on ‘user
television equipment’ or over ‘a remote access link’),”
but readily admits that “these additions merely
restate the language of the broader claim
limitation[s].” PO Resp. 13–14 (emphasis omitted)
(citing Ex. 2101, 193, 198, 409). It is well settled that
the Federal Circuit disfavors any claim interpretation
that renders a claim term or phrase superfluous. See
Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229, 1237
(Fed. Cir. 2016) (“The Board was correct to not include
in its construction of ‘menu’ features of menus that are
expressly recited in the claims. . . . Construing a claim

328a
term to include features of that term already recited in
the claims would make those expressly recited
features redundant.”). If we were to adopt the
language in Rovi’s proposed constructions pertaining
to where each guide resides, it would render
superfluous the language that is already explicitly
recited in independent claim 1, and similarly recited
in independent claim 10—namely, “over a remote
access link” and “a local interactive television program
guide equipment on which a local interactive television
program guide is implemented, … wherein the local
interactive television program guide equipment is
located within the user’s home and includes user
television equipment.” 9
Turning now to the extrinsic evidence, in Dr.
Tjaden’s Declaration accompanying the Petition, he
testifies that “the local [interactive television program]
guide may be implemented at least in part on a server
or other device outside the user’s home.” Ex. 1102 ¶ 36.
To support this testimony, he directs us to Rovi’s
interpretation of the claim term “local interactive
television program guide” in the related ITC
proceeding. Id. (citing Ex. 1145, 56; Ex. 1146, 43). In
Dr. Tjaden’s Declaration accompanying the Reply, he
elaborates further on his initial position by testifying
that “a [person of ordinary skill in the art] looking at
During oral argument, in response to a question regarding the
ITC’s construction of the “local interactive television program
guide” being on user television equipment and its construction
that the “remote access television program guide” uses a remote
access link, counsel for Rovi stated that “I don’t think where [the
guides are] implemented is meaningful because that’s recited in
the claim separately.” Tr. 66:22–67:24.

9

329a
the ’413 Patent would have understood that many
different arrangements of the software and hardware
components comprising an interactive television
program guide are possible and acceptable in [the]
prior art used to show obviousness.” Ex. 1152 ¶ 11. To
support this testimony, he directs us to the different
arrangements of software and hardware in the ’413
Patent. Id. ¶¶ 16–18 (citing Ex. 1101, 7:15–19, 33–35,
40–47, 9:36–44, 10:15–16, 29–34, 41–48, Figs. 1, 2a–
2d).
Comcast also directs us to Dr. Shamos’s
Declaration in the ITC proceeding as further evidence
as to what element or elements constitute a “guide.”
Although we recognize that the broadest reasonable
interpretation standard governs in this proceeding,
whereas the district court claim construction standard
governs in an ITC proceeding, Dr. Shamos’s testimony
in the ITC proceeding is relevant here because it sheds
some light on what element or elements he believes
constitute a “guide.” In the ITC proceeding, Dr.
Shamos testified that the claim term “local interactive
television program guide” could be an “extensive
collection of hardware and software.” Ex. 1154 ¶ 169.
He also testified “that the ‘local [interactive television
program] guide’ [should not be construed as] a single
software application that must reside on a device in
the user’s home,” and “[n]othing in the claims exclude
a ‘recording application’ from being part of the local
[interactive television program] guide.” Id. ¶ 371. Dr.
Shamos’s testimony in the ITC proceeding is
consistent with Dr. Tjaden’s testimony in this
proceeding because, like Dr. Tjaden, Dr. Shamos does
not limit a “guide” to a single software application, but

330a
rather contemplates that the “guide” may constitute
different arrangements of software and hardware.
We note that the aforementioned testimony from
Dr. Tjaden and Dr. Shamos suggests that the “guide”
may include both software and hardware. Rovi
likewise argues that its proposed construction is
broader than Comcast’s because it “does not
unnecessarily restrict the guides to ‘control software.’”
PO Resp. 11. We do not find support in the intrinsic
record that the “guide” may include hardware. Rather,
the ’413 Patent separately refers to the interactive
television program guide and the hardware on which
it is implemented. See, e.g., Ex. 1101, 1:34–35
(“Interactive television program guides are typically
implemented on set-top boxes . . . .”). The
aforementioned testimony, however, is consistent with
our conclusion that the “guide” may constitute more
than just a single software application.
In summary, upon weighing all the evidence
bearing on the construction of the claim term
“interactive television program guide,” we maintain
that the broadest reasonable interpretation of this
claim term is “control software operative at least in
part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” We also maintain that the claim terms
“local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide.

331a
B. Obviousness Over the Combined Teachings of Sato
and Humpleman
Comcast contends that claims 1, 3–10, and 12–18
of the ’413 Patent are unpatentable under § 103(a)
over the combined teachings of Sato and Humpleman.
Pet. 20–41. Comcast explains how this proffered
combination teaches or suggests the subject matter of
each challenged claim, and provides reasoning as to
why one of ordinary skill in the art would have been
prompted to modify or combine the references’
respective teachings. Id. Comcast also relies upon the
Declaration of Dr. Tjaden to support its positions. Ex.
1102 ¶¶ 97–169. In its Patent Owner Response, Rovi
presents a number of arguments as to why the
combined teachings of Sato and Humpleman do not
render the limitations of independent claims 1 and 10
obvious. PO Resp. 20–41. Rovi relies upon the
Declaration of Dr. Shamos to support his positions. Ex.
2111 ¶¶ 97–157.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the
art, proceeded by brief overviews of Sato and
Humpleman, and then we address the parties’
contentions with respect to the claims at issue in this
asserted ground.
1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and
the prior art are such that the subject matter, as a
whole, would have been obvious at the time the
invention was made to a person having ordinary skill

332a
in the art to which said subject matter pertains. KSR
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The
question of obviousness is resolved on the basis of
underlying factual determinations, including (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) when in
evidence, objective indicia of non-obviousness (i.e.,
secondary considerations). Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). We analyze this asserted
ground based on obviousness with the principles
identified above in mind.
2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a
person of ordinary skill in the art. Relying on the
testimony of its declarant, Dr. Tjaden, Comcast asserts
that a person of ordinary skill in the art as of July 17,
1998, which is the earliest priority date on the face of
the ’413 Patent, would be an individual who possesses
the following:
a bachelor’s degree in computer science,
electrical engineering, computer engineering, or
a similar discipline, and two years of experience
with interactive program guides, set-top boxes,
mobile computer devices, and techniques for
delivering content or program guides over
communication networks, such as a cable
system, a local-area network, and the Internet.
Pet. 13 (quoting Ex. 1102 ¶ 28). Alternatively, once
again relying on the testimony of Dr. Tjaden, Comcast
asserts that a person of ordinary skill in the art “could

333a
have had equivalent experience in industry or
research, such as designing, developing, evaluating,
testing, or implementing the aforementioned
technologies.” Id. (quoting Ex. 1102 ¶ 28). Conversely,
Rovi’s declarant, Dr. Shamos, does not offer an
assessment of the level of skill in the art as of July
1998, nor does he explicitly state his intent to adopt
Dr. Tjaden’s assessment. See generally Ex. 2111.
Because Dr. Shamos’s testimony does not address this
matter, we adopt Dr. Tjaden’s assessment because it is
consistent with the ’413 Patent and the asserted prior
art, and apply it to our obviousness evaluation below.
3. Sato Overview
Sato generally relates to a remote controller
suitable for use in operating audio/visual devices and,
in particular, one that is suitable for use in a system
for transmitting broadcast program reservation tables
through a computer network. Ex. 1115, 1:7–12. Figure
1, reproduced below, illustrates a block diagram of the
network system used in Sato. Id. at 2:61–62, 3:49–51.

334a

The network system illustrated in Figure 1 reproduced
above includes surface wave television (“TV”)
broadcasting station 1, satellite TV broadcasting
station 2, and frequency modulation (“FM”) radio
broadcasting station 3 that broadcast TV programs
and/or FM radio programs to audio/visual equipment
5. Id. at 3:51–4:1. Audio/video equipment 5 includes,
among other things, video tape recorder/player
(“VTR”) 11 and TV receiver 14, each of which is capable
of being controlled remotely by infrared signals. Id. at
4:1–9. The network system further includes personal
computer 21 connected to Internet 6. Id. at 4:46–47.
Personal computer 21 sends commands to interface
box 25, which, in turn, uses infrared signals to
communicate desired modes of operation to VTR 11
and TV receiver 14. Id. at 4:52–59.
Figure 17, reproduced below, illustrates one
embodiment in accordance with the present invention.
Ex. 1115, 3:44–45, 9:29–30.

335a

The embodiment illustrated in Figure 17 reproduced
above includes TV receiver 101 that is capable of being
set to a desired mode of operation using infrared
signals from interface box 104 connected to personal
computer 105. Id. at 9:30–36. This embodiment
further includes external portable computer 107,
which connects to personal computer 105 through
Internet 106 to control TV receiver 101. Id. at 9:51–54.
For instance, external portable computer 107
generates hypertext commands for setting TV receiver
101 to a desired mode operation. Id. at 9:56–59. The
hypertext commands are sent from external portable
computer 107 to personal computer 105 through
Internet 106. Id. at 9:56–61. When interface box 104
receives the hypertext commands from personal
computer 105, it issues an infrared signal
corresponding to the command contained in the
hypertext and, subsequently, sets TV receiver 101 to
the desired mode of operation. Id. at 9:61–65.

336a
4. Humpleman Overview
Humpleman generally relates to the field of
networks and, in particular, to home networks that
have multimedia devices connected thereto. Ex. 1106,
1:16–18. One objective of Humpleman’s invention is to
provide a method for controlling a plurality of devices
connected to a home network, where at least one of
these devices is a multimedia device, and for
generating a program guide from the information
provided by the multi- media device on a second device
connected to the home network. Id. at 2:23–28.
According to Humpleman, a user may customize the
programming information that is displayed by the
program guide. Id. at 22:41–43. For instance, if a user
prefers not to display the schedule for a particular
channel because it contains inappropriate content, the
user may request that the channel be removed from
the program guide. Id. at 22:43–46.
5. Claims 1 and 10 10
In its Petition, Comcast contends that Sato’s
program guide system accounts for most of the
limitations recited in independent claims 1 and 10,
except “user profiles” used to generate the “remote
access interactive television program guide.” Pet. 20–
24 (citing Ex. 1115, 4:41–59, 5:18–25, 45–54, 9:8–17,
51–65, Figs. 1, 2, 17; Ex. 1102 ¶¶ 97–100); see also id.
at 27–35 (arguing the same). Comcast turns to
Comcast contends that independent claims 1 and 10 stand or
fall together, along with their dependent claims. Pet. 9–10. Rovi
does not dispute Comcast’s assertion in this regard. Accord PO
Resp. 20–41 (treating independent claims 1 and 10 as standing or
falling together).
10

337a
Humpleman’s generation of local customized program
guides to teach this particular limitation. Id. at 24–25
(citing Ex. 1106, 22:30–46; Ex. 1102 ¶ 102); see also id.
at 31–32 (arguing the same).
For added clarity, we identify the arguments
presented by Comcast for all the limitations of
independent claim 1. We note that there is no dispute
between the parties as to whether the limitations of
independent claim 10 are essentially the same as the
limitations of independent claim 1. Compare Pet. 9–
10, 26–35, with PO Resp. 20–41. Beginning with the
preamble of independent claim 1, Comcast contends
that Sato teaches “[a] system for selecting a television
program over a remote access link comprising an
Internet communications path for recording” because
Sato discloses that external portable computer 107
allows a remote user to communicate with personal
computer 105 over Internet 106 to control devices
within the user’s home. Pet. 27 (citing Ex. 1115, 9:51–
65). According to Comcast, Sato’s methods of
controlling TV receiver 101 and VTR 11 involve the use
of program guide webpages to schedule recordings. Id.
(citing Ex. 1115, 5:18–25, 5:45–54, Fig. 2; Ex. 1102
¶¶ 112–114). Comcast argues that, because Sato’s
external portable computer 107 also is described as
being capable of controlling these same home
electronic devices, a person of ordinary skill in the art
would have understood that external portable
computer 107 presents a program guide that allows
the remote user to select a program for recording, as
this is how Sato’s program guide system receives
selections of programs. Id. at 27–28.

338a
Comcast contends that Sato teaches “local
interactive television program guide equipment on
which a local interactive television program guide is
implemented,” as recited in independent claim 1,
because Sato discloses that a family may connect its
home personal computer to the Internet to access
HTML program guides provided by the TV stations.
Pet. 28 (citing Ex. 1115, 4:46–54, 9:29–37, Fig. 17; Ex.
1102 ¶¶ 117–118). Comcast argues that Sato’s
browser, when presenting the program guide web
page, constitutes the claimed “interactive television
program guide” because it is control software that is
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software (e.g., schedule a
recording on local equipment). Id. (citing Ex. 1115,
5:8–25).
Comcast contends that Sato teaches “wherein the
local interactive television program guide equipment
is located within the user’s home and includes user
television equipment,” as recited in independent claim
1, because TV receiver 101 and VTR 11 are
components of an audio/visual system located in a
user’s home. Pet. 29 (citing Ex. 1115, 4:1–9, 4:46–59,
4:60–5:2, Fig. 5; Ex. 1102 ¶¶ 119–120). Comcast
argues that Sato teaches wherein “the local interactive
television program guide generates a display of one or
more television program listings for display on a
display device at a user’s home,” as recited in
independent claim 1, because users access the
program guide webpage using their local personal
computer (i.e., personal computer 105), and a browser

339a
that runs on the local personal computer generates a
program guide display, such as one illustrated in
Sato’s Figure 2. Id. at 29 (citing Ex. 1115, 4:46–59,
Figs. 2, 5; Ex. 1102 ¶ 121).
Comcast contends that Sato teaches “wherein the
mobile device, on which a remote access interactive
television program guide is implemented, is located
outside of the user’s home,” as recited in independent
claim 1, because external portable computer 107 is
described as being capable of controlling the same
home electronic devices as personal computer 105. Pet.
29 (citing Ex. 1115, 9:51–65, Fig. 17; Ex. 1102 ¶¶ 122–
128). According to Comcast, a person of ordinary skill
in the art would have understood that Sato’s external
portable computer 107 presents a program guide
display that allows the remote user to select a program
for recording because this is how Sato’s program guide
system receives program selections. Id. at 29–30
(citing Ex. 1102 ¶¶ 123–125). Comcast also argues
that, to the extent Sato’s personal computer 105
(Figure 17) and personal computer 21 (Figure 1) are
not described as the same element, it would have been
obvious to a person of ordinary skill in the art to allow
external portable computer 107 to control personal
computer 21 because external portable computer 107
is described as capable of controlling any electronic
device in the user’s home. Id. at 30 (citing Ex. 1115,
9:51–65; Ex. 1102 ¶ 127). Comcast further argues that
Sato teaches “wherein a mobile device communicates
with the local interactive television program guide
equipment,” as recited in independent claim 1, because
external portable computer 107 is a portable,

340a
computer-based device (i.e., mobile device). Id. at 29
(citing Ex. 1102 ¶ 124).
Comcast contends that Sato’s remote guide
“generates a display of the remote access interactive
television program guide, the remote access
interactive television program guide comprising a
plurality of television program listings for display on
the mobile device,” as recited in independent claim 1,
because Sato discloses methods for certain home
electronic devices (e.g., TV receiver 101 or VTR 11)
that involve using program guide webpages to
schedule recordings. Pet. 30 (citing Ex. 1115, 5:45–54,
Fig. 2). Comcast argues that a person of ordinary skill
in the art would have understood that Sato’s external
portable computer 107 presents a program guide
webpage to a remote user, which, in turn, allows the
remote user to select a program for recording, because
this is how Sato’s program guide system receives
selections for programs. Id. at 30–31 (citing Ex. 1115,
5:3–7, 5:18–25, 5:45–54; Ex. 1102 ¶¶ 130, 131).
Comcast further argues that Sato makes clear that its
methods use “hypertexts” rendered for display by a
browser on an accessing computer, and this display
includes a plurality of program listings from which a
remote user may select a program for recording. Id. at
31 (citing Ex. 1115, Fig. 2).
Comcast also contends that, to the extent Sato does
not teach “wherein the display of the remote access
interactive television program guide is generated
based on a user profile stored at a location remote from
the mobile device,” as recited in independent claim 1,
it would have been obvious to one of ordinary skill in
the art to generate customized program guides, as

341a
taught by Humpleman, for display at Sato’s external
portable computer 107. Pet. 31 (citing Ex. 1102
¶¶ 135–139). To support this argument, Comcast
directs us to various teachings in Humpleman that
pertain to generating local customized guides that are
capable of being displayed on any browser- equipped
device, including a remote personal computer. Id.
(citing Ex. 1106, 2:31–39, 7:25–35, 20:47–51, 20:58–
21:3, 22:30–59). Comcast argues that it would have
been obvious to a person of ordinary skill in the art to
improve Sato’s web-based program guides with
Humpleman’s generation of local customized guides
for display by a remote device to provide the user
operating Sato’s external portable computer 107 with
better access to the content he/she desires. Id. at 32
(citing Ex. 1102 ¶¶ 131–139, 142–145).
Comcast contends that Sato’s remote guide
“receives a user selection of the television program for
recording by the local interactive television program
guide, wherein the user selects the television program
by selecting a television program listing from the
plurality of television program listings displayed, by
the remote access interactive television program
guide, on the mobile device,” as recited in independent
claim 1 because Sato discloses that a user may click on
the title of a desired program displayed in the program
guide webpage, thereby causing Sato’s program guide
system to send a record command to local hardware.
Pet. 33–34 (citing Ex. 1115, 5:8–17, 5:18–25, 9:8–17,
9:56–65; Ex. 1102 ¶¶ 147, 148). Comcast argues that,
although Sato’s program guide is discussed with
respect to local personal computers 21 and 105, Sato’s
external portable computer 107 also is capable of

342a
controlling any home electronic device, which one of
ordinary skill in the art would have understood to
include personal TV receiver 101 or VTR 11 illustrated
in Figure 1. Id. at 34 (citing Ex. 1115, 5:8–17, 5:45–54,
Fig. 2; Ex. 1102 ¶ 147).
Comcast contends that Sato’s remote guide
“transmits, to the local interactive television program
guide over the Internet communications path, a
communication identifying the television program for
recording corresponding to the television program
listing selected by the user with the remote access
interactive television program guide,” as recited in
independent claim 1, because, when the user selects
an operation (e.g., a program to be recorded), Sato’s
external portal computer 107 sends a hypertext
command to personal computer 105. Pet. 34 (citing Ex.
1115, 6:10–17, 9:56–65; Ex. 1102 ¶¶ 149–151).
Comcast argues that, in the case of a scheduled
recording, this command includes a representation of
a “G code” that is associated with the selected
program. Id. (citing Ex. 1115, 6:10–17).
Lastly, Comcast contends that Sato teaches
“wherein the local interactive television program guide
receives the communication and, responsive to the
communication, records the television program
corresponding to the selected television program
listing using the local interactive television program
guide equipment,” as recited in independent claim 1,
because control software on personal computer 105,
which also includes a browser, receives the hypertext
command from external portal computer 107 and
issues appropriate commands to local hardware. Pet.
35 (citing Ex. 1115, 5:18–25, 9:56–65; Ex. 1102

343a
¶¶ 152–154). In the case of a recording command,
Comcast argues that interface box 25 outputs an
infrared signal instructing VTR 11 to record the
program at the indicated time. Id. at 35 (citing Ex.
1115, 5:18–25); see also id. at 9:29–65 (disclosing the
same communication process with respect to Figure
17—namely, interface box 104 outputs an infrared
signal that sets TV receiver 101 to a desired mode of
operation).
Turning to the rationale to combine, Comcast
contends that it would have been obvious to one of
ordinary skill in the art to incorporate Humpleman’s
generation of local customized program guides for
display by a remote device into Sato’s program guide
system for at least the following three reasons: (1) it
would have been nothing more than using known
techniques (i.e., Humpleman’s remote display of local
customized program guide webpages) to improve a
similar device (i.e., Sato’s program guide system) in
the same way; (2) it would have been a simple
substitution of Humpleman’s generation of local
customized program guides for Sato’s webpages to
produce the predictable result of preventing the
display of disfavored channels or content; and (3) using
Humpleman’s generation of local customized program
guides to improve Sato’s program guide system—
specifically, its webpages—would provide a complete
picture of the content available on the user’s local
television receiver. Id. at 24–26 (citing Ex. 1106, 2:23–
28, 22:30–46, 22:60–65; Ex. 1115, 4:60–5:2, 9:51–65;
Ex. 1102 ¶¶ 102–108); see also id. at 32–33 (arguing
the same).

344a
In its Patent Owner Response, Rovi presents a
number of arguments that can be grouped as follows:
(1) whether Comcast has demonstrated that Sato and
Humpleman, either alone or in combination, account
for all the limitations of independent claims 1 and 10;
and (2) whether Comcast has demonstrated that a
person of ordinary skill in the art would have had
sufficient reasons to combine the teachings of Sato and
Humpleman. PO Resp. 20–41. We address these
groupings of arguments in turn.
a. Limitations
i. Two Interactive Television Program Guides
Rovi contends that each independent claim
requires two interactive television program guides—
namely, “a local interactive television program guide”
and “a remote access interactive television program
guide.” See PO Resp. 20–22. Rovi argues that Sato does
not teach two interactive television program guides
because it is directed to a rudimentary system for
controlling home peripherals through a network using
infrared signals. Id. at 22–23. In particular, Rovi
argues that Comcast improperly relies on the
embodiment illustrated in Sato’s Figure 17 to teach
two interactive television program guides because
there is no disclosure of an interactive television
program guide in association with this figure, let alone
a disclosure of both a local interactive television
program guide and a remote access interactive
television program guide. Id. at 23 (citing Ex. 1115,
9:51–55, Fig. 17; Ex. 2111 ¶¶ 131–134).
Next, Rovi contends that, although Sato discloses
passing hypertext commands for devices such as TV

345a
receiver 101, illuminator 102, or air conditioner 103
from external portable computer 107 to personal
computer 105, Sato is silent with respect to what
information is displayed on external portable
computer 107, how the display is generated, and
whether a user is able to schedule a recording. PO
Resp. 24 (citing Ex. 1115, 9:56–65). Indeed, Rovi
asserts that a browser program for displaying
television listings would not be suitable for devices like
Sato’s illuminator 102 or air conditioner 103. Id.
(citing Ex. 2111 ¶ 132). Rovi further argues that, with
respect to the embodiment illustrated in Sato’s Figure
17, Sato does not disclose any source of program guide
information for external portable computer 107 that
would be necessary for that computer to display
television listings, nor does Sato disclose what is
displayed on any browser of personal computer 105.
Id. at 24–25 (citing Ex. 2111 ¶ 133; Ex. 2110, 116:16–
117:8).
Rovi then contends that, to overcome the failures of
proof with respect to the embodiment illustrated in
Sato’s Figure 17, Comcast improperly relies on the
teachings of the embodiment illustrated in Sato’s
Figure 1 and mistakenly asserts that a guide must
exist in the embodiment associated with Figure 17
because “that is how Sato’s system receives selections
of programs.” PO Resp. 25 (quoting Pet. 23). Rovi also
argues that Comcast improperly relies on the program
listing screen illustrated in Sato’s Figure 2 as teaching
an interactive television program guide because this
figure is not discussed in connection with external
portable computer 107 illustrated in Sato’s Figure 17,
nor is it discussed with respect to any purported

346a
remote interactive television program guide. Id. (citing
Ex. 1102 ¶¶ 112, 119). Indeed, Rovi argues that the
program listing screen illustrated in Sato’s Figure 2
would not be suitable for controlling illuminator 102 or
air conditioner 103 because these devices would not
use program listings. Id. (citing Ex. 2111 ¶¶ 136–138).
Rovi further argues that a person of ordinary skill in
the art would not have been motivated to combine the
embodiments illustrated in Sato’s Figures 1, 2, and 17
because they are different embodiments for different
purposes, and the embodiment in Figure 17 is a
separate, complete system that would not be
understood to work in conjunction with any other
embodiments. Id. at 26–27 (citing Jackel Int’l Ltd. v.
Mayborn USA, Inc., Case IPR2015-00979, slip op. at 4
(PTAB May 20, 2016) (Paper 21); Ex. 1115, 3:44–45,
9:30–31; Ex. 2111 ¶ 137).
Lastly, Rovi contends that modifying the teachings
of Sato with those of Humpleman would not produce
the claimed two interactive television program guides.
PO Resp. 28. Relying on the Humpleman provisional
(Ex. 1107), Rovi argues that the DirecTV Satellite
System (“DSS”) server observes a request from the
DSS’s Hypertext Markup Language (“HTML”) page,
retrieves the necessary information, and then passes
it along to the digital video cassette record’s HTML
page. Id. at 28–29 (citing Ex. 1107, 14; Ex. 2111
¶¶ 113, 114). Rovi asserts that Humpleman’s DSS
server is not guide software that is capable of handling
recording requests and, therefore,
inserting
Humpleman’s HTML program guides into the
embodiment illustrated in Sato’s Figure 17 would not

347a
yield the claimed two interactive program guides. Id.
at 30.
In its Reply, Comcast counters that Rovi’s
arguments attempt to “erect an artificial wall”
between the embodiment illustrated in Sato’s Figure
17 and Sato’s teachings of program guide webpages.
Pet. Reply 8. According to Comcast, a person of
ordinary skill in the art would not have read the
embodiment illustrated in Sato’s Figure 17 in isolation
from the rest of the teachings in Sato. Id. at 9. Comcast
argues that, because Sato explicitly discloses that “TV
receiver 101 . . . or any other electronic device can be
controlled through the external portable computer
107,” a person of ordinary skill in the art would have
understood that “any other electronic device” includes
VTR 11 illustrated in Sato’s Figure 1, and that VTR 11
could be instructed “to record the program at the
indicated time” responsive to a remote user selecting a
program on external portable computer 107. Id. at 9–
10 (quoting Ex. 1115, 9:51–55, 5:18–25) (citing Ex.
1152 ¶¶ 9, 20, 27, 28).
Next, Comcast argues that Sato provides extensive
disclosures of program guide webpages for scheduling
recordings. Pet. Reply 10 (citing Ex. 1115, 5:18–25,
5:45–54, Fig. 2). Comcast then asserts that, based on
these disclosures, a person of ordinary skill in the art
would have understood that using Sato’s personal
computer 105 or external portable computer 107 to
control VTR 11 for purposes of recording a TV program
would have been done using the same program guide
webpages in the same way that is taught with respect
to Sato’s personal computer 21. Id. (citing Ex. 1115,
4:60–5:25, Figs. 1, 2, 16; Ex. 1152 ¶¶ 21–23). Comcast

348a
argues that Sato’s Figures 1 and 17 have a number of
common components and the different purpose for
which Sato’s Figure 17 refers to is allowing external
portable computer 107 to control home electronic
devices remotely. Id. (citing Ex. 1152 ¶ 27).
Comcast further contends that there is no support
for Rovi’s assertion that Sato’s Figure 17 illustrates an
embodiment that would or could not use program
guide information. Pet. Reply 10. Indeed, Comcast
argues that the similarities between Sato’s Figures 1
and 17 “do[] not require a leap of inventiveness” to
support its assertion that external portable computer
107 illustrated in Figure 17 is capable of controlling
VTR 11 or TV receiver 101 using the same program
guide webpages used for controlling VTR 11 and TV
receiver 14 illustrated in Figure 1. Id. at 10–11
(quoting Boston Scientific Scimed, Inc. v. Cordis Corp.,
554 F.3d 982, 991 (Fed Cir. 2009)). Comcast further
argues that Rovi’s arguments presume that one of
ordinary skill in the art lacked any amount of
creativity as to what information is capable of being
displayed on Sato’s external portable computer 107
and essentially denies such a person the ability to
consider Sato, as a whole. Id. at 11.
Comcast takes issue with Rovi’s argument that
Sato’s program guide webpages would not be suitable
for controlling illuminator 102 or air conditioner 103
because these devices would not use program listings.
Pet. Reply 12 (citing PO Resp. 24–25, 27). Relying on
the supporting testimony of Dr. Tjaden, Comcast
asserts that different commands and interfaces would
be used for different devices. Id. (citing Ex. 1152 ¶ 23).
For instance, Comcast argues that Sato discloses

349a
controls to maintain “an optimum value of the cooling
effect by the air conditioner 103” that would not be
suitable for controlling TV receiver 101. Id. (quoting
Ex. 1115, 9:39–41). Stated differently, Comcast argues
that there is no requirement in Sato that a single
universal user interface must be used to control all
home electronic devices. Id.
Comcast also contends that Rovi’s reliance on the
discussion of combining two different embodiments in
the Board’s Decision on Request for Rehearing in
Jackel International Ltd. v. Mayborn USA, Inc., Case
IPR2015-00979 (PTAB May 20, 2016) (Paper 21)
(“Jackel Int’l”) is misplaced. Pet. Reply 11. Comcast
asserts that Jackel Int’l is distinguishable from this
case because the Petitioner in Jackel Int’l argued that
combining two different embodiments was obvious
merely because “it’s the same reference,” whereas here
Comcast has provided detailed reasoning as to why
one of ordinary skill in the art would have been
motived to use Sato’s external portable computer 107
illustrated in Figure 17 to control VTR 11 or TV
receiver 101 using the same program guide webpages
used to control VTR 11 or TV receiver 14 illustrated in
Figure 1. Id. (quoting Jackel Int’l, slip op. at 4) (citing
Pet. 20–23).
Lastly, Comcast contends that it only relies on the
teachings of Humpleman in connection with the “user
profiles” used to generate the “remote access
interactive television program guide,” as claimed. Pet.
Reply 18. Comcast asserts that, even though
Humpleman teaches communication between two
interactive television program guides, Comcast relies

350a
on Sato’s teachings on this point. Id. (citing Pet. 31–
33; Ex. 1152 ¶¶ 31–33).
When evaluating claims for obviousness, it is well
settled that “the prior art as a whole must be
considered.” In re Hedges, 783 F.2d 1038, 1041 (Fed.
Cir. 1986); see also In re Merck & Co., Inc., 800 F.2d
1091, 1097 (Fed. Cir. 1986) (explaining that a
reference “must be read, not in isolation, but for what
it fairly teaches in combination with the prior art as a
whole”). “It is impermissible within the framework of
section 103 to pick and choose [teachings] from any one
reference . . . to the exclusion of other parts necessary
to the full appreciation of what such reference fairly
suggests to one of ordinary skill in the art.” Hedges,
783 F.2d at 1041 (quoting In re Wesslau, 353 F.2d 238,
241 (CCPA 1965)). In the same vein, “[a] reference
must be considered for everything that it teaches by
way of technology and is not limited to the particular
invention it is describing and attempting to protect.”
EWP Corp. v. Reliance Universal Inc., 755 F.2d 898,
907 (Fed. Cir. 1985).
Based on the record developed during trial, we
agree with Comcast that Sato renders the claimed
“local interactive television program guide” obvious
because Sato teaches or fairly suggests that a remote
user may access a program guide webpage, such as the
one illustrated in Figure 2, using a browser that runs
on personal computer 105 illustrated in Figure 17. See
Pet. 28–30. With reference to Figure 17, Sato discloses
that external portable computer 107 sends hypertext
commands to personal computer 105 through Internet
106. Ex. 1115, 9:56–61. After personal computer 105
receives these hypertext commands, they are then sent

351a
to interface box 104, which, in turn, generates infrared
signals responsive to the commands that are used to
control a number of home electronic devices (e.g., TV
receiver 101, illuminator 102, air conditioner 103, or
any other electronic device, such as VTR 11 illustrated
in Figure 1). Id. at 9:45–55, 9:61–65.
Although the corresponding description of Sato’s
Figure 17 is silent with respect to how personal
computer 105 receives and displays hypertext
commands from external portable computer 107, other
disclosures in Sato provide a full appreciation as to
how personal computer 105 operates in this regard.
For instance, and as discussed in more detail below,
after reading Sato in its entirety, one of ordinary skill
in the art would have recognized that there is a
corollary between personal computer 21 illustrated in
Figure 1 and personal computer 105 illustrated in
Figure 17. Sato discloses that personal computer 21
operates browser 41 that, when rendering a webpage
that includes a program guide display such as the one
illustrated in Figure 2, allows a user to record desired
programs. Ex. 1115, 4:60–5:17, 5:45–54, Figs. 2, 5.
Using mouse 24, the user may click on the desired
program and, in response, interface box 25 sends an
infrared signal to VTR 11 to record the selected
program. Id. at 5:18–25. Given these disclosures
regarding personal computer 21 illustrated in Figure
1, we find that one of ordinary skill in the art would
have understood that personal computer 105
illustrated in Figure 17 operates a browser to access a
program guide webpage, such as the one illustrated in
Figure 2, in the same way as personal computer 21

352a
operates a browser to access the same program guide
webpage.
Comcast’s declarant, Dr. Tjaden, provides
testimony that supports our finding that one of
ordinary skill in the art would have understood that
Sato’s personal computer 105 operates a browser that,
when rendering a webpage that includes a program
guide display such as the one illustrated in Figure 2,
allows a user to record desired programs. In his
Declaration accompanying the Petition, Dr. Tjaden
clarifies that “[o]ne of ordinary skill in the art would
[have understood] that . . . browser software operates
to receive user input and execute instructions included
in the HTML code of the [webpage] (such as Sato’s
recording links).” Ex. 1102 ¶ 100 (citing Ex. 1115,
9:51–65). In his Reply Declaration, Dr. Tjaden testifies
that “a [person of ordinary skill in the art] would have
understood that the computers depicted in [Figure] 17
would be implemented using the same browsers
disclosed in [Figures] 1 and 2.” Ex. 1152 ¶ 24. We
credit the aforementioned testimony of Dr. Tjaden
because it is consistent with reading Sato, as whole,
without viewing the corresponding description of
Sato’s Figure 17 at the exclusion of other teachings in
Sato that provide a full appreciation as to how
personal computer 105 uses a browser to receive and
display hypertext commands.
Our finding in this regard also comports with our
construction of “interactive television program guide.”
In our claim construction section above, we determine
that the broadest reasonable interpretation of an
“interactive television program guide” is “control
software operative at least in part to generate a

353a
display of television program listings and allow a user
to navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. When the browser operating on Sato’s personal
computer 105 renders a webpage that includes a
program guide display and allows a user to select
desired programs for recording, we find that it
effectively operates as part of an “interactive television
program guide” because it displays program listings
and allows the user to navigate through the listings,
make selections, and control recording functions.
Based on the record developed during trial, we also
agree with Comcast that Sato renders the claimed
“remote access interactive television program guide”
obvious because Sato teaches or fairly suggests that
external portable computer 107 uses a browser to
present a program guide webpage that allows the
remote user to select a program for recording. See Pet.
29–30. As we explained above with respect to Sato’s
Figure 17, when external portable computer 107 is
connected to personal computer 105 through Internet
106, it is capable of controlling TV receiver 101,
illuminator 102, air conditioner 103, and any other
electronic device, such as VTR 11 illustrated in Figure
1. Ex. 1115, 9:51–55; see also id. at 4:1–5, 5:18–25
(disclosing that audio/visual system 5 that each family
owns includes, among other things, VTR 11 that
records programs). 11

Rovi does not argue that Sato’s disclosure of “any other
electronic device[s]” (Ex. 1115, 9:53–54) does not include VTR 11
illustrated in Figure 1. Instead, Rovi argues that Sato’s Figure 17
embodiment does not teach any interactive television program
11

354a
Although Sato discloses that external portable
computer 107 sends hypertext commands for
controlling these home electronic devices to personal
computer 105 (Ex. 1115, 9:59–61), the corresponding
description of Sato’s Figure 17 is silent as to what is
displayed on external portable computer 107 and how
the hypertext commands are sent to personal
computer 105. Nonetheless, after reading Sato in its
entirety, there are other disclosures in Sato that
provide one of ordinary skill in the art with a full
appreciation as to how external portable computer 107
operates to perform this function. For instance, Sato
suggests that external portable computer 107 uses a
browser to send hypertext commands to personal
computer 105 because Sato discloses that a hypertext
command is a key underlying concept of a webpage
displayed by a browser. See, e.g., id. at 5:30–31
(disclosing that “the [world wide web] page shown in
FIG. 2 contains a description in [the] form of a
hypertext as shown in FIG. 3”), Figs. 2, 3 (illustrating
web pages with hypertext commands). In addition,
apart from being described as both external and
portable, there is nothing in Sato that suggests that
external portable computer 107 is anything other than
a general purpose computer that uses a browser to
render a webpage in the same way that both personal
computer 21 illustrated in Figure 1 and personal
computer 105 illustrated in Figure 17 use a browser to
render a webpage.

guide for controlling such a VTR, and that it would not have been
obvious to combine Sato’s Figure 17 embodiment with the
separate embodiments of Figures 1 and 2. See PO Resp. 22–28.

355a
Comcast’s declarant, Dr. Tjaden, provides
testimony that supports our finding that one of
ordinary skill in the art would have understood that
Sato’s personal computer 107 operates a browser that,
when rendering a webpage that includes a program
guide display such as the one illustrated in Figure 2,
allows a user to record desired programs. In his
Declaration accompanying the Petition, Dr. Tjaden
testifies that a person of ordinary skill in the art would
have understood that:
“external portable computer 107” could and
would access the HTML program guide
[illustrated in Figure 2] using a browser to
implement a similar interactive television
program guide as described for the “personal
computer 105,” because this is how Sato
describes effecting the recording features and
both devices are computers described as
operating to set the user television equipment
to a desired mode of operation.
Ex. 1102 ¶ 125 (citing Ex. 1115, 5:3–7, 9:51–61); see
also Ex. 1152 ¶ 23 (Dr. Tjaden testifies that “external
portable computer 107 could and would display
television program listings like those described with
respect to [Sato’s Figures] 1 and 2 using Sato’s WWW
[world wide web] client-server teachings.”).
Dr. Tjaden also testifies that, to the extent Sato
does not disclose explicitly how external portable
computer 107 operates, “a [person of ordinary skill in
the art] would be motivated to look elsewhere in the
Sato disclosure to determine how to configure the
‘external personal computer 107.’” Ex. 1102 ¶ 126.

356a
According to Dr. Tjaden, “[w]hen doing so, a [person of
ordinary skill in the art] would [have recognized] that
both the ‘external personal computer 107’ and the
‘personal computer[s 21 and 105]’ are similar in that
they are personal computers [that] control
audio/visual equipment over the Internet via use of
WWW pages.” Id. We credit the aforementioned
testimony of Dr. Tjaden because it is consistent with
reading Sato, as whole, without viewing the
corresponding description of Sato’s Figure 17 at the
exclusion of other teachings in Sato that provide a full
appreciation as to how external portable computer 107
uses a browser to display and send hypertext
commands.
Similar to our analysis above, our finding in this
regard also comports with our construction of
“interactive television program guide.” In our claim
construction section above, we determine that the
broadest reasonable interpretation of an “interactive
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. When the browser operating on Sato’s external
portable computer 107 renders a webpage that
includes a program guide display and allows a user to
select desired programs for recording, as in Sato’s
Figure 2, we find that it effectively operates as part of
an “interactive television program guide” because it
displays program listings and allows the user to
navigate through the listings, make selections, and
control recording functions. Moreover, Sato’s external

357a
portable computer 107 is a different platform than
personal computer 105 such that the interactive
television program guides that run on each of these
devices are separately identifiable. See supra Section
II.A (citing Ex. 1101, 15:15–18)
Rovi’s arguments that the program guide display
illustrated in Figure 2 of Sato would not be suitable for
controlling illuminator 102 or air conditioner 103
because these devices would not use program listings
is misplaced. See PO Resp. 24. There is no requirement
in Sato that a single universal user interface, such as
the program guide webpage illustrated in Figure 2,
must be used to control all home electronic devices
(i.e., TV receiver 101, illuminator 102, air conditioner
103, VTR 11, etc.). Separate commands for controlling
Sato’s illuminator 102 and air conditioner 103 are not
present in Figure 2 because there is no illuminator or
air conditioner being controlled in that embodiment.
Comcast’s declarant, Dr. Tjaden, testifies—and we
agree—that “[a person of ordinary skill in the art]
would . . . have understood that different devices
around the home would require different commands
and interfaces.” Ex. 1152 ¶ 23 (citing Ex. 1115, 9:39–
44, 9:51–65). Based on the teachings of Sato identified
above and Dr. Tjaden’s supporting testimony, we find
that one of ordinary skill in the art would have
appreciated the controls suitable for illuminator 102
and air conditioner 103 differ in certain respects from
the controls suitable for TV receiver 101 and VTR 11.
Stated differently, one of ordinary skill in the art
would have recognized that the program guide
webpage is capable of being equipped with the

358a
commands that correspond to the actual electronic
devices that are being controlled.
We do not agree with Rovi’s argument that a person
of ordinary skill in the art would not have been
motivated to combine the embodiments illustrated in
Sato’s Figures 1, 2, and 17 because they are different
embodiments for different purposes, and the
embodiment in Figure 17 is a separate, complete
system that would not be understood to work in
conjunction with any other embodiments. See PO
Resp. 26–27. Although Sato discloses that Figure 17
illustrates “an example of a system used for a different
purpose” (Ex. 1115, 9:29–30), Sato’s Figures 1 and 17
also share a number of common components (i.e.,
interface boxes 24 and 104, personal computer 21 and
105, TV receiver 14 and 101, Internet 6 and 106, etc.).
Given the similarities between these figures, it is
incumbent upon us in an obviousness evaluation to
look to the corresponding description of Figure 1 to get
a full appreciation as to what that figure fairly
suggests to one of ordinary skill in the art with respect
to the components it shares with Figure 17. See In re
Burckel, 592 F.2d 1175, 1179 (CCPA 1979) (“Under 35
U.S.C. § 103, a reference must be considered not only
for what it expressly teaches, but also for what it fairly
suggests.”).
To the extent Sato’s Figure 17 is directed to a
different purpose than Sato’s Figure 1, Comcast’s
declarant, Dr. Tjaden, explains that “a [person of
ordinary skill in the art] would have understood that
the ‘different purpose’ of [Figure] 17 is to control [home
electronic] devices remotely, including devices for
recording television programs.” Ex. 1152 ¶ 27 (citing

359a
Ex. 1115, 9:51–65). Notwithstanding this difference
(or any other differences including the additional
electronic devices being controlled), the embodiment of
Sato’s Figure 17 describes the same functionality of
the embodiment of Sato’s Figure 1 with respect to
controlling a TV receiver and other electronic devices
using a computer and infrared signals. Compare Ex.
1115, 4:41–59, with id. at 9:51–65. One of ordinary
skill in the art would have known to combine the
embodiment of Sato’s Figure 17 with elements of
Sato’s Figures 1 and 2 to achieve the same functions
described in relation to Figure 17. See Tyco Healthcare
Grp. LP v. Ethicon Endo-Surgery, Inc., 774 F.3d 968,
978 (Fed. Cir. 2014) (“[O]ne of ordinary skill is also one
of ‘ordinary creativity’ that knows how to combine
familiar prior art elements to achieve the same
functions.”); Boston Sci. Scimed, 554 F.3d at 991
(“Combining two embodiments disclosed adjacent to
each other in a prior art patent does not require a leap
of inventiveness.”). Accordingly, we agree with Dr.
Tjaden that a person of ordinary skill in the art would
have looked to Sato’s Figures 1 and 2 for a teaching as
to how the system illustrated in Sato’s Figure 17
controls electronic devices, such as a VTR for
scheduling program recordings. Ex. 1152 ¶¶ 27, 28.
We agree with Comcast that Rovi’s reliance on the
discussion of combining two different embodiments in
the Board’s Decision on Request for Rehearing in
Jackel Int’l is misplaced. See Pet. Reply 11. As an
initial matter, the Board’s Decision on Request for
Rehearing in Jackel Int’l is not precedential and is not
binding on this panel. Nevertheless, we have reviewed
this Decision on Request for Rehearing. Our review of

360a
this Decision, however, reveals that it is
distinguishable from arguments and evidence
presented by Comcast in this case.
In Jackel Int’l, the Board explained that the
petitioners challenged claims 6 and 13 of U.S. Patent
No. 8,695,841 B2 (“the ’841 patent”) as unpatentable
§ 103(a) over the combined teachings of Mutti, Kano,
and Suffa. Jackel Int’l, slip op. at 4. The Board then
explained that the petitioners relied on Mutti’s Figure
6 to account for the limitations of independent claim 1
of the ’841 patent, and then relied on Mutti’s Figures
1–5 to account for the limitations of claim 6 of the ’841
patent, which depends from independent claim 1. Id.
The Board explained that the petitioners’ rationale for
doing so was that “the ‘motivation to combine the
teachings of Mutti in one embodiment with the
teachings of Mutti in another embodiment is entirely
obvious—it’s the same reference.’” Id. The Board,
however, explained that this rationale was not
presented and developed in the petition itself, but
rather was presented in the first instance in the
request for rehearing. Id. slip op. at 5. The Board
further found that there was no motivation to combine
the embodiments where the modification involved
adding a feature from Figure 1 to perform a function
that was already being performed in Figure 6. See id.
In contrast, Comcast does not advocate that the
motivation to combine the teachings of the
embodiment illustrated in Sato’s Figure 17 with the
teachings of the embodiments illustrated in Sato’s
Figures 1 and 2 is obvious simply because these figures
are in the same reference. Unlike in Jackel Int’l,
Comcast sets forth a motivation to combine the

361a
embodiments in Sato’s Figures 1 and 17 in the Petition
itself, which has a rational basis. In particular,
Comcast explains that the combination results in the
remote guide having a useful user interface allowing
users to select programs, as is done on the local device.
Pet. 23. Moreover, as we explained above, the evidence
of record provides a number of reasons as to why one
of ordinary skill in the art would have read Sato, as a
whole, to get a full appreciation of the embodiment
illustrated in Sato’s Figure 17, including, but not
limited to: (1) Sato’s Figure 1 and 17 share common
components; (2) the supporting testimony of Dr.
Tjaden makes clear that certain aspects of Sato’s
Figure 17, specifically how personal computer 105 and
external portable computer 107 operate browsers that
render webpages including hypertext commands for
controlling home electronic devices, are described in
more detail with respect to Sato’s Figures 1 and 2; and
(3) one of ordinary skill in the art would have known
to combine the embodiment of Sato’s Figure 17 with
certain elements of Figures 1 and 2 to achieve the
same functions described in relation to Figure 17.
Lastly, contrary to Rovi’s argument, Comcast does
not seek to modify the teachings of Sato with those of
Humpleman to account for the claimed two interactive
television program guides. See PO Resp. 28–30. As we
explain above, Comcast’s asserted ground based on the
combined teachings of Sato and Humpleman relies on
both Sato’s personal computer 105 and external
portable computer 107 operating browsers, each of
which renders webpages that include the program
guide display such as the one illustrated in Figure 2,
to account for the “local/remote access interactive

362a
television program guides,” as claimed. See Pet. 23,
28–30, 35. Comcast turns to Humpleman to teach the
“user profiles” used to generate the “remote access
interactive television program guide,” as claimed. See
id. at 24–26, 30–33.
ii. Guide-to-Guide Communication
Rovi contends that each independent claim
requires communication between two interactive
television program guides. See PO Resp. 20–22, 30.
Rovi argues that Comcast does not take the position
that the browsers operating on Sato’s external
portable computer 107 and personal computer 105
communicate with each other, but rather Comcast
only argues that these two computers can
communicate with each other. Id. at 30–31 (citing Pet.
33–34). Relying on the testimony of its declarant, Dr.
Shamos, Rovi argues that any browsers in Sato do not
communicate with each other as the claims require. Id.
at 31 (citing Ex. 2111 ¶ 134). At most, Rovi argues that
Comcast identifies communications between the
alleged browser operating on Sato’s external portable
computer 107 and hardware (i.e., personal computer
105 and interface box 104), which improperly conflates
hardware and software, and does not comport with our
preliminary construction of “guide” that requires
“control software”—not hardware. Id.
Rovi further contends that Comcast does not
identify any evidence that Sato’s external portable
computer 107 sends hypertext commands to the
browser operating on personal computer 105. PO Resp.
31. According to Rovi, this hypertext command passes
through personal computer 105 to interface box 104,

363a
but there is no disclosure that any browser operating
on personal computer 105 actually receives the
hypertext command. Id. (citing Ex. 2111 ¶¶ 146, 147).
Rovi argues that Comcast’s declarant, Dr. Tjaden, does
not provide any additional support for this position
because he fails to identify any disclosure in Sato that
the browsers operating on external portable computer
107 and personal computer 105 communicate with
each other. Id. Indeed, Rovi asserts that Dr. Tjaden
conceded at his deposition that the hypertext
command is “probably not” sent to any browser on
Sato’s personal computer 105, and that Sato does not
disclose what software on personal computer 105
handles the hypertext command. Id. at 31–32 (citing
Ex. 2110, 116:17–22); see also id. at 32 (arguing the
same).
Next, Rovi contends that Sato does not teach that
browsers operating on external portable computer 107
and personal computer 105 communicate with each
other because Sato discloses the hypertext commands
are sent to the home electronic devices from external
portable computer 107 to interface box 104 through
personal computer 105. PO Resp. 32. To support this
argument, Rovi argues that Sato explicitly discloses,
“[i]n receipt of the hypertext, the interface box 104
issues an infrared signal corresponding to the
command in the hypertext.” Id. (quoting Ex. 1115,
9:61–63).
Rovi then contends that Sato does not disclose the
browser operating on personal computer 105 receives
hypertext commands, or that the browser operating on
external portable computer 107 transmits hypertext
commands to a browser on personal computer 105. PO

364a
Resp. 32–33. According to Rovi, Sato’s alleged
browsers cannot communicate with each other because
there is no corresponding browser communications
protocol. Id. at 33 (citing Ex. 2111 ¶¶ 147, 148).
Instead, Rovi argues that Sato’s personal computer
105 would act like a server that receives hypertext
commands and passes those commands to interface
box 104, without necessarily invoking any browser. Id.
(citing Ex. 1115, 6:28–39).
Lastly, Rovi contends Comcast improperly relies on
inherency arguments to demonstrate that Sato
discloses guide-to-guide communication. PO Resp. 33.
Relying on its declarant, Dr. Shamos, Rovi argues that
not only does Sato’s browsers lack a communication
protocol for communicating with each other, but Sato’s
external portable computer 107 sends hypertext
commands to personal computer 105—not any browser
operating on that computer. Id. at 34 (citing Ex. 2111
¶ 148). Rovi asserts that Comcast fails to show that
Sato’s Figure 17 requires a browser operating on
personal computer 105 that receives hypertext
commands, but rather Sato only discloses that
personal computer 105 passes those commands to
interface box 104. Id. (citing Ex. 1115, 9:44–65).
In its Reply, Comcast counters that Rovi
mischaracterizes its position as relying on just the
browser operating on personal computer 105 to teach
the claimed “local interactive television program
guide” Pet. Reply 13. Instead, Comcast argues that it
relies on the control software on Sato’s personal
computer 105—not just the browser—to account for
this limitation. Id. (citing Pet. 34–35; Dec. on Inst. 21).
Relying on the testimony of its declarant, Dr. Tjaden,

365a
Comcast asserts that a person of ordinary skill in the
art would have understood that Sato’s external
portable computer 107 sends a hypertext command to
communications software on personal computer 105.
Id. (citing Ex. 1152 ¶¶ 29, 30, 36, 37). Comcast argues
that Rovi’s argument that the browsers on these two
computers do not communicate directly with each
other overlooks that, under the broadest reasonable
interpretation standard, the communications software
on Sato’s personal computer 105 is part of the claimed
“local interactive television program guide.” Id. (citing
Ex. 1152 ¶¶ 34, 25, 54, 55).
Comcast disagrees with Rovi’s argument that the
communications from Sato’s external portable
computer 107 are handled solely by hardware of
personal computer 105 or interface box 104 because
this argument ignores the actual skill in the relevant
art. Pet. Reply 13. Relying on the testimony of Dr.
Tjaden, Comcast argues that a person of ordinary skill
in the art would have understood that control software
of Sato’s personal computer 105 would process the
received hypertext commands and issue appropriate
commands to local devices. Id. at 14 (citing Ex. 1102
¶¶ 152, 153; Ex. 1152 ¶¶ 36–40; Ex. 1115, 9:56–65,
Fig. 17). Comcast clarifies that it never argued in the
Petition that Sato’s browsers communicate directly
with each other. Id. at 15. To demonstrate that it did
not present this line of argument, Comcast directs us
to the supporting testimony of Dr. Tjaden in his
Declaration accompanying the Petition. Id. (quoting
Ex. 1102 ¶ 153). Comcast reiterates that control
software of Sato’s personal computer 105 is considered
properly to be part of the claimed “local interactive

366a
television program guide.” Id. (citing Ex. 1152 ¶¶ 34,
35, 49–51).
Comcast
also
disagrees
with
Rovi’s
characterization of Sato’s personal computer 105 as
merely a conduit that receives hypertext commands
for external portable computer 107 and passes those
commands to interface box 104. Pet. Reply 15 (citing
PO Resp. 32–33; Ex. 2111 ¶ 147). Comcast argues that
Rovi fails to appreciate that the control software on
Sato’s personal computer 105 would need to receive
the hypertext commands for external portable
computer 107 and generate an appropriate command
to send to interface box 104. Id. (citing Ex. 1152 ¶ 39).
Comcast further argues that the hypertext commands
themselves are not suitable for direct conversion to
infrared signals, and that some processing is required
by Sato’s personal computer 105 in receipt of those
commands. Id. Consequently, Comcast asserts that
control software on Sato’s personal computer 105
receives and processes the hypertext commands, and
controls interface box 104 to generate a suitable
infrared signal. Id. at 16.
In response to the argument presented by Rovi’s
declarant, Dr. Shamos, that Sato’s personal computer
105 would be configured to use server software to
receive and forward hypertext commands, but would
not use a browser, Comcast contends that just because
Sato’s personal computer 105 supports external access
does not mean that it cannot allow users to control
home electronic devices using a browser. Pet. Reply 16
(citing PO Resp. 33; Ex. 2111 ¶¶ 134–136, 147).
Relying on the testimony of Dr. Tjaden, Comcast
argues that a person of ordinary skill in the art would

367a
have understood that Sato’s personal computer 105
includes a browser that allows it to control home
electronic devices, as well as a server component that
allows it to receive hypertext commands from external
portable computer 107 and execute those commands.
Id. (citing Ex. 1152 ¶¶ 35, 49–53). Comcast, once
again, reiterates that control software on Sato’s
personal computer 105, collectively with the browser
that renders a webpage of a program guide display, is
considered properly as part of the extensive
arrangement of software that makes up the claimed
“local interactive television program guide.” Id. at 16–
17 (emphasis omitted) (citing Ex. 1152 ¶¶ 54, 55; Ex.
1154 ¶ 169).
As we explained previously, a proper obviousness
evaluation requires reading Sato, as a whole. See
Hedges, 783 F.2d at 1041. Indeed, it would be improper
for us to focus solely on Sato’s Figure 17 and its
corresponding description at the exclusion of other
disclosures in Sato that are necessary to fully
appreciate what Sato suggests to one of ordinary skill
in the art about certain components in this figure, such
as personal computer 105. See id.
Upon reading Sato, as a whole, we agree with
Comcast that Sato renders communication between
the claimed “local/remote access interactive television
program guides” obvious because control software
operating on Sato’s personal computer 105, which also
includes a browser operating thereon, receives
hypertext commands from external portable computer
107 and issues appropriate commands to local
hardware. See Pet. 35. In our previous analysis, we
noted that Sato’s Figure 17 and its corresponding

368a
description indicate that external portable computer
107 sends hypertext commands to personal computer
105 through Internet 106. Ex. 1115, 9:56–61. After
personal computer 105 receives these hypertext
commands, they are then sent to interface box 104,
which, in turn, generates infrared signals responsive
to the commands that are used to control a number of
home electronic devices (e.g., TV receiver 101,
illuminator 102, air conditioner 113, or any other
electronic device, such as VTR 11). Id. at 9:45–55,
9:61–65.
Although the corresponding description of Sato’s
Figure 17 is silent with respect to how personal
computer 105 receives hypertext commands from
external portable computer 107 and issues appropriate
commands to local hardware, other disclosures in Sato
provide a full appreciation as to how personal
computer 105 operates in this regard. For instance,
after reading Sato in its entirety, one of ordinary skill
in the art would have recognized that there is a
corollary between personal computer 21 illustrated in
Figure 1 and personal computer 105 illustrated in
Figure 17. Sato discloses that, when personal
computer 21 is connected to Internet 6, it receives
hypertext commands for determining the behavior of
home electronic devices through input/output (“I/O”)
interface 40. Ex. 1115, 5:45–49, Fig. 5. Browser 41
operating on personal computer 21 “deals with the
hypertext [commands] to link text [to] data,” which
entails moving image data, audio data, and so forth to
form a multimedia picture. Id. at 5:50–53, Fig. 5.
When a user selects a hypertext command in the
multimedia picture using a mouse or keyboard, that

369a
command is transmitted from command transmitter
44 to interface box 25. Id. at 6:5–9. Given these
disclosures regarding personal computer 21 illustrated
in Figure 1, we find that one of ordinary skill in the art
would have understood that personal computer 105
illustrated in Figure 17 receives hypertext commands
via an I/O interface (i.e., control software) and then
transmits a selected command via a command
transmitter to local hardware in the same way that
personal computer 21 receives hypertext commands
via I/O interface 40 and transmits a selected command
via command transmitter 44 to local hardware.
Comcast’s declarant, Dr. Tjaden, provides
testimony that supports our finding that one of
ordinary skill in the art would have understood that
an I/O interface (i.e., control software) operating on
Sato’s personal computer 105 receives hypertext
commands from external portable computer 107 and
issues appropriate commands to local hardware. In his
Declaration accompanying the Petition, Dr. Tjaden
testifies that Sato’s external portable computer 107
and personal computer 105 communicate with each
other because “control software on the [personal
computer 105] would operate to receive the commands
from the external portable computer [107] over the
Internet [106], process the received commands and
output them from the interface box [104] to local
hardware.” Ex. 1102 ¶ 153 (citing Ex. 1115, 5:19–22,
9:51–65); Ex. 1152 ¶ 35 (testifying the same). We
credit the aforementioned testimony of Dr. Tjaden
because it is consistent with reading Sato, as a whole,
without viewing the corresponding description of
Sato’s Figure 17 at the exclusion of other teachings in

370a
Sato that provide a full appreciation as to how
personal computer 105 uses an I/O interface to receive
hypertext commands from external portable 107.
Our finding in this regard also comports with our
construction of “interactive television program guide.”
In our claim construction section above, we determine
that the broadest reasonable interpretation of an
“interactive television program guide” is “control
software operative at least in part to generate a
display of television program listings and allow a user
to navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. We clarify that neither the intrinsic nor extrinsic
record limits the “guide” to a single software
application. See supra Section II.A. Consequently, we
find that the I/O interface (i.e., control software)
operating on Sato’s personal computer 105 that
receives hypertext commands from external portable
computer 107, together with the browser operating on
Sato’s personal computer 105 that renders a webpage
of a program guide display, collectively teaches a “local
interactive television program guide” because (1) these
software applications work together to display
program listings and allow the user to navigate
through the listings, make selections, and control
recording functions; and (2) more than one software
application may constitute a “guide.”
We do not agree with Rovi’s arguments that
Comcast only relies on communication between
browsers operating on external portable computer 107
and personal computer 105 to account for
communication between two interactive television
program guides because they do not characterize

371a
Comcast’s position with respect to this limitation
accurately. See PO Resp. 30–33. As we explain above,
Comcast contends—and we agree—that control
software for receiving hypertext commands on Sato’s
personal computer 105, together with the browser that
renders a webpage of a program guide display, falls
within a permissible arrangement of software that
constitutes the claimed “local interactive television
program guide.” See Pet. 35; Pet. Reply 13–17. That is,
we find that one of ordinary skill in the art would have
understood that Sato’s personal computer 105 includes
both an I/O interface (i.e., control software) and a
browser application. Together, these software
applications constitute the “local interactive television
program guide” because they (1) receive hypertext
communication from the “remote access interactive
television program guide” (i.e., the browser operating
on Sato’s personal computer 107 that, when rendering
a webpage that includes a program guide display such
as the one illustrated in Figure 2, allows a user to
record desired programs); and (2) work together to
display program listings and allow the user to
navigate through the listings, make selections, and
control recording functions. 12
We recognize that, in our Decision on Institution, we stated
that we were persuaded that Comcast had presented “sufficient
evidence that would support a finding that Sato’s browsers
operating on personal computer 105 and external portable
computer 107 communicate with each other in the manner
required by the independent claims.” Dec. on Inst. 21–22. We note
that the Petition contends that, in Sato, “[c]ontrol software on
[personal computer 105] (which includes the browser–local guide)
receives the hypertext command from the external portable
computer [107] and issues appropriate commands to local
12

372a
We also do not agree with Rovi’s characterization
of Sato’s personal computer 105 as merely a conduit
that receives hypertext commands for external
portable computer 107 and passes those commands to
interface box 104, without any processing by personal
computer 105 itself. See PO Resp. 32–33. Sato
discloses that personal computer 21 does not just
receive hypertext commands through I/O interface 40
and pass them to interface box 25, without any
additional processing. Instead, upon receipt of the
hypertext commands through I/O interface 40,
browser 41 formulates the commands into a webpage
for display to the user and, once a selection is made,
command transmitter 44 transmits the selected
command to interface box 25. Ex. 1115, 5:45–53; 6:5–
9, Fig. 5. Given that one of ordinary skill in the art
would have understood that Sato’s personal computer
21 and personal computer 105 include similar
components that possess the same capabilities and
functionalities, we find that, when personal computer
105 receives a hypertext command from external
portable computer 107, that command is processed at
least through an I/O interface prior to being
transmitted to interface box 104 via a command
transmitter.
In his Reply Declaration, Dr. Tjaden reinforces that
a certain level of processing occurs in Sato’s personal
hardware.” Pet. 35 (citing Ex. 1115, 9:56–65; Ex. 1102 ¶¶ 152–
154). Comcast addressed this point extensively in its Petitioner
Reply (Pet. Reply 13–18), and Rovi did not request a sur-reply.
Comcast also made this point at the oral hearing (Hearing Tr.
37:5–10), and Rovi had ample opportunity to address it at the oral
hearing (id. at 78:18–80:6).

373a
computer 105 prior to interface box 104 outputting an
infrared signal to local hardware. Dr. Tjaden testifies
that
[personal computer 105] would process the
hypertext command prior to transmission to the
interface box [104] as the hypertext commands
themselves would not be suitable for direct
conversion to infrared signal. Thus, control
software of [personal computer 105] would
receive and process the hypertext commands so
as to be able to control the . . . interface box
[104].
Ex. 1152 ¶ 39. The processing identified in Dr.
Tjaden’s testimony is consistent with our
understanding that, when Sato’s personal computer
105 receives a hypertext command from external
portable computer 107, that command is processed at
least through an I/O interface prior to being
transmitted to interface box 104 via a command
transmitter.
Rovi’s declarant, Dr. Shamos, also acknowledges
that some level of processing occurs at Sato’s personal
computer 105 prior to interface box 104 outputting an
infrared signal to local hardware. Dr. Shamos testifies
that “personal computer 105 acts like a server to
receive external hypertext commands, convert them to
device code and pass them to infrared interface box
104. . . . Such operations would not be conducted by a
browser.” Ex. 2111 ¶ 147. Dr. Shamos’s testimony that
personal computer 105 “converts” the hypertext
commands, along with his testimony that the
conversion operation “would not be conducted by a

374a
browser,” also is consistent with our understanding
that, when Sato’s personal computer 105 receives a
hypertext command from external portable computer
107, that command is processed at least through an
I/O interface prior to being transmitted to interface
box 104 via a command transmitter.
Lastly, we do not agree with Rovi’s arguments that
Comcast relies solely on inherency arguments to
account for communication between two interactive
television program guides for two reasons. See PO
Resp. 32–33. First, Rovi’s arguments are predicated,
in part, on the notion that the browsers operating on
Sato’s personal computer 105 and external portable
computer 107 communicate directly with each other.
As we explain above, Sato’s external portable
computer 107 sends hypertext commands to an I/O
interface (i.e., control software) operating on personal
computer 105—not the browser operating on this
computer. Second, when addressing this particular
issue in the Decision on Institution, we recognized that
Dr. Tjaden testifies that “[personal computer 105]
would necessarily include control software that
operate[s] to access and display the program guide
pages, such as a browser.” Dec. on Inst. 22 (citing Ex.
1102 ¶ 53). In our view, this cited portion of Dr.
Tjaden’s testimony is directed to whether the browser
operating on personal computer 105 would necessarily
access and display program guide webpage—not
whether personal computer 105 includes an I/O
interface (i.e. control software) for receiving hypertext
commands from external portable computer 107. As
we explain above, we find that one of ordinary skill in
the art would have understood that Sato’s personal

375a
computer 105 receives hypertext commands via I/O
interface (i.e., control software) from external portable
computer 107 in the same way that personal computer
21 receives hypertext commands via I/O interface 40.
iii. Remaining Limitations
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Sato and Humpleman account for the remaining
limitations recited in independent claims 1 and 10. See
generally PO Resp. 20–34. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
remaining limitations, and we agree with and adopt
Comcast’s analysis. See Pet. 9–10, 27–35.
b. Comcast Presents a Sufficient Rationale to
Combine the Teachings of Sato and Humpleman
Rovi contends that Comcast relies on disparate
portions of Sato and Humpleman without explaining
how or why one of ordinary skill in the art would have
combined these disparate portions, much less how that
proffered combination would have worked. PO Resp.
35 (citing Ex. 2111 ¶¶ 149–157). Rovi then presents
three arguments as to why one of ordinary skill in the
art would not have had sufficient reasons to combine
the teachings of Sato with those of Humpleman.
First, Rovi contends that a person of ordinary skill
in the art would not have been motivated to combine
the teachings of Sato and Humpleman because these
references
are
fundamentally
different
and
incompatible. PO Resp. 35. On the one hand, Rovi
argues that Humpleman is directed to a home network

376a
that creates HTML pages for each peripheral device
using information stored in those devices, and uses a
separate “Mini-Server” application to create an
interface. Id. Rovi asserts that Humpleman describes
the peripherals as “home devices,” but explicitly
excludes personal computers. Id. (citing Ex. 1106,
1:21–25). On the other hand, Rovi argues that Sato is
directed to an “[I]nternet downloaded programmable
remote control” that uses a browser on a computer and
infrared box to control peripherals based on the
transmission of hypertext commands. Id. at 35–36
(citing Ex. 2111 ¶¶ 48–49, 152). In addition, Rovi
argues that Humpleman discuss problems with
remote controls that “use static control and command
logic,” whereas Sato’s system uses a static control and
command device. Id. at 36 (quoting Ex. 1106, 1:45–67)
(citing Ex. 1106, 1:58–67; Ex. 1115, 6:40–51, 6:62–
7:54, 8:41–49). Consequently, Rovi asserts that Sato’s
interface box 104 is a remote control that can “only
control and command those home devices for which it
includes the necessary control and command logic,”
which is something that Humpleman sought to avoid.
Id. at 36–37 (quoting Ex. 1106, 1:55–58) (citing Ex.
2111 ¶¶ 28, 151).
Second, Rovi contends that, because Humpleman
and Sato have different principles of operation, a
person of ordinary skill in the art would not have
looked to combine their teachings. PO Resp. 37 (citing
Ex. 2111 ¶ 152). Rovi argues that Humpleman’s
principle of operation is a browser-based home
network where each home electronic device connected
to the network contains one or more HTML pages that
provide for command and control of the home

377a
electronic device, whereas Sato’s principle of operation
is the control of home electronic devices using an
infrared remote control of the type that was criticized
in Humpleman. Id. (citing Ex. 1106, 1:45–67, 23:46–
49). Rovi also argues that Humpleman is directed to
generating HTML pages for each home electronic
device by using information stored in memory
installed on those devices. Id. By contrast, Rovi argues
that the embodiment illustrated in Sato’s Figure 17
does not access information about a home electronic
device directly from that device. Id. at 37–38 (citing
Ex. 2110, 123:18–124:10). As a result, Rovi asserts
that implementing Humpleman’s customized HTML
pages in Sato’s program guide system would change
Sato’s principle of operation. Id. (citing In re Ratti, 270
F.2d 810, 813 (CCPA 1959); Plas-Pak Indus. Inc. v.
Sulzer Mixpac AG, 600 F. App’x 755, 757–59 (Fed. Cir.
2015)).
Third, Rovi contends that each of Comcast’s three
reasons as to why one of ordinary skill in the art would
have combined the teachings of Sato with those of
Humpleman do not withstand scrutiny. PO Resp. 38–
39. Turning to Comcast’s argument that the
combination would have been nothing more than using
a known technique to improve a similar device in the
same way, Rovi argues that Comcast does not explain
how using Humpleman’s HTML program guides would
offer “better access to desired information,” when Sato
already discloses television listings and allows the use
of G codes to control home electronic devices. Id.
Indeed, Rovi asserts that adding Humpleman’s
method of customizing HTML pages could require
more data, hardware, and steps because it would

378a
involve generating an HTML page for each of Sato’s
home electronic devices using information stored in
memory on each device. Id. at 39 (citing Ex. 1106,
2:40–63).
In Reply, Comcast maintains that a person of
ordinary skill in the art would have had sufficient
reasons to combine the teachings of Sato and
Humpleman. Pet. Reply 18–19 (citing Pet. 24–26, 32–
33). Beginning with Rovi’s argument that Sato and
Humpleman are fundamentally different and
incompatible, Comcast disagrees with this argument
because both references are directed to systems
operable to control devices from an external computer
over the Internet using program guide webpages. Id.
at 19. Comcast also does not agree with Rovi’s
argument that it relies on disparate portions of Sato
and Humpleman without explaining how or why a
person of ordinary skill in the art would have
combined their teachings, nor does Comcast agree
with Rovi’s argument that it has not explained how the
proffered combination would work. Id. Comcast
counters that Rovi ignores the detailed rationales to
combine set forth in the Petition and the supporting
testimony of Dr. Tjaden. Id. (citing Pet. 24–26; Ex.
1102 ¶¶ 104–108; Ex. 1152 ¶¶ 44–46). Comcast then
reiterates that a person of ordinary skill in the art
would have incorporated Humpleman’s local
generation of customized program guides for display
by a remote device in Sato’s program guide system to
allow a user to avoid viewing a display that includes a
disfavored channel or content, and to provide the user
with improved access to his/her desired content. Id.

379a
(citing Ex. 1106, 22:43–46; Ex. 1102 ¶ 105; Ex. 1152
¶¶ 15–16).
Comcast does not agree with Rovi’s argument that
Sato’s program guide system involves static control
and command logic that is disparaged in
Humpleman’s “Background of the Invention” section.
Pet. Reply 20. According to Comcast, Rovi’s argument
in this regard incorrectly characterizes Sato as based
on a single component—namely, the infrared interface
(i.e., interface box 25 or 104)—without considering the
other components disclosed in Sato. Id. Comcast
argues that, even if each of Sato’s interface boxes 25
and 104 could be considered a static control and
command system, Rovi’s incorrect characterization
oversimplifies and overlooks significant portions of
Sato’s disclosure, such as Sato’s Internet- enabled
program guide system for setting recordings on local
equipment. Id. (citing Ex. 1115, 4:41–46, 9:8–17; Ex.
1102 ¶ 97; Ex. 1152 ¶¶ 17–19). Comcast also argues
that Rovi mischaracterizes Dr. Tjaden’s supporting
testimony as purportedly admitting that Sato’s
interface boxes 25 and 104 use static control and
command logic. Id. at 20–21 (citing PO Resp. 36).
Contrary to Rovi’s characterization of this testimony,
Comcast asserts that Dr. Tjaden never conceded that
he incorrectly read Sato, but rather only indicated that
adding new electronic devices to Sato’s program guide
system would require Sato’s interface boxes 25 and
104 to be modified such that their code storage
portions 52 would include additional infrared signal
codes. Id. at 21 (citing Ex. 2111, 128:1–130:10; Ex.
1115, 8:35–40). Indeed, Comcast argues that
modifying Sato’s program guide system in this way

380a
meshes well with Humpleman’s stated goals of
improving coverage for different types and models of
home electronic devices. Id. (citing Ex. 1152 ¶¶ 44–45).
Lastly, Comcast does not agree with Rovi’s
argument that modifying Sato’s program guide system
with Humpleman’s local generation of customized
program guides for display by a remote device would
change Sato’s principle of operation. Pet. Reply 21.
Relying on Federal Circuit precedent, Comcast argues
that modifying Sato with the teachings of Humpleman
would not destroy the high level ability of Sato’s
program guide system. Id. at 21–22 (citing In re
Mouttet, 686 F.3d, 1322, 1332 (Fed. Cir. 2012)). In
addition, Comcast argues that Sato’s descriptions of
interface boxes 25 and 104 controlling home electronic
devices is not a principle of operation as that term has
been used by the Federal Circuit. Id. Instead, following
the guidance laid out in Mouttet, Comcast asserts that
Sato’s principle of operation would be more
appropriately characterized as setting recordings on a
multimedia system using a program guide system
connected to the Internet. Id. at 22 (citing Ex. 1152
¶¶ 41–42).
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.

381a
2006), cited with approval in KSR, 550 U.S. at 418.
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to combine
Sato’s program guide system with Humpleman’s local
generation of customized program guides for display
by a remote device. Humpleman discloses that a user
may customize the programming information that is
displayed by the program guide based on user
preferences. Ex. 1106, 22:41–43. For instance, if a user
prefers not to display the schedule for a particular
channel because it contains inappropriate content, the
user may request that the channel be removed from
the program guide. Id. at 22:43–46. Humpleman
makes clear that any device that employs a browser
may access the customized HTML guide, including one
located remotely from the home network via the
Internet. Id. at 5:55–67, 6:1–18, 20:32–51; see also Ex.
1102 ¶ 102 (testifying the same).
With these disclosures from Humpleman in mind,
we agree with Comcast that, when, as here, a
technique has been used to improve one device (i.e.,
Humpleman’s local generation of a customized
program guide for display by a remote device), and one
of ordinary skill in the art would have recognized that

382a
it would improve similar devices in the same way (i.e.,
applying Humpleman’s technique to Sato’s program
guide system to render a customized program guide as
a webpage on the browser operating on Sato’s external
portable computer 107), using the technique is obvious
unless its actual application is beyond the skill level of
an ordinary skilled artisan. See Pet. 24–26; Ex. 1102
¶ 106. The record includes credible evidence
explaining why applying Humpleman’s technique to
Sato’s program guide system to render a customized
program guide as a webpage on the browser operating
on Sato’s external portable computer 107 would not
have been uniquely challenging or otherwise beyond
the skill level of an ordinary skilled artisan. Indeed,
Humpleman itself provides the necessary motivation
for doing so—namely, to allow a user to avoid viewing
a display that includes a disfavored channel or
content, and to provide the user with improved access
to his/her desired content. Ex. 1106, 22:43–46.
We do not agree with Rovi’s argument that Sato
and Humpleman are fundamentally different and
incompatible. See PO Resp. 35–36. As an initial
matter, Sato generally relates to a remote control that
operates home electronic devices, including one that is
capable of receiving a program guide webpage through
a computer network. Ex. 1115, [54], 1:8–13, 2:6–16.
Similarly, Humpleman generally relates to controlling
a plurality of home electronic devices connected to a
home network. Ex. 1106, [54], 1:16–18, 2:15–28.
Consequently, we find that Sato and Humpleman fall
in the same field of endeavor
Dr. Tjaden’s testimony supports our finding that
Sato and Humpleman are not fundamentally different

383a
and incompatible. In his Declaration accompanying
the Petition, Dr. Tjaden testifies that “it would have
been obvious to one of ordinary skill in the art to
incorporate Humpleman’s system for locally
generating customized HTML guides for display by a
remote device in Sato’s remote control system to
provide users with improved access to their desired
content.” Ex. 1102 ¶ 105. In his Declaration
accompanying the Reply, Dr. Tjaden clarifies that
combining the teachings of Sato and Humpleman in
this manner “would improve Sato’s [stated objective]
of ‘provid[ing] a remote control device easily operated
for reservations, etc. of programs and flexibly coping
with changes to schedule of programs.” Ex. 1152 ¶ 46
(quoting Ex. 1115, 2:6–9).
Contrary to Rovi’s arguments, we do not agree that
Sato’s program guide system uses a static control and
command logic device that is disparaged in
Humpleman’s “Background of the Invention” section.
See PO Resp. 36–37. Rovi’s argument in this regard
focuses on Sato’s interface boxes 25 and 104. When
taking a closer look at Humpleman’s “Background of
the Invention” section, it criticizes the use of a single
remote control that “allows a homeowner to control
and command several different home [electronic]
devices using a single interface.” Ex. 1106, 1:47–49.
Humpleman discloses that such a remote control
“[would] not be able to control and command . . . new
home [electronic] devices that require control and
command logic that was not known at the time the
remote control . . . was developed.” Id. at 1:62–67.
These disclosures in Humpleman, however, do not
mention, much less criticize, using an interface box

384a
that stores code data, which it then uses to generate
infrared signals for transmission to home electronic
devices, as taught by Sato.
Even if we were to assume that Sato’s interface
boxes 25 and 104 have some relevance to the “static”
single remote control with the single user interface
that is disparaged in Humpleman’s “Background of
the Invention” section, there is sufficient evidence of
record to support a finding that one of ordinary skill in
the art would have understood that code storage
portions 52 of Sato’s infrared interface 25 and 104 are
not static, but rather configured to introduce and store
new code data for transmission to new home electronic
devices. Sato discloses that interface box 25 includes
code storage portion 52, which “stores all code data of
all devices of different manufacturers.” Ex. 1115, 6:40–
51, Figs. 8, 9; see also id. at 8:32–33 (disclosing the
same). Sato recognizes that “infrared signal codes may
be changed” and, therefore, discloses that “code
storage portion [52] maybe configured to do both
reading and writing so as to introduce code data
entered from the exterior as a leaning [sic] remote
controller.” Id. at 8:36–39. These disclosures would
have been equally applicable to interface box 104.
During his deposition, Dr. Tjaden was asked
whether code storage portion 52 of Sato’s infrared
boxes 25 and 104 are capable of storing new code data
for new home electronic devices. The relevant
exchange is reproduced below:
“Q So for the Sato IR box to send a new command,
the Sato IR box would have to be modified so that the

385a
code storage portion stored a new code corresponding
to that command. Correct?
A That is correct.”
Ex. 2110, 130:6–10. In his Declaration accompanying
the Reply, Dr. Tjaden testifies that the aforementioned
cross-examination testimony confirms that he never
used the word “static” and, instead, “affirm[s] that
Sato does not use ‘static control and command logic.’”
Ex. 1152 ¶ 45. Dr. Tjaden further testifies that,
because “Sato teaches that the IR box is modified to
send new commands, . . . it is necessarily not ‘static.’”
Id. We credit this testimony from Dr. Tjaden because
it is consistent with Sato’s disclosure that new code
data may be written to code storage portions 52 of
interface boxes 25 and 104. Neither Rovi nor its
declarant, Dr. Shamos, provide credible evidence that
undermines Dr. Tjaden’s position that Sato’s interface
boxes 25 and 104 are not “static” because their
respective code storage portions 52 are configured to
accept and store new code data for new home electronic
devices.
We also do not agree with Rovi’s argument that
modifying Sato’s program guide system with
Humpleman’s local generation of customized program
guides for display on a remote device would change
Sato’s principle of operation. See PO Resp. 37–38.
Rovi’s argument is, once again, predicated on the
notion that Sato’s infrared boxes 25 and 105 are the
type of “static” remote control devices disparaged in
Humpleman’s “Background of the Invention” section.
For the same reasons set forth above, we do not agree
that Sato’s infrared boxes 25 and 105 are the type of

386a
“static” devices disparaged in Humpleman’s
“Background of the Invention” section, but rather the
evidence of record suggests that these infrared boxes
are configured to accept and store new code data for
new electronic devices.
There are two additional reasons that we do not
agree with Rovi’s argument that modifying Sato’s
program guide system with Humpleman’s local
generation of customized program guides for display
by a remote device would change Sato’s principle of
operation. First, as we explain at length above,
Comcast proposes applying Humpleman’s local
generation of a customized program guide for display
by a remote device to Sato’s program guide system to
render a customized program guide as a webpage on
the browser operating on Sato’s external portable
computer 107. In our view, combining the teachings of
Sato and Humpleman in this way would have little, if
any, bearing on the code data stored in code storage
portions 52 of Sato’s interface boxes 25 and 104 that
are used to generate infrared signals for transmission
to home electronic devices. Even if combining the
teachings of Sato and Humpleman in the manner
asserted by Comcast would affect Sato’s interface
boxes 25 and 104, there is sufficient evidence of record
suggesting that their respective code storage portions
52 are not “static,” but rather configured so as to accept
and store new code data for new home electronic
devices.
Second, Rovi’s reliance on Ratti to support its
change in principle of operation argument is
misplaced. See PO Resp. 38. Ratti stands for the
proposition that, if the combination of references

387a
would change the principle of operation of the prior
art, then the teachings cannot suffice to render claims
obvious. 270 F.2d at 813. Ratti, however, is
inapplicable where the modified system still operates
“on the same principles as before.” In re Umbarger, 407
F.2d 425, 430–31 (CCPA 1969). In this case, modifying
Sato’s program guide system with Humpleman’s local
generation of customized program guides for display
by a remote device only affects how the customized
program guide webpage is generated and displayed at
Sato’s external portable computer 107. This does not
affect Sato’s overall principle of operation of a remote
control that operates home electronic devices,
including one that is capable of receiving a program
guide webpage through a computer network. Ex. 1115,
[54], 1:8–13, 2:6–16.
c. Summary
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1 and 10 would have been
obvious over the combined teachings of Sato and
Humpleman.
6. Claims 3–9 and 12–18
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Sato and Humpleman account for the remaining
limitations recited in dependent claims 3–9 and 12–18.
See generally PO Resp. 20–41. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these
limitations, as well as its explanations as to how one
of ordinary skill in the art would have combined the

388a
relevant teachings of Sato with those of Humpleman,
and we agree with and adopt Comcast’s analysis. See
Pet. 9–10, 35–41. Comcast, therefore, has
demonstrated by a preponderance of the evidence that
the subject matter of dependent claims 3–9 and 12–18
would have been obvious over the combined teachings
of Sato and Humpleman.
C. Obviousness Over the Combined Teachings of
Sato, Humpleman, and Lawler
Comcast contends that claims 2 and 11 of the ’413
Patent are unpatentable under § 103(a) over the
combined teachings of Sato, Humpleman, and Lawler.
Pet. 41–42. Comcast explains how this proffered
combination teaches or suggests the subject matter of
each challenged claim, and provides reasoning as to
why one of ordinary skill in the art would have been
prompted to modify or combine the references’
respective teachings. Id. Comcast also relies upon the
Declaration of Dr. Tjaden to support its positions. Ex.
1102 ¶¶ 177–181. In its Patent Owner Response, Rovi
contends that (1) Lawler does not account for the
claimed “local/remote access interactive television
guides” in communication with each other and,
therefore, Lawler does not remedy the purported
deficiencies in the combined teachings of Sato and
Humpleman; and (2) Comcast does not present
sufficient reasoning as to why one of ordinary skill in
the art would combine the teachings of Lawler with
those of Sato and Humpleman. PO Resp. 41–43. Rovi
relies upon the Declaration of Dr. Shamos to support
his positions. Ex. 2111 ¶¶ 158–160.

389a
We begin our analysis with a brief overview of
Lawler, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.
1. Lawler Overview
Lawler generally relates to a system for recording
a program on an interactive viewing system and, in
particular, to a system that allows a user to identify a
program for recording using an interactive program
guide and then designate the identified program for
automated recording at some later time. Ex. 1109, 1:8–
13. According to one aspect of the invention disclosed
in Lawler, the recording device is associated with a
head end. Id. at 2:24–25. At the direction of the head
end, the recording device records the selected program
and digitally stores it in a memory at the head end. Id.
at 2:25–27. The recorded program may then be
retrieved from the head end by the user for display at
a viewer station. Id. at 2:27–29. Lawler discloses that
this process would allow multiple users to access a
single recording of the program, as well as make the
program available to other users who did not set the
recording, but nonetheless wish to view the program
at some later time. Id. at 13:34–38.
2. Claims 2 and 11
Dependent claim 2 recites “wherein the local
interactive television program guide records the
television program corresponding to the selected
television program listing at a television distribution
facility.” Ex. 1101, 40:48–51. Dependent claim 11
recites a similar limitation. Id. at 42:12–15.

390a
In its Petition, Comcast contends that Lawler
teaches recording programs at a head end (i.e., a
television distribution facility) in lieu of recording
programs locally. Pet. 41–42 (citing Ex. 1109, 2:24–29,
13:26–38; Ex. 1102 ¶¶ 179–180). Comcast then argues
that it would have been obvious to modify the Sato and
Humpleman combination to include recording
programs at a television distribution facility, as taught
by Lawler, because there are certain advantages to
recording programs at the television distribution
facility, such as making recorded programs available
for other subscribers and eliminating the need for a
separate recorder. Id. at 42 (citing Ex. 1102 ¶ 181).
According to Comcast, this proffered combination
would be nothing more than using a known technique
(i.e., Lawler’s centralized recording at a television
distribution facility) to improve a similar system (i.e.,
the combined Sato and Humpleman remote access
system), and would produce a predictable result that
provides the stated benefits of Lawler. Id.
In its Patent Owner Response, Rovi contends that
Lawler does not account for the claimed “local/remote
access interactive television guides” in communication
with each other and, therefore, Lawler does not
remedy the purported deficiencies in the combined
teachings of Sato and Humpleman. PO Resp. 41–42
(citing Ex. 1109, 5:38–42, 6:37–41, 7:3–5). We do not
agree with this argument because, as we explain
previously in our analysis of the ground based on the
combined teachings of Sato and Humpleman, Sato
teaches the claimed “local/remote access interactive
television guides” in communication with each other.
See supra Section II.B.5.a.i–ii. Consequently, there are

391a
no deficiencies in the combined teachings of Sato and
Humpleman for Lawler to remedy.
Next, Rovi contends that Comcast’s explanations
for combining the teachings of Sato, Humpleman, and
Lawler are conclusory and fail to provide a sufficient
reason for making the proffered combination. PO
Resp. 42 (citing Ex. 2111 ¶¶ 158–160). According to
Rovi, Comcast fails to explain how or why one of
ordinary skill in the art would have incorporated
Lawler’s technique for recording programs at a
television distribution facility into the combined
program guide system of Sato and Humpleman. Id. In
particular, Rovi argues that Comcast does not explain
how a person of ordinary skill in the art would have
moved the recorder to Lawler’s television distribution
facility, while still maintaining the operability of the
combined program guide system of Sato and
Humpleman, including the ability for the user to
control operations of Sato’s VTR 11 using interface box
25, both of which are local to the user’s system. Id. at
43. Rovi further argues that Comcast does not explain
how the combined program guide system of Sato and
Humpleman would be modified to send hypertext
commands to Lawler’s television distribution facility.
Id.
In its Reply, Comcast counters that Lawler’s
centralized recording still would allow the user to view
recorded content at his/her home using the combined
program guide system of Sato and Humpleman. Pet.
Reply 23. Comcast argues that integrating this
teaching in Lawler into the combined program guide
system of Sato and Humpleman would provide the
added advantage of allowing the physical storage of

392a
content to occur at Lawler’s television distribution
facility, which was, and remains, a well-known method
for increasing storage efficiency. Id. (citing Ex. 1152
¶ 47).
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of Sato,
Humpleman, and Lawler account for the limitations of
dependent claims 2 and 11. See generally PO Resp. 41–
44. We have reviewed Comcast’s explanations and
supporting evidence as to how this proffered
combination teaches these limitations, and we agree
with and adopt Comcast’s analysis. See Pet. 41–42.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to modify the
combined program guide system of Sato and
Humpleman to include recording programs at a
television distribution facility, as taught by Lawler.
When, as here, a technique has been used to improve
one device (i.e., Lawler’s centralized recording at a
television distribution facility), and one of ordinary
skill in the art would have recognized that it would
improve similar devices in the same way (i.e., applying
Lawler’s technique to the combined program guide
system of Sato and Humpleman to make recorded
programs available for other subscribers and to
eliminate the need for a separate recorder), using the
technique is obvious unless its actual application is
beyond the skill level of an ordinary skilled artisan.
See Pet. 36–37; Ex. 1102 ¶¶ 177–181. The record
includes credible evidence explaining why applying
Lawler’s technique to the combined program guide

393a
system of Sato and Humpleman to make recorded
programs available to multiple subscribers at a
television distribution facility would not have been
uniquely challenging or otherwise beyond the skill
level of an ordinary skilled artisan. Indeed, Lawler
itself provides the necessary motivation for doing so—
namely, “[to] allow multiple users to access a single
recording of the program.” Ex. 1109, 13:33–35.
We do not agree with Rovi’s argument that
Comcast does not explain how a person of ordinary
skill in the art would have moved the recorder to
Lawler’s television distribution facility, while still
maintaining the operability of the combined program
guide system of Sato and Humpleman. PO Resp. 43.
As Comcast explains in the Petition, modifying the
Sato and Humpleman combination to include
recording programs at a television distribution facility,
as taught by Lawler, serves as a substitute for the
user’s ability to record programs locally on Sato’s VTR
11 using interface boxes 25 or 104. See Pet. 42. For
instance, instead of using interface boxes 25 or 104 to
instruct Sato’s VTR 11 to record programs, which still
remains a viable option, a user would communicate
with Lawler’s television distribution facility to record
programs via Sato’s external portable computer 107 or
personal computer 105. Dr. Tjaden testifies—and we
agree—that recording programs at Lawler’s television
distribution facility, in lieu of recording programs
locally on Sato’s VTR 11, would increase storage
efficiency by making these recordings available to
other users and it would eliminate the need for each
user to maintain a separate recorder. See Ex. 1102
¶ 181; Ex. 1152 ¶ 47.

394a
We also do not agree with Rovi’s argument that
Comcast does not explain how the combined program
guide system of Sato and Humpleman would be
modified to send commands to Lawler’s television
distribution facility. See PO Resp. 43. Instead, the
evidence of record supports that Lawler’s television
distribution facility would be capable of receiving
commands from the combined program guide system
of Sato and Humpleman. In particular, Dr. Tjaden
testifies that “[o]ne of ordinary skill in the art would
readily recognize that [the] arrangement [disclosed in
Lawler] is typical of cable or satellite systems such as
those disclosed in Sato and Humpleman.” Ex. 1102
¶ 179. Moreover, Rovi seeks a particular explanation
as to “what specific component would be used to make
the communication and the format of that
communication.” PO Resp. 43. Lawler, however, does
not restrict the network by which the viewer stations
and television distribution facility communicate to any
particular type of network. Ex. 1109, 5:29–36.
Similarly, the ’413 Patent does not restrict how
program guide information may be communicated
between remote program guide access device 24 and
interactive television program guide equipment 17.
Ex. 1101, 15:63–16:4 (disclosing that program guide
information may be communicated using “any suitable
application layer protocol”). Because neither Lawler
nor the ’413 Patent limits the means of
communication, we find that a person of ordinary skill
in the art would have understood that the combined
program guide system of Sato and Humpleman would
have been capable of communicating commands to
Lawler’s television distribution facility via a network,

395a
such as Sato’s Internet 106, for the purpose of
recording programs at the television distribution
facility.
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of dependent claims 2 and 11 would have been obvious
over the combined teachings of Sato, Humpleman, and
Lawler.
D. Obviousness Over the Combined Teachings of Woo,
Mizuno, and Rzeszewski
Comcast contends that claims 1, 3–10, and 12–18
of the ’413 Patent are unpatentable under § 103(a)
over the combined teachings of Woo, Mizuno, and
Rzeszewski. Pet. 42–71. Comcast explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides
reasoning as to why one of ordinary skill in the art
would have been prompted to modify or combine the
references’ respective teachings. Id. Comcast also
relies upon the Declaration of Dr. Tjaden to support its
positions. Ex. 1102 ¶¶ 188–270. As we explain in our
Introduction section above, the parties waived both
briefing on this ground, as well as consideration of this
ground at the consolidated oral hearing. See supra
Section I.
We begin our analysis with brief overviews of Woo,
Mizuno, and Rzeszewski, and then we address
whether Comcast provides a sufficient rationale for
combining the teachings of Woo and Mizuno.

396a
1. Woo Overview
Woo generally relates to controlling a recording
device that receives commercial broadcasts and, in
particular, to eliminating commercials from recorded
TV broadcasts. Ex. 1116, 1:7–11. According to Woo, a
user selects a desired TV program for recording from a
menu, and selects whether to record the program
commercial-free. Id. at 1:43–45. One feature offered by
Woo allows a user who has not selected a particular
channel for recording to call in by telephone to a
control station, which, based on the direction of the
user, enters appropriate data into the user’s processor
in order to record a desired program. Id. at 2:17–21.
Figure 1 of Woo, reproduced below, illustrates an
embodiment of the broadcast recording control system
in accordance with the present invention. Ex. 1116,
2:39–41, 2:55–57.

As shown in Figure 1 reproduced above, system 100
includes control station 120 with a plurality of TV
monitors 130, a plurality of controllers 140,
transmitter 150, and scheduler 160. Id. at 2:59–62.

397a
Scheduler 160 develops a TV program schedule table
of future TV broadcasts. Id. at 3:8–10. The TV program
schedule table identifies TV broadcasts by name,
channel, and day of the week. Id. at 3:10–12. System
100 also includes a plurality of processors 180, each of
which is associated with one of a plurality of video
cassette recorders (“VCRs”) 190. Id. at 3:28–30.
Figure 4 of Woo, reproduced below, illustrates the
display of processor 180 depicted in Figure 1 of Woo.
Ex. 1116, 2:46, 6:51–53.

As shown in Figure 4 reproduced above, display 400
includes, among other things, date/time field 450 to
display the present date and time. Id. at 6:62–63.
Display 400 also includes a number of fields for
accessing the TV program schedule table, such as
channel field 455, date field 460, “showtime” field 465,
and “showname” field 470. Id. at 6:63–7:10.
2. Mizuno Overview
Mizuno generally relates to controlling remote
devices at remote locations via the Internet, preferably
using hypertext transfer protocol. Ex. 1117, 1:4–8. In

398a
one embodiment, Mizuno discloses a controller that
serves HTML pages to remote user computers for
controlling a number of devices located in a home, such
as TVs and VCRs. Id. at 1:24–2:12. Figure 1 of Mizuno,
reproduced below, illustrates a block diagram of the
system architecture used to implement this
embodiment.

As shown in Figure 1 above, user computer UC1 uses
ethernet network connection NC1 to connect to
controller CO1 composed of firmware FI1, which, in
turn,
connects
to
a
number
of
target
appliances/equipment (e.g., TVs, VCRs, etc.). Id. at
3:7–10. User computer UC1 includes WWW browser
WB1 that includes graphical interface elements GE1,
such as buttons BU1, textbox TE1, and menus ME1
that may be used to control the target
appliances/equipment TA1. Id. at 3:15–18. Controller

399a
CO1 creates a web page of TV listings, which, when
served to user computer UC1 via WWW browser WB1,
allows the user to control target appliances/equipment
TA1 (e.g., by programming a VCR to record a future
TV program). Id. at 9:20–10:4.
3. Rzeszewski Overview
Rzeszewski generally relates to electronic program
guides for TV receivers and, in particular, to an
improved electronic TV program guide that offers
flexibility, versatility, and cost savings over
conventional electronic TV program guides. Ex. 1118,
1:6–10. One feature offered by Rzeszewski’s improved
electronic TV guide is a “‘Favorite Station’” feature
that stores certain channels pre-selected by a user. Id.
at 5:38–45.
4. Claims 1 and 10
In its Petition, Comcast contends that Woo’s
broadcast recording control system accounts for most
of the limitations recited in independent claims 1 and
10, except a “remote program guide access device” that
provides a “remote access interactive television guide,”
and “user profiles” used to generate the “remote access
interactive television program guide.” Pet. 43–49
(citing Ex. 1116, 1:42–50, 2:9–30, 3:7–18, 6:50–7:1,
7:50–65, 8:25–32, 9:56–63, Figs. 1, 4; Ex. 1102 ¶¶ 188–
192). Comcast turns to Mizuno’s remote access guide
web pages displayed on user computer UC1 to teach a
“remote program guide access device” that provides a
“remote access interactive television guide.” Id. at 45–
46 (citing Ex. 1117, 1:24–2:12, 5:19–22, 9:20–10:8,
10:18–11:3, Fig. 1; Ex. 1102 ¶ 193). Comcast turns to
Rzeszewski’s “favorite station” feature to teach “user

400a
profiles” used to generate the “remote access
interactive television program guide.” Id. at 48–49
(citing Ex. 1118, 1:6–10, 5:32–45; Ex. 1102 ¶¶ 195–
198, 203).
Of particular importance to this ground is
Comcast’s argument that it would have been obvious
to one of ordinary skill in the art to automate Woo’s
manual call-in scheduling process by using Mizuno’s
remote access guide web pages. Pet. 47–48. According
to Comcast, there are at least three reasons as to why
one of ordinary skill in the art would have combined
the teachings of Woo and Mizuno in this manner.
Those reasons are listed as follows: (1) supplementing
Woo’s manual call-in scheduling process with Mizuno’s
remote access guide web pages is nothing more than
automating a manual process, which has long been
recognized as insufficient to distinguish over prior art
systems; (2) using Mizuno’s remote access guide web
pages to improve Woo’s manual call-in scheduling
process would be nothing more than using known
techniques to improve similar devices to obtain a
predictable result; and (3) it would have been a simple
substitution of Mizuno’s remote access guide web
pages for Mizuno’s human operator for the manual
call-in process to obtain a predictable result. Id. (citing
Ex. 1102 ¶¶ 197–199).
We do not agree that Comcast or Dr. Tjaden
provides sufficient reasoning as to how or why one of
ordinary skill in the art would have replaced Woo’s
manual call-in scheduling process with Mizuno’s
remote access guide web pages to arrive at the claimed
invention. As an initial matter, we do not view
supplementing Woo’s manual call-in scheduling

401a
process with Mizuno’s remote access guide web pages
as simply automating a manual process. Comcast’s
proffered combination requires the wholesale insertion
of a new component—in this case, Mizuno’s user
computer UC1 that displays remote access guide web
pages—in Woo’s broadcast recording control system.
In our view, this goes beyond simply automating a
manual process, but rather requires a significant
modification to the structure and operations of Woo’s
broadcast recording control system. For instance,
Comcast does not explain how Woo’s controller 120,
which uses transmitter 150 to broadcast control and
programming information (Ex. 1116, 3:20–28), is
capable of connecting to the Internet such that it could
serve HTML pages to Mizuno’s user computer UC1.
Nor do we agree that combining the teachings of
Woo and Mizuno in the manner proposed by Comcast
is nothing more than using known techniques to
improve a similar device in the same way, or is a
simple substitution of one known element for another
to obtain a predictable result. Comcast’s assertions in
this regard are predicated on the benefits associated
with automation. See Pet. 47 (stating “[t]his would
obtain the predictable benefits associated with
automation described above”), 48 (stating the same);
Ex. 1102 ¶¶ 198–199 (stating the same). As we explain
above, supplementing Woo’s manual call-in scheduling
process with Mizuno’s remote access guide web pages
goes beyond simply automating a manual process—it
requires significant modifications to the structure and
operations of Woo’s broadcast recording control
system. Moreover, by simply providing generic reasons
for combining the teachings of Woo and Mizuno, such

402a
as using “known techniques to improve similar
devices” (Pet. 47) and “simple substitution” (id. at 48),
Comcast does not adequately address the issue of
rationale to combine in this ground because it fails to
explain how one of ordinary skill in the art would have
modified Woo’s broadcast recording control system to
include Mizuno’s remote access guide web pages. See
Belden Inc. v. Berk-Tek LLC, 805 F.3d 1064, 1073 (Fed.
Cir. 2015) (“[O]bviousness concerns whether a skilled
artisan . . . would have been motivated to make the
combinations or modifications of prior art to arrive at
the claimed invention.”). 13
In summary, Comcast has not demonstrated a
reasonable likelihood that it will prevail on its
assertion that the subject matter of independent
claims 1 and 10 would have been obvious over the
combined teachings of Woo, Mizuno, and Rzeszewski.
5. Claims 3–9 and 12–18
Because we determine that Comcast does not
provide sufficient reasoning for combining the
teachings of Woo and Mizuno, Comcast has not
demonstrated a reasonable likelihood that it would
prevail on its assertion that the subject matter of
dependent claims 3–9 and 12–18 would have been
obvious over the combined teachings of Woo, Mizuno,
and Rzeszewski.

Because we determine that Comcast does not provide sufficient
reasoning for combining the teachings of Woo and Mizuno, we
need not reach whether Comcast also provides sufficient
reasoning for combining the teachings of Rzeszewski with those
of Woo and Mizuno.
13

403a
E. Obviousness Over the Combined Teachings of Woo,
Mizuno, Rzeszewski, and Lawler
Comcast also contends that claims 2 and 11 of the
’413 Patent are unpatentable under § 103(a) over the
combined teachings of Woo, Mizuno, Rzeszewski, and
Lawler. Pet. 71–72. This ground relies upon Comcast’s
argument that it would have been obvious to one of
ordinary skill in the art to automate Woo’s manual
call-in scheduling process by using Mizuno’s remote
access guide web pages. Id. at 47–48 (citing Ex. 1102
¶¶ 197–199). Because we determine that Comcast
does not provide sufficient reasoning for combining the
teachings of Woo and Mizuno, Comcast has not
demonstrated a reasonable likelihood that it would
prevail on its assertion that the subject matter of
dependent claims 2 and 11 would have been obvious
over the combined teachings of Woo, Mizuno,
Rzeszewski, and Lawler.
III. CONCLUSIONS
Comcast has demonstrated by a preponderance of
the evidence that (1) claims 1, 3–10, and 12–18 are
unpatentable under § 103(a) over the combined
teachings of Sato and Humpleman; and (2) claims 2
and 11 are unpatentable under § 103(a) over the
combined teachings of Sato, Humpleman, and Lawler.
Comcast, however, has not demonstrated by a
preponderance of the evidence that (1) claims 1, 3–10,
and 12–18 are unpatentable under § 103(a) over the
combined teachings of Woo, Mizuno, and Rzeszewski;
and (2) claims 2 and 11 are unpatentable under
§ 103(a) over the combined teachings of Woo, Mizuno,
Rzeszewski, and Lawler.

404a
IV. ORDER
In consideration of the foregoing, it is
ORDERED that claims 1–18 of the ’413 Patent are
held to be unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to this proceeding seeking
judicial review of our decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

405a
APPENDIX G
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.,
Patent Owner.
Case IPR2017-01050
Patent 8,578,413 B2
Entered: October 16, 2018
Before KEVIN F. TURNER, MICHAEL R. ZECHER,
and JESSICA C. KAISER, Administrative Patent
Judges.
TURNER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition requesting an inter partes
review of claims 1–18 of U.S. Patent No. 8,578,413 B2
(Ex. 1201, “the ’413 Patent”). Paper 2 (“Pet.”). Patent
Owner, Rovi Guides, Inc. (“Rovi”), filed a Preliminary
Response. Paper 6. Taking into account the arguments
presented in Rovi’s Preliminary Response, we

406a
determined that the information presented in the
Petition established that there was a reasonable
likelihood that Comcast would prevail in challenging
claims 1–18 of the ’413 Patent as unpatentable under
35 U.S.C. § 103(a). Pursuant to 35 U.S.C. § 314, we
instituted this inter partes review on October 18, 2017,
as to all of the challenged claims and all the grounds
presented the Petition. Paper 8 (“Dec. on Inst.”).
During the course of trial, Rovi filed a Patent
Owner Response (Paper 14, “PO Resp.”), and Comcast
filed a Reply to the Patent Owner Response (Paper 25,
“Pet. Reply”). Consolidated oral hearing with related
Cases IPR2017-00950, IPR2017-00951, IPR201700952, IPR2017-01048, IPR2017-01049, IPR201701065, IPR2017-01066, and IPR2017-01143 was held
on June 19, 2018, and a transcript of the hearing is
included in the record. Paper 35 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1–18 of the
’413 Patent. For the reasons discussed below, we hold
that Comcast has demonstrated by a preponderance of
the evidence that these claims are unpatentable under
§ 103(a).
A. Related Matters
The ’413 Patent is involved in the following district
court cases: (1) Rovi Guides, Inc. v. Comcast Corp., No.
2:16-cv-00322 (E.D. Tex.), which has been transferred
to the U.S. District Court for the Southern District of
New York and is pending as Rovi Guides, Inc. v.
Comcast Corp., No. 1:16-cv-09826 (S.D.N.Y); and (2)
Comcast Corp. v. Rovi Corp., No. 1:16-cv-03852

407a
(S.D.N.Y). Pet. 1–2; Paper 3, 2. The ’413 Patent also
has been asserted against Comcast in a proceeding
before the U.S. International Trade Commission
(“ITC”) styled In re Certain Digital Video Receivers and
Hardware and Software Components Thereof, No. 337TA-1001. Pet. 2; Paper 3, 2.
In addition to this Petition, Comcast filed two other
petitions challenging the patentability of claims 1–18
of the ’413 Patent (Cases IPR2017-01048 and
IPR2017-01049). Pet. 3; Paper 3, 2. Comcast also filed
other petitions challenging the patentability of certain
subsets of claims in several patents owned by Rovi.
Pet. 3.
B. The ’413 Patent
The ’413 Patent, titled “Interactive Television
Program Guide with Remote Access,” issued
November 5, 2013, from U.S. Patent Application No.
13/275,565, filed on October 18, 2011. Ex. 1201, [54],
[45], [21], [22]. The ’413 Patent is a continuation of
U.S. Patent Application No. 10/927,814, filed on
August 26, 2004, which, in turn, is a continuation of
U.S. Patent Application No. 09/354,344, filed on July
16, 1999. Id. at [63]. The ’413 patent also claims the
benefit of U.S. Provisional Application No. 60/097,527,
filed on August 21, 1998, and U.S. Provisional
Application No. 60/093,292, filed on July 17, 1998. Id.
at [60].
The ’413 Patent generally relates to interactive
television program guide video systems and, in
particular, to such systems that provide remote access
to program guide functionality. Ex. 1201, 1:16–19. The
’413 Patent discloses that conventional interactive

408a
television program guide systems typically are
implemented on set-top boxes located in the home of a
user and, as a result, do not permit the user to perform
program guide functions without the user being
physically located in the same room as these systems.
Id. at 1:34–42. Stated differently, conventional
interactive television program guide systems require
the user to be present in the home to access important
program guide features, such as program reminders,
parental controls, and program recording. Id. at 2:16–
19. The ’413 Patent purportedly addresses this and
other problems by providing an interactive television
program guide system that allows a user to access
certain features of the program guide remotely and
establish settings for those features. Id. at 2:20–25.
Figure 1 of the ’413 Patent, reproduced below,
illustrates a schematic block diagram of the system in
accordance with the present invention. Ex. 1201, 7:15–
39.

409a
As shown in Figure 1 reproduced above, system 10
includes main facility 12 that provides interactive
television program guide data from program guide
data source 14 to interactive television program guide
equipment 17 via communication link 18. Id. at 7:15–
22. Interactive television program guide equipment 17
is connected to at least one remote program guide
access device 24 via remote access link 19. Id. at 7:33–
35.
Figure 2a of the ’413 Patent, reproduced below,
illustrates one arrangement involving the interactive
television program guide equipment 17 and remote
program guide access device 24 in accordance with the
principles of the present invention. Ex. 1201, 8:16–34.

As shown in Figure 2a reproduced above, interactive
television program guide equipment 17 includes
program guide distribution equipment 21 located at
television distribution facility 16, which distributes
program guide data to user television equipment 22

410a
via communications path 20. Id. at 4:57–67. Remote
program guide access device 24 receives the program
guide data, as well as any additional data necessary to
access various functions of the interactive program
guide, from user television equipment 22 via remote
access link 19. Id. at 8:21–26.
In at least one embodiment, the ’413 Patent
discloses that a remote access interactive television
program guide implemented on remote program guide
access device 24 communicates with a local interactive
television program guide implemented on interactive
television program guide equipment 17. Ex. 1201,
15:9–18. In one example, the remote access and local
interactive television program guides may be two
different guides that communication with each other.
Id. at 15:20–23; see also id. at 25:35–59 (disclosing
steps involved with using the remote access
interactive television guide to provide program listing
information to a user).
The ’413 Patent discloses transferring program
guide information and settings between remote
program guide access device 24 and interactive
television program guide equipment 17 using any
suitable application layer protocol. Ex. 1201, 15:60–64.
For example, if remote access link 19 is an Internet
link, program guide functionality may be accessed
using Hypertext Transfer Protocol. Id. at 15:64–66.
Remote program guide access device 24 and
interactive television program guide equipment 17
also may transfer program guide information as files
using either File Transfer Protocolor Trivial File
Transfer Protocol running over a Transmission
Control Protocol/Internet Protocol stack. Id. at 15:66–

411a
16:4. The ’413 Patent makes clear that “[a]ny suitable
file transfer protocol based on any suitable protocol
stack may be used.” Id. at 16:4–5.
C. Illustrative Claim
Claims 1 and 10 are independent. Independent
claim 1 is directed to a system for selecting television
programs over a remote access link that includes an
Internet communications path for recording, whereas
independent claim 10 is directed to a method for
performing the same. Claims 2–9 depend from
independent claim 1, and claims 11–18 depend from
independent claim 10. Independent claim 1 is
illustrative of the challenged claims and is reproduced
below:
1. A system for selecting a television
program over a remote access link comprising
an Internet communications path for recording,
the system comprising:
a local interactive television program guide
equipment on which a local interactive
television program guide is implemented,
wherein the local interactive
television
program guide generates a display of one or
more television program listings for display on
a display device at a user’s home, wherein the
local interactive television program guide
equipment is located within the user's home and
includes user television equipment, wherein a
mobile device communicates with the local
interactive
television
program
guide
equipment, wherein the mobile device, on which
a remote access interactive television program

412a
guide is implemented, is located outside of the
user's home, and wherein the mobile device:
generates a display of the remote access
interactive television program guide, the
remote access interactive television program
guide comprising a plurality of television
program listings for display on the mobile
device, wherein the display of the remote access
interactive television program guide is
generated based on a user profile stored at a
location remote from the mobile device;
receives a user selection of the television
program for recording by the local interactive
television program guide, wherein the user
selects the television program by selecting a
television program listing from the plurality of
television program listings displayed, by the
remote access interactive television program
guide, on the mobile device; and
transmits, to the local interactive television
program
guide
over
the
Internet
communications path, a communication
identifying the television program for recording
corresponding to the television program listing
selected by the user with the remote access
interactive television program guide,
wherein the local
interactive television
program guide receives the communication and,
responsive to the communication, records the
television program corresponding to the
selected television program listing using the

413a
local interactive television program guide
equipment.
Ex. 1201, 40:6–48.
D. Instituted Grounds of Unpatentability
We instituted a trial based on the asserted grounds
of unpatentability (“grounds”) set forth in the table
below. Dec. on Inst. 35.
References

Basis

Challenged
Claims

Blake 1, 2 and
Killian 3
Blake, Killian,
and Lawler4

§ 103(a)

1, 3–10, and
12–18
2 and 11

§ 103(a)
II. ANALYSIS

A. Claim Construction
In an inter partes review, claim terms of an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b). Under the
broadest reasonable interpretation standard, and
absent any special definitions, claim terms are
PCT Int’l Pub. No. WO 98/10589; filed Sept. 2, 1997, published
Mar. 12, 1998 (Ex. 1222, “Blake”).
2
Blake incorporates by reference U.S. Patent No. 4,706,121 (Ex.
1223, “Young”).
3
U.S. Patent No. 6,163,316; issued Dec. 19, 2000 (Ex. 1208,
“Killian”).U.S. Patent No. 6,163,316; issued Dec. 19, 2000 (Ex.
1208, “Killian”).
4
U.S. Patent No. 5,805,763, issued Sept. 8, 1998 (Ex. 1209,
“Lawler”).
1

414a
generally given their ordinary and customary
meaning, as would be understood by one of ordinary
skill in the art, in the context of the entire disclosure.
In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed.
Cir. 2007).
In the Decision on Institution, we determined that
the only claim terms requiring construction are
“local/remote access interactive television program
guides,” and only to the extent necessary to resolve
whether the grounds asserted by Comcast properly
accounted for both a “local interactive television
program guide” and a “remote access interactive
television program guide.” Dec. on Inst. 9 (citing Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803
(Fed. Cir. 1999) (explaining that only those claim
terms that are in controversy need to be construed,
and only to the extent necessary to resolve the
controversy)). Upon reviewing the parties’ preliminary
arguments and evidence, we adopted Comcast’s
proposed construction that an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” Id. at 13. We further clarified that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide. Id.
In its Patent Owner Response, Rovi generally
agrees with our initial determination that the only
claim terms requiring construction are “local/remote

415a
access interactive television program guides.” PO
Resp. 9. Rovi, however, proposes that the proper
constructions for these claims terms are the following:
(1) “local interactive television program guide” is a
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment”; and (2)
“remote access interactive television program guide” is
a “guide allowing navigation through television
program listings using a remote access link.” Id. at 10.
According to Rovi, its proposed constructions for the
claim terms “local/remote access interactive television
program guides” are consistent with the intrinsic
evidence, our preliminary finding that these guides
must be distinct guides, and the findings of the ITC in
related proceedings. Id. at 10–11 (citing Ex. 2201, 193,
198, 409).
Rovi further contends that any difference between
our constructions and the ITC’s constructions of the
claim terms “local/remote access interactive television
program guides” is not relevant to the grounds at issue
in this proceeding because, according to Rovi, each of
Comcast’s asserted grounds fails under Rovi’s broader
constructions “that do[] not unnecessarily restrict the
guides to ‘control software’ that ‘controls functions of
the software.’” PO Resp. 11. Rovi asserts that, because
each of Comcast’s asserted grounds fails under broader
constructions for these claim terms, we need not
determine whether the asserted prior art satisfies
Comcast’s proposed constructions. Id. Rovi then
proceeds to explain how our preliminary constructions
and the ITC’s constructions are consistent in certain
respects because (1) they both require the guides to be

416a
interactive (i.e., navigable and selectable); and (2) they
both agree that the claims require two separate
guides, as properly construed. Id. at 11–14. 5
In its Reply, Comcast counters with the following:
(1) its arguments apply the broadest reasonable
interpretation standard; (2) it relies on Rovi’s
arguments from the related ITC proceeding regarding
the proper scope and meaning of the claim terms
“local/remote access interactive television program
guides” as evidence of the broadest reasonable
interpretation of these claims terms in this proceeding;
and (3) it disagrees with Rovi’s proposed constructions
both in this proceeding and in the ITC proceeding. Pet.
Reply 1 n.1.
As an initial matter, it is not clear to us whether
Rovi actually disputes our preliminary construction of
the claim term “interactive television program guide.”
On the one hand, Rovi asserts that the ITC’s
constructions of local interactive television program
guide (i.e., a “guide that allows navigation through
television program listings and causes display of
program information on user television equipment”)
and remote access interactive television program
guide (i.e., a “guide allowing navigation through
For the first time at the oral hearing, Rovi argued that “remote
access interactive television program guide” requires “dedicated
code at the remote device.” See, e.g., Tr. 58:3–7, 60:19–61:14,
66:14–21. We agree with Comcast (id. at 96:3–10) that this is a
new argument that was not presented and developed in Rovi’s
briefs and, therefore, we do not consider it. See Paper 9, 3
(cautioning Rovi that “any arguments for patentability not raised
in the response will be deemed waived”).

5

417a
television program listings using a remote access
link”) are the proper constructions. PO Resp. 10. On
the other hand, Rovi argues that both our
constructions and the ITC’s constructions “are
consistent with respect to the relevant aspects (e.g.,
navigation and selection)” of a local/remote access
interactive television program guide. Id. at 11. Rovi
further contends that “[a]ny differences between the
Board’s and the ITC’s constructions are not relevant to
[Comcast’s] failures of proof regarding the asserted
prior art and [g]rounds at issue in the proceeding.” Id.
(emphasis added); see also Ex. 2211 ¶ 25 (Rovi’s
declarant, Dr. Shamos, testifies that, “regardless of
which constructions the Board applies, my opinions
remain the same. The asserted prior art references
here fail to disclose the claim limitations . . . under
either construction.”). These arguments make it
difficult to ascertain what Rovi actually views as the
proper scope and meaning of the claim terms
“local/remote access interactive television program
guides.” Nevertheless, we are charged in this
proceeding with determining the broadest reasonable
interpretation of these claim terms.
Beginning with the intrinsic record, neither party
argues, nor could we find, an explicit definition for the
claim term “interactive television program guide” in
the specification of the ’413 Patent. The specification,
however, is replete with descriptions of conventional,
local, or remote interactive television program guides.
For instance, the specification discloses that
conventional interactive television program guides
display “various groups of television program [guide]
listings . . . in predefined or user-defined categories,”

418a
and “allow the user to navigate through [the]
television program listings” and make a selection
“using a remote control.” Ex. 1201, 1:28–33. For a
conventional interactive television program guide, the
user must physically be located in the same room as
the set-top box on which the interactive television
program guide is implemented to select programs for
recording or to perform other guide functions. Id. at
1:34–42. In the context of discussing the
implementation of a remote access interactive
television program guide, the specification discloses
that such a guide works in conjunction with a remote
device to “provide users with the opportunity to
remotely access features of the interactive television
program guide on the interactive television program
guide equipment and to remotely set program guide
settings.” Id. at 2:64–3:4. The specification goes on to
disclose that “[a]ny suitable interactive television
program guide function or setting may be accessed,”
including, but not limited to, “remotely select[ing]
programming for recordings” and “remotely set[ting]
and navigat[ing] through favorites (e.g., favorite
channels, program categories, services, etc.).” Id. at
3:5–15.
Although the aforementioned disclosures provide
guidance as to the functionality of an “interactive
television program guide” (i.e., navigable, selectable,
and capable of controlling certain functions or
settings), neither party directs us to, nor can we find,
a disclosure in the specification that specifically
identifies what element or elements constitute a
“guide.” Given the lack of disclosure in this regard, we
decline to limit the “guide” to a single software

419a
application. Rather, these disclosures support
Comcast’s proposed construction that an “interactive
television program guide” is “control software
operative at least in part to generate a display of
television program listings and allow a user to
navigate through the listings, make selections, and
control functions of the software.”
We further clarify that the plain language of
independent claims 1 and 10 indicates that the claim
terms “local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements. See Becton,
Dickinson & Co. v. Tyco Healthcare Grp., LP, 616 F.3d
1249, 1254 (Fed. Cir. 2010) (“Where a claim lists
elements separately, ‘the clear implication of the claim
language’ is that those elements are ‘distinct
component[s]’ of the patented invention.” (alteration in
original) (quoting Gaus v. Conair Corp., 363 F.3d 1284,
1288 (Fed. Cir. 2004))). Our determination in this
regard is supported by the specification, which
includes various embodiments that treat these claim
terms as separately identifiable elements capable of
communicating with each other. See, e.g., Ex. 1201,
12:20–23 (“In still another suitable approach, the
[local interactive television program guide and remote
access interactive television program guide] may be
different guides that communicate in a manner or
manners discussed . . . herein.”), 23:4–7 (“The remote
access [interactive television] program guide may . . .
send audio, graphical, and text messages to the local
interactive [television] program guide for playing or
display by user television equipment 22.”). The
specification also explains that the “local interactive

420a
television program guide” and “remote access
interactive television program guide” may be the same
guide, in which case they are separately identifiable
elements in that each guide is compiled to run on a
different platform. See id. at 15:15–18 (“The remote
access and local guide may, for example, be the same
guide but compiled to run on two different platforms
and to communicate in a manner or manners
discussed herein.”).
We decline to adopt Rovi’s proposed constructions
of the claim terms “local/remote access interactive
television program guides” for two reasons. First, we
are unable to determine how Rovi’s proposed
constructions add any clarity to the scope and meaning
of an “interactive television program guide.” That is,
we view each of Rovi’s proposed constructions as
circular and unhelpful because they define each of the
guides as a “guide [that allows/allowing] navigation
through television program listings.” PO Resp. 9
(emphasis added). Rovi, however, does not actually
identify what element or elements specifically
constitute the “guide.”
Second, Rovi states that its proposed constructions
indicate “where the specific guide resides (i.e., on ‘user
television equipment’ or over ‘a remote access link’),”
but readily admits that “these additions merely
restate the language of the broader claim
limitation[s].” PO Resp. 14 (citing Ex. 2201, 193, 198,
409). It is well settled that the U.S. Court of Appeals
for the Federal Circuit disfavors any claim
interpretation that renders a claim term or phrase
superfluous. See Apple, Inc. v. Ameranth, Inc., 842
F.3d 1229, 1237 (Fed. Cir. 2016) (“The Board was

421a
correct to not include in its construction of ‘menu’
features of menus that are expressly recited in the
claims. . . . Construing a claim term to include features
of that term already recited in the claims would make
those expressly recited features redundant.”). If we
were to adopt the language in Rovi’s proposed
constructions pertaining to where each guide resides,
it would render superfluous the language that is
already explicitly recited in independent claim 1, and
similarly recited in independent claim 10—namely,
“over a remote access link” and “a local interactive
television program guide equipment on which a local
interactive television program guide is implemented,
wherein the local interactive television program guide
equipment includes user television equipment.” 6
Turning now to the extrinsic evidence, in Dr.
Tjaden’s Declaration accompanying the Petition, he
testifies that “the ‘local’ [interactive television
program] guide may be implemented at least in part
on a server or other device outside the user’s home.”
Ex. 1202 ¶ 36. To support this testimony, he directs us
to Rovi’s interpretation of the claim term “local
interactive television program guide” in the related
ITC proceeding. Id. (citing Ex. 1245, 56; Ex. 1246, 43).
In Dr. Tjaden’s Declaration accompanying the Reply,
he elaborates further on his initial position by
During oral argument, in response to a question regarding the
ITC’s construction of the “local interactive television program
guide” being on user television equipment and its construction
that the “remote access television program guide” uses a remote
access link, counsel for Rovi stated that “I don’t think where [the
guides are] implemented is meaningful because that’s recited in
the claim separately.” Tr. 66:22–67:24.

6

422a
testifying that “a [person of ordinary skill in the art]
looking at the ’413 Patent would have understood that
many different arrangements of the software and
hardware components comprising an interactive
television program guide are possible and acceptable
in [the] prior art used to show obviousness.” Ex. 1252
¶ 15. To support this testimony, he directs us to the
different arrangements of software and hardware in
the ’413 Patent. Id. (citing Ex. 1201, 7:16–19, 33–35,
43–47, 9:36–38, 10:41–48, Figs. 1, 2a–2d).
Dr. Shamos’s Declaration in the ITC proceeding
serves as further evidence as to what element or
elements constitute a “guide.” Although we recognize
that the broadest reasonable interpretation standard
governs in this proceeding, whereas the district court
claim construction standard governs in an ITC
proceeding, Dr. Shamos’s testimony in the ITC
proceeding is relevant here because it sheds some light
on what element or elements he believes constitutes a
“guide.” In the ITC proceeding, Dr. Shamos testifies
that the claim term “local interactive television
program guide” could be an “extensive collection of
hardware and software.” Ex. 1254 ¶ 169. He also
testifies “that the ‘local [interactive television
program] guide’ [should not be construed as] a single
software application that must reside on a device in
the user’s home,” and “[n]othing in the claims exclude
a ‘recording application’ from being part of the local
[interactive television program] guide.” Id. ¶ 371. Dr.
Shamos’s testimony in the ITC proceeding is
consistent with Dr. Tjaden’s testimony in this
proceeding because, like Dr. Tjaden, Dr. Shamos does
not limit a “guide” to a single software application, but

423a
rather contemplates that the “guide” may constitute
different arrangements of software and hardware.
We note that the aforementioned testimony from
Dr. Tjaden and Dr. Shamos suggests that the “guide”
may include both software and hardware. Rovi
likewise argues that its proposed construction is
broader than Comcast’s because “[it] does not
unnecessarily restrict the guides to ‘control software.’”
PO Resp. 11. We do not find support in the intrinsic
record that the “guide” may include hardware. Rather,
the ’413 Patent separately refers to the interactive
television program guide and the hardware on which
it is implemented. See, e.g., Ex. 1201, 1:34–35
(“Interactive television program guides are typically
implemented on set-top boxes . . . .”). The
aforementioned testimony, however, is consistent with
our finding that the “guide” may constitute more than
just a single software application.
In summary, upon weighing all the evidence
bearing on the construction of the claim term
“interactive television program guide,” we maintain
that the broadest reasonable interpretation of this
claim term is “control software operative at least in
part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” We also maintain that the claim terms
“local interactive television program guide” and
“remote access interactive television program guide”
are separately identifiable elements, and are not
construed properly as reading on the same interactive
television program guide.

424a
B. Obviousness Over the Combined Teachings of
Blake and Killian
Comcast contends that claims 1, 3–10, and 12–18
of the ’413 Patent are unpatentable under § 103(a)
over the combined teachings of Blake and Killian. Pet.
21–59. Comcast explains how this proffered
combination teaches or suggests the subject matter of
each challenged claim, and provides reasoning as to
why one of ordinary skill in the art would have been
prompted to modify or combine the references’
respective teachings. Id. Comcast also relies upon the
Declaration of Dr. Tjaden to support its positions. Ex.
1202 ¶¶ 94–212. In its Patent Owner Response, Rovi
presents a number of arguments as to why the
combined teachings of Blake and Killian do not render
the limitations of independent claims 1 and 10
obvious. PO Resp. 20–41. Rovi relies upon the
Declaration of Dr. Shamos to support its positions. Ex.
2211 ¶¶ 97–99, 161–191.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the
art, followed by brief overviews of Blake and Killian,
and then we address the parties’ contentions with
respect to the claims at issue in this asserted ground.
1.

Principles of Law

A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and
the prior art are such that the subject matter, as a
whole, would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which said subject matter pertains. KSR

425a
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The
question of obviousness is resolved on the basis of
underlying factual determinations, including (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) when in
evidence, objective indicia of non-obviousness (i.e.,
secondary considerations). Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). We analyze this asserted
ground based on obviousness with the principles
identified above in mind.
2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a
person of ordinary skill in the art. Relying on the
testimony of its declarant, Dr. Tjaden, Comcast asserts
that a person of ordinary skill in the art as of July 17,
1998, which is the earliest priority date on the face of
the ’413 Patent, would be an individual who possesses
the following:
a bachelor’s degree in computer science,
electrical engineering, computer engineering, or
a similar discipline, and two years of experience
with interactive program guides, set-top boxes,
mobile computer devices, and techniques for
delivering content or program guides over
communication networks, such as a cable
system, a local-area network, and the Internet.
Pet. 14–15 (quoting Ex. 1202 ¶ 28). Alternatively, once
again relying on the testimony of Dr. Tjaden, Comcast
asserts that a person of ordinary skill in the art “could
have had equivalent experience in industry or

426a
research, such as designing, developing, evaluating,
testing, or implementing [these] technologies.” Id. at
15 (quoting Ex. 1202 ¶ 28). Conversely, Rovi’s
declarant, Dr. Shamos, does not offer an assessment of
the level of skill in the art as of July 1998, nor does he
explicitly state his intent to adopt Dr. Tjaden’s
assessment. See generally Ex. 2211. Given Dr.
Shamos’s silence on this matter, we adopt Dr. Tjaden’s
assessment because it is consistent with the ’413
Patent and the asserted prior art, and apply it to our
obviousness evaluation below.
3. Blake Overview
Blake generally relates to a television schedule
system with enhanced recording capability. Ex. 1222,
1:17–19. Blake specifically describes the enhanced
recording capability with reference to Figures 12 and
13. Id. at 16:11–18:29.
Figure 12 of Blake is reproduced below:

Figure 12 of Blake illustrates an example of a
television schedule guide that provides television
schedule information in a grid-like display on a

427a
television screen. Ex. 1222, 16:12–14. Through a user
interface, a user may scroll through the television
schedule information and may tune to a program by
highlighting and selecting a program displayed in the
guide. Id. at 16:17–19. Also, the user may select one or
more programs for automatic, unattended recording.
Id. at 16:17–19, 16:22–25. Peripheral devices––which
may be televisions, video cassette recorders (“VCRs”),
or set-top boxes––store time and channel information
entries for programs to be recorded. Id. at 4:28–30,
16:26–28.
Blake incorporates by reference the entirety of
Young. Ex. 1222, 2:3–5. Blake presents Young as
background information and describes it in similar
terms to that of Figure 12––namely, Blake explains
that Young discloses a system that provides television
schedule information on a user’s television screen, and
allows for user selection of programs and the
automatic, unattended recording of programs that are
listed in the television schedule information. Id. at
1:23–24, 1:27–30.
Figure 13 of Blake is reproduced below:

428a
Figure 13 of Blake illustrates an arrangement for
scheduling recordings from a remote location. Ex.
1222, 4:5–6. According to Blake, the user’s ability to
schedule recordings from a remote location enhances
the recording capability of the schedule guide. Id. at
17:1–2. In Figure 13, a user who is away from home
employs input device 332 to access and communicably
connect to central processing system 334. Id. at 17:3–
5. Input device 332 may be any device capable of
transmitting data from a remote location, including a
personal or laptop computer or cellular telephone. Id.
at 17:5–8. Recording device 336 may be a VCR or any
device with video and/or audio recording capabilities.
Id. at 17:19–21.
Input device 332 transmits user input in one of
several forms, including: a code; channel, date, time,
and length information; the title; or theme data. Ex.
1222, Claims 4–7, 17:8–10, 17:15–16, 17:25–26, 18:1–
2. Where the input information is theme data, the user
first chooses to select a program to record by themes.
Id. at 18:5–7. For example, if the user wishes to record
the Chicago Bulls v. Los Angeles Lakers game, the
user selects sports when presented with a list of theme
selections, and further selects basketball. Id. at 18:5–
8. The user is presented with a list of basketball games
that are either being played or are scheduled to be
played, and then selects the Bulls v. Lakers game. Id.
at 18:8–10. Alternatively, the user may enter “Bulls,”
and processing system 334 will present a list of Bulls
games, and the user may select one or more of the
games to record. Id. at 18:10–12. The input data are
received by processing system 334, which stores the

429a
information and activates recording device 336 to
record the program at the appropriate time. Id. at
Claim 1, 17:10–19, 17:29–30, 18:12–16.
4. Killian Overview
Killian generally relates to an electronic
programming guide that operates on a computing
platform using information from the Internet for
display on a television. Ex. 1208, 2:1–3, 3:18–23.
Killian uses viewer profiles to generate a preferred
programming schedule that allows viewers to more
intelligently select programs that may be desirable for
viewing or recording. Id. at 10:61–66. Each viewer
associated with a television receiver may generate a
viewer profile for storage in a database, and the
database may include an arrangement of information
at one or more locations that are integral to or separate
from the television receiver. Id. at 9:10–25. The
preferred schedule that is generated according to the
user profile indicates the desirability of a particular
program relative to other programs. Id. at 2:11–12.
5. Claims 1 and 10 7
In its Petition, Comcast contends that Blake’s
television schedule system accounts for each of the
limitations recited in independent claims 1 and 10.
Pet. 21–50 (citing Ex. 1222, 4:24–30, 17:1–21, 18:1–16,
Figs. 12–13; Ex. 1202 ¶¶ 71–78, 86–88, 94–109, 114–
117, 120–180); id. at 30–31 (showing correspondence
Comcast contends that independent claims 1 and 10 stand or
fall together. Pet. 11–12. Rovi does not dispute Comcast’s
assertion in this regard. Accord PO Resp. 20–41 (treating
independent claims 1 and 10 as standing or falling together).
7

430a
among the limitations in the independent claims). For
instance, Comcast relies on Blake’s illustration of a
television schedule guide in Figure 12 as an example
of a display generated by a “local interactive television
program guide.” Id. at 23–24. Comcast also relies on
Blake’s input device 332 as a “mobile device” (id. at 27,
39), and the ability of the user in Blake to select a
program to record according to themes, which allows
for navigating program listings and making program
selections, as establishing a “remote access interactive
television program guide” (id. at 25–26).
To the extent Blake does not disclose certain
limitations, Comcast presents alternative arguments.
Pet. 36–38 (“remote access interactive television
program guide”); id. at 28–30 (“user profile”); id. at 32
(“Internet communications path”); id. at 47–49 (“local
interactive television program guide”). Of particular
importance to this case, Comcast relies on Killian’s
viewer profiles (i.e., user profile data) to teach the
claimed “user profile.” Id. at 28–30. Here, Comcast
argues that it would have been obvious to one of
ordinary skill in the art to implement Killian’s viewer
profiles in the remote user interface on Blake’s input
device 332 to better track a user’s preferences and
generate more effective user interfaces that better
identify desired/undesired content. Id.
For added clarity, we highlight certain arguments
presented by Comcast for each limitation recited in
independent claim 1. We note that there is no dispute
between the parties as to whether the limitations of
independent claim 10 are essentially the same as the
limitations of independent claim 1. Compare Pet. 11–
12, with PO Resp. 20–41. Beginning with the preamble

431a
of independent claim 1, Comcast contends that Blake
teaches “[a] system for selecting television programs
over a remote access link comprising an Internet
communications path for recording” because Blake
discloses selecting programs for recording using a
remote user interface on input device 332. Pet. 31
(citing Ex. 1222, 18:1–10; Ex. 1202 ¶¶ 114, 115).
According to Comcast, these selections are sent to
central processing system 334, which, in turn, stores
program selections made remotely and activates
recording device 336 to record the selected program.
Id. (citing Ex. 1222, 17:13–15, 18:12–16; Ex. 1202
¶ 114).
Comcast further argues that, to the extent Blake
does not disclose “a remote access link comprising an
Internet communications pathway,” this limitation
would have been obvious in light of Blake’s system.
Pet. 31–32 (citing Ex. 1202 ¶ 115). Comcast argues
that Blake discloses that input device 332 “transmit[s]
data from a remote location,” and the Internet was a
common way of transmitting date from a remote
location, as evidenced by Killian. Id. at 32 (quoting Ex.
1222, 17:5–8) (citing Ex. 1208, 3:18–20, 3:38–43; Ex.
1202 ¶¶ 116, 117). Comcast asserts that a person of
ordinary skill in the art would have found it obvious to
try using the Internet to transmit Blake’s program
guide information because Internet transmission was
well-known as an identified, predictable solution to
data transmission that provides predictable benefits.
Id. (citing Ex. 1202 ¶¶ 116, 117).
Comcast contends that Blake teaches “local
interactive television program guide equipment on
which a local interactive television program is

432a
implemented,” as recited in independent claim 1,
because Blake discloses television equipment within a
user’s home that includes software that uses television
schedule information to generate a local guide. Pet.
32–33 (citing Ex. 1222, 4:10–16, 4:26–30, 5:1–3, Fig.
12; Ex. 1202 ¶ 120). Comcast argues that Blake
discloses a local guide that displays television program
listing information to a user on a television or monitor,
and allows the user to interact with the local guide via
a remote control or other interface to schedule
program recordings. Id. at 33 (citing Ex. 1222, 6:18–
20, 15:3–5, 16:12–16, 16:26–33, Fig. 12; Ex. 1202
¶¶ 121–122). Comcast argues that Young, which Blake
incorporates by reference in its entirety, further
discloses a local guide with interactive features that
users may personalize based on user preferences, such
as themes. Id. (citing Ex. 1222, 2:8–9; Ex. 1223, 10:13–
18, 10:45–47, 11:26–28, 12:46–54, 13:1–5, 13:61–63;
Ex. 1202 ¶ 124).
Comcast argues that Blake teaches “wherein the
local interactive television program guide generates a
display of one or more programs listings for display on
a display device at the user’s home,” as recited in
independent claim 1, because Blake’s local guide
generates
and
displays
television
schedule
information in a grid-like display on the television
screen. Pet. 33–34 (citing Ex. 1222, 1:20–31, 6:5–13,
6:18–19, 15:29–30, 16:12–16, Fig. 12). Comcast further
contends that Blake teaches “wherein the local
interactive television program guide equipment
includes user television equipment located within a
user’s home and includes user television equipment,”
as recited in independent claim 1, because Blake

433a
implements a portion of the local guide on television
equipment in a user’s home, which may include
devices such as set-top boxes, personal computers,
personal computer televisions, and VCRs. Id. at 35
(citing Ex. 1222, 4:24–26, 4:28–32, 5:2–6, Fig. 1).
Comcast argues that Blake’s central processing
system 334 also constitutes part of the claimed “local
interactive television program guide equipment”
because it provides program guide functionality on
equipment in the user’s home, such as the scheduling
of recordings. Id. (citing Ex. 1222, 17:1–5, 18:5–16; Ex.
1202 ¶ 130). Notably, Comcast argues that, when
applying the broadest reasonable interpretation
standard, the claimed “local interactive television
program guide” is not limited to an implementation
solely on equipment within the user’s home and,
therefore, Comcast asserts that Blake’s central
processing system 334 properly constitutes part of the
claimed “local interactive television program guide
equipment.” Id. (citing Ex. 1202 ¶¶ 36, 130).
Comcast argues that Blake teaches “wherein a
mobile device communicates with the local interactive
television program guide equipment,” as recited in
independent claim 1, because Blake’s input device 332
may be a “laptop computer” or “cellular telephone,”
both of which are mobile devices. Pet. 36 (quoting Ex.
1222, 17:5–8) (citing Ex. 1202 ¶ 131). Comcast further
contends that Blake teaches “wherein the mobile
device, on which a remote access interactive television
program guide is implemented, is located outside of
the user's home,” as recited in independent claim 1,
because Blake’s input device 332 allows “a user who is
away from home to record a program remotely by . . .

434a
access[ing] and communicably connect[ing] to central
processing system 334.” Id. at 38 (quoting Ex. 1222,
17:3–5) (citing Ex. 1202 ¶¶ 131–136). Comcast further
argues that the remote user interface on Blake’s input
device 332 constitutes software that allows the user to
view and navigate television program listings, make
program selections, and control recording device 336
to record a selected program. Id. at 36 (citing Ex. 1222,
17:1–15, 18:1–16, 18:18–27; Ex. 1202 ¶¶ 132).
Comcast asserts that, because the remote user
interface on Blake’s input device 332 presents
television program listings and receives selections of
programs for recording, a person of ordinary skill in
the art would have understood that it constitutes the
claimed “remote access interactive television program
guide.” Id. at 38 (citing Ex. 1202 ¶¶ 135, 136).
Comcast contends that Blake teaches “generat[ing]
a display of the remote access interactive television
program guide, the remote access interactive
television program guide comprising a plurality of
television program listings for display on the mobile
device,” as recited in independent claim 1, because,
when applying the broadest reasonable interpretation
standard, a person of ordinary skill in the art would
have understood that the remote user interface on
Blake’s input device 332 constitutes the claimed
“remote access interactive television program guide.”
Pet. 39 (citing Ex. 1222, 18:8–10, 17:22–24; Ex. 1202
¶¶ 140, 141). Comcast also argues that, to the extent
Blake does not disclose explicitly that the remote user
interface on input device 332 displays a “remote access
interactive television program guide,” a person of
ordinary skill in the art would have found it obvious to

435a
display an interactive guide that includes television
program listings on Blake’s input device 332 using
conventional television interactive program guide
features, such as those taught by Blake, Young, or
Killian. Id. at 40–41 (citing Ex. 1202 ¶¶ 86–89, 146–
148).
Comcast also contends that Blake teaches “wherein
the display of the remote access interactive television
program guide is generated based on a user profile
stored at a location remote from the mobile device,” as
recited in independent claim 1, because Blake
discloses that a user may customize television
program information “[b]y utilizing the user interface
. . . [to] sort, mix, and create a special customized lineup of channels within the television schedule guide.”
Pet. 41–42 (quoting Ex. 1222, 16:20–22) (citing Ex.
1202 ¶¶ 153, 154). According to Comcast, Blake
discloses that a user may filter television program
listings by themes, which entails the remote guide
generating a list of television programs matching a
selected theme by taking into account the user’s
individual preferences/selections. Id. at 42 (citing Ex.
1222, 18:5–10; Ex. 1202 ¶¶ 153–157). Comcast further
argues that Blake discloses that the user’s
preferences/selections are stored at central processing
system 334, which is located remotely from input
device 332. Id. (citing Ex. 1222, 18:12–14; Ex. 1202
¶¶ 156, 157).
Alternatively, Comcast contends that, to the extent
Blake does not teach the claimed “user profile,” Killian
teaches this limitation because it discloses software
that generates guide displays based on viewer profiles
84 stored on profile database 80 located either locally

436a
or remotely. Pet. 43 (citing Ex. 1208, 1:20–41, 7:49–61,
9:10–25, 10:61–66, 11:20–21; Ex. 1202 ¶¶ 158–161).
Comcast asserts that it would have been obvious to one
of ordinary skill in the art to implement Killian’s
viewer profiles in Blake’s remote user interface on
input device 332 to better track a user’s preferences
and generate more effective user interfaces that better
identify desired/undesired content. Id. at 44 (citing Ex.
1202 ¶ 161).
Comcast contends that Blake teaches “receiv[ing] a
user selection of the television program for recording
by the local interactive television program guide,
wherein the user selects the television program by
selecting a television program listing from the
plurality of television program listings displayed, by
the remote access interactive television program
guide, on the mobile device,” as recited in independent
claim 1, because Blake discloses that the remote user
interface on input device 332 displays a remote guide
that allows a user to view and navigate television
program listings according to themes, make program
selections, and control recording device 336 to record a
selected program. Pet. 45 (citing Ex. 1222, 14:26–32,
16:12–25, 17:8–18, 18:1–23, Fig. 12; Ex. 1202 ¶¶ 163–
165). Comcast further argues that, once the user
makes a selection (e.g., by selecting a basketball game)
via the remote user interface on Blake’s input device
332, processing system 334 will activate recording
device 336 at the user’s home to record the games. Id.
(citing Ex. 1222, 18:1–10).
Comcast
contends
that
Blake
teaches
“transmit[ting], to the local interactive television
program guide over the Internet communications

437a
path, a communication identifying the television
program for recording corresponding to the television
program listing selected by the user with the remote
access interactive television program guide,” as recited
in independent claim 1, because Blake discloses that,
after central processing system 334 receives a program
recording request from input device 332 over a
network, central processing system 334 activates
recording device 336 (e.g., VCR 32 illustrated in Figure
1) to record the selected program. Pet. 46–47 (citing
Ex. 1222, 17:13–15, 18:12–16; Ex. 1202 ¶¶ 168–171).
Comcast further argues that, consistent with its
proposed construction of the claim term “local
interactive television program guide,” Blake’s central
processing system 334 is part of the local guide
because it implements guide functionality, including
recording commands, in support of the local guide. Id.
at 47 (citing Ex. 1202 ¶¶ 175, 176). Consequently,
Comcast asserts that Blake’s remote guide sending a
recording request to central processing system 334
discloses this “transmitting” limitation because
Blake’s central processing system 334 constitutes part
of the claimed “local interactive television program
guide.” Id. (citing Ex. 1202 ¶¶ 171–174).
Lastly, Comcast contends that Blake teaches
“wherein the local interactive television program guide
receives the communication,” as recited in
independent claim 1, because Blake discloses that the
recording request sent from the remote guide is
received at the home television/guide equipment for
recording on recording device 336. Pet. 49 (citing Ex.
1222, 16:29–33, 17:1–5, 18:12–16). Comcast also
contends that Blake teaches, “responsive to the

438a
communication, record[ing] the television program
corresponding to the selected television program
listing using the local interactive television program
guide equipment,” as recited in independent claim 1,
because Blake discloses that, “[i]f a time slot for the
time currently indicated by the clock indicates that a
program is to be recorded then the channel
broadcasting the program is selected and the VCR is
controlled to record to the program.” Id. at 49–50
(quoting Ex. 1222, 16:31–33) (citing Ex. 1222, 17:18–
19, 18:10–16, 18:23–26; Ex. 1202 ¶ 178).
Turning to the rationale to combine, Comcast
contends that it would have been obvious to one of
ordinary skill in the art to implement Killian’s viewer
profiles in the remote user interface on Blake’s input
device 332 to better track a user’s preferences and
generate more effective user interfaces that better
identify desired/undesired content. Pet. 29 (citing Ex.
1202 ¶ 109), 42 (citing Ex. 1202 ¶ 155). Comcast
argues that combining the teachings of Blake and
Killian in this manner would have been nothing more
than using known techniques (i.e., Killian’s technique
of storing user profile data) to improve a similar device
(i.e., Blake’s theme-filtered program interface display)
in the same way to produce the predictable result of
providing users with better access to desired program
listings. Id. at 29, 42.
In its Patent Owner Response, Rovi presents a
number of arguments that can be grouped as follows:
(1) whether Comcast has demonstrated that Blake and
Killian, either alone or in combination, account for all
the limitations of independent claims 1 and 10; and (2)
whether Comcast has demonstrated that a person of

439a
ordinary skill in the art would have had a sufficient
reason to combine the teachings of Blake and Killian.
See PO Resp. 20–41. We address these groupings of
arguments in turn.
a. Limitations
i. Blake Teaches Two Interactive Television Program
Guides in Communication with Each Other
Rovi contends that each independent claim
requires two interactive television program guides—
namely, “a local interactive television program guide”
and “a remote access interactive television program
guide”—in communication with each other. See PO
Resp. 20–22. Rovi argues that, although Blake’s
television schedule system allows a user to schedule
programs for recording remotely, Blake does not use a
separate “remote access interactive television program
guide” in communication with a “local interactive
television program guide” to schedule these remote
recordings, as required by the claims. Id. at 24 (citing
Ex. 2211 ¶¶ 97–99, 161–164). Instead, Rovi argues
that Blake’s central processing system 334 is
responsible for implementing the transmitting and
receiving functionalities of both (1) the remote user
interface on Blake’s input device 332; and (2) the local
guide on central processing system 334. Id.
Rovi contends that Comcast’s position that Blake’s
central processing system 334 is part of the claimed
“local interactive television program guide” does not
render the claim obvious because central processing
system 334 uses a single guide to present content and
functionality to input device 332 so that the user can
select television recordings remotely. PO Resp. 25

440a
(citing Ex. 1222, 17:10–18, 17:25–30, 18:10–16, 18:18–
29; Ex. 2211 ¶¶ 166–168; Ex. 2204, 8–9; Ex. 2205, 18–
19). That is, Rovi argues that Blake’s central
processing system 334 is the source of the information
and functionality presented to the user on Blake’s
input device 332. Id. at 25–26 (citing Ex. 1222, 17:10–
18, 17:25–30, 18:10–16, 18:18–29; Ex. 2204, 8, 9; Ex.
2211 ¶¶ 169–170). According to Rovi, Comcast’s
declarant, Dr. Tjaden, supports this line of reasoning
because, during his deposition, he stated that Blake’s
input device 332 gets “its program guide functionality
from” central processing system 334. Id. at 26 (quoting
Ex. 2210, 139:15–17) (emphasis omitted) (citing id. at
139:2–140:8). Consequently, Rovi argues that Blake
does not teach two separately identifiable guides
because it is central processing system 334—and not
input device 332 or a separate remote interactive
television program guide—that provides any
purported remote guide functionality. Id. at 26–27
(citing Ex. 2211 ¶¶ 169, 170). Notably, Rovi asserts
that Blake’s central processing system 334 is used the
same way in Blake’s “theme” embodiment. Id. at 27.
Rovi contends that the prosecution history of the
’413 Patent supports its argument that Blake only
teaches a single guide. PO Resp. 28. Rovi argues that,
not only did the applicants explain that Blake does not
teach a remote guide, but they also submitted the
Declaration of Dr. George T. Ligler during prosecution
of a related application that further explains why
Blake only teaches a single guide. Id. (citing Ex. 2204,
8–9; Ex. 2205, 18–19; Ex. 1234 ¶ 40). Rovi argues that
the Examiner subsequently allowed the claims. Id.
(citing Ex. 2206).

441a
Next, Rovi takes issue with the cross-examination
testimony of Dr. Tjaden, particularly his testimony
that Blake’s central processing system 334 is somehow
not part of the claimed “remote access interactive
television program guide.” PO Resp. 29–30 (citing Ex.
2210, 140:2–8). Rovi argues that Dr. Tjaden did not
provide any support for this testimony and, according
to Rovi, it is contrary to his other cross-examination
testimony, arguments presented and developed in the
Petition, and his Declaration accompanying the
Petition. Id. at 30 (citing Ex. 2210, 139:15–17; Pet. 35;
Ex. 1202 ¶¶ 109, 157, 172). For example, Rovi argues
that Dr. Tjaden testifies that Blake’s central
processing system 334 implements guide functionality
for the local guide and, therefore, is part of the local
guide, but when confronted as to whether central
processing system 334 implements guide functionality
for the remote guide, he testifies that it is somehow not
part of the remote guide. Id. (citing Ex. 1202 ¶¶ 157;
Ex. 2210, 139:15–17). Rovi argues that it is illogical
and internally inconsistent for Comcast and Dr.
Tjaden to argue that, when Blake’s central processing
system 334 implements functionality for the local
guide, it is part of the local guide, but when central
processing system 334 implements functionality for
the remote guide, it is somehow not part of the remote
guide. Id. at 31. Rovi then asserts that, because
Blake’s central processing system 334 implements
both the local and remote guide, and because any
testimony from Dr. Tjaden suggesting the contrary is
internally inconsistent, Blake does not render obvious
the requirement that the claimed “remote access
interactive television program guide” be implemented

442a
on “a remote program guide access device.” Id. (citing
Ex. 2211 ¶¶ 174–177).
In its Reply, Comcast contends that Rovi’s
declarant, Dr. Shamos, readily admits that Blake
teaches a separate remote guide that communicates
with the local guide. Pet. Reply 3–4. Comcast argues
that Dr. Shamos testified at the ITC that a selection
made using the remote user interface on Blake’s input
device 332 is communicated to Blake’s local guide. Id.
(citing Pet. 48; Ex. 1246, 1138:5–15). Comcast argues
that, even though Dr. Shamos admits this testimony is
correct in his Declaration accompanying the Patent
Owner Response, he argues that the Board
mischaracterized his testimony in the Decision on
Institution and clarifies that he never testified that
Blake’s input device implements a remote guide. Id. at
4 (citing Ex. 2211 ¶¶ 80–82). Comcast, however,
asserts that the logical conclusion of Dr. Shamos’s
testimony is that, if it were obvious to one of ordinary
skill in the art for the remote user interface on Blake’s
input device 332 to include a separate guide, then it
also would have been obvious to have guide-to-guide
communication. Id.
Notwithstanding Dr. Shamos’s admission at the
ITC, Comcast presents three reasons as to why it
disagrees with Rovi’s argument that the remote user
interface on Blake’s input device 332 is not a separate
guide. Pet. Reply 5. First, Comcast contends that the
remote user interface on Blake’s input device 332
performs all the functions of the claimed “remote
access interactive television program guide” and,
therefore,
satisfies
the
broadest
reasonable
interpretation of an “interactive television program

443a
guide.” Id. at 5–9. Second, Comcast contends that Rovi
ignores certain aspects of the claimed “local/remote
access television program guides” that undermine its
arguments. Id. at 5, 9–13. In particular, Comcast
argues that Blake teaches two guides that interact in
the same way as the claimed “local/remote access
television program guides.” Id. at 5, 12–13 (citing Ex.
1201, 16:20–26; Ex. 1252 ¶ 36). Third, Comcast
contends that, in arguing that Blake teaches a single
guide, Rovi mischaracterizes the supporting testimony
of
Comcast’s
declarant,
Dr.
Tjaden,
and
misunderstands the relevant technology. Id. at 5–6,
14–15.
Based on the record developed during trial, we
agree with Comcast that Blake teaches two separately
identifiable guides in communication with each other.
See Pet. 32–50. Beginning with the claimed “local
interactive television program guide,” Comcast
argues—and we agree—that Blake’s central
processing system 334, together with recording device
336, teach the claimed “local interactive television
program guide equipment on which a local interactive
television program is implemented.” See id. at 23–24,
32–38. Figure 12 of Blake illustrates an example of a
television schedule guide that provides television
schedule information in a grid-like display on a
television screen. Ex. 1222, 16:12–14. Blake describes
the remote recording capabilities of this television
schedule guide with reference to Figure 13. Id. at 17:1–
2. Figure 13 of Blake illustrates that a user who is
away from home employs input device 332 to access
and communicably connect to central processing
system 334. Id. at 17:3–5.

444a
With respect to Blake’s “theme” embodiment, Blake
states that processing system 334 “present[s] a list of
[basketball] games to the user, and the user may select
one or more games to record.” Ex. 1222, 18:10–12.
After the user has made his/her selection, processing
system 334 confirms the user’s selection, stores that
information upon receiving confirmation from the
user, and, at the appropriate time, activates recording
device 336 located at the user’s home to record the
selected game. Id. at 18:12–16. Based on these
disclosures in Blake, we find that Blake’s central
processing system 334, together with recording device
336, implements the claimed “local interactive
television program guide.”
Our finding in this regard is consistent with the
plain language of the independent claims of the ’413
Patent. These claims delineate the functions of the
“local interactive television program guide,” “remote
access interactive television program guide,” and
“local
interactive
television
program
guide
equipment.” In particular, it is the responsibility of the
“local interactive television program guide” to
“receive[ ] the communication and responsive to the
communication record[ ] the television program . . .
using the local interactive television program guide
equipment.” Ex. 1201, 40:43–47; see also id. at 42:6–11
(reciting similar limitations). Similar to the claimed
“local interactive television program guide,” Blake’s
central processing system 334 also receives a
communication identifying a television program to be
recorded and then uses recording device 336 to record
the program. Ex. 1222, 18:12–16.

445a
Our finding that Blake’s central processing system
334 implements, in part, the claimed “local interactive
television program guide” also is consistent with our
construction of “interactive television program guide.”
In our claim construction section above, we determine
that the broadest reasonable interpretation of an
“interactive television program guide” is “control
software operative at least in part to generate a
display of television program listings and allow a user
to navigate through the listings, make selections, and
control functions of the software.” See supra Section
II.A. We clarify that neither the intrinsic or extrinsic
record limits the “guide” to a single software
application. See supra Section II.A. Consequently,
when the software on Blake’s central processing
system 334 works in conjunction with input device 332
to render a television schedule guide that allows a user
to select desired programs for recording according to
themes, we find that it effectively operates as part of
an “interactive television program guide” because it
displays program listings and allows the user to
navigate through the listings, make selections, and
control recording functions.
Comcast’s declarant, Dr. Tjaden, provides
testimony supporting our finding that Blake’s central
processing system 334 implements, in part, the
claimed “local interactive television program guide.”
In his Declaration accompanying the Petition, Dr.
Tjaden testifies that “the local guide may also be
implemented at least in part on a server or other
device outside the user’s home.” Ex. 1202 ¶¶ 36, 130.
Dr. Tjaden further testifies that the “local guide
equipment and local guide could include hardware and

446a
software of a central data server, such as software that
is implemented on central processing system 334 to
activate recording a program on . . . recording device
[336].” Id. ¶ 130. We credit the aforementioned
testimony of Dr. Tjaden because it takes into account
the reasonable inferences one of ordinary skill in the
art would draw to explain how Blake’s central
processing system 334 works in conjunction with input
device 332 to render a television schedule guide that
allows a user to select desired programs for recording
according to themes at recording device 336. See KSR,
550 U.S. at 418 (explaining that an obviousness
evaluation “need not seek out precise teachings
directed to the specific subject matter of the challenged
claim, for a court can take account of the inferences
and creative steps that a person of ordinary skill in the
art would employ”).
Turning to the claimed “remote access interactive
television program guide,” Comcast argues—and we
agree—that the remote user interface on Blake’s input
device 332 teaches the claimed “remote access
interactive television program guide.” See Pet. 25–26,
38–40. With respect to Blake’s “theme” embodiment,
the user enters input in the form of theme data into
input device 332, which may be, among other things, a
personal or laptop computer. Ex. 1222, 17:5–8, 18:1–
12, Claims 1, 7. In this embodiment, the user first
selects to record a program by themes, then selects
sports, then basketball, at which time the user is
presented with a list of basketball games, and the user
selects the game to be recorded. Id. at 18:5–10. Based
on these disclosures in Blake, we conclude that the
remote user interface on Blake’s input device 32

447a
implements the claimed “remote access interactive
television program guide.”
Our finding in this regard is consistent with the
plain language of the independent claims of the ’413
Patent. As we explain previously, these claims
delineate the functions of the “local interactive
television program guide,” “remote access interactive
television program guide,” and “local interactive
television program guide equipment.” In particular, it
is the responsibility of the “remote access interactive
television program guide” to “generate[] a display . . .
comprising a plurality of program listings for display
on the mobile device”; “receive[] a user selection of the
television program for recording”; and “transmit[] . . .
a communication identifying the television program
for recording” to the local interactive television
program guide. Ex. 1201, 40:22–42; see also id. at
41:21–42:11 (reciting similar limitations). Similar to
the claimed “remote access interactive television
program guide,” the remote user interface on Blake’s
input device 332 also generates a display by rendering
a television schedule guide that permits selections
according to themes, receives selections within the
display, and then transmits those selections to central
processing system 334, which, as we explain
previously, partially implements the claimed “local
interactive television program guide.” Ex. 1222, 18:1–
12.
Our finding that the remote user interface on
Blake’s input device 332 implements the claimed
“remote access interactive television program guide”
also is consistent with our construction of “interactive
television program guide.” In our claim construction

448a
section above, we determine that the broadest
reasonable interpretation of an “interactive television
program guide” is “control software operative at least
in part to generate a display of television program
listings and allow a user to navigate through the
listings, make selections, and control functions of the
software.” See supra Section II.A. When the remote
user interface on Blake’s input device 332 generates a
display by rendering a television schedule guide that
allows a user to select desired programs for recording
according to themes, we find that it effectively
operates as an “interactive television program guide”
because it displays program listings and allows the
user to navigate through the listings, make selections,
and control recording functions.
Comcast’s declarant, Dr. Tjaden, provides
testimony supporting our finding that the remote user
interface of Blake’s input device 332 implements the
claimed “remote access interactive television program
guide.” Dr. Tjaden testifies that “[a person of ordinary
skill in the art] . . . would have concluded that Blake’s
input device 332 implements control software for
interactively selecting programs for recording by
themes and transmitting program selections.” Ex.
1252 ¶ 32 (citing Ex. 1222, 17:1–8, 18:1–23). Dr.
Tjaden further testifies that “[t]his control software,
which is implemented on Blake’s remote personal
computer (i.e., [Blake’s] input device 332), is separate
from the local program guide software on Blake’s
central processing system 334 and [recording
equipment 336].” Id. ¶ 33 (citing Ex. 1222, Fig. 13). We
credit the aforementioned testimony of Dr. Tjaden
because it takes into account the reasonable inferences

449a
one of ordinary skill in the art would draw to explain
how the remote user interface of Blake’s input device
332 generates a display by rendering a television
schedule guide that permits selections according to
themes, receives selections within the display, and
then transmits those selections to central processing
system 334. See KSR, 550 U.S. at 418.
Rovi’s declarant from the ITC proceeding, Dr.
Shamos, who is also Rovi’s declarant in this
proceeding, admitted that the user’s selection made at
Blake’s input device 332 is communicated to the local
guide. This testimony provides:
Q Doctor - - okay. My question is when a
program is chosen for recording at input device
332, that’s going to be communicated to central
processing system 334; right?
A That’s correct.
Q And then that selection at - -that would be at
central processing system 334 is going to be
communicated to the VCR 32; right?
A Yes.
Q So that selection is going to be communicated
to the local interactive program guide in figure
1; right?
A Yes, it is.
Ex. 1246, 1138:5–15.
In his Declaration accompanying the Patent Owner
Response, Dr. Shamos acknowledges this testimony at
the ITC and admits “[t]hat testimony was correct, and
I stand by it.” Ex. 2211 ¶ 80. Nevertheless, Dr. Shamos

450a
avers that he did not testify that Blake’s “input device
332 implemented a remote [guide].” Id. ¶ 82.
Although Dr. Shamos asserts that this testimony is
mischaracterized because it does not indicate that
input device 332 implements a remote guide, Dr.
Shamos still stands by his testimony, which
acknowledges that a recording selection made at input
device 332 is communicated to the local guide. Ex.
2211 ¶ 80. Dr. Shamos’s testimony may not expressly
identify that the remote user interface of Blake’s input
device 332 makes and communicates the recording
selection by way of a remote guide, but at the same
time Dr. Shamos does not dispute Dr. Tjaden’s point
that Blake’s input device 332, as a remote personal or
laptop computer, implements control software for
interactively selecting programs for recording by
themes. See Ex. 1202 ¶¶ 101, 144; Ex. 1252 ¶¶ 32, 33.
This control software that is implemented on the
remote personal or laptop computer (i.e., the remote
user interface of Blake’s input device 332) constitutes
the remote guide and is separate from the local guide
to which the communication is being directed. Ex.
1252 ¶¶ 32, 33. Accordingly, the user’s selection
referred to in Dr. Shamos’s testimony reproduced
above is communicated between the remote guide
implemented on the remote user interface of Blake’s
input device 332 (i.e., the control software that is
implemented on the remote personal or laptop
computer) and a local guide implemented, in part, on
Blake’s central processing system 334.
If we were to accept Rovi’s argument that Blake
only teaches a single guide, then it is not clear to us
how the user’s selection, referred to in Dr. Shamos’s

451a
testimony reproduced above, is communicated
between the remote user interface of Blake’s input
device 332 and a local guide implemented, in part, on
Blake’s central processing system 334. In essence, Dr.
Shamos would be testifying that Blake teaches a single
guide that communicates with itself. This is illogical.
Neither Rovi nor Dr. Shamos adequately explain how
or why a single guide would need to communicate a
user’s selection to itself, unless, as Comcast asserts,
Blake teaches two separately identifiable guides in
communication with each other.
We do not agree with Rovi’s argument that Blake
teaches a single guide because input device 332
receives some of its program guide functionality from
central processing system 334. See PO Resp. 25–27.
The specification of the ’413 Patent does not preclude
the remote guide from receiving some of its program
guide functionality from the local guide. Indeed, the
specification discloses that remote and local guides
may be the same guide compiled to run on two
different platforms. Ex. 1201, 15:15–18. The
specification also discloses that the “remote access
interactive television program guide” derives some
functionality from the “local television program guide.”
For instance, with reference to the steps involved in
providing remote access to interactive television
program guide features in accordance with the
principle of the ’413 Patent, the specification discloses
that “the remote access program guide provides the
user with the opportunity to remotely access functions
of the interactive program guide over the remote
access link.” Id. at 23:36–39. These program guide
functions include, among other things, “accessing

452a
program guide information.” Id. at 16:20–26
(emphasis added); see also Ex. 2211 ¶ 17 (Dr. Shamos
testifies that the interactive television program guides
of the ’413 Patent “allow users to access additional
information about television program listings”).
Consequently, the claimed “remote access interactive
television program guide” derives some program guide
functionality from the claimed “local interactive
television program guide,” such as accessing program
guide information that is presented to the user
remotely. Similarly, the remote guide implemented on
the remote user interface on Blake’s input device 332
derives some program guide functionality from the
local guide implemented, in part, on central processing
system 334 by accessing program guide information
that is presented to the user remotely. Ex. 1222, 18:1–
23.
We also do not agree with Rovi’s argument that the
prosecution history of the ’413 Patent supports its
argument that Blake only teaches a single guide. See
PO Resp. 25–26. The applicants prosecuting the ’413
Patent did not have the benefit of (1) our construction
of the claim terms “local/remote access interactive
television program guides,” particularly our
clarification that neither the intrinsic or extrinsic
record limits the “guide” to a single software
application (see supra Section II.A); (2) the testimony
from Dr. Shamos at the ITC that Blake’s input device
332 communicates the user’s selection to the local
guide (Ex. 1246, 1138:5–15); and (3) the supporting
testimony of Comcast’s declarant, Dr. Tjaden, who
consistently takes the position that Blake teaches two
separately identifiable guides in communication with

453a
each other (see Ex. 1202 ¶¶ 36, 130; Ex. 1252 ¶¶ 31,
33). In addition, the Examiner’s position during
prosecution was that Blake disclosed a remote guide,
and the Examiner disagreed with the applicants’
argument that Blake only disclosed a single guide.
Case IPR2017-00952, Ex. 1239, 4–5. 8 Although the
Examiner’s Notice of Allowance generally cites back to
previous arguments made by the applicants
addressing multiple issues (Case IPR2017-00952, Ex.
1234, 18 9; see also Ex. 2204, 7–11 (arguing that Blake
only discloses a single guide)), it is not clear to us
whether the Examiner changed his mind as to the
specific issue of whether Blake disclosed a remote
guide. Instead, the Examiner allowed the application
over several amendments that included, among other
things, that the remote guide generates a display of
program listings “based on a user profile stored at a
location remote from the remote program guide access
device.” Case IPR2017-00952, Ex. 1234, 8–18.
Lastly, we do not agree with Rovi’s arguments that
the supporting testimony of Comcast’s declarant, Dr.
Tjaden, is illogical and internally inconsistent. See PO
Resp. 29–31. Rovi takes issue with Dr. Tjaden’s
testimony that Blake’s central processing system 334
All references to the page numbers of Exhibit 1239 are to the
page numbers inserted by Comcast at the bottom center of each
page (from a related case; filing omitted from this proceeding).
Although not filed as an exhibit in this proceeding, the
prosecution history as to related U.S. Patent No. 8,006,263 B2 is
a public record, and we properly consider it here.
9
All references to the page numbers of Exhibit 1234 are to the
page numbers inserted by Comcast at the bottom center of each
page.
8

454a
provides some program guide functionality to the
remote user interface on input device 332, but that
central processing system 334 itself is not part of the
remote guide. Ex. 1202 ¶¶ 109, 157, 172; Ex. 2210,
139:15–17, 140:2–8. We do not view Dr. Tjaden’s
testimony in this regard as illogical and internally
inconsistent. In his Declaration accompanying the
Reply, Dr. Tjaden testifies that “Blake’s remote input
device 332 would necessarily get its program guide
information from the central processing system 334, .
. . [b]ut it is Blake’s remote input device 332 that
executes the control functionality . . . , and therefore
implements the remote guide under the broadest
reasonable interpretation.” Ex. 1252 ¶ 35. As we
explain above, we credit Dr. Tjaden’s testimony that
“Blake’s input device 332 implements control software
for interactively selecting programs for recording by
themes and transmitting program selections” (id.
¶ 32), which “is separate from the local program guide
software on Blake’s central processing system 334 and
[recording equipment 336]” (id. ¶ 33). In other words,
we agree with Comcast and Dr. Tjaden that, although
Blake’s input device 332 interacts with central
processing system 334, the remote user interface of
input device 332 implements its own separately
identifiable remote guide. Pet. Reply 14. We also agree
with Comcast and Dr. Tjaden that the remote user
interface of Blake’s input device 332 falls within the
broadest reasonable interpretation of the claimed
“remote access interactive television program guide,”
even if it receives program guide information and some
functionality from central processing system 334. Id.
at 15 (citing Ex. 1252 ¶¶ 40–42).

455a
As we explain above, although the remote user
interface on Blake’s input device 332 receives some of
its program guide functionality from central
processing system 334, we agree with Dr. Tjaden that
it is still the remote user interface on Blake’s input
device 332 that implements the remote guide—not
central processing system 334. Indeed, the remote
guide implemented by the remote user interface on
Blake’s input device 332 interacts with the local guide
implemented, in part, on central processing system
334 in the same manner as the claimed “local/remote
access interactive television program guide” interact
with one another because both sets of guides permit
the remote guide to access certain functions of the local
guide, such as accessing program guide information
that is presented to the user remotely. Compare Ex.
1222, 17:1–5, 18:1–16, with Ex. 1201, 16:20–26, 23:36–
39.
ii. Blake’s Remote User Interface on Input Device 332
Includes Interactive Features
Rovi contends that, even assuming that the remote
user interface on Blake’s input device 332 is a separate
guide, and that guide is implemented on input device
332 (and not on central processing system 334),
Comcast does not demonstrate that any purported
interface on Blake’s input device 332 constitutes an
“interactive television program guide,” as claimed. PO
Resp. 31–32. Rovi argues that Blake does not disclose
the appearance or content of the remote user interface
on input device 332, such as whether the content
includes the following: (1) television program listings
with channel and start time information; (2) television
program listings generated based on a user profile;

456a
and (3) the ability of the user to navigate through the
television program listings, or otherwise control
software functions. Id. at 32 (citing Ex. 2211 ¶¶ 71–75,
79).
Rovi contends that Blake is devoid of any disclosure
with respect to Figure 13 as to how the program guide
is displayed on the remote user interface of input
device 332. PO Resp. 33 (citing Ex. 2211 ¶¶ 70–72,
165; Pet. 26–28; Ex. 2210, 145:14–146:3). According to
Rovi, Comcast never asserts that the television
schedule guide illustrated in Blake’s Figure 12, or any
guide that resembles it, is displayed in the remote user
interface of input device 332 illustrated in Figure 13.
Id. With respect to Blake’s “theme” embodiment, Rovi
argues that this embodiment is silent as to how, and
in what form, the television program listing is
provided to the user. Id. at 33–34 (citing Ex. 2211
¶¶ 75, 78, 79, 165, 171, 182). Indeed, Rovi argues that
Blake contemplates, when a user dials in by telephone,
he/she may be presented with “themes” and make a
selection orally. Id. at 34 (citing Ex. 1222, [57]; Ex.
2211 ¶¶ 70, 75; Ex. 2210, 144:19–145:4).
Rovi further contends that there is no disclosure
with respect to Blake’s “theme” embodiment that
suggests presenting the user with a display of
television program guide information, including
things like channel information or television program
start times, as would be required by the claimed
“interactive television program guide.” PO Resp. 34
(citing Ex. 1222, 12:12–23, 18:1–16; Ex. 2211 ¶¶ 78,
79). Rovi further argues that there is also no disclosure
that Blake’s “theme” embodiment is capable of
generating a display based on a user profile, as

457a
opposed to generating a display in response to user
input. Id. (citing Ex. 2211 ¶ 182).
Lastly, Rovi asserts that Blake does not teach using
a “remote access interactive television program guide.”
PO Resp. 35. Rovi argues that, by choosing not to
implement a “remote interactive television program
guide” on the remote user interface of input device 332,
Blake offers the user greater versatility, including
allowing the user to submit requests via telephone or
email. Id. (citing Ex. 1222, [57], 18:28–30; Ex. 2211
¶¶ 75, 82, 165, 179). Rovi further argues that most of
the embodiments disclosed in Blake are silent as to
whether input device 332 has any display at all or, in
many instances, these embodiments clearly indicate
that input device 332 has no such display. Id. As
additional support for this argument, Rovi contends
that an “interactive television program guide” would
be unnecessary for other embodiments disclosed in
Blake, such as those where the user enters a
predetermined program code or the title of a television
program via input device 332. Id. (citing Ex. 2211
¶ 180).
In its Reply, Comcast contends that the testimony
of Dr. Ligler during prosecution of a related
application supports its argument that the remote
user interface on Blake’s input device 332 displays
television program listings. Pet. Reply 4. According to
Comcast, Dr. Ligler recognized that the remote user
interface on Blake’s input device 332 displays a guide
when he testified that Blake “disclose[s] display of
program listings on input device 332 (when selecting a
program according to themes).” Id. at 4–5 (quoting Ex.
1234 ¶ 35).

458a
Notwithstanding Dr. Ligler’s admission during
prosecution of a related application, Comcast provides
a number of reasons as to why it disagrees with Rovi’s
argument that Blake is silent as to the appearance and
content of the remote guide implemented on the
remote user interface of Blake’s input device 332. Pet.
Reply 15. Comcast argues that, beyond displaying a
program listing, which is taught by Blake, the claims
do not require the appearance or content of the claimed
“remote access interactive television program guide.”
Id. at 15–16. According to Comcast, after a basketball
theme is selected, the remote guide may include a list
of basketball games that may be displayed in time
order. Id. at 16 (citing Ex. 1222, 12:12–15, 13:3–5,
18:1–16). Comcast acknowledges that, although Blake
does not disclose what the remote guide “looks like,” a
person of ordinary skill in the art still would have
understood from Blake’s disclosure what content
needs to appear and how that content may appear
(e.g., how to sort the content). Id. (citing Ex. 1252
¶¶ 25, 26). Comcast then reiterates that Blake clearly
teaches using the remote user interface of input device
332 to navigate through program listings using theme
selections. Id. at 16–17 (citing Pet. 38–40; Ex. 1202
¶¶ 141–145; Ex. 1252 ¶¶ 25, 32, 39).
Based on the record developed during trial, we
agree with Comcast that the remote user interface on
Blake’s input device 332 generates a display by
rendering an interactive television schedule guide (i.e.,
a guide that is navigable, selectable, and capable of
controlling certain functions or settings), similar to the
one illustrated in Figure 12. See Pet. 38–49. As we
explain previously, Figure 12 of Blake illustrates an

459a
example of a television schedule guide that provides
television schedule information in a grid-like display
on a television screen. Ex. 1222, 16:12–14. Blake
describes the remote recording capabilities of this
television schedule guide with reference to Figure 13.
Id. at 17:1–5. With respect to Blake’s “theme”
embodiment, the user enters input in the form of
theme data into input device 332, which may be,
among other things, a personal or laptop computer. Id.
at 17:5–8, 18:1–12, Claims 1, 7. In this embodiment,
the user first selects to record a program by themes,
then selects sports, then basketball, at which time the
user is presented with a list of basketball games, and
the user selects the game to be recorded. Id. at 18:5–
10. Based on these disclosures in Blake, we find that
the remote user interface of input device 332 generates
a display by rendering a television schedule guide that
allows a user to select desired programs for recording
according to themes.
Comcast’s declarant, Dr. Tjaden, provides
testimony supporting our finding in this regard. In his
Declaration accompanying the Petition, Dr. Tjaden
testifies that Blake’s input device 332 includes control
software that “allows a user to navigate through the
program themes/listings, make theme/program
selections, and control functions of the software (e.g.,
scheduling a recording on . . . local recording device
[336]).” Ex. 1202 ¶ 144 (citing Ex. 1222, 17:16–24,
18:1–16). In his Declaration accompanying the Reply,
Dr. Tjaden clarifies that “[a person of ordinary skill in
the art] would have recognized this user interface as a
menu-based guide that allows a user to navigate
through a menu structure to access the sorted program

460a
listings.” Ex. 1252 ¶ 25 (citing Ex. 1222, 13:1–5, 18:5–
10). We credit Dr. Tjaden’s aforementioned testimony
because it is consistent with the disclosures in Blake
identified above.
Dr.
Ligler’s
testimony
submitted
during
prosecution of a related application also supports our
finding that the remote user interface of Blake’s input
device 332 generates a display by rendering a
television schedule guide that allows a user to select
desired programs for recording according to themes.
See Pet. Reply 4. With reference to the embodiments
on page 18 of Blake, which includes the “theme”
embodiment, Dr. Ligler testifies that Blake “disclose[s]
display of program listings on input device 332 (when
selecting a program according to themes).” Ex. 1234
¶ 35. This testimony from Dr. Ligler undermines
Rovi’s argument that Blake’s “theme” embodiment
does not present the user with a display of television
program guide information, as required by our
construction of an “interactive television program
guide.” See Pet. 31–32.
We recognize that, when testifying that Blake’s
input device 332 displays program listings according
to themes, Dr. Ligler immediately follows this
testimony by averring that the embodiments on page
18 of Blake “do not disclose the claimed ‘two guide’
approach.” Ex. 1234 ¶ 35. We, however, accord Dr.
Ligler’s testimony in this regard little, if any, weight
because he did not have the benefit of (1) our
construction of the claim terms “local/remote access
interactive television program guides,” particularly
our clarification that neither the intrinsic or extrinsic
record limits the “guide” to a single software

461a
application (see supra Section II.A); (2) the testimony
from Dr. Shamos at the ITC that Blake’s input device
332 communicates the user’s selection to the local
guide (Ex. 1246, 1138:5–15); and (3) the supporting
testimony of Comcast’s declarant, Dr. Tjaden, who
consistently takes the position that Blake teaches two
separately identifiable guides in communication with
each other (see Ex. 1202 ¶ 130; Ex. 1252 ¶¶ 31, 33). In
addition, there is not a clear indication on this record
as to whether the Examiner found this specific
testimony by Dr. Ligler to be persuasive.
We do not agree with Rovi’s arguments that Blake
does not disclose the appearance or content of the
remote user interface on input device 332 and,
therefore, cannot teach the claimed “remote access
interactive television program guide.” See PO Resp.
31–36. This argument is not commensurate in scope
with independent claims 1 and 10 because these
claims do not require the claimed “remote access
interactive television program guide” to have a specific
appearance or to include certain content. See In re Self,
671 F.2d 1344, 1348 (CCPA 1982) (explaining that
limitations not appearing in the claims cannot be
relied upon for patentability). Instead, as Comcast
correctly notes in its Reply (see Pet. Reply 15–16),
these claims only require that the system “generates a
display of the remote access interactive television
program guide, the remote access interactive
television program guide comprising a plurality of
television program listings for display on the mobile
device” (Ex. 1201, 40:22–25, 41:21–24), without
specifying the appearance of such display or the
inclusion of certain content. Consequently, Rovi’s

462a
attempt to patentably distinguish independent claims
1 and 10 from Blake’s television schedule system based
on features not required by these claims is misplaced.
To the extent Rovi argues that the remote user
interface of Blake’s input device 332 does not display a
television schedule guide generated based on a user
profile, these arguments either ignore or fail to
appreciate Comcast’s reliance on the teachings of
Killian. See PO Resp. 32, 35. As we explain previously,
Comcast presents arguments that either Blake or
Killian teaches a “user profile,” as recited in
independent claims 1 and 10. See Pet. 27–28, 41–44.
Killian, however, more clearly teaches a “user profile”
because it explicitly discloses user profile data. In
particular, Killian discloses software that generates
program guide displays based on viewer profiles 84
stored on profile database 80 located either locally or
remotely. Ex. 1208, 9:10–25, 10:61–66. Comcast also
provides sufficient reasoning as to why one of ordinary
skill in the art would have been prompted to modify
Blake’s television schedule system to include Killian’s
viewer profiles, which we discuss below in more detail.
See infra Section II.B.5.b.
iii. Remaining Limitations
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Blake and Killian account for the remaining
limitations of independent claims 1 and 10. See
generally PO Resp. 20–36. We have reviewed
Comcast’s explanations and supporting evidence as to
how this proffered combination teaches these

463a
remaining limitations, and we agree with and adopt
Comcast’s analysis. See Pet. 11–12, 21–59.
b. Comcast Presents a Sufficient Rationale to
Combine the Teachings of Blake and Killian
Rovi contends that Comcast fails to explain how or
why one of ordinary skill in the art would have been
prompted to modify Blake’s television schedule system
to include Killian’s viewer profiles. PO Resp. 37.
According to Rovi, Comcast relies on conclusory
statements that are insufficient to support a
conclusion of obviousness. Id. (citing Ex. 2211 ¶¶ 184,
185).
Rovi contends that a person of ordinary skill in the
art would not have combined the teachings of Blake
and Killian because these references have
fundamentally different teachings and purposes. PO
Resp. 38. Rovi argues that Blake is directed to
scheduling a recording from a remote location using a
variety of remote input devices, whereas Killian is
directed to offering a viewer an optimized local
television program guide with local viewer profiles. Id.
Rovi further argues that Blake’s “theme” embodiment
allows a user to narrow programs by categories of
interest. Id. According to Rovi, Comcast offers no
motivation as to why Killian’s viewer profiles, which
offer an alternative to identify and narrow desired
content, would be needed in Blake’s television
schedule system. Id. (citing Ex. 2211 ¶ 186).
Moreover, Rovi contends that Comcast fails to
address how a person of ordinary skill in the art would
have provided Killian’s viewer profiles to Blake’s input
device 332. PO Resp. 38 (citing Ex. 2211 ¶ 186). Rovi

464a
argues that reconfiguring Blake’s television schedule
system to incorporate Killian’s viewer profiles would
unnecessarily complicate Blake’s system because
Blake offers simple remote user interfaces, whereas
Killian stores viewer profiles accessed by a “suggest
module” on a JAVA-based platform coupled to profile
database 80 and “provide[s] more sophisticated
collective displays than were possible using prior
systems.” Id. at 38–39 (quoting Ex. 1208, 2:1–11, 5:34–
38) (citing Ex. 2211 ¶¶ 89, 184–188).
Next, Rovi contends, that even if it were to assume
that Comcast clearly explains how a person of ordinary
skill in the art would have implemented Killian’s
viewer profiles in Blake’s television schedule system,
Comcast fails to explain the necessary motivation for
doing so. PO Resp. 39 (citing Ex. 2211 ¶¶ 188–190).
Rovi argues that Comcast fails to identify the problem
in Blake a person of ordinary skill in the art would
have been motivated to solve by implementing
Killian’s viewer profiles. Id. (citing Ex. 2211 ¶ 190).
According to Rovi, Killian’s viewer profiles would serve
no purpose in most of Blake’s embodiments, such as
those where the user enters a predetermined program
code or calls via telephone to schedule the recording.
Id. (citing Ex. 2211 ¶ 188). Rovi argues that Comcast’s
rationale to combine the teachings of Blake and Killian
depends entirely upon a person of ordinary skill in the
art being motivated to modify only a subset of Blake’s
user input devices (i.e., those devices capable of
rendering a display) for only one of four separately
disclosed embodiments (i.e., Blake’s “theme”
embodiment). Id. Consequently, Rovi asserts that
Comcast’s rationale to combine the teachings of Blake

465a
and Killian is based on conjecture and, therefore, does
not amount to a sufficient motivation to combine. Id.
at 39–40.
In its Reply, Comcast maintains that a person of
ordinary skill in the art would have recognized that
Killian’s viewer profiles would work in Blake’s
television schedule system. Pet. Reply 22–23 (citing
Pet. 28–30, 43–44; Ex. 1202 ¶¶ 158–162). Comcast
argues that, although Blake’s remote and local guides
differ in function, they are similar to the extent that
both display and allow user selection of program
listings. Id. at 23 (citing Ex. 1252 ¶¶ 48–52). Comcast,
therefore, argues that it would have been obvious to
one of ordinary skill in the art to apply Blake’s
teachings with respect to the local guide to its remote
guide. Id. Next, Comcast argues that Blake teaches
that its guides present a customized line-up of
channels. Id. (citing Ex. 1222, 16:20–22; Ex. 1202
¶¶ 154, 155). Similarly, Comcast argues that Killian’s
viewer profiles are used to generate tailored displays
of program listings. Id. (citing Pet. 28–30, 43–44; Ex.
1202 ¶¶ 158–162). Given these similarities, Comcast
asserts that a person of ordinary skill in the art would
have found it obvious to use Killian’s viewer profiles to
improve Blake’s local and remote guides. Id. (citing Ex.
1252 ¶¶ 61–64).
Comcast further contends that Killian’s viewer
profiles are complementary to and compatible with
Blake’s theme selections. Pet. Reply 23. According to
Comcast, Killian’s viewer profiles beneficially “track a
user’s preference” to “generate more effective user
interfaces.” Id. at 24 (citing Pet. 29–30). Comcast then
asserts that a person of ordinary skill in the art would

466a
have viewed Blake’s theme selections and Killian’s
profile- specific listings as complementary techniques,
both of which are capable of being employed in Blake’s
remote guide. Id. (citing Ex. 1252 ¶ 64). Comcast
further argues that, because Blake’s remote guide
already offered multiple ways to select programs, some
of which may have been preferred over others, it would
have been obvious to one of ordinary skill in the art to
improve Blake’s local and remote guides with Killian’s
viewer profiles. Id. (citing Ex. 1252 ¶¶ 62–64).
Comcast also disagrees with Rovi’s argument that
integrating Killian’s viewer profiles into Blake’s
television schedule system would unnecessarily
complicate Blake’s system. Pet. Reply 23. Comcast
argues that, in the scenario where Blake’s input device
332 is a laptop computer, it would be well-equipped to
implement sophisticated user interfaces, such as those
taught by Killian. Id. (citing Ex. 1252 ¶ 65).
The Supreme Court has held that an obviousness
evaluation “cannot be confined by a formalistic
conception of the words teaching, suggestion, and
motivation, or by overemphasis on the importance of
published articles and the explicit content of issued
patents.” KSR, 550 U.S. at 419. Instead, the relevant
inquiry is whether Comcast has set forth “some
articulated
reasoning
with
some
rational
underpinning to support the legal conclusion of
obviousness.” In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006), cited with approval in KSR, 550 U.S. at 418.
When describing examples of what may constitute a
sufficient rationale to combine, the Supreme Court
elaborated that, “if a technique has been used to
improve one device, and a person of ordinary skill in

467a
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR, 550 U.S. at 417.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to implement
Killian’s viewer profiles in Blake’s television schedule
system. When, as here, a technique has been used to
improve one device (i.e., Killian’s technique of
generating program guide displays based on viewer
profiles), and one of ordinary skill in the art would
have recognized that it would improve similar devices
in the same way (i.e., applying Killian’s technique to
Blake’s television schedule system, thereby allowing
the remote user interface on Blake’s input device 332
to generate a display by rendering television program
listings based on user preferences), using the
technique is obvious unless its actual application is
beyond the skill level of an ordinary skilled artisan.
See Pet. 28–30, 44; Ex. 1202 ¶¶ 109, 159–161. The
record includes credible evidence explaining why
applying Killian’s technique to Blake’s television
schedule system would not have been uniquely
challenging or otherwise beyond the skill level of an
ordinary skilled artisan. Comcast’s declarant, Dr.
Tjaden, provides the necessary motivation for doing
so—namely, “to better track a user’s preferences and
generate more effective user interface[s]” in order to
“better [identify] . . . desired/undesired content.” Ex.
1202 ¶¶ 109, 161.
We do not agree with Rovi’s arguments that Blake
and Killian have fundamentally different teachings

468a
and purposes. See PO Resp. 38–39. As an initial
matter, Blake generally relates to a television
schedule system with enhanced recording capability.
Ex. 1222, 1:17–19. In particular, Blake discloses that
a user may select a program for automatic, unattended
recording by highlighting and selecting the desired
program in a television schedule guide, such as the one
illustrated in Figure 12. Id. at 16:12–14, 16:17–19,
16:22–25. Similarly, Killian generally relates to an
electronic programming guide that operates on a
computing platform using information from the
Internet for display on a television. Ex. 1208, 2:1–3,
3:18–23; see also Ex. 1202 ¶ 108 (Dr. Tjaden testifies
that “[t]he general area of technology of Killian is also
the same as Blake; namely, that of interactive
electronic program guides . . . , and remote or local
access to and use of [interactive electronic program
guides] to control end-user video equipment.” (citing
Ex. 1208, [54], 1:7–9)). Consequently, we find that
Blake and Killian fall in the same field of endeavor.
Dr. Tjaden’s testimony supports our finding that
Blake and Killian are not fundamentally different and
incompatible. In his Declaration accompanying the
Petition, Dr. Tjaden testifies that the remote user
interface on Blake’s input device 332 “allows the user
to filter program listings according to themes, tracks
the user’s selections, and stores that information at
[central] processing system 334.” Ex. 1202 ¶ 109
(citing Ex. 1222, 18:1–10, 18:12–14). Dr. Tjaden then
testifies that Killian teaches customizing program
guides “based on user profile information stored locally
or remotely.” Id. (citing Ex. 1208, 9:10–25, 11:20–21).
Because the systems of Blake and Killian both store

469a
information specific to each user, Dr. Tjaden testifies
that “[a person of ordinary skill in the art] would have
recognized that Killian’s [viewer profiles] could be
used to store information about user preferences in
Blake[’s television schedule system]. This would be
done for the purpose of customizing the remote access
guide (i.e., the ‘remote theme guide’), providing the
advantages discussed in Killian.” Id. (emphasis
omitted). In his Declaration accompanying the Reply,
Dr. Tjaden clarifies that “a [person of ordinary skill in
the art] would not have had to replace or discard
Blake’s theme selections to implement [Killian’s]
profile-based selections. The addition of Killian’s
profile-based selections would be a usability gain
without any tradeoffs for the user.” Ex. 1252 ¶ 63
(citing Ex. 1202 ¶ 161).
We also do not agree with Rovi’s argument that
integrating Killian’s viewer profiles into Blake’s
television schedule system would unnecessarily
complicate Blake’s system. See PO Resp. 38–39. This
argument is predicated on the notion Comcast’s
proposed combination of Blake and Killian somehow
includes the bodily incorporation of Killian’s “suggest
module” on a JAVA-based platform. See id. Killian’s
“suggest module” on a JAVA-based platform, however,
is not relevant to Comcast’s ground based on the
combined teachings of Blake and Killian—only
Killian’s technique of generating program guide
displays based on viewer profiles. See In re Nievelt, 482
F.2d 965, 968 (CCPA 1973) (“Combining the teachings
of references does not involve an ability to combine
their specific structures.”). Stated differently, Comcast
does not advocate combining Killian’s “suggest

470a
module” on a JAVA-based platform with Blake’s
television schedule system. Instead, Comcast argues
that applying Killian’s technique of generating
program guide displays based on viewer profiles to
Blake’s television schedule system would allow the
remote user interface on Blake’s input device 332 to
generate a display by rendering television program
listings based on user preferences. For the reasons we
identify above, the evidence of record supports
Comcast’s explanation in this regard. See Pet. 28–30,
44; Ex. 1202 ¶¶ 109, 159–161.
In any event, even if we were to assume that
Comcast’s proposed combination of Blake and Killian
somehow includes the bodily incorporation of Killian’s
“suggest module” on a JAVA-based platform, which, as
we explain above, it does not, Comcast presents
supporting testimony from Dr. Tjaden that indicates
Blake’s input device 332 would be capable of
implementing a JAVA-based user interface. In his
Declaration accompanying the Reply, Dr. Tjaden
testifies that, because Blake discloses a scenario where
input device 332 is a laptop computer, “[the laptop
computer] would have had no problem implementing
Killian’s JAVA-based user interfaces if desired.” Ex.
1252 ¶ 65 (citing Ex. 1222, 17:5–8). We credit this
testimony from Dr. Tjaden because there is no
evidence of record to suggest that, in the scenario
where Blake’s input device 332 is a laptop computer
(Ex. 1222, 17:5–8), the laptop computer is anything
other than a general purpose computer capable of
implementing a variety of software platforms,
including one based on JAVA.

471a
In addition, we do not agree with Rovi’s arguments
that Comcast must identify a problem in Blake that a
person of ordinary skill in the art would have been
motivated to solve in order to implement Killian’s
viewer profiles in Blake’s television schedule system.
See PO Resp. 39. If we were to accept this line of
argument, it would run contrary to the principles of
law articulated in KSR. In KSR, the Supreme Court
emphasized “an expansive and flexible approach” to an
obviousness evaluation. 550 U.S. at 415; see also Jazz
Pharm., Inc. v. Amneal Pharm., LLC, 895 F.3d 1347,
1363 (Fed. Cir. 2018) (“KSR did not impose a rigid
requirement to identify . . . a problem to be solved in
the art”). The Court stated that, “[o]ften, it will be
necessary for a court to look to interrelated teachings
of multiple patents,” amongst other things, “to
determine whether there was apparent reason to
combine the known elements in the fashion claimed by
the patent at issue.” KSR, 550 U.S. at 418. Moreover,
the Court explained that, “[u]nder the correct analysis,
any need or problem known in the field of endeavor at
the time of invention and addressed by the patent can
provide a reason for combining the elements in the
manner claimed.” Id. at 420.
Comcast’s analysis is in line with these principles
of law. Relying on the supporting testimony of Dr.
Tjaden as evidence of the background knowledge of
one ordinary skill in the art, Comcast looked to the
interrelated teachings of Blake and Killian—
specifically, their overlapping teachings with respect
to television program guides and storing information
specific to each user—to ascertain whether there was
a sufficient reason to combine certain aspects of those

472a
elements to arrive at the claimed invention. See Pet.
28–30, 44; Ex. 1202 ¶¶ 109, 159–161. Comcast further
explained that using Killian’s user profile data in
Blake’s television schedule system would have allowed
the system to better track a user’s preferences,
generate more effective user interfaces, and better
identify desired and undesired content. Pet. 29, 44.
Rovi does not direct us to, nor are we aware of, any
persuasive authority that requires a party to
demonstrate obviousness by specifically identifying a
problem in a first prior art reference that a person of
ordinary skill in the art would have been motivated to
solve in order to implement the interrelated teachings
of a second prior art reference.
Lastly, we do not agree with Rovi’s argument that
Comcast’s rationale to combine the teachings of Blake
and Killian is based on conjecture and, therefore, does
not amount to sufficient motivation to combine. See PO
Resp. 39–40. As we explained above, both Comcast and
Dr. Tjaden provide sufficient reasoning as to why it
would have been obvious to one of ordinary skill in the
art to combine the teachings of Blake and Killian. See
Pet. 28–30, 44; Ex. 1202 ¶¶ 109, 159–161. This
reasoning is not based on conjecture because it is
directed specifically to the subject matter at issue in
independent claims 1 and 10, and there is a sufficient
basis in the record to support such reasoning. As a
result, instead of presenting reasoning that is based on
conjecture, as asserted by Rovi, Comcast has
articulated sufficient reasoning with rational
underpinnings
to
support
a
conclusion
of
obviousness—namely, use of a known technique (i.e.,
Killian’s technique of generating program guide

473a
displays based on viewer profiles) to improve similar
devices (i.e., Blake’s television schedule system) in the
same way (i.e., by allowing the remote user interface
on Blake’s input device 332 to generate a display by
rendering television program listings based on user
preferences).
c. Summary
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter
of independent claims 1 and 10 would have been
obvious over the combined teachings of Blake and
Killian.
6. Claims 3–9 and 12–18
In its Patent Owner Response, Rovi does not
address separately whether the combined teachings of
Blake and Killian account for the limitations of
dependent claims 3–9 and 12–18. See generally PO
Resp. 20–41. We have reviewed Comcast’s
explanations and supporting evidence as to how this
proffered combination teaches these limitations, as
well as its explanations as to how one ordinary skill in
the art would have combined the relevant teachings of
Blake with those of Killian, and we agree with and
adopt Comcast’s analysis. See Pet. 50–59. Comcast,
therefore, has demonstrated by a preponderance of the
evidence that the subject matter of dependent claims
3–9 and 12–18 would have been obvious over the
combined teachings of Blake and Killian.

474a
C. Obviousness Over the Combined Teachings of
Blake, Killian, and Lawler
Comcast contends that claims 2 and 11 of the ’413
Patent are unpatentable under § 103(a) over the
combined teachings of Blake, Killian, and Lawler. Pet.
59–61. Comcast explains how this proffered
combination teaches or suggests the subject matter of
each challenged claim, and provides reasoning as to
why one of ordinary skill in the art would have been
prompted to modify or combine the references’
respective teachings. Id. Comcast also relies upon the
Declaration of Dr. Tjaden to support its positions. Ex.
1202 ¶¶ 216–222. In its Patent Owner Response, Rovi
contends that Comcast does not present sufficient
reasoning as to why one of ordinary skill in the art
would combine the teachings of Lawler with those of
Blake and Killian. PO Resp. 41.
We begin our analysis with a brief overview of
Lawler, and then we address the parties’ contentions
with respect to the claims at issue in this asserted
ground.
1. Lawler Overview
Lawler generally relates to a system for recording
a program on an interactive viewing system and, in
particular, to a system that allows a user to identify a
program for recording using an interactive program
guide and then designate the identified program for
automated recording at some later time. Ex. 1209, 1:8–
13. According to one aspect of the invention disclosed
in Lawler, the recording device is associated with a
head end. Id. at 2:24–25. At the direction of the head
end, the recording device records the selected program

475a
and digitally stores it in a memory at the head end. Id.
at 2:25–27. The recorded program may then be
retrieved from the head end by the user for display at
a viewer station. Id. at 2:27–29. Lawler discloses that
this process would allow multiple users to access a
single recording of the program, as well as make the
program available to other users who did not set the
recording, but nonetheless wish to view the program
at some later time. Id. at 13:34–38.
2. Claims 2 and 11
Dependent claim 2 recites “wherein the local
interactive television program guide records the
television program corresponding to the selected
television program listing at a television distribution
facility.” Ex. 1201, 40:48–51. Dependent claim 11
recites a similar limitation. Id. at 42:12–15.
In its Petition, Comcast contends that Lawler
teaches recording programs at a central head end (i.e.,
a television distribution facility) in lieu of recording
programs locally. Pet. 60 (citing Ex. 1209, 2:24–29,
13:26–38; Ex. 1202 ¶¶ 217, 218). Comcast then argues
that, as a substitute for recording programs locally, it
would have been obvious to modify the Blake and
Killian combination to include recording programs at
a television distribution facility, as taught by Lawler,
because there are certain advantages to recording
programs at the television distribution facility, such as
making recorded programs available for other
subscribers and eliminating the need for a separate
recorder. Id. (citing Ex. 1209, 2:24–29, 10:56–59,
13:26–38; Ex. 1202 ¶¶ 218, 219). According to
Comcast, this proffered combination would be nothing

476a
more than using a known technique (i.e., Lawler’s
centralized recording at a television distribution
facility) to improve a similar system (i.e., the combined
Blake and Killian television schedule system), and
would produce a predictable result that provides the
stated benefits of Lawler. Id. at 60–61 (citing Ex. 1209,
13:33–38; Ex. 1202 ¶ 219).
In its Patent Owner Response, Rovi contends that
Comcast’s explanations for combining the teachings of
Blake, Killian, and Lawler are conclusory and,
therefore, fail to provide a sufficient reason for making
the proffered combination. PO Resp. 41. According to
Rovi, Comcast fails to explain how or why one of
ordinary skill in the art would have incorporated
Lawler’s technique for recording programs at a
television distribution facility into the combined
television schedule system of Blake and Killian. Id. In
particular, Rovi argues that Comcast does not explain
how a person of ordinary skill in the art would have
moved the recorder to Lawler’s television distribution
facility, while still retaining the operability of the
combined television schedule system of Blake and
Killian, including the ability for the user to control
operation of Blake’s recording device 336 local to the
user’s system. Id.
In its Reply, Comcast counters that Lawler’s
centralized recording still would allow the user to view
recorded content at his/her home using Blake’s
television schedule system. Pet. Reply 25. Comcast
argues that integrating this teaching in Lawler into
the combined television schedule system of Blake and
Killian would provide the added advantage of allowing
the physical storage of content to occur at Lawler’s

477a
television distribution facility, which was, and
remains, a well-known method for increasing storage
efficiency. Id. (citing Ex. 1252 ¶ 66).
As an initial matter, Rovi does not address
separately Comcast’s explanations and supporting
evidence as to how the combined teachings of Blake,
Killian, and Lawler account for the limitations of
dependent claims 2 and 11. See generally PO. Resp. 41.
We have reviewed Comcast’s explanations and
supporting evidence as to how this proffered
combination teaches these limitations, and we agree
with and adopt Comcast’s analysis. See Pet. 59–61.
Based on the record developed during trial, we
agree with Comcast that one of ordinary skill in the
art would have had a sufficient reason to modify the
combined television schedule system of Blake and
Killian to include recording programs at a television
distribution facility, as taught by Lawler. When, as
here, a technique has been used to improve one device
(i.e., Lawler’s centralized recording at a television
distribution facility), and one of ordinary skill in the
art would have recognized that it would improve
similar devices in the same way (i.e., applying Lawler’s
technique to the combined television schedule system
of Blake and Killian to make recorded programs
available for other subscribers and to eliminate the
need for a separate recorder), using the technique is
obvious unless its actual application is beyond the skill
level of an ordinary skilled artisan. See Pet. 59–61; Ex.
1202 ¶¶ 216–219. The record includes credible
evidence explaining why applying Lawler’s technique
to the combined television schedule system of Blake
and Killian to make recorded programs available to

478a
multiple subscribers at a television distribution
facility would not have been uniquely challenging or
otherwise beyond the skill level of an ordinary skilled
artisan. Indeed, Lawler itself provides the necessary
motivation for doing so—namely, “[to] allow multiple
users to access a single recording of the program.” Ex.
1209, 13:33–35.
We do not agree with Rovi’s argument that
Comcast does not explain how a person of ordinary
skill in the art would have moved the recorder to
Lawler’s television distribution facility, while still
retaining the operability of the combined television
schedule system of Blake and Killian See PO Resp. 41.
As Comcast explains in the Petition, modifying the
Blake and Killian combination to include recording
programs at a television distribution facility, as taught
by Lawler, serves as a substitute for the user’s ability
to record programs locally on Blake’s recording device
336. See Pet. 60. For instance, instead of using Blake’s
recording device 336 to record programs, which still
remains a viable option, a user would communicate
with Lawler’s television distribution facility to record
programs via Blake’s central processing system 334.
Dr. Tjaden testifies—and we agree—that recording
programs at Lawler’s television distribution facility, in
lieu of recording programs locally on Blake’s recording
device 336, would increase storage efficiency by
making these recordings available to other users and
it would eliminate the need for each user to maintain
a separate recorder. See Ex. 1202 ¶ 2019; Ex. 1252
¶ 66.
In summary, Comcast has demonstrated by a
preponderance of the evidence that the subject matter

479a
of dependent claims 2 and 11 would have been obvious
over the combined teachings of Blake, Killian, and
Lawler.
III. CONCLUSIONS
Comcast has demonstrated by a preponderance of
the evidence that (1) claims 1, 3–10, and 12–18 are
unpatentable under § 103(a) over the combined
teachings of Blake and Killian; and (2) claims 2 and 11
are unpatentable under § 103(a) over the combined
teachings of Blake, Killian, and Lawler.
IV. ORDER
In consideration of the foregoing, it is
ORDERED that claims 1–18 of the ’413 Patent are
held to be unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to this proceeding seeking
judicial review of our decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

